<html>
<title> - NATIONAL MARINE FISHERIES SERVICE'S IMPLEMENTATION OF THE ENDANGERED SPECIES ACT</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
 NATIONAL MARINE FISHERIES SERVICE'S IMPLEMENTATION OF THE ENDANGERED 
                              SPECIES ACT

=======================================================================

                             FIELD HEARINGS

                               before the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                               __________

  SEPTEMBER 2, 1998, PASCO, WASHINGTON, AND SEPTEMBER 3, 1998, BOISE, 
                                 IDAHO

                               __________

                           Serial No. 105-111

                               __________

           Printed for the use of the Committee on Resources


                               <snowflake>


 Available via the World Wide Web: http://www.access.gpo.gov/congress/house
                                   or
           Committee address: http://www.house.gov/resources




                      U.S. GOVERNMENT PRINTING OFFICE
 51-600                      WASHINGTON : 1998
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                EDWARD J. MARKEY, Massachusetts
JIM SAXTON, New Jersey               NICK J. RAHALL II, West Virginia
ELTON GALLEGLY, California           BRUCE F. VENTO, Minnesota
JOHN J. DUNCAN, Jr., Tennessee       DALE E. KILDEE, Michigan
JOEL HEFLEY, Colorado                PETER A. DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        ENI F.H. FALEOMAVAEGA, American 
WAYNE T. GILCHREST, Maryland             Samoa
KEN CALVERT, California              NEIL ABERCROMBIE, Hawaii
RICHARD W. POMBO, California         SOLOMON P. ORTIZ, Texas
BARBARA CUBIN, Wyoming               OWEN B. PICKETT, Virginia
HELEN CHENOWETH, Idaho               FRANK PALLONE, Jr., New Jersey
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
WILLIAM M. (MAC) THORNBERRY, Texas   ROBERT A. UNDERWOOD, Guam
JOHN SHADEGG, Arizona                SAM FARR, California
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              ADAM SMITH, Washington
CHRIS CANNON, Utah                   WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA CHRISTIAN-GREEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  LLOYD DOGGETT, Texas
MICHAEL D. CRAPO, Idaho

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director



                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held in Pasco, Washington, September 2, 1998.............     1

Statement of Members:
    Chenoweth, Hon. Helen, a Representative in Congress from the 
      State of Idaho.............................................     8
    Hastings, Hon. Doc, a Representative in Congress from the 
      State of Washington........................................     4
    Nethercutt, Hon. George, a Representative in Congress from 
      the State of Washington....................................     7
    Romero-Barcelo, Hon. Carlos A., a Delegate in Congress from 
      the Commonwealth of Puerto Rico............................     2
    Smith, Hon. Linda, a Representative in Congress from the 
      State of Washington........................................     6
    Smith, Hon. Robert F. (Bob), a Representative in Congress 
      from the State of Oregon, prepared statement of............    75

Statement of Witnesses:
    Anderson, James D., Ph.D., Associate Professor, School of 
      Fisheries, University of Washington, Seattle, Washington...    18
        Prepared statement of....................................    79
    Baker, Jim, Northwest Salmon Campaign Coordinator, Sierra 
      Club, Pullman, Washington..................................    53
        Prepared statement of....................................   171
        Baker, Jim, Northwest Salmon Campaign Coordinator, Sierra 
          Club, Pullman, Washington..............................    53
        Prepared statement of....................................   105
        Response to questions from members.......................   106
    Ballard, Clyde, Speaker of the House, Washington State 
      Legislature................................................    10
        Prepared statement of....................................   146
    Curtis, Jeff, Western Conservation Director, Trout Unlimited, 
      Portland, Oregon...........................................    35
        Prepared statement of....................................    86
    Erickson, Richard, Secretary/Manager, East Columbia Basin 
      Irrigation District, Othello, Washington...................    57
        Prepared statement of....................................   101
    Ferrioli, Ted, Oregon State Senate...........................    16
        Prepared statement of....................................    77
    Givens, John, Executive Director, Port of Kennewick, 
      Kennewick, Washington......................................    38
        Prepared statement of....................................    87
    Hale, Bob, Hale Farms, Hermiston, Oregon.....................    40
        Prepared statement of....................................    89
    Kilbury, Charles D., Mayor, City of Pasco, Washington........     9
        Prepared statement of....................................   144
    Lundquist, Lynn, Speaker of the House, Oregon State 
      Legislature................................................    12
        Prepared statement of....................................    76
    Mastin, Dave, Chairman, House-Senate Executive Branch Task 
      Force on Salmon Recovery, Washington State Legislature.....    14
    Olsen, Darryll, Ph.D., The Pacific Northwest Project, 
      Kennewick, Washington......................................    36
        Prepared statement of....................................   148
    Phillips, Rob, Director, Northwest Sport Fishing Industry 
      Association, Oregon City, Oregon...........................    59
        Prepared statement of....................................   104
    Stelle, Jr., William, Regional Administrator, National Marine 
      Fisheries Service, Seattle, Washington.....................    31
        Prepared statement of....................................    81
        Response to questions from Committee.....................    85
    Ziari, Fred, Chairman, Eastern Oregon Irrigation Association, 
      Hermiston, Oregon..........................................    35
        Prepared statement of....................................    96

Communications submitted:
    Bowman, Leo M., Chairman, Board of County Commissioners, 
      prepared statement of......................................   131
    Christensen, Shirley D., President, Sunset Orchards & Farms, 
      Inc., Othello, Washington, prepared statement of...........   121
    Fancher, Helen, President, Washington State Assoc. of 
      Counties, Tacoma, Washington, resolutions passed by........   133
    Johnson, Linda M., Director, Government Relations, Washington 
      State Farm Bureau, Olympia, Washington, prepared statement 
      of.........................................................   100
    Lonn, Robert D., Consultant/Planner, NW Council of 
      Governments & Associates, Soap Lake, Washington, prepared 
      statement of...............................................   114
    McCleary, Edward, Tacoma, Washington, prepared statement of..   123
    McGregor, Alex, State President, Washington Association of 
      Wheat Growers, prepared statement of.......................    97
    Meissner, Louis, Chairman, Governmental Affairs, Greater 
      Pasco Area, Chamber of Commerce, Pasco, Washington, 
      prepared statement of......................................   124
    Norris, Charles R. ``Chuck,'' Hermiston, Oregon, prepared 
      statement of...............................................   109
    Perleberg, Columbia Basin Nursery, L.L.C., prepared statement 
      of.........................................................   122
    Puzey, Kim B., Ph.D., General Manager, Port of Umatilla, 
      Umatilla, Oregon, prepared statement of....................   135
    Riley, Susan, Secretary/Treasurer, Columbia Basin 
      Environmental Council, Soap Lake, Washington, prepared 
      statement of...............................................   117
    Riley, William, Director, Big Bend Economic Development 
      Council, Moses Lake, Washington, prepared statement of.....   116
    Stueckle, David J., LaCrosse, Washington, letter to the 
      Committee..................................................    98
    Sullivan, Suzanne, Burbank, Washington, prepared statement of   118
    West Coast Seafood Processors Association, Portland, Oregon, 
      letter submitted to Hon. Don Young.........................    99

Hearing held in Boise, Idaho, September 3, 1998..................   203

Statement of Members:
    Chenoweth, Hon. Helen, a Representative in Congress from the 
      State of Idaho, prepared statement of......................   207
    Kempthorne, Hon. Dirk, a Senator in Congress from the State 
      of Idaho, prepared statement of............................   204

Statement of Witnesses:
    Batt, Philip E., Governor, State of Idaho....................   211
        Prepared statement of....................................   213
    Cantrell, Shawn, Northwest Regional Director, Friends of the 
      Earth......................................................   253
        Prepared statement of....................................   291
    Doeringsfeld, David, Manager, Port of Lewiston...............   226
        Prepared statement of....................................   282
    James, Olivia, President, The River Company..................   221
        Prepared statement of....................................   302
    Kerr, Thomas, Commissioner, Valley County, Idaho.............   219
        Prepared statement of....................................   271
    Klemm, Jerry, President, Pulp and Paperworkers Resource 
      Council....................................................   240
        Prepared statement of....................................   282
    Limbaugh, Mark, Executive Director, Payette River Water Users 
      Association, Inc...........................................   224
        Prepared statement of....................................   276
    Little, Jim, Idaho Cattle Association........................   255
        Prepared statement of....................................   292
    Maynard, Robert A., Perkins Coie, LLP........................   222
        Prepared statement of....................................   312
    Pollot, Mark, Foundation for Constitutional Law..............   238
    Raybould, Dell, Chairman, Committee of Nine, Water District 1   242
        Prepared statement of....................................   283
    Sanchotena, Mitch, Executive Director, Idaho Steelhead and 
      Salmon Unlimited...........................................   258
        Prepared statement of....................................   293
    Stelle, Will, National Marine Fisheries Service..............   251
    Stuart, Tom, Board President, Idaho Rivers United............   235

Additional material supplied:
    Chapman, Sherl L., Executive Director, Idaho Water Users 
      Association, prepared statement of.........................   272
    Darm, Donna, Regional Administrator for Protected Resources, 
      National Marine Fisheries Service, Northwest Region, 
      prepared statement of......................................   297
    Moss, DeWitt, on behalf of Northside Canal Company, Twin 
      Falls Canal Company, and Committee of Nine, Water District 
      1, prepared statement of...................................   295


FIELD HEARING ON NATIONAL MARINE FISHERIES SERVICE'S IMPLEMENTATION OF 
                       THE ENDANGERED SPECIES ACT

                              ----------                              


                      WEDNESDAY, SEPTEMBER 2, 1998

                          House of Representatives,
                                    Committee on Resources,
                                                 Pasco, Washington.
    The Committee met, pursuant to notice, at 10 a.m. in the 
Columbia Basin College, Workforce Training Center, Pasco, 
Washington, Hon. Richard W. Pombo presiding.
    Mr. Pombo [presiding.] Before we get started, I would like 
to announce that there is an overflow room. It is room 130 and 
131. There is, I am told, a live video and audio in the other 
room.
    So everybody could either try to come into the room, or 
there is an overflow room that I am told is comfortable and has 
live audio and video in it so you can see the hearing. But we'd 
like to get everybody in if possible.
    Good morning. Thank you for the opportunity to bring the 
House of Representatives Committee on Resources to the state of 
Washington and the Tri-Cities area. We look forward to this 
hearing today to learn more from you about how the Endangered 
Species Act is being implemented and enforced in this 
Northwestern region of the country by the National Marine 
Fisheries Service.
    The Chairman of the Committee, Congressman Don Young, the 
Congressman from the state of Alaska, sends his best regards 
and his regrets that he cannot be here with you today. He has 
asked me to chair this field hearing for him.
    In 1995 when the Republicans became the majority party in 
Congress we all had great hopes that we would be able to amend 
the Endangered Species Act and implement common sense 
approaches to species protection, similar to those that the 
1973 Congress envisioned when they originally adopted this law.
    Congress believed that this law would be used to prevent 
the extinction of species, but never dreamed that it would turn 
into a tool to be used by a small minority of people to impose 
Federal land and water use controls on the majority of people.
    They also never envisioned the widespread injunctions and 
economic and social dislocations that many of you are now 
familiar with.
    For the last 4 years many of the members here present and 
others in Congress have worked to bring about a common sense 
approach that protects both species and the rights of our 
citizens.
    Unfortunately, instead of sitting down with Congress to 
discuss the future of protecting the nation's species, the 
Clinton Administration has chosen to stand in the way of 
genuine efforts that would have brought about change. Changes 
that would have protected the right of our farmers and 
landowners while still ensuring the protection of wildlife.
    The ESA has been law since 1973. Currently there are over 
1100 domestic species protected under that law. Time is long 
over-due for the administration to work cooperatively with 
Congress to fix the ESA. It is outdated and it is broken. It is 
broken for people and it is broken for wildlife.
    As many of you in this room today can attest to, it 
punishes those who do the most to provide habitat for wildlife.
    Today this hearing will focus on the role that the National 
Marine Fisheries Service, or NMFS, plays in enforcing the ESA. 
The ESA gives NMFS the authority to perform all the duties 
required by the ESA when they involve ocean dwelling species 
and marine mammals.
    The Fish and Wildlife Service enforces the law and performs 
all of the duties required by the ESA for all other species. 
However, when land based activities are affected by the ESA, 
both Federal agencies are involved in regulating those 
activities.
    If you have endangered species on your property in this 
region of the country, you may be required to obtain two 
Federal permits under the ESA for the same activity.
    It seems to me that there is no need for two Federal 
agencies to perform exactly the same duties and regulate the 
exact same activities.
    The House Resources Committee is here today to hear from 
you. We are here to listen to your ideas on what we, as your 
elected representatives, can do to improve the implementation 
of the Endangered Species Act.
    I strongly believe that as our country begins to enter the 
21st century we must and can find a more friendly and fair way 
to accomplish the goals of this outdated species protection 
act.
    Surely we can reduce the regulatory burdens on average 
citizens, small businesses and state and local governments, 
while still protecting our natural resources. I hope today's 
hearing will help you find a way to make improvements in this 
law in ways that work for both species and for people.
    I would like at this time to recognize the Ranking 
Democrat, Mr. Romero-Barcelo.

   STATEMENT OF HON. CARLOS A. ROMERO-BARCELO, A DELEGATE IN 
         CONGRESS FROM THE COMMONWEALTH OF PUERTO RICO

    Mr. Romero-Barcelo. Thank you, Mr. Chairman. And I 
congratulate you for holding this hearing today.
    Since this legislation that is the subject of the hearing 
will require a complete reorganization of at least two 
government agencies at a considerable expense to the American 
taxpayers, I sympathize with the need to hear from witnesses 
more knowledgeable on this subject and the issues than most of 
us in Congress.
    I appreciate the chairman's concerns for the Endangered 
Species Act and the idea that we must be looking for ways to 
improve our endangered species recovery efforts.
    But I have reservations that the Bill that would strip the 
National Marine Fisheries Service from its authority to 
implement the Endangered Species Act is the best solution.
    The National Marine Fisheries Service has spent decades 
gaining the expertise to address endangered species problems 
related to marine fisheries and species, while the Fish and 
Wildlife Service has focused its expertise on terrestrial 
species.
    I feel that a transfer of authority at this time could slow 
the recovery process for salmon and other marine species at a 
time when many of these species are in trouble and can ill-
afford a delay.
    For an island like Puerto Rico it has proven that officials 
to have just one agency making management decisions for both 
marine species and commercially valuable marine fisheries, to 
divide responsibility between two different agencies with two 
different cabinet heads has a potential of a real quagmire, 
creating twice the bureaucracies and taking twice the time to 
make management decisions.
    In fact, the Committee has already heard from 
representatives of the West Coast fishing industry who are 
opposed to the legislation for this very reason.
    If there are problems with the implementation of the 
Endangered Species Act, we need to address those fundamental 
issues.
    One of the more serious issues is funding. In the past 
decade the National Marine Fisheries Service's responsibility 
with respect to endangered species has grown dramatically, but 
their budget has not followed suit.
    This year the administration requested a $10,000,000 
million increase in the Endangered Species Act, but the 
appropriators only provided level funding.
    As a result of delays in the development of recovery plans, 
consultations and other activities that cause people to 
complain that the National Marine Fisheries Service is not 
doing its job will continue.
    This bill does nothing to address that problem.
    In addition, fundamental changes are needed in the law 
itself to streamline many of the processes that people find so 
frustrating, regardless of whether it is the National Marine 
Fisheries Service or Fish and Wildlife Service implementing the 
law.
    If we want to do something to really resolve the Endangered 
Species Act conflict, we must provide the agencies with the 
financial and legislative resources to do their job in a timely 
fashion.
    It is clear that the majority of Americans support the 
protection of endangered species and the law is not going away, 
and whether moving our problems from one agency to another is 
the solution, I don't know. But let us work together to 
reauthorize the law in a way that makes it better for both the 
species and the people.
    Thank you, Mr. Chairman.
    Mr. Pombo. Thank you. I would like to recognize Congressman 
Hastings at this point for his opening statement.

 STATEMENT OF HON. DOC HASTINGS, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF WASHINGTON

    Mr. Hastings. Mr. Chairman, I really appreciate you and my 
colleagues for coming here to the Tri-Cities and Central 
Washington for this field hearing.
    Clearly, the Endangered Species Act and its implementation 
has impacted those of us in Central Washington.
    And let me just give you my observation on how the ESA has 
worked here.
    Using the Endangered Species Act, I believe that Federal 
regulators have squeezed their way into every aspect of our 
lives. From water usage, commercial and sportfishing, 
irrigation diversions, hydroelectric production, and even flood 
control, an assortment of Federal agencies end up making 
decisions for our region, oftentimes circumventing the state 
and local decisionmaking process.
    While we have a variety of different species protected 
under the ESA here in the Columbia Basin, by far the most 
sensitive, and important I might add, is the issue of saving 
and restoring our historic salmon runs. The history and culture 
of our entire region is at risk in this debate.
    The ability of the Federal Government to deal with the 
decline of salmon runs will test the ESA's efficacy in 
addressing difficult and complex regional issues.
    Locally the Federal Government has already declared the 
Snake River steelhead, Snake River Sockeye, the Snake River 
Chinook and the Upper Columbia River steelhead as endangered. 
That's just essentially in Washington State. Adding Oregon and 
Idaho, the list becomes even larger.
    Clearly the role of the Federal protection agencies is 
going to grow if more and more populations are listed.
    As you well know, the Endangered Species Act does not 
protect species. Let me repeat that, because I believe it is 
one of the largest misunderstandings of the ESA. It protects 
distinct population segments.
    This is a regional classification that ignores the strength 
and health of the species in other regions. A specie may not be 
in danger of extinction at all, and in fact there are many that 
are not even close to being extinct.
    But the ESA specifically provides for the protection of 
distinct population segments of species, and therefore the 
protection of Sockeye salmon of the Snake River or Chinook 
salmon of the upper Columbia can be federally protected under 
the ESA.
    Even the controversial Northern Spotted Owl has never been 
in danger of becoming extinct, just locally extinct.
    I would conclude that there is a big difference.
    I share the belief that regional populations of distinct 
species should be preserved as best as possible.
    To accomplish this, however, we must look at the entire 
life cycle of a protected population. This is where preserving 
and restoring salmon populations become very, very difficult.
    We are committing regional resources, and in some cases 
national and international resources, to the preservation of a 
local resource. And we know so little about the conditions that 
each salm-

on stock prefer. Therefore, making necessary adjustments become 
very costly, with a very limited likelihood of complete 
success.
    Let me give you an example. Why can the Sockeye return to 
the Okanogan River through nine dams and through hundreds of 
miles, and still be a viable specie, while the Upper Columbia 
River steelhead, who goes through exactly the same dams, the 
same hundreds of miles, is listed as endangered?
    The question is, is it ocean conditions, the timing of the 
harvests, their path through the Northern Pacific, the 
temperature of the water, the depth of the migration that 
protects them from predators, or something else entirely?
    I think we need to find out, and that's the coordination 
that I think needs to be looked at.
    Unfortunately, our Federal fishery managers and their 
supervisors, right up to the Department--to the Secretary of 
Interior, have so consistently blamed the dams for the decline 
of all the salmon runs that they have become the targets of the 
most dramatic adjustments for the sake of the region's salmon.
    Deep drawdowns below the minimum operating pools, reducing 
irrigation diversion below Federal contract levels, eliminating 
timber harvests near streams, delaying grazing permits for 
cattle, and outright removal of dams, all of these options have 
been studied, considered, or mandated in our region, with no 
certainty of recovery, or even making the sustainability of 
salmon, and I think this issue must change.
    What has yet to be comprehensively addressed in my view is 
the commercial harvest of salmon in the open ocean.
    I don't understand how our fisheries managers can continue 
to allow the harvest, and I am not referring to incidental 
catches in this case, I am speaking of harvesting endangered 
salmon stocks by commercial fishermen. I think we can all 
remember that when the spotted owl was listed in the 1980's, 
that the threat of removing one tree within their owl circle 
was considered a take under the ESA.
    Now, because the Sockeye salmon from the Snake River is not 
visually distinct from Sockeye salmon from Alaska or Canada, 
commercial fishermen continue to harvest millions of pounds of 
Sockeye each year.
    I will be very interested to hear why the National Marine 
Fisheries Service has not required each commercial fisherman to 
be issued an incidental take permit for every endangered salmon 
caught or killed.
    I would like to know why our region has committed billions 
of dollars to recovery efforts when commercial harvests 
continue unabated.
    I will just make this, quickly four recommendations that I 
think need to be a part of any ESA reform.
    First, we need a comprehensive approach that doesn't leave 
predator control to nature. If we are to protect the region's 
salmon runs, we must protect them from their natural predators, 
as well. For example, the Caspian Tern population at the mouth 
of the Columbia is now one of the largest in the world. There 
has been a recent report that the Caspian Tern has consumed 
over 11 million smolts. I might add that that is more smolts 
than we barge down the Columbia River.
    So we need to look at it, have a comprehensive approach to 
the predator problem.
    Second, we need an approach that doesn't put commercial 
fishing and tribal fishing under different Federal 
jurisdictions.
    And third, we need to have the BPA and the Northwest Power 
Planning Council working with the Federal agencies, not at the 
mercy of them.
    I would like to see a program implemented, in conjunction 
with the Power Planning Council and BPA, that would voluntarily 
offer to compensate fishermen for setting aside a portion of 
their salmon harvest.
    This is very similar to what we do with land as far as 
habitat under the Conservation Reserve Program.
    And, finally, I would argue that most importantly, local 
citizens need to be at the table, making decisions for 
themselves.
    We had a case of that in the upper Mid-Columbia with the 
Mid-Columbia PUDs agreeing to a habitat conservation plan that 
will last for some 50 years if it is implemented.
    But the bottom line of that whole plan is that local people 
will be at the table. That's the approach we need to pursue.
    So, in closing, I would just like to say that once again, 
Mr. Chairman, thank you for bringing this hearing, and I am 
looking forward to all the testimony from those that are 
affected, either pro or con, perceived or not, as to how the 
ESA is being implemented by NMFS.
    And with that I will give back my time.
    Mr. Pombo. Thank you. Congressman Smith--Congresswoman 
Smith.

  STATEMENT OF HON. LINDA SMITH, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF WASHINGTON

    Mrs. Smith. Thank you, Mr. Chairman, and thank you for 
coming. You could have stayed home with that new baby. All of a 
sudden that baby isn't that new anymore.
    The Committee as it sits today is a committee of very 
diverse people from around the West. And what we find for you 
here from home is that there's quite a different opinion of who 
should control our destiny in our state.
    And they have come up with some false choices that I want 
to hear addressed today by those testifying that if we are to 
work to recover salmon and to preserve our environment and the 
endangered species, then we automatically have to give up our 
other rights, like property rights.
    And I think what I want to just lay as a base of the 
philosophy that I would like to hear spoken to, do we believe 
that that assumption is accurate?
    And I am going to say that I don't. And I guess I set that 
up a little bit. I don't think we have to have the choice of 
recovery and protection of species or protection of our 
property rights.
    I do believe that water is a property right. And if you 
deny water as a property right, held to the States, controlled 
by the Federal Government, then you give property rights to the 
Federal Government to control the moment that they control the 
water.
    And what we're seeing around the Nation here, and that's 
why it's important we have this hearing here, is the Federal 
Government moving to control water levels which then control 
water rights, whether they take them or not.
    Because if they change our water levels, they've got our 
water rights.
    So, this is an important thing today that is happening.
    I am very, very grateful for the Chairman of this 
Committee. We have several Subcommittees. We happen to be on 
this, Representative Pombo and myself, but we have several 
Subcommittees, and most folks take August off. They go home. 
They get some rest, to go back in September.
    So, for this Committee to take their time and 
Representative Chenoweth and Representative Romero-Barcelo, to 
come here, means a whole lot for our region, and I do want to 
thank them for coming to our state.
    I want to make a statement about your representative. Doc 
Hastings probably knows this issue better than anyone in 
Congress. And he really fought to get this hearing here. Our 
Committee didn't have much ability to hold hearings. We're just 
about to the end of the 2 year period. And so for him to 
advocate the way he did, you have to know, you've really got a 
champion for you from this district.
    And I look forward to hearing the testimony.
    Mr. Pombo. Congressman Nethercutt.

   STATEMENT OF HON. GEORGE NETHERCUTT, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF WASHINGTON

    Mr. Nethercutt. Thank you, Mr. Chairman.
    Ladies and gentlemen, thank you for allowing me to 
participate in this panel. I am not a member of the Resources 
Committee in Congress. I am a member of the Appropriations 
Committee, which has jurisdiction over the Interior agencies 
and the Agriculture Department, those land management agencies 
that affect farmers and ranchers.
    So I have a particular interest in this issue because of 
the subcommittees on which I serve have to pay the bill for 
these activities that the Federal Government engages itself in 
relative to our natural resources.
    I want to thank Congressman Doc Hastings and Congressman 
Pombo and the rest of the panel for being here today to chair 
this very important hearing and listen to the citizens of our 
region.
    Doc and I represent more than half of the entire 
geographical area of the state of Washington. And the two 
primary interests that are affected in our respective districts 
are agriculture and the timber industry, or natural resource 
based industries.
    From an economic standpoint, agriculture and timber play a 
tremendous interest, as part of our state's economy and our 
region's economy.
    So, what the Federal Government does to us in those 
industries has a tremendous impact and a reverberating effect 
on corresponding industries that rely on agriculture and 
timber.
    My bias has been, since I was elected to this job, was to 
be sure that the people who work and live in the Fifth 
Congressional District, north in the timber areas and south in 
the agriculture areas, are able to continue their way of life, 
that they are able to continue to farm and ranch and live the 
lifestyle they have lived over generations.
    And to the extent that the Endangered Species Act has an 
impact on that way of life, it has a very great impact on the 
way I look at the actions of the Federal Government.
    The bottom line for me is to try to listen here today, and 
frankly I am very pleased to see so many citizens here who have 
a stake in the decisions that are made by the Federal 
Government, the NMFS, and all the other land management 
agencies, as it relates to the Endangered Species Act.
    So I welcome you here as a nonmember of this Subcommittee 
or Committee, but as a very interested part of the equation of 
paying for those things and trying to make good judgments about 
how, you as taxpayers, pay for the activities that these 
government agencies decide are in our best interests.
    Beyond the very severe impacts of the ESA on private 
property rights and the two industries that I mention, 
decisions relative to breaching dams and locking up our forests 
under the name of protecting species will have a terrible 
effect on our agriculture and timber industries and have a 
terrible effect on our economy.
    So my hope is that we can resist that at every instance, 
because I think it's wrong headed, and to the extent that 
government agencies have a desire to do that, you'll find 
everyone on this panel I predict fighting against those kinds 
of actions.
    So, thank you for coming. Thank you, Chairman, for 
recognizing me, and I look forward to a good hearing.
    Mr. Pombo. Congresswoman Chenoweth.

STATEMENT OF HON. HELEN CHENOWETH, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF IDAHO

    Mrs. Chenoweth. Thank you, Mr. Chairman. I just want to say 
I am very pleased to be here. I am a member of the Resources 
Committee and I am a member of the task force on the Endangered 
Species Act. And so this subject holds a great deal of interest 
for me.
    It's great to be here in Doc Hastings's district. I see, 
Mr. Chairman, that we have great witnesses in the three panels, 
and I am looking forward, as I know we all are, to hearing from 
those witnesses.
    And I just want to say I very much identify with the 
comments of my colleagues. Thank you very much.
    Mr. Pombo. Just to start off, there's one member that's out 
here that I would specifically like to thank for being here.
    Congresswoman Chenoweth in the 25 odd hearings that I have 
chaired on the Endangered Species Act, has been at every single 
one of them, whether it was in New Orleans or South Carolina or 
California or where it was, she showed up at every single one 
of them. And I appreciate her diligence in representing the 
people that she's elected to represent.
    To start off, I would like to call up the Mayor of Pasco, 
Mayor Kilbury, and he has a brief statement he would like to 
make. Please join us.
    Thank you very much for being here. I realize that you have 
a written statement on the specifics of the hearing. That will 
be included in the record. I wanted to give you an opportunity 
to welcome everybody to your fine city. Mayor?

    STATEMENT OF CHARLES D. KILBURY, MAYOR, CITY OF PASCO, 
                           WASHINGTON

    Mr. Kilbury. Well, first I'd like to welcome everyone to my 
fine city. It is a fine city. We are glad to have you. It gives 
us an opportunity to speak on this matter.
    I am Charles D. Kilbury, Mayor of the city of Pasco, and I 
am reporting action by the City Council of the city of Pasco.
    Some few weeks ago the City Council passed a resolution in 
direct opposition to an action requiring breaching or lowering 
the pools behind the dams on the Snake or Columbia Rivers.
    For any Federal agency to advocate breaching of any or 
several of the Federal dams, with the idea of increasing the 
number of anadromous fish returning to the upriver spawning 
grounds, when no evidence has been taken to prove that only 
rivers with dams have reduced runs of salmon, when the fact is, 
that rivers with no dams have already had their spawning runs 
decimated, makes little sense, and cries out for the NMFS to be 
investigated for their lack of scientific study of the Columbia 
River basin.
    Why has there been no attempt made to restrict the 
destruction of the salmon in the ocean?
    Why has there been no attempt to restrict over-catching of 
the salmon in their passage up the river?
    Why has there been an increase in the Yakima River Chinook 
run even with only the supplementation of the wild run having 
taken place, when that run has come through four dams in the 
Lower Columbia?
    What has been done to eliminate the massive increase in 
predators at the mouth of the Columbia River?
    Nor has the NMFS considered the enormous cost of removing 
irrigation, barge traffic and recreation from the river.
    We do feel action by the NMFS will affect the city of 
Pasco's water rights.
    At this time I call on Congress to call a halt to this 
bureaucratic bungling immediately.
    I am presenting also a resolution passed by the City 
Council of the city of Pasco.
    Thank you, Mr. Chairman, for allowing me to testify.
    [The prepared statement of Mr. Kilbury may be found at end 
of hearing.]
    Mr. Pombo. Thank you, Mr. Mayor.
    I would like to call up our first panel of witnesses. 
Speaker Clyde Ballard, Speaker of the House of Washington 
State; Speaker Lynn Lundquist, Speaker of the House, Oregon 
State; Representative Dave Mastin; Senator Ted Ferrioli; and 
Dr. James Anderson, if you would join us at the witness table.
    Just so you understand how it works, you've got little 
lights in front of you. We try to limit the testimony, the oral 
testimony, to 5 minutes.
    I am sure most of you are familiar with this. The lights 
work similar to traffic lights. Green means go, yellow means 
hurry up, and red means stop. That's what it means in 
California.
    Your entire written statement will be included in the 
record, but if you could summarize those written statements to 
within the 5 minutes, I would appreciate that.
    Speaker Ballard, you are recognized first. If you are 
prepared, you may begin, Mr. Ballard.

 STATEMENT OF CLYDE BALLARD, SPEAKER OF THE HOUSE, WASHINGTON 
                       STATE LEGISLATURE

    Mr. Ballard. Mr. Chairman, members of the Committee, my 
name is Clyde Ballard. I am Speaker of the Washington State 
Legislature.
    And first, I would like to express my thanks to the 
Committee for bringing forward a public hearing to provide for 
oversight regarding the actions being conducted by the National 
Marine Fisheries Service in the Pacific Northwest.
    My views are those of an elected official who is directly 
responsible to the citizens of Washington State, the people who 
provide for the economics and social well-being of our 
communities, the people who are directly affected by NMFS' 
actions to implement salmon recovery measures, and influence 
river system governance.
    I want to be direct with you in my comments. I believe that 
you are here today because the National Marine Fisheries 
Service has sought to engage in actions that exceed its 
rightful authority, because it has nurtured the development of 
a self-serving salmon recovery industry, and because it has 
failed to offer the region a workable pragmatic salmon recovery 
plan for the Columbia-Snake River Basin.
    My first remarks focus on NMFS' attempts to control water 
management.
    The NMFS has put forth a water policy for the Columbia 
River drainage area, a policy it refers to as zero net water 
loss policy.
    The end effect of this policy is to eliminate future water 
withdrawals from the Columbia-Snake River mainstem, tributaries 
to the mainstem, and related groundwater sources, including the 
protection of existing water rights as well as review existing 
water withdrawals to assess impacts to salmon. Basically, all 
Basin water resources are affected.
    This policy challenges the authority of the States to 
review and grant water rights from municipal, industrial and 
irrigation purposes and directs all future water use for one 
purpose and one purpose only, fish protection.
    This water policy not only attempts to abrogate state 
authority over existing and future water rights, but it 
presents an absurd resource management policy for the State 
with the only real objective of transferring control of water 
management over to NMFS, not creating more fish.
    The NMFS is primarily interested in resource control and 
breaking the back of western and state water law. To suggest 
that this policy is being a driven resource by prudent managers 
with the sole objective to enhance salmon is disingenuous.
    The state of Washington is willing to work to address the 
salmon recovery of the region, but the state will aggressively 
resist attempts by NMFS to control our water.
    Unfortunately, the most effective action of NMFS to date is 
to enhance what is being called a salmon recovery industry, not 
improving salmon runs. The salmon recovery industry, an army of 
state, Federal and tribal bureaucrats and their consultants, 
have simply sought greater political and operational control 
over the resources and funding. Their objectives are totally 
self- serving. More control and funding has not created more 
fish in the river.
    In 8 years, NMFS and the salmon recovery industry have 
neither produced more abundant salmon runs nor even developed a 
recovery plan that a majority of the region is willing to 
accept.
    The NMFS and the salmon recovery industry cannot even 
quantify the number of salmon it has supposedly saved while 
spending literally billions of dollars. NMFS and the salmon 
recovery industry have advanced an almost total 
disenfranchisement of the river system's key economic 
stakeholders and the people who are directly affected by 
management actions.
    There is never room at the decisionmaking table for the 
stakeholders, nor does there appear to be room for the region's 
elected officials.
    Let me give you a personal experience. The state of 
Washington put a moratorium on removing any additional water 
from the Columbia River. That meant cities could not build 
houses, they could not build medical facilities, they could not 
have any agriculture, nothing could happen.
    And this past week Speaker Hastings and myself had the 
privilege of taking Speaker Gingrich, Congressman Dan Miller 
and Congressman Clay Shaw, along with a number of other 
speakers from the Western States, on a tour of the Columbia 
River.
    And as we went up the river, I asked them to look at the 
vastness of this Columbia River. Remember, that agriculture 
takes less than 3 percent of this water supply, and that is 
above the Columbia--above the dam, the first dam on the river, 
which I just forgot the name of, to be able to service all of 
the ag industry.
    When the state put on the moratorium, there was no 
scientific data, none.
    In 1997 the legislature passed legislation that declared 
void the moratorium, and further directed the Department of 
Ecology committees to consult with the standing committees of 
the state of Washington in the future.
    I met with the Director of the Department of Ecology 
following the session to talk about the legislation. He 
indicated that there was a major problem with giving any more 
permits because NMFS had declared the Columbia River to be 
overallocated.
    Mr. Chairman, members of the Committee, without water, 
along with the threat to remove existing water rights, will 
guaranty that a large part of the state of Washington will be 
an economic disaster along with the stealing of property values 
due to threats from NMFS.
    Please send a message to the agency, that we not only have 
the ability to make the right decisions on water, but it is our 
right, not that of a Federal agency.
    Thank you for your commitment.
    [The prepared statement of Mr. Ballard may be found at end 
of hearing.]
    Mr. Pombo. Speaker Lundquist.

STATEMENT OF LYNN LUNDQUIST, SPEAKER OF THE HOUSE, OREGON STATE 
                          LEGISLATURE

    Mr. Lundquist. Mr. Chairman, members of the Committee, 
thank you very much for the opportunity to let us speak to you 
today. I am from the central part of Oregon.
    Certainly, we're a state like Washington, where natural 
resources literally drive our economic engine.
    I want to make three points today.
    First, I want to make a statement, that a flawed law cannot 
be administered as good public policy.
    The Endangered Species Act does not provide effective 
mechanisms for species recovery as we have already heard. And I 
think there is one main reason for that. And that is it is not 
based on science but rather it is too much based on politics.
    I just came last week from a central coast town called Coos 
Bay that is timber dependent and fish dependent. And there is a 
story that goes around town like this. What do you get when you 
cross a spotted owl with a coho salmon? 100 percent 
unemployment in Coos Bay.
    And that's not a very funny story. It's reality that hits 
home.
    Let me tell you a little about what's happened to Oregon's 
effort to recover the coho salmon.
    As you probably know, we put forth an Oregon Plan, a very 
inclusive, very comprehensive kind of plan, with hundreds of 
measures that are already being implemented by state agencies, 
a lot of them prior to the plan.
    We put in $32 million, a public/private partnership, the 
first time it had ever been done.
    Where was the money from NMFS that helped in that process? 
I would like to ask that question.
    When we put together that public/private partnership, 
however, it was almost for naught in many regards, because 
after the species was not listed, there was a court challenge, 
and as most of you will probably realize, our coho salmon has 
been listed, effective October 9th.
    What that says to me is that the state does not have the 
right to have its own destiny in its own hands, because of a 
law. If in fact that's true, something's wrong with the law.
    The second point I would like to make is simply this: That 
agencies can make a flawed law even worse. Not all the 
disappointment in the Endangered Species Act is because of the 
Act itself.
    I believe that the NMFS has created considerable 
frustration among legislators, state agencies and citizens.
    What it has done is force Federal mandates upon our local 
communities and say we can't do it ourselves.
    Let me give you some specific examples that I think are 
leading to the frustration that we find in Oregon.
    No. 1. There have been a number of Memorandums of Agreement 
developed with the state at different times. These Memorandums 
of Agreement, and particularly the one that deals with the 
Oregon Plan, were like having a gun at your head. That's 
frustrating.
    Point No. 2. After we already had the Oregon Plan in and it 
had passed the legislation, NMFS came forward with a draft 
proposal, I want to emphasize that, a draft proposal to the 
Oregon Board of Forestry that I believe was blatantly 
regulatory and hammer oriented.
    Let me give you some examples.
    Where we have fish bearing streams, they were saying in the 
riparian management zone, that up to 200 feet wide on each side 
would have to be set aside for an 80 to 200 year old stand, and 
that during that time no more than two entries per 50 year 
timeframe could be entered into those areas for timber 
management.
    But that's not even in my opinion as absurd as this next 
one, and that is that on non-fish bearing streams, that are 
seasonal streams, OK, non-fish bearing streams that are 
seasonal streams, that there has to be up to 100 foot width on 
each side.
    Now, you visualize in Western Oregon how many streams flow 
in the wintertime that don't flow in the summertime, with that 
kind. Let me give you the economic impact.
    It has been estimated that if this would have gone forward, 
and we simply said, have at it, we're not going along with this 
one, but if this were to be in place, it would reduce the value 
by 41 percent on our timberlands.
    There was a Southern Oregon county there that had a 
proposed sale that was to bring in $1.5 million into their 
county coffers under the normal Forest Practices Act that we 
have in Oregon. With this plan they would have brought in 
$75,000.
    Now, that's probably more extreme than normal. But that's 
the kind of economic impact it makes.
    I would simply like to emphasize what the prior speaker has 
also said in regard to my third point, and that is it is 
imperative that the National Marine Fisheries Service and other 
Federal agencies do not infringe upon western water law and the 
state's sovereignty over the allocation of that resource.
    I could tell you in Oregon we will fight that to the bitter 
end.
    Mr. Chairman, and fellow Congressmen, Congresswomen, my 
request is simply this: We need a change in the Endangered 
Species Act to allow for local solutions and direct the agency 
or agencies to be a partner, not a stumbling block, to the 
process, and stay away from infringing on our state waterways.
    Thank you for the opportunity.
    [The prepared statement of Mr. Lundquist may be found at 
end of hearing.]
    Mr. Pombo. Representative Mastin.

  STATEMENT OF DAVE MASTIN, CHAIRMAN, HOUSE-SENATE EXECUTIVE 
    BRANCH TASK FORCE ON SALMON RECOVERY, WASHINGTON STATE 
                          LEGISLATURE

    Mr. Mastin. Thank you, Mr. Chairman, members of the 
Committee.
    I appreciate the opportunity to talk to you today. My name 
is Dave Mastin. I am a State Representative from the 16th 
District in the state of Washington.
    If you take the state of Connecticut and plop it into the 
southeast corner of the state, that's my home.
    I have served in the legislature for 6 years, and in the 
past year I was the Chairman of the Legislative Salmon 
Restoration Task Force.
    I am deeply committed and deeply involved with restoring 
salmon habitat in the state of Washington. You already heard 
some testimony and we have a room full of people. These people 
come from this area, and some of them will be testifying today.
    They live here. They work here. They raise their families 
here. They pay taxes here. These people are not anti-salmon, 
and they are not anti-environment.
    What I think you will hear today with all the different 
testimony is one value that the people in this room hold to be 
true. Fish are important. But people should count, too.
    Many of the people in this room have already begun to do 
salmon habitat restoration. We have several tributaries off the 
Columbia Basin system that have spent millions of Federal 
dollars, millions of state dollars, and hundreds of thousands 
of private dollars, individual landowners giving up their time, 
giving up their land, and giving up their incomes to help 
restore habitat. That's the silent work that is going on right 
now in the state of Washington.
    I took the opportunity to ask these people, how is NMFS 
doing? National Marine Fisheries Service is in charge of 
restoring salmon habitat. These people are on the front line. 
These are farmers across the Snake River, agricultural folks on 
the front line, and they have taken that mission of restoring 
salmon habitat. And I asked them that simple question, how is 
NMFS doing.
    And to a person, they have told me that NMFS has been a 
major impediment at restoring salmon habitat. They have been a 
bureaucratic roadblock at restoring salmon habitat in the 
tributaries off the Snake River.
    I will give you two examples.
    Two tributaries that in the past 5 years we had the finest 
watershed assessment team in the Northwest, bar none, come to 
this area and do river segment by river segment assessment to 
find out what fish needed in that area.
    And then with local government, with landowners, with state 
and Federal agencies working together, they developed fish 
habitat projects. Willing landowners, willing to give up some 
of their land, to give up some of their time and effort, and we 
have the projects ready to implement.
    And then the permitting begins. Of these two tributaries in 
the last year, there were about 60 projects. For those 60 
projects you need a hydraulic permit. BPA requires a NEPA 
checklist. NRCS re-

quires an environmental evaluation. And some of them need 
county shoreline permits, as well.
    All of those permits and all of those agencies combined 
require about 60 pages of work for those projects.
    Then we have to go to NMFS. The NMFS requirement is about 
230 pages, different pages, not the same information, 230 
pages. And so they take these projects that everyone else has 
agreed is going to help salmon, these are salmon restoration, 
habitat restoration projects, and NMFS takes 3 to 6 months, 3 
to 6 months to tell us that in fact these salmon habitat 
restoration projects will not jeopardize salmon. Will not 
jeopardize salmon.
    Some people wonder why it takes so long. And I am sure you 
will hear that there's questions about agency priority and 
agency funding.
    But I think that's the wrong question. I think the right 
question is, why? Why do we delay restoration efforts 1 minute, 
let alone 6 months, so that it can go through one more step to 
get the support of the National Marine Fisheries Service.
    And if the reason is, because the ESA, so they're doing 
what the statute tells them to do, then how come they haven't 
been in here kicking and screaming to you folks to change the 
ESA so that when we step forward in the state of Washington, 
which I could guaranty you we are, and try to improve and will 
improve the restoration of the salmon habitat, when we are 
taking that strong step, how come they're not helping us?
    They should be helping us, not only with financial support, 
but they should be coming to you and telling you that we need 
to change this ESA so we can do what's going to help salmon, 
and remember that people count, too.
    I see I am about out of time, so I would like to conclude 
with two thoughts.
    If the example that I have given you is more than an 
isolated occurrence within this agency, then this is an agency 
that has a lot of problems, has a lot of difficulties, and I 
believe it is your job respectfully to look into that sincerely 
and do what it takes in Congress to make sure that they don't 
stop us as we try to restore habitat. And that as we do restore 
habitat, we will do it in a way that it helps fish, but also 
works with people instead of against them.
    One of the men that I talked to from my district wrote me a 
quick note, and he said landowners are receptive to tree 
planting and habitat enhancement projects, but we cannot afford 
to let these positive projects get held up in political areas 
or all the grassroots work will be lost due to uncertainty and 
lack of trust and lack of credibility.
    Many of us have a lot of concerns with National Marine 
Fisheries Service. I have mentioned but one. Even when we are 
stepping up to the plate, as these people behind me want to, to 
restore salmon habitat, it seems to be an impediment rather 
than a helping hand. We urge you to take serious consideration 
of our concerns.
    Mr. Pombo. Senator Ferrioli.

         STATEMENT OF TED FERRIOLI, OREGON STATE SENATE

    Mr. Ferrioli. Thank you, Mr. Chairman. Again, my name is 
State Senator Ted Ferrioli. I represent State Senate District 
28 in Oregon. Senate district 28 starts about 25 miles out of 
the Portland metropolitan, right across the river from the 
Sandy River, it continues eastward to the state of Idaho, 
including all or parts of 11 counties, about 17,500 square 
miles. Population density .17 persons per square mile. I am 
very happy to see this large crowd appear today.
    Mr. Chairman, I will try to cram 2 years of frustration 
into 5 minutes of testimony. You have already identified the 
duplication of efforts between the U.S. Fish and Wildlife 
Service in developing guidelines for every aspect of natural 
resource management associated with riparian areas, and that of 
the National Marine Fisheries Service, which essentially does 
the same thing, affecting grazing, upland management, timber 
harvest, water withdrawals for irrigation, vegetation 
management, fishing and all other aspects of that habitat 
management. So I won't belabor that point.
    But let me give you at least a couple of examples of how 
that affects people living in rural communities.
    We had a fire in Grant County, it was called the Summit 
Fire, it was started by lightening August 13th, 1996. It burned 
38,000 acres. About 300 million board feet of timber was 
killed.
    The day after the fire was put out, that timber at $400 a 
thousand was worth $120 million to the Federal treasury.
    We began fire recovery planning, and that planning included 
two complete Environmental Impact Statements, primarily because 
we had the listing of bull trout, and the salmon issues to 
consider during the planning processes.
    It took until July 12th, 1998 for a Record of Decision 
finally to be issued, and that called for the salvage and 
restoration, rehabilitation of approximately 6600 acres out of 
the 38,000 that burned. And the proposal was for harvesting of 
about 50 million board feet of timber.
    Let's just do the math. The fire cost $25,400,000 to put 
out. Planning for the project cost $1.2 million for the 
original Environmental Impact Statement, and about $50,000 for 
the Supplemental Impact Statement, which included first 
informal conferences with NMFS, and the U.S. Fish and Wildlife 
Service, and finally formal conference also with both agencies, 
in the development of a water quality management plan for each 
of the listed species, with both the different agencies.
    Finally the project has been awarded and sold, the timber 
sales have produced approximately $2 million of revenue for the 
Federal treasury. When you do the math, my friends, the math 
simply is nonsensical.
    But those delays and expenses caused by this duplication of 
effort between the agencies on the Summit Fire might be the 
least costly aspect of dual administration of the Endangered 
Species Act.
    Undoubtedly you have heard of the Oregon Plan for the 
restoration of salmon, and now the supplemental restoration of 
species. Our plan, like Washington's plan, goes far beyond what 
the Endangered Species Act, which is avoidance of the take.
    Our plan is designed to restore aquatic habitat and to 
restore salmon and steelhead by involving forestland owners, 
irrigators, cattle producers, dairymen, farmers and municipal 
watershed managers in a cooperative effort.
    In that process we entered into a Memorandum of Agreement 
with the National Marine Fisheries Service. Their draft 
proposal for a complete rewriting of the Oregon Forest 
Practices Act includes some proposals that I think are patently 
ridiculous, so much so that I have to read one of them to you. 
I hope you will indulge me. The issue is on culverts. The 
section is titled, Hydraulic Conditions Required for Adult Fish 
Passage culvert design is detailed:
    ``Where culvert lengths exceed 150 feet, a bridge 
installation should be strongly considered. Generally, culverts 
smaller than six feet in diameter are not adequate for fish 
passage and should not be used. Culverts less than 10 feet in 
diameter require lighting within the culvert barrel, provided 
by a vertical riser above the road surface or by artificial 
lighting every 75 feet.''
    In addition, the proposal contains admonitions against wet 
weather in Oregon. In wet weather conditions, typically two 
inches of precipitation in 24 hours, especially during the 
period of October 1st to April 30th. Hauling or skidding should 
not resume for 48 hours after precipitation ends or until road 
surfaces and ditches are not flowing with water.
    Members of the Committee, Oregon is famed for many things, 
one of them is prodigious rainfall. We have places in Western 
Oregon where we log 200 inches of rainfall a year.
    And to prohibit any management operations there when rain 
exceeds two inches is patently ridiculous and shows a 
particular disconnect from the real Oregon climatological 
condition.
    An analysis was done of the NMFS proposal by the Small 
Woodlands Association and the Oregon Forest Industries Council, 
and my colleague from the Oregon House is absolutely correct, 
41 percent of our total forested land base would be rendered 
unusable or unmanageable because of NMFS' proposals, and that 
converts into 3.3 million acres of forest land out of the 
timber base, and that converts to a total lost value of 
approximately $25.4 billion in foregone economic opportunities 
for the State of Oregon.
    This $25 billion comes directly out of the pockets of our 
small woodland owners, who have submitted maps to show how NMFS 
proposals would affect their properties, and in some cases it's 
up to 75 percent of their land base would be involved in 
riparian management areas and therefore rendered impossible to 
manage for timber production.
    I simply submit to you that this agency is out of control.
    An attempt to consolidate the agency's management under 
H.R. 4335 will help bring some sensibility and sense of 
proportion to the management of natural resources in all of the 
State of Oregon and all of the United States, and I urge you to 
continue your inquiry along these lines.
    One thing that you will not hear, and this is particularly 
for Congressman Nethercutt, you will not hear NMFS come to your 
Committee and ask for appropriations for management of salmon 
and the services to provide to Oregon and Washington. They are 
asking us to go lobby for that money.
    So I urge you to pass H.R. 4335. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Ferrioli may be found at end 
of hearing.]
    Mr. Pombo. Dr. Anderson.

  STATEMENT OF JAMES D. ANDERSON, PH.D., ASSOCIATE PROFESSOR, 
    SCHOOL OF FISHERIES, UNIVERSITY OF WASHINGTON, SEATTLE, 
                           WASHINGTON

    Mr. Anderson. Mr. Pombo, thank you for this opportunity to 
talk in front of your hearing. This is a great opportunity 
again to try to compress 10 years of research into 5 minutes. I 
have failed in other attempts.
    What I really wanted to discuss is NMFS flow and water 
policies, and I want to discuss that in terms of what it's done 
for how science is used.
    Simply put, what NMFS has done, is try to justify benefits 
in a qualitative sense, without putting numbers on the 
benefits.
    And I think that what this does is produce an unrealistic 
expectation for some of the actions.
    It's critical that we put numbers on things so we know the 
cost and the benefits. And I want to use the flow as an example 
of how we have been misled inadvertently in many cases.
    A decade ago, when the dams were put in, or several decades 
ago, it was felt that because the fish decreased, if we just 
increased the flows back to the pre-dam levels, that the fish 
would come back.
    That simply is not true. The research that we now have 
shows that instead of having the thousand percent increase that 
would be needed to return the runs, we get about a 1 percent 
increase by increasing the flows.
    So there is--the idea of a strong flow relationship simply 
don't exist; a strong relationship between survival and throw. 
There was not, this type of information has not been used in 
developing the flow objectives and the flow targets.
    It needs to be really considered, and the flow targets need 
to be assessed for really their inability to improve fish 
survival.
    In terms of this, this was for the spring Chinook.
    The fall Chinook, where there has been a relationship 
observed between flow and survival down to the first dam, this 
is a complex matter, which is not necessarily related to the 
flow.
    Temperature changes with flow, it also depends on when the 
fish move through the system, and some of the newest work we 
have done shows a relationship between fish size and the 
survival of fish down through the system.
    If it is fish size which is the operative variable, then 
increasing flow which could decrease the temperature and move 
the fish sooner through the system could actually have a 
negative impact on the fish.
    The point being, we really don't know how flow is affecting 
the fall Chinook, and we find no relationship in the river 
passage between spring Chinook and flow.
    And these issues and these numbers need to be brought 
forward so that people have realistic expectations for the 
impacts of flow.
    My second point is on the water withdrawals, or the 
moratorium on having new water withdrawals. These are blanket 
moratorium. If you remove water anyplace in the system, it is 
assumed to have the same impact on fish.
    And this simply isn't true. Up in the tributaries, water 
can have a significant impact on their survival.
    You get down into the mainstem, and we have no evidence 
that water withdrawals have a significant or measurable impact 
on fish or on their recovery. And there again, these 
withdrawals and the justifications for them were put in a 
qualitative sense that we can imagine they're good for fish, so 
we should implement these regulations.
    My point being, that that leads to unrealistic expectations 
for what we can gain from these actions. And I think that 
whatever management goes on at the ESA, we need to put the 
numbers onto the fish so people are really grounded in the 
success of these different actions.
    And that concludes my comments. Thank you.
    [The prepared statement of Dr. Anderson may be found at end 
of hearing.]
    Mr. Pombo. Thank you. I thank the panel for your testimony.
    Dr. Anderson, you've--the research that you talk about, is 
this research that you have done yourself in terms of flow, or 
that you've supervised?
    Dr. Anderson. Most of the research that I am discussing 
right here has been conducted by the National Marine Fisheries 
Service, and peer reviewed and analyzed by fisheries biologists 
throughout the region. One of which is me.
    Mr. Pombo. You helped to peer review it?
    Dr. Anderson. I've analyzed the data, and part of what's 
called the plan for analyzing and testing the hypotheses, where 
we are going with a fine tooth comb through each and every 
hypothesis that we have on the fish.
    I am one of the members of that panel, and very much 
involved in these analyses, yes.
    Mr. Pombo. But you talk about the flow impacts and the 
moratorium on diverting additional water as if they have little 
effect on the recovery of the species.
    Dr. Anderson. That's right. That's what the science is 
showing us right now.
    Mr. Pombo. Then why is National Marine Fisheries taking the 
actions that they have?
    Dr. Anderson. There are at least two cultures at NMFS. 
There is a management culture and a science culture.
    And I think there are another reasons why NMFS has taken 
its particular actions.
    Mr. Pombo. Political reasons?
    Dr. Anderson. Some political reasons. And I think that they 
need to readdress these and stand behind the science more 
strongly.
    I think that that would help in grounding people's 
expectations.
    Mr. Pombo. Do you think, and I realize that you are a 
scientist, but do you think that the political decisions that 
have to be made, and that's those of us sitting up here are the 
ones that have to make those political decisions, would be 
easier if it was based upon good science?
    Dr. Anderson. Oh, of course.
    Mr. Pombo. One of the frustrations I have with the 
implementation of this Act is that we have people who come in 
and testify that what the Federal Government is doing just 
doesn't make sense.
    And then we have the scientists who come in and testify and 
question the scientific decisions that are being made.
    And it puts us in a political conflict.
    It would seem much easier to be able to make a decision and 
to go to all of these people and to say, here is the science, 
back up the decision, and if it's good science, I think they 
can look at it and say, well, all right, we might not like it, 
but it makes sense, it leads to the recovery of the species, 
and we will go along with it.
    The problem comes when they look at it and say, this just 
doesn't make sense, why are you doing this to us?
    And that's the conflict that we have heard all over the 
country with this particular Act. That gives me a real problem.
    Speaker Ballard, you mentioned in your testimony resource 
control. That you felt that a lot of the actions that were 
being taken had little to do with science or the recovery, but 
had more to do with wanting to control the resource.
    Can you expand on that?
    Mr. Ballard. Well, we have been working hard in the state 
of Washington to be able to do something productive.
    And what we have found is there is an industry who includes 
the ones I mentioned that I believe simply have nothing to do 
with the salmon recovery, but more have to do with establishing 
control, and with a political agenda.
    I wish there was some way I could say that they had done 
something productive. Their production has been in spending 
large amounts of money of the government, in spending and 
controlling large numbers of citizens who virtually are being 
shut out of their own property, and I think it is simply 
something that in the end will result in not only the failure 
to improve any salmon recovery but will also literally decimate 
people's property rights and communities throughout this whole 
region.
    Mr. Pombo. I will recognize Congresswoman Chenoweth.
    Mrs. Chenoweth. Thank you, Mr. Chairman.
    I wanted to address my questions to Dr. Anderson.
    You know, first let me say, Mr. Chairman, we have been on a 
lot of these hearings, and we have heard hundreds of people 
give testimony to us.
    But I think that this, the panel that we have in front of 
us, has been one of the most instructive and startling pieces 
of testimony that we have heard. Thank you so very much. Very, 
very good.
    Dr. Anderson, I wanted to ask you, have you ever heard of 
Jim Bugal, an author of the book The Great Salmon Hoax, an Eye 
Witness Account of the Collapse of Science and Law and the 
Triumph of Politics in Salmon Recovery?
    Dr. Anderson. Yes. I know James quite well.
    Mrs. Chenoweth. Do you? I would recommend that everybody 
read this, most especially the Federal agencies. Shame on them.
    You know, Mr. Bugal, by the way, is a major in physics, and 
he's an environmental lawyer, and I am not real fond of 
environmental lawyers. But I really like this book.
    But, you know, he points out the fact that the overwhelming 
bias of the fisheries agencies are against the dams, and yet to 
my knowledge, and I am asking you, have they ever produced 
defining documents establishing any of the other causes for 
what they perceive to be a decline in the fisheries, such as 
what are the threats of the major explosions of the terns and 
the sea lions and the squaw fish and the walleye and the young 
steelhead and the mackerel and the northern sea lions and 
California sea lions and so forth, have there ever really been 
any defining documents that really address this?
    Dr. Anderson. In the PATH process, where we are trying to 
pull apart all the pieces, we have gone through the first stage 
of looking at some of the basic things.
    What we have found was there's a huge amount of mortality 
in these fish that we don't have a good explanation for where 
it's come from. It seems to have--to have occurred about the 
time the dams went in.
    But if you look closely at the data, you find that there 
were high fish runs when the Snake River dams were being put 
in. A lot of us believe that the climate is a very important 
factor, and it certainly is. We're now, in this analysis 
process, beginning to look at these other factors. The terns, 
the sea lions, the impacts of hatcheries, also the impacts of 
the hydro systems, and putting all of these things together in 
what we call a multiple hypothesis.
    The trouble we have in doing this is that all of these 
things kind of happened at the same time, so we are having a 
hard time giving--pulling the pieces apart. The old statement 
comes up with when every scientist, we need more data to be 
able to give you a definite answer, is true in this case.
    And so it is going to continue to be a political issue 
until we can resolve some of these things.
    Mrs. Chenoweth. Thank you, Dr. Anderson. Thank you, Mr. 
Chairman.
    Mr. Pombo. Congresswoman Smith.
    Mrs. Smith. Thank you, Mr. Chairman, and gentleman, you 
represent your states very well. Very articulate.
    And I know some of the things you've done in both states to 
restore salmon runs. And I would trust you more than any 
Federal agency in just what you have done.
    I would like to address a question to Dr. Anderson. I am 
going to ask you to answer it pretty direct.
    Are poor ocean conditions the major factor currently 
affecting salmon recovery?
    Dr. Anderson. I think they are one of the major factors. 
And I don't think we know all of the major factors.
    Just to put things in context, we're in a period that is 
poor fish conditions and dry weather conditions that's one of 
the longest periods in probably the last 500 years. So we have 
unusual conditions right now.
    It just so happens that these flipped into the state about 
the time the dams went in. It could be that that's a major 
cause.
    But we can't really give a definite answer.
    Mrs. Smith. Give me about the time the dams went in, so you 
say it is a fairly prolonged change.
    Dr. Anderson. In 1977, the ocean changed. The last dam was 
put in in 1976. The hatcheries increased, we controlled the 
flows with the new storage reservoirs.
    Everything happened at that time. But ocean is clearly a 
factor because stocks are going down all over the West Coast.
    But there is a ray of hope in that, that it looks like, and 
there's a lot of close scrutiny of this right now, that some of 
these conditions may be flipping right now, and that's 
demonstrated by the decrease in the returns in Alaska and some 
small increases in runs on the West Coast.
    So I think just a lot of the issues might be, will resolve 
themselves if the ocean does really turn around and the runs 
come back on their own.
    Mrs. Smith. I would like to followup a little bit on your 
participation in the flow augmentation program and your review.
    Do you believe that the program is producing meaningful 
results, will it contribute significantly toward fish 
protection or recovery, and I guess go on to just tell me, do 
you think it should be continued at all, and would you modify 
the program if you think it should be continued?
    Dr. Anderson. The analysis we have done on the flow and the 
impacts on survival indicate that it has very little impact on 
the fish.
    So that's what the science is telling me, so that's what I 
would have to go with.
    I think that there's better ways to spend our limited 
resources than putting water through the system in the spring.
    In particular, with the transportation program where there 
are so few fish that are actually moving down through the 
system.
    Most of the fish right now are going down the system in 
barges.
    Mrs. Smith. Thank you. And in summary, if you could, and I 
know you have way much--way too much information to really do 
this, but if you could be God for a day, and don't take this as 
sacrilege, what would you do? What would you do today, if you 
had all the money, all the time, you could just do it without 
bureaucracy?
    Dr. Anderson. I would evaluate which programs are working, 
and I would then spend time trying to educate better the public 
on what works and what doesn't.
    Mrs. Smith. And what do you think works now, if you just 
think, I mean, give us that benefit.
    Dr. Anderson. Transportation program works fairly well.
    Mrs. Smith. Barging?
    Dr. Anderson. Barging. And it is partly responsible for the 
stocks not going extinct during this bad period. I also think 
there have been some great improvements at the dams.
    And those would be two of the main things.
    What I get out of most of the things we have done is it 
appears like a lot of it is out of our control right now.
    We have made some incremental changes and we will probably 
continue to do that. I don't see any magic bullet that's going 
to save the fish.
    Mrs. Smith. Thank you, Doctor. Thank you, gentlemen.
    Mr. Pombo. Congressman Romero-Barcelo?
    Mr. Romero-Barcelo. Thank you, Mr. Chairman.
    I also want to congratulate the panel. I think the 
testimony here today has been extraordinary, and I certainly 
have learned a lot.
    I am here to learn. I am not here to tell you anything. But 
I would like to hear a little bit about the plans that 
Washington State and Oregon have developed to restore the 
salmon habitat.
    I mean, what I would like to address your answers to, what 
is--what are the obstacles to implementing these plans and can 
they be identified, and if so, how do you suggest that they can 
be overcome so that those plans can be put into practice?
    Mr. Lundquist. I will start with Oregon's situation.
    First of all, let me say that in response to some of the 
comments here about science, we have what can be called a 
multidisciplinary scientific team as one of the core of our 
Oregon Plan, as one of the core elements.
    And again I think that is one of the things that will help 
us restore the salmon.
    The doctor down here I think is saying, we don't really 
know, and so why go out and spend billions when we don't really 
know.
    So point No. 1, that's what's happened in Oregon.
    Second, it was very comprehensive. It really boils down to 
improving the quantity and quality of water. That's really what 
it's all boiled down to.
    The impediment that we have in Oregon, since we had it 
approved, we put the money forth, with the legislature and the 
private industry, and then the courts came along and said, no, 
this doesn't meet the ESA standards.
    And so that right now is our major impediment.
    I will tell you in Oregon, we are going ahead anyway. We 
will probably do some revising of the plan in the next session. 
But we are going to go ahead.
    And so the impediment is not with the landowners. The 
impediment is from the Federal regulations that apparently do 
not allow this to function.
    Mr. Romero-Barcelo. Is that the Federal Court or the State 
Court?
    Mr. Lundquist. Federal Court.
    Mr. Romero-Barcelo. Federal Court. And the NMFS has 
approved the plan?
    Mr. Lundquist. Yes. The National Marine Fisheries Service 
did not list the Coho on the central Oregon coast, and the 
northern coast, and then after that happened, then that's when 
the courts came in. There are some groups obviously that filed 
a court case against us.
    Mr. Romero-Barcelo. Thank you.
    Mr. Mastin. The legislation we passed last year received 
100 percent support in the legislature. The governor signed it 
without vetoing any section. And the Governor in our state is 
known for vetoing sections. So that's significant itself.
    I am not trying to be humorous. That's true.
    Probably the biggest impediment that we face, two, 
basically.
    No. 1, our approach is based on science, and it's based on 
the specific river-based science, site-specific science. And 
then it's based on working with landowners instead of working 
against them. Being a partner, collaborating with them.
    We have stepped up to the plate. We have spent over--about 
a hundred million, with some Federal dollars, we have 
appropriated through our state budgets on this plan to work 
with the landowners to improve the habitat.
    These are the challenges we are facing right now.
    If we start to move into a regulatory enforcement 
legalistic mode, which is what I've been hearing is happening 
not only at the Federal level but actually within our state 
administration, then we will undo all the work that we have 
begun to do to restore the habitat.
    So I think the regulatory bureaucratic enforcement mode is 
the biggest impediment we have.
    Point No. 2. Just take the example of a buffer zone. In the 
Touchet River, right outside my home town of Walla Walla, they 
have over 26 miles, over 26 miles of landowners who are willing 
to put in buffer zones of a hundred foot. A hundred feet. 
Twenty six miles.
    There's been rumors that NMFS, or others, are going to 
require a 200 foot buffer.
    If we go to a 200 foot buffer requirement, you will have 
less than a quarter of a mile of buffer zones on the Touchet 
River.
    And I submit to you that whether certain scientists in 
certain rooms say you have to do 200 foot, in reality, if you 
want to improve the habitat on the Touchet River, go with the 
hundred foot buffer, because you will get 26 miles of it, and 
for every buffer you put, the landowner will also let you put 
in large woody debris and will do meandering and root walk, 
they will let you do these other things that will help the 
habitat as well.
    So I say the biggest impediment is people who don't want to 
work with landowners, who don't want to listen to the people in 
this room, and who are more interested in a bureaucratic 
approach than actually solving the problem.
    Mr. Romero-Barcelo. In other words, you work only from the 
scientific point of view but also from the political point of 
view, working with everyone that is concerned.
    Mr. Mastin. And I won't call it political. I would call it 
common sense.
    The principle is this: People like to be asked, not told. 
And people will work with you if you respect their concerns and 
their interests.
    Mr. Romero-Barcelo. That's what I call political.
    Mr. Mastin. You collapsed all of that in Puerto Rico.
    Mr. Romero-Barcelo. Some other people look at politics in 
the negative, because some politicians are negative.
    The difference between petty politics and politics, policy.
    Mr. Mastin. With your indulgence, Mr. Chairman, I just 
thought of one other point that is very important.
    We ask that you folks, as Members of Congress, listen to 
what we did. We ask you to respect what the state legislature 
did last year. No dissenting votes, from the most conservative 
to the most liberal. Every single member voted on what we did, 
and the Governor signed it.
    And we ask you, when you look at appropriating dollars to 
the state of Washington, please respect what we did.
    I think to some degree we knew what we were doing, and we 
would appreciate, if you are sending us money, to send it in a 
way that respects what we did and doesn't conflict with that 
and pull down the effort that we have started in Washington 
State.
    Mr. Romero-Barcelo. Thank you. Thank you very much.
    Mr. Ferrioli. Mr. Chairman, Chairman Pombo, Representative 
Romero-Barcelo, we have a similar story to tell in Oregon, and 
similar support for our effort.
    We appropriated $30 million directly, and $120 million are 
coming from voluntary enhancements.
    The key effort is cooperation. Landowners, timber 
operators, cattle ranchers, farmers, irrigators, folks that 
depend on the land, need certainty, and they need reasonable 
rules.
    The issues that we have come up against with National 
Marine Fisheries Service is they have no sense of propriety. 
They take a regulatory approach to everything that they do.
    And there's a clear choice on the table here between the 
regulatory approach, which would be just to virtually stand 
over people with the full weight of the Federal authority, or a 
cooperative approach, where you simply ask people to do a 
reasonable management regime based on certainty and based on 
reasonableness to improve aquatic habitat.
    The word's cooperation, and so the choice is clear.
    The Oregon Plan, and I think to the same extent the 
Washington plan, to recover the species far exceeds what could 
be required under the Endangered Species Act, and it is based 
on cooperation, as opposed to the mere avoidance of take, which 
is the regulatory approach, being pushed by U.S. Fish and 
Wildlife and National Marine Fisheries Service.
    So we have come as a society to a choice. Either we are 
going to involve every person that lives in our state and that 
works with the land in recovering this species, or we are going 
to try and regulate every person that lives in this state as to 
everything that they do in society to manage their land and 
produce the food and the fiber and the goods that we all depend 
on.
    We have chosen the course that is based on cooperation and 
involvement.
    And unfortunately the courts decided on a technical issue 
that we can't consider cooperative efforts as being effective 
under the Endangered Species Act.
    That's the flaw here. It wasn't that Washington's plan or 
Oregon's plan wasn't effective or wouldn't work or wouldn't be 
efficacious on this issue. It was that under the constrictions 
of the Endangered Species Act, you can't consider cooperation 
in the listing decision.
    It shows you how badly flawed the Endangered Species Act 
is.
    Mr. Romero-Barcelo. Thank you, Speaker Ferrioli.
    Mr. Pombo. Congressman Hastings.
    Mr. Hastings. First of all, I want to congratulate you 
legislators, not only from Oregon and Washington, but also from 
Idaho and I think Montana and other Western States that are 
taking the bull by the horns on this issue and are trying to 
come up with local issues.
    Because I certainly subscribe to the notion that when the 
issue is done at the end of the day, if it ever does get 
resolved, it will be better resolved and understood because of 
the input that you have had and decisionmaking that you have 
had at the local level.
    Part of the reason for this hearing is to try to ascertain 
how NMFS has been administering this Act in the Northwest.
    Both of your states have described how you have gone 
through this process.
    My question, Dave, I suppose you would be the one from 
Washington since you took the lead on this, and I will ask you, 
and then Dave, if you are the one from Washington, or Lynn, it 
doesn't make any difference to me.
    My question is this: As you started this process, did you 
attempt to include right from the beginning NMFS in this 
process, and if not, why not, and if so, did they participate 
on an active basis to try to help you through some of the 
hurdles that you would have. Dave?
    Mr. Mastin. Congressman Hastings, several of us met with 
Mr. Stelle, Will Stelle in Seattle, who's in charge of NMFS up 
in the Seattle area. And we also had hearings across the state. 
And NMFS was always willing to come and testify before our task 
force.
    I think that the approach we took was when we started 
looking out there and seeing, HCPs and getting certainty and 
what does it take and what rock do you want, I mean, how much 
do we have to do and what do we have to do, and all of the 
maze, and no answers, and I am hearing from all of our state 
agencies, they are not getting a response from NMFS, NMFS won't 
tell them what they need to do or won't give them a clue, I am 
hearing this, and other legislators are hearing from this task 
force.
    So we just did something real simple. We said, let's set 
aside all of the politics, let's set aside all of that stuff, 
and let's pretend we are God for a day, and let's figure out 
how can we create a system that is viable and will restore 
habitat.
    And that is a system that is based on science and which the 
landowners agree to be participants. And if you do those two 
things, you will restore habitat. And that's what we did in the 
legislation.
    So in a sense, we avoided all of that because it seemed 
like a big mess that we weren't going to get resolved. While 
those of us in the state of Washington are committed to 
reasonable and sufficient environmental and salmon habitat 
restoration, that is what we took to move on.
    Mr. Hastings. One last statement in that regard. With the 
example of the two streams, the unfortunate part is you have 
the 6 month delay even though I assume in this case those two 
streams you are talking about, they were along with the process 
all the way.
    But even if they are along the process, you had a problem 
of the 6 months delay for them to OK.
    Did I hear you right?
    Mr. Mastin. That's absolutely correct. So what we have, as 
many of you are aware, there is a window of opportunity to get 
into the streams to do restoration work. And that ends 
September 1st.
    And so each day and each month that we lose, and in this 
case we lost 3 months on one stream and 6 months on the other 
stream, each day means that that's another project we are not 
going to get done this year, and that just backs up the 
projects down the road.
    So that's a major concern.
    The other thing is even with the September 1st deadline, 
what we saw, Fish and Wildlife, every day would come out and 
see if fish were returning yet. And they actually got to work 
until September 13 because no fish--they were set to come back 
about September 1st, but Fish and Wildlife actually went out 
and made sure there were no fish and allowed the landowners to 
keep working in the stream to improve habitat.
    That's the kind of relationship we'd like to have with 
NMFS, one that's cooperative and working together.
    But the problems on the most part, we'd like money from the 
Congress so that we can go forward with our restoration efforts 
that we think's going to work.
    Mr. Hastings. Go ahead, Lynn.
    Mr. Lundquist. Well, the process in Oregon actually was 
going on before the session for approximately 18 months before 
we even got into the session.
    The Governor took the lead on this. Actually was working 
with NMFS and with a lot of the natural resource community, 
Farm Bureau, cattlemen and so forth.
    So, in direct answer to your question, yes, there has been 
a dialogue going on there.
    However, the dialogue was not with the legislature through 
that process. And when the legislature did get involved, NMFS I 
would say did participate.
    However, I would characterize it as the fact that how could 
we meet their standards? It wasn't a matter of what was good 
for the fish. Even though they would say that is part of the 
process.
    But really it seems more like, how do we meet the standards 
so we don't get listed. We thought we were going to get listed. 
And eventually, now we have. That was the situation.
    Also it seemed like when you went to step A, then there was 
step B. And I suppose you could say part of it is it is a new 
endeavor, at least for the state of Oregon. Very comprehensive. 
If I were to bring that, it is probably about that thick, the 
Oregon Plan.
    But once you got to one point, then you had to go to the 
next point.
    And what I said before, the Memorandum of Agreement, we 
thought we were there. And then we had to have this gun to our 
head, Memorandum of Agreement process.
    So that's the kind of history I think that Oregon has had 
with implementing the plan.
    Mr. Ferrioli. Mr. Chair, Representative Hastings, Dave 
Mastin mentioned, go get a rock.
    That's the experience we had. Our speaker mentioned the 
feeling of have a gun to our head.
    I tell you it was a very extortionary relationship. We 
would be told that the commitment was questioned by the Federal 
agency, the commitment of the people of Oregon was called into 
question by this agency. We don't trust you. We don't believe 
that you will do what you say you will do. Well, we're not sure 
that this organization or this plan or this aspect of the plan 
will be sufficient. What else can you do?
    And that was a continuous relationship. Here's an example. 
After we agreed to collaborate and we knew National Marine 
Fisheries Service had a real problems of what they were 
perceiving in the Oregon Forest Practices Act, I thought that 
was because of their misunderstanding of the requirements of 
the Act, we knew they wanted to open a dialogue on the changes 
that they expected us to look at at the state legislative 
level.
    What we got was a press conference. And what we got was the 
release of the document after it had that had been written.
    There was no collaborative process. There was no iteration 
of values. There was no give and take on how we might improve 
the effects of the Oregon Forest Practices Act.
    So the bottom line for us is that we were in an opportunity 
to do something cooperatively and collaboratively.
    Somebody pointed out in the legislative session that 
collaborators were shot during World War II, and that is 
exactly why.
    The definition of collaboration in Oregon was capitulation 
to the National Marine Fisheries Service. We didn't want to go 
there, and we still don't want to go there.
    Mr. Ballard. The way we have been treated by the National 
Marine Fisheries in general is one of threats, and if you don't 
do what we're going to tell you, no matter whether it has any 
basis, no matter if it will steal people's rights, if you don't 
do it, we will make you suffer at a greater level than what you 
are going to suffer.
    I would submit to you if the employees that are making 
these decisions and the heads of these agencies were treated 
the same way they treat us for a period of 1 year, we would 
find a dramatic change.
    It should not be happening in the United States, for people 
to do things the way they're doing. They are literally treating 
us as though we are their prisoners, and that's wrong.
    Mr. Lundquist. Congressman Hastings, one thing I did not 
point out in our relationship, and that is what I think you are 
here to find out about NMFS, was I believe there's a 
significant disconnect between the people that we worked with 
at maybe at the upper level, and with a lot of the staff in 
NMFS.
    And if you would read the judge's decision, you will see 
that pointed out.
    And I think that's very, very significant.
    When you have an organization that I am going to say that 
even the upper echelon were probably more receptive, at least 
they were available, and were having I think a lot of staff 
undercutting it.
    If you will read the judge's decision, you will see that. 
And that is just an untenable position.
    Mr. Hastings. Thank you, Mr. Chairman.
    Mr. Pombo. Congressman Nethercutt?
    Mr. Nethercutt. Thank you, Chairman. Thank you all, 
gentlemen, for your testimony today.
    I think you have illustrated what those of us at this panel 
have come to be frustrated with, and that is Federal judges 
making decisions under the Endangered Species Act that Federal 
agencies tell us and tell you that they are trying to 
implement.
    There's an ambiguity in the ESA that is interpreted by one 
or more Federal judges that leads to terrible frustration.
    So the ESA cries out for reform.
    But from a political standpoint, my sense is it's resisted 
time and time again, and demagogued to the point where it 
becomes a very political issue at the Federal level where we 
have to deal with trying to change those laws.
    So I sense clearly what your frustration is.
    I look at H.R. 4335 to transfer the functions of the 
National Marine Fisheries Service and Secretary of Commerce to 
the Secretary of Interior, and I am not very pardoned by that, 
given the persuasion that we have to deal with at the 
Department of Interior and the Secretary of the Interior.
    So maybe anything's worth trying, but, boy, we deal in 
spades with those kinds of frustrations in dealing with all 
these land management agencies, comprised I am sure of good 
people and good intentions, but, boy, maybe that's the fat into 
the fire in some respects.
    But having said that, I want to address the issue of 
solutions, and cost.
    Senator Ferrioli, you mentioned the cost issue and this 
unfunded mandate mentality.
    Do you have specific recommendations about how we can 
address the issue of unfunded mandates and cost for 
implementation of EAs and NMFS requirements in a way other than 
to just eliminate some Federal agencies, which many of us would 
prefer, but maybe you can address that, sir.
    Mr. Ferrioli. Mr. Chairman, Congressman Nethercutt, I think 
the key here is to be cognizant of the fact that the states, 
given the challenge for managing for the recovery of species, 
have developed a program to do that that involves every agency 
in the state government and significant commitment of resources 
at the state level.
    The National Marine Fisheries Service and U.S. Fish and 
Wildlife Service and other Federal agencies needs to get out of 
the way and let those states accomplish those goals.
    We don't really have a problem with setting the goal at the 
Federal level. What we have a problem with is the infusion of 
Federal regulations at the local level and the mistrust of 
state activities and state efforts to accomplish the goal.
    We don't have a problem with where the bar is set, but once 
the bar is set, leave it alone, and then let the state 
government and the citizens of the state and the landowners of 
the state go about meeting the requirements.
    We will do it, and we will do it in a much more cost 
effective way and a much more reasonable way than anything that 
the Federal Government can bring to the problem.
    Mr. Nethercutt. But that might impinge on the Federal 
employment of the Federal agencies.
    Mr. Ballard. My request would be to look at what the states 
have done with cooperation from virtually every part of the 
state of Washington and Oregon.
    And as was pointed out, when you get unanimous votes.
    What is not helpful, is for the Federal Government to send 
money to a state that bypasses the legislature and the intent 
of the legislature, and then gets put off into more programs 
that have absolutely no way to enhance the salmon.
    So, we have good plans. And what we'd like to do is work in 
cooperation with you so that if you are going to send money, I 
must be honest with you, my preference would be to keep your 
money and to keep your rules and regulations.
    But, having said that, the legislatures historically have 
been overlooked. We are the ones that have to deal--These are 
our constituents. We go home, they know us by our first names, 
they know our home phone numbers, and we have to deal with 
them. And it's our responsibility, and we gladly accept that.
    But work with us, when you send resources, so that we can 
work with the people then to do what's been pointed out, is a 
very successful way to do it.
    Mr. Nethercutt. Many of us would prefer not to have the 
money being sent in the first place back to Washington. We'd 
rather have people here use it and have the states make 
decisions about what's in the best interests of their region.
    I see my red light is on. I would just make a quick 
comment.
    Representative Mastin, you are from the district in which I 
serve, and you are recognized as a leader in this whole issue.
    So, to the extent that there are any questions about the 
commitment to preserve fish habitat and have recovery efforts 
and respect the rights and property interests of the industries 
that you serve and I serve and everyone at this panel serves, 
that's agriculture and timber, we congratulate you and every 
member of this panel for your commitment to those local control 
goals and decisions and respect for the industries that drive 
our part of the country. That's why we like to be here.
    So I thank you all for your testimony today. Mr. Chairman, 
thank you.
    Mr. Pombo. Thank you. I am going to release this panel. I 
would like to thank you for your testimony. I can tell you that 
it was quite refreshing, the honesty in which you answered the 
questions. A lot of times when you have elected officials who 
have to deal with these Federal agencies on a day-to-day basis, 
they kind of try to sugar coat all of their answers.
    And I appreciate your honesty in answering the questions.
    I will tell you that there will be additional questions 
that will be submitted to you in writing. I know I have some 
specific questions that I would like to ask Dr. Anderson about 
his perspective on some of the things that are going on.
    If you could answer those in a timely basis for the 
Committee hearing, we will leave the official record open to 
give you time to answer those.
    But I know that other members will have additional 
questions they would like to ask of you, and I would like to 
thank you for your time and for your testimony. Thank you for 
being here.
    I would like to call up the second panel. Mr. William 
Stelle, Jr., Mr. Jeff Curtis, Dr. Darryll Olsen, Mr. John K. 
Givens, and Mr. Bob Hale. If you would join us at the witness 
table, please.
    I would like to welcome the witnesses here today. I think 
you heard the explanation about how the lights work. I won't do 
that one again.
    Mr. Stelle, if you are prepared, you can begin. You will 
have to use that microphone there.
    And just to remind you, all of you, you are going to have 
to speak right into the mikes, because they won't pick it up 
otherwise. So get it as close to you as you can.
    Mr. Stelle?

   STATEMENT OF WILLIAM STELLE, JR., REGIONAL ADMINISTRATOR, 
     NATIONAL MARINE FISHERIES SERVICE, SEATTLE, WASHINGTON

    Mr. Stelle. Mr. Chairman and members of the Subcommittee, I 
appreciate the opportunity to testify before you today. I have 
a written testimony which I want to submit to the Committee. 
And I will summarize my comments before you.
    Before I get into the substance of my testimony, I want to 
genuinely express my appreciation for this hearing today. I 
think it's an excellent opportunity for us to get together here 
in the Tri-Cities area and talk about this important subject.
    People care about it. It is complicated. There's a lot of 
information. And I think a dialogue and a good, full throated 
discussion about these issues is useful to continue on in the 
salmon recovery effort here in the Pacific Northwest.
    I think this hearing is useful, and I thank you for an 
opportunity to participate in it.
    Let me summarize my comments by making a series of what I 
hope are fairly precise points, and then I encourage questions. 
I look forward to them.
    First and foremost, the salmon runs in the Pacific 
Northwest are at serious risk of extinction, and that is the 
starting point for our discussions today, and for all of the 
efforts here on salmon recovery. They are at risk in the Snake 
Basin, in the Upper Columbia, in the Lower Columbia, in Puget 
Sound, in coastal and in the drainages of coastal Oregon, and 
California. We have a very serious problem, first and foremost.
    Second basic point is that the causes of this problem are 
many and extensive. And it's important to understand that. This 
is not an upstream issue only. It's not a downstream issue 
only. We didn't get here in a day. We have come here to where 
we are today from over a long period of time, and we will not 
reverse the trends in these populations unless we have 
perseverance, patience, and resolve. This will not be simply a 
flash in the pan solution.
    Third, and, again, very importantly, the Pacific Northwest 
are absolutely and fundamentally committed to the restoration 
of these salmon runs. The extinction of salmon in the Pacific 
Northwest is not an option. This is not an Endangered Species 
Act issue per se. It's an issue about what we in the Pacific 
Northwest are all about.
    The idea of our region, barren of salmon in the coming 
decades, is completely unacceptable to everyone. And we have a 
deep and abiding commitment to the restoration of these runs.
    Salmon recovery is not fundamentally a political issue. It 
is not a partisan football. It is a simple matter of 
priorities. And the priorities of the people of the Northwest, 
expressed over and over from every point of view, is that we 
want a successful salmon restoration effort here in the region.
    Fourth. The issue, the challenge most fundamentally, is an 
issue of habitat. Restoring salmon is the same thing as 
protecting our clean water, is the same thing as restoring the 
health and vitality of our stream and river systems. Healthy 
salmon runs, healthy salmon streams, good, clean water are all 
one in the same effort.
    Let me describe to you some of the basic principles that 
the National Marine Fisheries Service brings to the issue of 
salmon recovery here in this region.
    First and foremost, we have a commitment to pursue the best 
science available. Unequaled. It is an unequivocal commitment. 
Our science is open. Our science is transparent. Our science is 
continually submitted to peer reviews, and our decisions are 
based upon it. Point No. 1.
    Point No. 2. It is a commitment to a comprehensive approach 
to salmon restoration. As earlier witnesses have testified and 
observed correctly, there is no silver bullet, there is no one 
single source of the problem, and a solution to be effective 
must be comprehensive. It is not just a question of the dams, 
though the dams are important. It is not just a question of 
water, though water is important. It is not just a question of 
fishing, though fishing is important. And it's not just a 
question of hatcheries, though hatcheries are important.
    Any successful solution for salmon restoration over the 
long term in the Pacific Northwest must be comprehensive and 
must address all stages of risks to salmon throughout their 
wonderful life cycle.
    In the spawning and rear tributaries, in the mainstem, in 
the estuaries, and in the ocean.
    The third point. We are absolutely committed to fostering 
partnerships in salmon restoration. Partnerships with the 
states, partnerships with the counties, partnerships with 
private entities, wherever and whenever we can.
    Some examples that you have heard again already is, one, 
with the Oregon Plan. The speaker and Senator very eloquently 
described it to you. From our perspective, we worked very long 
and very hard for a couple of years, shoulder and shoulder with 
the State of Oregon to construct an Oregon Salmon Plan.
    We believe it is the way to go. We support it. We made 
decisions based upon it. And we will defend those decisions, 
and we will defend the continued implementation of that plan.
    Closer to home, we spent several years working very hard in 
good faith with the state, with the Tribes, and with the Mid-
Columbia utility districts to develop a long-term strategy that 
they fostered for the operation and improvement of fish 
survivals and productivities at their projects here in the Mid-
Columbia region. Again, a vital partnership.
    Salmon solutions are not going to be Federal solutions 
alone. They will not be state solutions alone. They will not be 
private solutions alone. If we are going to be successful, and 
we must be successful, we must do so in partnerships in good 
constructive collaborations. And we support those.
    Finally, we are committed also to, in our salmon 
restoration work, to honor Federal obligations to Native 
Americans and treaty Tribes here in the Columbia Basin and 
throughout the Northwest.
    The restoration of the salmon is not only vital to the 
people of the Northwest in general, and important under the 
Endangered Species Act, but it is also essential to honor our 
centuries of commitment to our Native American Tribes here in 
the Pacific Northwest, to enable them to exercise their treaty 
preserve rights, to fish and hunt in from usual and accustomed 
fishing places.
    We believe that the endangered species efforts and those 
treaty efforts are compatible, and we seek to pursue them both.
    What are some of the major challenges in the salmon 
restoration effort?
    Let me first of all cite what is not a major challenge. 
People care about salmon, and that is the bedrock of success 
upon which this effort is going to be based.
    Some of those challenges are, first and foremost, 
scientific uncertainty.
    I would love, and I can't tell you how much I would love, 
to be able to point to clear, unequivocal and convincing 
evidence on some of the important issues we face here in this 
region.
    The fact of life is, is that there is not crystal clear 
science on any one particular factor. The ability to isolate 
one factor as the silver bullet is very limited. The ability to 
eliminate the noise in the system, so to speak, from a 
scientific perspective is, is limited, and we therefore don't 
have absolutely clear-cut scientific certainties. We must 
acknowledge that, and we must design strategies that build 
decisions based upon on the best scientific judgment available 
to us, and we do so.
    Second, there are bottlenecks in the system. This is a hard 
job. Speaking largely from an NMFS perspective, it is hard. 
There are hundreds and hundreds of activities that one has to 
review. There are meetings and meetings, countless meetings 
that you are invited to at every level of the agency, and you 
only have a limited number of people. So you cannot be 
everywhere at once. And it is simply hard, a big, important 
challenge to our staff to try to cover all the bases that we 
must.
    I think we are meeting that challenge in a responsible way. 
We have geared up to meet it. And our capabilities now are well 
suited, as we move into additional restoration efforts here 
largely, largely in the coastal areas.
    The third major challenge----
    Mr. Pombo. I am going to have to ask you to wrap it up.
    Mr. Stelle. Yes. The third major challenge is what I 
consider the blame game, and that is the tendency for entities 
or individuals to try to pass the buck somewhere else.
    You know this well. Everybody knows this well. It's a fact 
of life. But there is a tendency to point the fingers 
elsewhere, to say, no, it's not the dams, or, no, it's not 
fishing, or, no, it's not the habitat, or, no, it's not water.
    Those assertions are all wrong. It's a little bit of 
everything, and all of the sectors and all of us will have to 
take responsibility in improving salmon survivals and in 
contributing to the long-term restoration effort.
    The blame game will not succeed in where we must succeed.
    Finally, I think building a sustainable ethic on the ground 
that protects our streams is vital to a healthy stream system, 
to clean water, to good productive land, and to an economy is 
part of the long-term solution.
    Now, let me comment finally on the legislation. We oppose 
enactment of H.R. 4335. The administration opposes this bill.
    First and foremost, 25 years ago with enactment of the 
original Endangered Species Act, Congress and then President 
Nixon made a judgment that the consolidated management of 
putting this in one single Federal agency made sense. It made 
sense then, and it continues to make sense. Over that 25 year 
period the National Marine Fisheries Service has built up 
decades of experience, expertise, and world class science in 
the execution of these responsibles.
    Shifting these responsibilities to the Fish and Wildlife 
Service would take years, it would take years for the dust to 
settle on that kind of change.
    I can't think of a worse time than to do that in the middle 
of the effort here in the Pacific Northwest we are in. And it 
would constitute a major disruption to salmon recovery efforts 
that we don't need.
    What are the problems that this legislation is intended to 
avoid?
    First, there are suggestions that there are inefficiencies 
in having joint management of the endangered species program 
between the Fish and Wildlife and NMFS.
    It would be my contention that in fact we have a joint 
collaborative effort in the implementation of the program and a 
record that we are proud of here in the Pacific Northwest and 
nationwide. We do things together. We do not duplicate, and we 
make sure that our policies and strategies line up. If there 
are efficiencies to be garnered from this legislation, they are 
minor.
    Second, the second is that the real remedy for this 
legislation that NMFS is too tough and that maybe if we shift 
responsibilities elsewhere, it won't be so tough.
    These problems are not the problems of the National Marine 
Fisheries Service. They are salmon problems. The science won't 
change and the solutions won't change by simply changing the 
labels and the hats that people wear.
    In conclusion, Mr. Chairman, again, I want to express my 
appreciation to be here, and I look forward to answering 
questions of the panel.
    [The prepared statement of Mr. Stelle may be found at end 
of hearing.]
    Mr. Pombo. Thank you. Mr. Curtis.

STATEMENT OF JEFF CURTIS, WESTERN CONSERVATION DIRECTOR, TROUT 
                  UNLIMITED, PORTLAND, OREGON

    Mr. Curtis. Mr. Chairman, thank you for the opportunity to 
testify. Trout Unlimited is an organization of over 100,000 
members. We have about 7,000 members in Oregon, Washington and 
Idaho.
    It is somewhat of a coincidence that here in Pasco you have 
two former counsel of the Subcommittee on Fisheries Wildlife 
Conservation and the Environment on the same panel, both Will 
and I served at different times as counsel to that 
subcommittee.
    And during the time I served as counsel I know I often 
wondered and I think Will probably did, too, about the division 
of responsibilities between the two agencies.
    I mean, some of it really doesn't make sense. Why, for 
example, would the National Marine Fisheries Service have 
jurisdiction over all pinnipeds but walrus, is an interesting 
question. So in a global sense, looking at the division of 
responsibilities between the agencies makes some sense, and 
perhaps the Committee should consider that at some point in the 
future.
    But like Will, I say, not now. We are in a crisis 
situation. This year, less than 10,000 spring Chinook made it 
to Idaho. Less than probably a third of those were wild fish. 
And they are going to 42 separate sub-basins. We are in an 
extinction spiral. That's down from an average of 15,000 over 
the last 10 years, and untold thousands prior to when the dams 
went in.
    At this time, moving anadromous salmonid recovery 
responsibilities to an agency not previously involved in these 
issues is a recipe for mass confusion. The chance that the 
upcoming decisions would have a random quality to them would be 
greatly enhanced.
    And I don't think we should get basically different 
decisions out of the two agencies. Frankly, I was at the U.S. 
Fish and Wildlife Service as a legislative person when the 
snail darter situation came up, and that agency was not known 
then and is not known now for backing down on these issues.
    Rather than tinkering with agency roles, we have endorsed 
the development of a regional process along the lines of the 
three sovereigns process. We believe that a process that brings 
the major government agencies in the Basin together, state, 
tribal and Federal, that is open to participation by other 
parties, could move the region closer to a consensus on the 
salmon and energy issues.
    We are not so naive to think it would bring complete 
consensus, but I think it would flush out the science and 
economics better and get us in the region closer to a common 
understanding of what the problems are.
    But in the end, Mr. Chairman, members of the Committee, it 
will not be process but rather dramatic action that is needed 
to restore salmon. Current measures are clearly not working.
    Several weeks ago, at our national meeting, our National 
Resource Board made up of grassroots members throughout the 
Nation endorsed proposals to retire the dams on the lower Snake 
River.
    We recognize this is a dramatic proposal. But after 20 
years of failed experiments to engineer salmon recovery, we 
believe like the independent Science Advisory Board, that the 
time has come to look at returning portions of the river to 
conditions more closely approximating the conditions in which 
the salmon evolved.
    I recognize that many question whether such dramatic 
actions are worth it to the region. Obviously, to those who 
believe that salmon are an icon, it is worth it, but to those 
who look at economics more traditionally, I believe it is worth 
it, as well.
    We have two assets at risk in the Northwest. One is salmon, 
the other is our low cost energy.
    In an era of energy deregulation, the question must be 
asked why the rest of the Nation should subsidize cheap power 
in the Northwest. More importantly, why should New Yorkers pay 
more to heat and cool their homes than folks from Seattle or 
Pasco? Why should Californians pay more for energy for their 
businesses than Oregonians?
    The answer is that we in the Northwest have a power system 
that provides public benefits as well, investments in renewal 
energy assistance for the poor, and most importantly salmon 
restoration.
    If the system does not provide for those benefits, if the 
power system we are defending for our own advantage is killing 
a natural resource we are charged with protecting, our position 
in defending the region's low-cost power is weakened.
    It is apparent that the drawdown and the dam breaching 
scenarios will have both significant negative and positive 
effects on the economy.
    We believe the negative effects should be mitigated, but it 
is clear that these economic impacts are far less than we could 
face if we lost the benefits of low-cost power that we have 
enjoyed since the 1930's.
    We believe, as in the past, when Native Americans relied on 
salmon in the Columbia for both sustenance and economics, that 
salmon and economics are still tied together.
    And we believe that if we do something, we do the right 
thing, and make tough decisions to restore salmon, we can have 
a future with both a good economy and strong salmon runs.
    But if we make decisions based on short-term economic 
interests, we could lose both.
    Thank you for the opportunity to testify. And I will be 
happy to answer any questions.
    [The prepared statement of Mr. Curtis may be found at end 
of hearing.]
    Mr. Pombo. Dr. Olsen.

   STATEMENT OF DARRYLL OLSEN, PH.D., THE PACIFIC NORTHWEST 
                 PROJECT, KENNEWICK, WASHINGTON

    Dr. Olsen. Good morning, Chairman Pombo, members of the 
Committee.
    My name is Darryll Olsen. I am a resource economist with 
the Pacific Northwest Project, which is a resource economics 
consulting firm located here in Tri-Cities, Washington. I have 
about 15 years experience working directly on Pacific Northwest 
water, fish and power issues.
    I would like to thank the House Resources Committee for 
having the foresight and the courage to question how the 
National Marine Fisheries Service is implementing the National 
Marine Species Act within the Columbia-Snake River Basins.
    In particular, the Resources Committee should review 
carefully the actions being invoked by NMFS to take control 
from the states over water management in the Pacific Northwest 
and discern whether these actions actually advance the best 
interests of the fish resources and the social and economic 
well-being of the Pacific Northwest citizens.
    My comments to you today are principally from the 
perspective as the principal investigator for the White Paper 
Review, the Columbia-Snake River Flow Targets/Augmentation 
Program. Copies of the executive summary are attached to the 
testimony and I believe full reports have been provided to you.
    The Review Study focuses on both policy and technical 
features of the NMFS flow targets/enhancement program.
    Dealing with policy issues NMFS has put forward the no net 
loss water policy. This is a policy of confrontation. If 
accepted by the states, this policy would prohibit any 
additional water withdrawals for new municipal, industry or 
irrigation purposes. Including the perfection of existing state 
granted water permits. The states would cease to have control 
over water management decisions.
    The Review Study also focuses on a number of technical 
issues.
    Concerning hydrology, the NMFS flow targets ignore the 
physical hydrology of the Columbia-Snake River Basin system.
    Based on U.S. Bureau of Reclamation hydro data and studies, 
the NMFS flow targets cannot be met in all months during low 
and average water years, with or without the net effects of 
irrigation withdrawals.
    The net irrigation depletions are not the primary reason 
why the NMFS flow targets cannot be met. The problem rests with 
the technical basis for the flow targets themselves. The 
targets are well beyond the Basin's hydrologic capabilities.
    Regarding biological impacts, Dr. Anderson has covered 
several points, and I will simply summarize by saying that our 
observations indicate that attempts to use flow augmentation to 
improve spring migrant survival, which is the bulk of the flow 
augmentation program, will provide no measurable fish benefits. 
And in the case of fall Chinook, the benefits are uncertain and 
convoluted at best.
    Concerning economic impacts, based on the Bonneville Power 
Administration, the flow augmentation program consists of about 
a $50 to $70 million per year program. These costs would 
increase substantially if irrigation sector impacts were to 
begin.
    The review also focused on the question of what are NMFS' 
objectives. The Review Study made clear recommendations to NMFS 
regarding changes to the flow target augmentation program that 
optimized flow regime for biological benefits and economic 
costs. Let me say that again. To optimize the flow regime for 
biological benefits and economic costs.
    But today NMFS has shown no indication whatsoever toward 
restructuring the flow chart augmentation program. In fact, the 
way that NMFS is managing the program right now, they are 
putting forth a scientific double standard.
    Given this response, it is simply not possible to explain 
NMFS' actions based upon the model of the prudent resource 
manager seeking to enhance effectively fish benefits while 
administering public funds and attempting to limit social and 
economic impasse.
    Moreover, by failing to restructure the flow augmentation 
program, NMFS is clearly misallocating large volumes of water 
to the west.
    The flow regime cannot pass the classic criteria for water 
allocation, which is the demonstration of beneficial use.
    The agency has embraced the policy of water misallocation, 
and that policy hinders other more beneficial approaches to 
resource management. Other approaches described for an 
optimization of fish enhancements with economic costs and could 
seek out collaborative partnerships for new water resource 
projects and multiple benefits of the region.
    Thank you for the privilege of offering this testimony.
    [The prepared statement of Dr. Olsen may be found at end of 
hearing.]
    Mr. Pombo. Mr. Givens.

     STATEMENT OF JOHN GIVENS, EXECUTIVE DIRECTOR, PORT OF 
                KENNEWICK, KENNEWICK, WASHINGTON

    Mr. Givens. Good afternoon, Chairman Pombo, and members of 
the Committee.
    Can everyone hear me?
    I appreciate the opportunity to testify here today. My name 
is John Givens. I represent the Port of Kennewick, which is one 
of 76 port districts in Washington authorized in public service 
by the state legislature with a mission of fostering economic 
development.
    We care about people. We also care about fish, too, because 
our mission is very important as we carry it out in being 
responsible environmental stewards of the resources we manage.
    Let me take a second to talk about the Endangered Species 
Act.
    I have been in the port industry now for about 15 years. 
Thirteen years as a commissioner in the Port of Clarkston, in 
Congressman Nethercutt's district, and 2 years as the Executive 
Director of the Port of Kennewick, in Congressman Hastings' 
district.
    I think the Act was written with the purest of intent to be 
a good piece of legislation that could be reasonably 
interpreted and easily managed.
    But during the past several years I think it's grown into a 
900 pound gorilla with an attitude. It's very difficult to 
manage, and oftentimes implemented on requirements that lack 
common sense. And I think it's time that it be revisited by 
Congress. That Act needs to be reauthorized with a serious 
overhaul.
    Let me share with you a good example of a potential 
recovery plan alternative currently being explored that, if 
carried out, would in my opinion be contrary to what most of 
the people in the Northwest feel would be a common sense 
solution to the problem.
    The Columbia-Snake River system is one of our country's 
most valuable resources. That vital multiple use resource 
provides critical economic, recreational, and safety benefits 
to millions of people. It stretches for 465 miles of a 
navigation corridor through a series of about 30 ports opening 
international trade markets to more than 40 states. Forty three 
percent of all the wheat shipped from this country travels 
through that remarkable system. Yearly cargo volumes exceed 50 
million tons and provide revenues exceeding $16 billion.
    Employment just in ports alone are estimated to exceed 
50,000, and I think about 1600 of your own Port of Lewiston, 
Congresswoman Chenoweth.
    The federally authorized dams have the capacity to produce 
75 percent of the Northwest energy needs using renewable, 
plentiful and non-polluting hydropower.
    About 50 percent of the 7.3 million acres of the producing 
farm land and ranch land in Idaho, Oregon, and Washington are 
irrigated with water supplied from that system. Yearly sales 
from those farms and ranches exceed $10 billion.
    During 1996 and 1997 that system, the dams on that system, 
were credited with saving more than $4.8 billion in property 
damage from two major flood events. I think that's difficult to 
mitigate.
    And I think people care about fish, but fish also care 
about people.
    In spite of those unsurpassed benefits, serious 
consideration is being given to breaching several of those dams 
and destroying the integrity of that federally authorized 
system because of mandates required under the ESA listing 
requirements. Yet the ESA has no accounting responsibility for 
the potential aftermath that decision might make if those dams 
are torn down, and, God, I hope Congress doesn't allow that to 
happen.
    In 1992 I served as a commissioner of the Port of 
Clarkston, and at that time the U.S. Army Corps of Engineers, 
after consultation with NMFS under the ESA, elected to stage a 
30 day test drawing water down to a near natural river level on 
the Lower Granite pool of the Snake River.
    The purpose of the test was to measure infrastructure 
integrity under drawdown conditions.
    The economic interests of the area were not involved under 
the test planning, except shippers were told to make 
alternative arrangements for barging their transportation needs 
during the test period.
    The result of that 30 day activity related serious 
distress, lost business revenue was estimated in the millions 
of dollars. Substantial physical damage occurred including 
sloughing embankments, heaving and separated highways, twisted 
commercial and recreation docks, and inoperative water intakes. 
No cargo moved from our port for more than a month, and one 
local marina operator ended up filing bankruptcy as a result of 
the unrecoverable damage and lost business of his--loss of 
business revenue.
    Thousands of resident fish were killed after being trapped 
in ponds which dried up when the river receded. The river 
corridor through Lewiston and Clarkston almost immediately 
became a stinking mud flat as habitat decayed.
    And while some mitigation was later made available for 
documented physical loss to private property, the pot was too 
small and the reimbursement was very difficult to obtain. An 
overwhelming majority of the people who experienced that 
drawdown never want to go through an experience like that 
again, and I don't think the people in this area want to do it 
for the first time.
    The red light is up. I will quit. Thank you.
    [The prepared statement of Mr. Givens may be found at end 
of hearing.]
    Mr. Pombo. Mr. Hale.

      STATEMENT OF BOB HALE, HALE FARMS, HERMISTON, OREGON

    Mr. Hale. Mr. Chairman, members of the Committee, my name 
is Bob Hale. And I am an irrigator. I have owned and operated 
farms in the Hermiston, Oregon area my entire life.
    Water is the lifeblood of my community, and it is the 
lifeblood of my business.
    I am also a partner in Inland Land. Inland was formed by 
three family farms to complete the development of an existing 
farm with existing state water rights.
    Inland appreciates the opportunity to address you because 
our farm development has been stopped in its tracks by NMFS and 
its unreasonable, unscientific and unrealistic biological 
opinion of our project.
    My testimony will focus on Inland's experience with NMFS' 
implementation of the Endangered Species Act.
    When we began our project, the Oregon Fish and Wildlife 
Service expressed concerns that increased pumping from the 
existing farms pump station would harm listed fish by 
attracting them into the mouth of Willow Creek from the 
Columbia.
    In response, Inland agreed to build a new pump station on 
the mainstem.
    On May 2nd, 1996, Inland filed a permit application with 
the U.S. Army Corps of Engineers for this new pump station. 
This application triggered consultation with NMFS under ESA.
    In addition, we have obtained zoning approval, a state 
permit for construction, a Clean Water Act certification, and 
water right permit extensions from the State of Oregon.
    However, we still cannot begin work on the project.
    Why? The NMFS 1997 biological opinion.
    The Corps of Engineers determined in July 1996 that our new 
pump station would not adversely affect any of the listed 
salmon.
    In spite of this, NMFS concluded in May 1997 that issuance 
of an Inland permit would be likely to jeopardize the continued 
existence of listed salmon.
    The ESA requires the action agency and the NMFS to use the 
best available science. In my opinion, NMFS failed to do so.
    Why did NMFS reach this conclusion? NMFS reached its 
jeopardy conclusion entirely based on the cumulative impact of 
Inland's water withdrawals, when combined with all irrigation 
withdrawals in the Basin. NMFS decided that no more water 
should be allowed to be diverted from the river until target 
flows are met.
    There are two fundamental problems with the NMFS analysis.
    First, NMFS target flows are unrealistic.
    Second, NMFS' analysis of the impact of irrigation 
withdrawals is flawed.
    Both of these problems arise from NMFS' opinions about 
river hydrology, not biology. It is baffling to me that NMFS, 
with no apparent expertise on the river hydrology, could trump 
the opinion of the Corps who truly is the Federal expert on 
river flows and modeling.
    NMFS' use of the Bureau's interim draft report on the 
cumulative impacts is even more flawed.
    Based upon our discussions with Bureau staff, we believe 
NMFS knowingly misused and misinterpreted the data to reach the 
result it wanted to reach politically.
    The Bureau study counted the full amount of water use 
authorized under all state water rights. Inland's water that 
wasn't even being used was counted in this environmental 
baseline. They even counted non-hydraulically connected deep 
wells as contributing to the alleged flow depletions of the 
Columbia.
    As a result, with Inland, NMFS adopted an unprecedented 
zero net impact policy. NMFS believes this policy can only be 
satisfied if Inland does not divert water during periods when 
target flows are not being met or replaces any water Inland 
does divert with additional upstream water rights.
    Inland cannot develop its project not knowing from year to 
year whether it will be able to irrigate the land. Inland 
cannot afford to purchase another farm upstream and shut it 
down.
    You can imagine our frustration, then, when NMFS announced 
in June 1998 that it had entered into a Habitat Conservation 
Plan with two public utilities in the Mid-Columbia.
    Why will NMFS reach an HCP agreement with public utilities, 
a no jeopardy opinion for the Federal hydro system, and a no 
jeopardy opinion for the sport and commercial fish harvests, 
allowing them to directly kill fish, while they will not allow 
a farmer to move an irrigation diversion point that will have 
no measurable impact on the flows and fish survival.
    Inland believes that the biological opinion was issued for 
political purposes to pacify environmental organizations, not 
because of scientific justification.
    As NMFS interprets the biological opinion, Inland's water 
rights are essentially worthless. NMFS is taking existing water 
rights from landowners in order to create theoretical benefits 
for fish that cannot be measured in reality.
    Is NMFS implementing the ESA consistent with the law 
Congress passed? In my opinion, no.
    Is NMFS implementing the ESA cost effectively? In my 
opinion, no.
    In our 4 year effort to permit this farm, with the 
assistance of four regional law firms, three wildlife habitat 
consulting firms, two salmon recovery consulting firms, two 
engineering firms, and a Project Manager, we have spent nearly 
one million dollars and we still cannot proceed. A fisheries 
biologist for the Corps' Portland office said it best, when he 
interrupted me during a technical presentation I was making and 
said, excuse me, Bob, this isn't about science and biology, 
this is about politics.
    Thank you.
    [The prepared statement of Mr. Hale may be found at end of 
hearing.]
    Mr. Pombo. Thank you. Thank you for your testimony.
    I would like to recognize Congresswoman Smith for her 
questions at this time.
    Mrs. Smith. Thank you, Mr. Chairman. I passed him a note 
saying that I was going to have to leave close to one o'clock 
for another public event in Yakima. So I appreciate you 
allowing me to ask questions first.
    I would like to begin with just commenting to Mr. Hale. 
There was a bill dealing with takings, if a Federal action took 
your property, made you unable to use it, they should pay for 
it. And it sounds to me like you effectively had a taking, if 
you do have a taking, if you are totally prohibited from using 
your property.
    But I would like to start with Mr. Stelle, just some quick 
questions.
    Do you support or oppose the initiative of state water 
rights? Do you believe the state should have water rights?
    Mr. Stelle. Yes.
    Mrs. Smith. OK. So would you believe your action and your 
authority could override those water rights by determining 
water levels or such?
    Where the issue involves the operation, for instance, of 
Federal dams, Federal facilities, then we do have the authority 
with those Federal operators to modify those operations to 
improve flows for salmon.
    So therefore you do abrogate the state water rights by 
changing the flow and making the water rights of no value?
    Mr. Stelle. I am not sure, Ma'am, whether I would consider 
that an operation of state water rights. It is an operation of 
a Federal facility.
    Mrs. Smith. Mr. Stelle, do you support or oppose--Well, 
let's state this a little different, we're having--We both have 
been in government too long it sounds like.
    Do you believe that NMFS has a legislative authority to 
abrogate state water rights in the Pacific Northwest?
    Mr. Stelle. No.
    Mrs. Smith. You do not. You do not believe what you are 
doing is abrogating water rights?
    Mr. Stelle. No.
    Mrs. Smith. I have read quite a bit of the testimony, and 
you have been reluctant to consider the recommendations put 
forth by the Review Study. With testimony that suggests you 
have been kind of strident in ignoring the technical problems 
raised within the review.
    The researchers who conducted the review appear by my 
review to be prominent figures in conducting this type of 
research.
    Do you just believe that their findings should be ignored 
because they are inaccurate or incompetent, or what? Because 
they appear to be totally ignored. Can you address that?
    Mr. Stelle. Yes, Representative Smith. Are you referring to 
Dr. Olsen, et al's, report? I am not sure.
    Mrs. Smith. That is one of them, yes.
    Mr. Stelle. As for the recommendations of Dr. Olsen's 
report, they have in fact been reviewed by our scientists.
    I think in keeping with that, we have referred those ideas 
and those recommendations to an inter-governmental group that 
we have established with the states, four states and the Indian 
tribe and the Federal operators, who determine flow operations 
for the Federal system.
    And thus far that group has declined to adopt or recommend 
the adoption of those recommendations.
    Mrs. Smith. Did the agency in reviewing them send them with 
comment as to whether they were right? Because you do comment 
on the recommendations and you do send them in a way that is 
weighted by your agency.
    You have not been silent in your opinion. I have read quite 
a bit about what you do believe.
    It appears you as an agency are ignoring this except for 
shuffling them off, and you are saying you don't believe that.
    What would be right about some of the review? What would 
you agree would be right in your perspective? I mean, I am sure 
in the review there are some things you agree with and some you 
don't. What's wrong and which things should be ignored and 
which things should be gone forward with in the review?
    Mr. Stelle. To the question, have we formally commented on 
or responded to the Olsen report. The answer I believe is no. 
Do you know whether----
    Dr. Olsen. Capital N-O, no.
    Mrs. Smith. When did you actually get that?
    Mr. Stelle. I don't know.
    Dr. Olsen. You received it in February.
    Mrs. Smith. Is that because you are too busy or he is 
incompetent?
    I am very serious. I get reports from people that don't 
have the ability, the background to give me a report. It's not 
weighted as much as someone that gives me a report that is 
qualified.
    Is Dr. Olsen's report not a qualified report to spend time 
to review after 6 months, 7 months?
    Mr. Stelle. Ma'am, our scientists and technicians have 
reviewed the report. They have also reviewed those 
recommendations with the state and tribal managers, through 
which we make decisions on and recommendations on the operation 
of the Federal projects.
    Mrs. Smith. Just in conclusion, I guess I want to ask one 
question. I have been looking over qualifications. What is your 
background in science or resource economies?
    Mr. Stelle. I'm an attorney. I am trained as a lawyer.
    Mrs. Smith. I am sorry, Mr. Stelle. That was really 
probably a lot more lawyers than just you. But thank you for 
your answer.
    Mr. Pombo. Thank you. Mr. Romero-Barcelo.
    Mr. Romero-Barcelo. No.
    Mr. Pombo. Ms. Chenoweth.
    Mrs. Chenoweth. Mr. Stelle, I think we heard some startling 
testimony from two very distinguished and highly regarded 
speakers of the House, and equally distinguished member of the 
Oregon Senate and the House in Washington.
    We heard the speakers and both of those gentlemen testify 
that the treatment that they have received at the hands of your 
agency in putting together a plan and trying to work with your 
agency and in the restoration of salmon habitat was very sad. 
It was disrespectful. And it appeared that their 
recommendations were not regarded.
    The buck has to stop somewhere, Mr. Stelle. Does it stop 
with you, or Katie McGintie, or the Vice-President? Where does 
the buck stop?
    Mr. Stelle. To the first part of your question, 
Representative Chenoweth, as I mentioned, we worked very hard 
with the State of Oregon, both the executive branch and the 
legislative branch, to help make the Oregon Plan a reality.
    I am actually proud of the effort we put into it. It was a 
good faith effort. It was based on a mutual commitment that it 
was the right way to go. And I believe it has opened an 
important doorway for state and local restoration efforts here 
in the Pacific Northwest.
    I absolutely regard the effort of the legislature and the 
Governor with the utmost respect. It is and continues to be a 
genuine and substantial effort. We support it. We approved it. 
We have defended it before Federal Court. We disagreed with the 
ruling of the court that found that it was inadequate.
    We believe it is in fact adequate under the terms of the 
Endangered Species Act. And we have persuaded the Department of 
Justice to appeal that ruling. We are defending the Oregon Plan 
and we fully support it.
    To your second question, the responsibility for the 
administration of the Endangered Species Act has been delegated 
from the Secretary of Commerce to me as the regional 
administrator in the north region, and I execute those 
responsibilities.
    Mrs. Chenoweth. Thank you, Mr. Stelle. I think that more 
than just the defense of the Oregon Plan, I think these members 
of both the House and the Senate were talking about the 
treatment of the agency, too. And I appreciate your owning up 
to it.
    I do want to say that you said the idea of our region being 
barren of salmon is completely unacceptable. And I will look 
forward to hearing from you about results and hearing from the 
members of the legislature about results in there being a 
better working relationship.
    But I think also what they are trying to say and what I and 
other members of this region who serve in the House are trying 
to say, that, yes, we admit that the fish are cultural icons. 
We admit that.
    But the idea of our region's being barren of irrigated 
fields and orchards and recreation and hydropower base is 
completely unacceptable, too.
    And I also want to say that I look forward to hearing--I 
look forward to the day when I can hear from you and other 
agency personnel and leaders, I look forward to more 
substantive results rather than saying that meetings like this 
are good for dialogue and good for collaborative results. 
Dialogue, we have got to move beyond.
    And, Mr. Stelle, yes, you are an attorney, but you are a 
very bright man, and you have put forth your agenda very, very 
well. But it is not a satisfactory agenda to the future of this 
area.
    Mr. Pombo. Mr. Nethercutt.
    Mr. Nethercutt. Thank you, Mr. Chairman. I found this 
panel's testimony really quite revealing.
    There seems to be an assumption here, Mr. Stelle, with all 
due respect to you, and to you, Mr. Curtis, that only the 
Federal Government and its scientists and its employees have 
the endangered species' best interests at heart.
    I want to follow on Representative Chenoweth's comments 
about National Marine Fisheries Service testimony here, with 
respect to the treatment of the states of Washington and 
Oregon.
    There seems to be in government today, and perhaps 
illustrated clearly by your agency, a belief that the Federal 
Government is always right, that its employees and its 
scientists are only the ones who have any wisdom. The treatment 
of Dr. Olsen's report seems to prove that in some respect. With 
regard to state's rights, whether it's the habitat conservation 
desires of the state, or the best judgments of the states of 
Oregon and Washington, those seem to be a subject of suspicion 
and question by your agency.
    And at what cost? I mean, the cost is tremendous.
    Mr. Hale, my goodness sakes, I don't know how you can do 
it. That's a horror story, but it's one of many that people 
like me and others on this panel hear of regularly from 
people--normal, ordinary, good citizens--in our districts.
    So it's very difficult it seems to me for you to sit here, 
again respectfully, sir, and try to defend and make the 
statements that I wrote down, your comments that you are 
meeting your responsibilities in--meeting your obligations in a 
responsible way.
    You know, bankrupting Mr. Hale or costing him a million 
dollars and causing, and ignoring in many respects, the good 
work of the scientists and the people of the states of 
Washington and Oregon, and ignoring Dr. Olsen's report, who has 
put a lot of effort and good scientific background into that, 
seems to me to be the height of arrogance, and that is what is 
really bothering me.
    I will allow you to respond.
    Mr. Curtis, you talk about failed experiments on our river 
system, and drawdowns and other ways to try to restore salmon 
and fish recovery.
    My goodness, sir, and now you advocate breaching of the 
dams and saying that essentially it doesn't matter that the 
citizens of the Pacific Northwest are going to have to pay more 
for power.
    That's a very real consequence. It's not some theory that 
we're talking about here. That's a very real consequence. 
Breaching the dams are going to cause tremendous dislocation, 
not only to the integrity of our river systems, the 
recreational use, the power generation costs for sure, but the 
environmental quality would be deteriorated.
    So, it's easy to come in and testify blithely about and 
theoretically about how we all ought to be fair and pay more, 
how we should worry a lot about salmon, that everybody has to 
pay their share, and the Federal Government's always right.
    Sir, that's wrong. And you are going to find, in the real 
world of people who are here in this room that we speak to 
those real concerns. I know it's difficult to be in government, 
but it shouldn't be difficult to use common sense, and look at 
the cost consequences of Federal actions and the policies that 
are implemented by your agencies.
    So I have given my speech. I will be happy to have you 
respond.
    But I am very serious about this. I think that's a very 
real problem of government now. And this talk about breaching 
the dams is just inflammatory, and I get real emotional about 
it, as many others do, too.
    So a quick comment. I am sorry to take all the time.
    Mr. Stelle. Congressman, let me just respond briefly. I 
left a misimpression. I think that frankly in a number--to your 
question of do we believe that the Federal scientists or the 
Federal employees are the sole repository of truth and 
knowledge, the answer is absolutely no. We don't believe that.
    Here in the Columbia Basin, obviously there's a lot of 
dispute about what works and what doesn't work. And we with the 
National Marine Fisheries Service essentially brought in the 
National Academy of Sciences and through the national academy 
set up an independent science advisory board, specifically to 
get independent, good transparent scientific advice on some of 
the issues that are so difficult here in the Columbia Basin.
    So, too, in the Oregon effort, we absolutely support the 
convening of the multidisciplinary science team by the State of 
Oregon. It's the right thing to do and we support it, and we 
take what they do very seriously.
    To the issue of working with the states, I can only say 
it's absolutely my hope that we continue to build a good, 
solid, effective, constructive relationship in the 
implementation of the Oregon Plan, and as the state of 
Washington and the counties work hard on their efforts. It's a 
good effort. We are 100 percent behind it. And frankly, I hope 
we try our very best to work day to day.
    Mr. Curtis. Thank you. Just two comments. One, I think it's 
unfortunate we don't have some of the state biologists who 
participated in the PATH process here today.
    I have the greatest respect for the state biologists and 
the tribal biologists, as well as Federal people working on 
this. Howard Schaller, Rick Williams, if somebody like that 
were here, I think we could get some different approaches to 
some of the scientific questions that have been raised.
    The second question, though, with regard to suggestions and 
recommendations with regard to dam breaching, which I realize 
is a highly inflammatory issue out here.
    Let me just say that that is the reason that we continue to 
support a process to get closer to a regional consensus, so 
that we can have a process where we can look at these tough 
scientific questions and the tough economic questions and come 
to a better understanding of what's going on. And we support 
that.
    If in the end the region comes to the conclusion, looking 
at the best scientific data available, and the real economics 
that it's not the way to go, then I am sure the Congress, who 
makes the ultimate decisions on this and we recognize that, is 
not going to do it.
    Mr. Nethercutt. I guarantee it.
    Mr. Curtis. Congressman Nethercutt, when these dams were 
put in, they were very difficult decisions to do. People looked 
at winners and losers. Towns were moved. And hatcheries were 
put in. They were very difficult decisions.
    I don't second guess the people who made those decisions to 
put those dams in.
    I think we're facing a similar decision process now. And I 
think we should face those tough decisions the same way.
    Mr. Nethercutt. Thank you.
    Mr. Pombo. Congressman Hastings.
    Mr. Hastings. You know, it's interesting to listen to the 
first panel and this panel.
    And I want to address my questions to Mr. Stelle. Because 
we heard, at least I heard, one member up here, very 
specifically that the relationship between the state 
legislature, at least two of them here, Oregon and Washington, 
and NMFS was not very good. I mean, I think that came across 
loud and clear.
    That being the case, then your perception of the things 
working is probably not very good. And you have to deal with 
what reality is.
    So, I guess that's something that you need to work on.
    I think George, by colleague, George Nethercutt said it 
very well, this is very serious. And there is a notion that one 
size doesn't fit all. The Federal mandate isn't exactly--I just 
want to make that observation.
    Because the stark testimony difference between the 
respective speakers and legislatures from where you sit, just 
don't jibe.
    You can say those were different settings and it didn't 
make sense, but they didn't make sense today.
    Now, having said that, Linda Smith asked you about state 
water rights, and you didn't elaborate, you just said that she 
asked you directly, should states have water rights, and you 
said yes.
    Now, I understood you to say that the Federal Government 
has higher authority over state water law vis-a-vis Federal 
facilities.
    Did I hear you correct?
    Mr. Stelle. Representative, what I meant to say was that in 
the operation of the Federal dams on the Columbia system, those 
operations are the responsibility of the Corps of Engineers and 
the Bureau of Reclamation on the advice of the National Marine 
Fisheries Service. And they make those decisions on how to 
operate those dams, in the winter, spring, summer and the fall.
    And my understanding is they have solid, firm 
responsibility to do so. And that exercising that 
responsibility doesn't abridge state water rights one way or 
the other. That is the point I was making. But they do so.
    Mr. Hastings. Well, it seems like it does. There are people 
here that will probably attest that they are affected. I think 
that Mr. Hale here would suggest that there is a cause and 
effect. And he's on the same panel that you are on.
    But now, having said that, though, having given the 
qualification that you just gave me, that the operation of the 
Federal facilities, how far upstream does that affect? Does 
that affect all tributaries, then, from a flow standpoint.
    Mr. Stelle. No, sir, it doesn't. It operates, I am not sure 
I can give you the technical answer on that, but basically----
    Mr. Hastings. Mr. Stelle, I am not the attorney, you are.
    Mr. Stelle. The Federal projects, the decisions of the 
Corps and the Bureau how to operate those mainstem projects are 
really whatever water is coming in from Canada and flows into 
the system, flows into those pools.
    Now, there is some Federal involvement through a treaty 
with Canada on the operation of the big Canadian projects, to 
try to coordinate----
    Mr. Hastings. Let me try to be specific. There's a report 
out, and maybe you can clarify this, Lake Chelan, up in Central 
Washington here, NMFS suggested that they were going to reduce 
the water in Lake Chelan to augment the flow in the Columbia 
River.
    You categorically deny that that's not going to happen by 
NMFS?
    Mr. Stelle. I know absolutely nothing about that. I've 
heard that talk about what's going on in Lake Chelan.
    To the best of my knowledge, none of my staff have ever 
talked to me about any intentions on Lake Chelan. I have no 
knowledge about any kind of drawdowns of Lake Chelan. That is 
not true from my perspective.
    Mr. Hastings. Great. I want to ask Dr. Olsen a question 
here, talking about flow, though, because we were talking about 
flows here and you indicated in your testimony some regard 
about flows and there's a disconnect or some point as to how 
NMFS is implementing this.
    I would just like you to elaborate on the flows based on 
what my conversation with Mr. Stelle has been right here, vis-
a-vis water rights.
    Dr. Olsen. There's actually several responses to that.
    In my testimony I brought up the double standard issue. And 
what we're seeing now is public statements from NMFS officials 
saying, we have some correlations.
    Now, between flow and survival, 3 years worth of data, for 
flow and survival with fall Chinook. They ignore other 
convoluting factors, they ignore other significance variables 
and say, aha, this is it, this justifies the flow augmentation, 
we obviously need another million acre-feet or something.
    They are public statements. I can provide you with those, 
if you would like those.
    Mr. Hastings. Please do. I won't speak for the Chairman, 
but please do. I think the Committee would like to have those 
statements.
    Dr. Olsen. In the same breath, NMFS turns around and in 
basically the supplemental buy off which came out in March, and 
in other quarters, personal conversations with management with 
NMFS, they come back and say, that's right, we don't have any 
flow survivals, statistical relationships for spring migrants 
for 5 years worth of data.
    It's higher quality data, more data than what they have for 
fall Chinook. But they just ignore that, say, we don't care.
    So on one hand the standard is, aha, there is statistical 
correlation, that's important, so that justifies their flow 
augmentation, but we will totally ignore other data, better 
quality data that doesn't justify statistically the 
relationship.
    There is a double standard being put forward for the 
science.
    Mr. Hastings. Mr. Stelle, I might want to have a dialogue 
here.
    Mr. Stelle. Representative, I would be happy to share with 
the Committee and with Dr. Olsen, I think he knows the reviews 
that our science center does of the flow survival 
relationships. We do it every year to determine what the 
evidence appears to be on whether or not there is one, and if 
so, to what degree, what is the strength of that relationship.
    We will be conducting another technical review of the data 
this fall for the 1997 runs. And I would be happy to share 
those reports with the Committee. Dr. Olsen I think knows them. 
And they get distributed broadly throughout the region.
    Mr. Hastings. Mr. Stelle, one last thing----
    Mr. Pombo. Dr. Olsen would like to respond.
    Mr. Hastings. Dr. Olsen, thank you.
    Dr. Olsen. Just a comment back on that. Yeah, we're well 
aware of the data. It's in our report, we use the raw data as 
well as the summaries, we are well aware of that data.
    But I think more importantly about the issue, about how you 
are approaching this in open science, back in November I was 
working on a contract for Bonneville Power Administration, 
where they asked us to review the cost and benefits of various 
salmon methodologies of various regions, various things, 
drawdown, flow augmentation, spill, other types of things.
    We presented an alternative to be reviewed by the 
scientific community, actually part of what is essentially I 
guess loosely called the three sovereigns process. We presented 
an alternative and asked for its review using the NMFS data, 
University of Washington data, and the response directly from 
Mr. Stelle was a letter to the acting CEO of Bonneville Power 
Administration saying, you don't even have the right to 
introduce a low flow scenario for being reviewed through the 
process.
    I will be glad to provide you copies of the letter.
    Mr. Hastings. Thank you. Mr. Stelle, western water law is 
very, very complex, and I am certainly not by no means an 
expert on that.
    But I have to tell you, what you said is not satisfactory 
to me, and what I would like you to do is to present at least 
to me, and I hope the Committee would accept it also, a 
response as to what is your interpretation of state water 
rights are, how that interacts with your agency, so that we can 
understand where you are coming from and how all of this works 
together.
    Because I heard yes, and then I heard no, except. And I 
just heard some things that are troubling to me.
    I think maybe for the benefit of this member and maybe for 
the benefit of this Committee, let's hear precisely. And you 
said in your testimony you want to be as precise as possible. 
Let's hear precisely exactly how this reacts with you. I would 
appreciate that.
    The next question I wanted to ask you, this is one thing I 
learned in my years in Congress, when I make a request for 
response from a panel in writing later on, I've learned to ask 
when I should be expected to get that. All right?
    And so I will ask you, Mr. Stelle, when could you get me 
that response?
    Mr. Stelle. How about October 1st, Congressman?
    Mr. Hastings. October 1st. If that's not a weekend, but in 
other words, what you are saying, within 30 days.
    Mr. Stelle. Yes.
    Mr. Hastings. And that should not be a weekend, if my 
calculation works, that should be on a Friday. I think we can 
handle that. Thank you.
    Mr. Pombo. Mr. Romero-Barcelo.
    Mr. Romero-Barcelo. Thank you, Mr. Chairman. I would like 
to ask Mr. Stelle something.
    Have you ever considered, have you found any other country 
in the world where salmon have also disappeared and they have 
restored them? Do you have any knowledge of any other country 
where that has happened?
    Mr. Stelle. That's a great question. I have heard some sort 
of episodic talk about New Zealand and salmon restoration 
efforts about New Zealand.
    I myself am not an expert on them, but I hear there is some 
very interesting stuff going on in salmon.
    Mr. Romero-Barcelo. I happen to know about some, and I am 
going to tell you, and I think sometimes we tend to isolate 
ourselves and forget about that other people might have solved 
the problems. They might not be the same problems.
    But when I was growing up in Puerto Rico, I considered 
Switzerland, to take a look at the small dairy farmers, where 
they were so successful. And what I mean by small, 6 or 12 
cows, and they were successful. They had reasonable income from 
that.
    And while I was there, one of the high officials of the 
Department of Agriculture started talking about the fishing and 
the plentiful salmon in Switzerland. And he said, well, salmon 
used to be very, very, very plentiful, so plentiful that they 
used to pass laws that gave food to their employees as part of 
the salaries or whatever, to give them salmon more than once a 
day and for no more than 5 days a week.
    Anyway, he said that because of the pollution in the lakes 
and the rivers, the salmon just about disappeared.
    And now when I was there, the salmon was back.
    What they did, it was long ago, I was not looking into that 
subject matter, so I didn't pay much attention, but I think we 
should be checking to find out if that story was correct, and 
if it did happen in Switzerland, what did they do?
    I mean, who knows? They might have some answer that we 
don't, or they might have some solutions that might be helpful 
for us.
    I will throw that out for consideration for you and for 
others. Thank you.
    Mr. Pombo. Thank you, Mr. Barcelo.
    Mr. Stelle, I allowed you to extend your oral testimony 
because I felt it was important for you to have the opportunity 
to get your side of this out. I thought it was important for 
the Committee to understand what your position was. And also I 
felt it was important for the members of the community that are 
here today to have the opportunity to hear what you had to say.
    One of the things that you said in your statement I think 
probably exemplifies a great part of the problem that we have 
had with the implementation of the Endangered Species Act, and 
that's whether it's through NMFS or whether it's through Fish 
and Wildlife, because the culture is very similar within the 
Federal agencies.
    Dr. Anderson, you said that extinction is not an option, 
that people of the Pacific Northwest want the salmon runs to be 
restored, they want the salmon to be here.
    And you went on to say that it is also part of clean water 
and having clean and non-polluted water here. And then you go 
on to give a very distinct inference that if anyone disagrees 
with what you are doing, then they are in essence in favor of 
extinction and dirty water.
    And that's a big part of our problem that we have. Because 
in my experience with the Endangered Species Act, and 
unfortunately I have had a great deal, I can tell you that the 
local people care a lot more about the salmon than you do or I 
do. The local people care more about clean water than anybody 
in the entire District of Columbia. And that what we have seen 
is a disconnect between what the Federal agencies are saying 
this is what you have to do and what the solutions that are 
being generated locally are.
    And I don't think you can deny when you have the Speaker of 
the House of Washington, the Speaker of the House of Oregon, 
distinguished colleagues that they serve with, coming in and 
saying that they don't have a good relationship with the 
Federal agencies, that they felt that it was extortion, they 
felt that they were being put upon by a Federal agency, I don't 
think that you can realistically come in here and testify and 
say that you've got a great relationship. Because there's a 
disconnect there.
    And if we are ever going to have an Endangered Species Act 
that works, it has to be done with the support of the locals. 
And we're not getting that. And that's whether it's here in the 
Pacific Northwest or California or anywhere else we have gone.
    I just don't see that happening right now. I would like to 
ask you about the difference between what's happened here and 
what happened with the Atlantic salmon. We had a similar types 
of agreements between the regions of the country, National 
Marine Fisheries Service on agreeing to go ahead with the 
management plan. With the management plan being thrown out in 
Oregon, how are you going to proceed with the Atlantic salmon 
at this point?
    Mr. Stelle. Mr. Chairman, that's a good question. Let me 
first of all clarify.
    The Oregon Plan stands on its own. And as Speaker Lundquist 
testified earlier, the State of Oregon continues to move 
forward with it.
    We absolutely believe that's the right thing to do. We have 
worked with them in the development of that plan. And we 
believe it should be the road map for recovery for coastal 
salmonids in Oregon.
    The issue was, the specific issue was whether or not our 
decision not to list coastal salmon runs in Oregon and rely 
instead upon the Oregon Plan was appropriate under the 
Endangered Species Act.
    We made that decision. We support the Oregon Plan. And we 
defended that decision in court. We were sued by a coalition of 
environmentalists I think in southwest Oregon. The District 
Court ruled that we inappropriately relied upon the voluntary 
measures in the Oregon Plan.
    We do not believe that the Endangered Species Act prohibits 
voluntary measures. We believe that our reliance on those 
efforts was lawful, that the Endangered Species Act provides 
that flexibility, and we are appealing that suit.
    Meanwhile, the State of Oregon has made a commitment to 
continue on with its plan.
    The implication is, the question then is, well, what about 
the Maine Plan? In the state of Maine, again, the National 
Marine Fisheries Service and the state of Maine entered into an 
agreement to implement an Atlantic salmon plan for their 
potentially listed salmon runs in I think seven rivers in 
Maine.
    First of all, let me note that the geographic scale is 
very, very different. These were seven drainages in southern 
Maine, versus essentially the entire Oregon coast.
    The nature of the problem facing Atlantic salmon is 
different, and therefore the automatics of a one-to-one 
correlation do not work, because the situations are different.
    In that situation, we deferred the listing in reliance on 
the Oregon Plan, we intended to defend that plan, too, and as 
of yet that continues to hold.
    There is a possibility, as usual, that folks may file a 
lawsuit to challenge that decision. I don't believe that's 
happened yet, and I hope it doesn't, because I don't think it's 
very productive.
    Mr. Pombo. So you don't at this time even tend to list the 
Atlantic salmon?
    Mr. Stelle. No, sir.
    Mr. Pombo. Just to conclude my questioning, in your 
statement you say that over the past 20 years you've developed 
a world class expertise on evaluation of impacts of differing 
human activities on the salmon life cycle, and you go on to 
list dam operations and fish passage, fishing activities, fish 
husbandry and on and on and on, and their impact on salmon.
    We had testimony at a previous hearing, and at that hearing 
it was testified that there is approximately a billion dollars 
a year, and this was about 2 years ago, so I am guessing that 
the figure has gone up, about a billion dollars a year that is 
being spent by public and private sector on the recovery of the 
salmon.
    Mr. Curtis testified that we are continuing to decrease 
numbers on the return of the salmon. I believe, as he said, we 
have gone from 15 in recent years down to 10,000 return, over a 
billion dollars a year, 20 years of experience in studying 
these.
    At what point do you think we're going to see some results?
    Mr. Stelle. That is a great question. If I had my druthers, 
tomorrow. But as I think most of the scientific consensus here 
in the region will report, this thing isn't going to turn 
around because of any one particular thing that we do, because 
it's all too complicated.
    I think as Dr. Anderson testified, the ocean is a huge 
issue. And we need to get a better scientific understanding of 
the relationship of ocean conditions and estuarine conditions 
and the productivity of salmon populations, salmon survivals.
    We have in fact submitted a multifaceted research program 
starting this year, and I will be happy to submit it to the 
Committee, that is trying to get into that black box and 
develop a better understanding of the ocean's conditions 
through the estuary. If the oceans turn around, sir, I am 
optimistic.
    Mr. Pombo. I guess my point is, I respect the work that has 
been done by the biologists, by the scientists on this. I don't 
necessarily respect the work that is being done in the 
regulations, because I think that many times the regulations 
that come out are political and have little or no basis on the 
science.
    And I think that that is a huge mistake that we are making 
in the implementation of this. It is at times extremely 
frustrating to sit as Chairman on a hearing like this, but the 
effort is being made to educate the Committee on the real 
problems that real people are having.
    At the same time I think it gives all of you a window into 
how frustrating it is to go back to Washington, DC and 
represent you at times.
    I would like to thank this panel very much for your 
testimony.
    As in the previous panel, there will be additional 
questions that will be asked. I ask you to respond to those in 
a timely fashion so that we can include them in the hearing 
record.
    Thank you very much. We are going to take a 10-minute 
break, and I mean 10 minutes. So if any of you plan on leaving 
the room, we are going to start in 10 minutes. So please 
respect that.
    [Recess.]
    Mr. Pombo. Thank you very much. I would like to welcome our 
third panel. We have Mr. Jim Baker, Northwest Salmon Campaign 
Coordinator of the Sierra Club; we have Mr. Fred Ziari, 
Chairman of the Eastern Oregon Irrigation Association; Mr. 
Richard Erickson, the secretary manager of the East Columbia 
Basin Irrigation District; and Mr. Rob Phillips, Director of 
the Northwest Sport Fishing Industry Association. Welcome to 
our panel.
    Mr. Baker, if you are prepared, I am sure that you 
understand the lights, if you could try to conclude your 
testimony in 5 minutes. Your entire written statement will be 
included in the record. But if you could try to conclude your 
oral testimony in 5 minutes, the Committee would appreciate it. 
If you are ready, you may begin.

STATEMENT OF JIM BAKER, NORTHWEST SALMON CAMPAIGN COORDINATOR, 
                SIERRA CLUB, PULLMAN, WASHINGTON

    Mr. Baker. It's in my best interests to complete my 
testimony in 5 minutes, because we have already gone past the 
lunch hour. I have already run out of blood sugar.
    Good afternoon. Thank you for this opportunity to testify 
on H.R. 4335.
    For the record, my name is Jim Baker, and I serve as 
Northwest Salmon Campaign coordinator for the Sierra Club.
    The Committee does have my written statement with my 
completed disclosure forms.
    Let me briefly summarize my remarks for my verbal testimony 
before the Committee.
    Although the National Marine Fisheries Service, NMFS, 
listed wild Sockeye in the Snake River Basin under the 
Endangered Spe-

cies Act in December, 1991, tragically throughout this decade 
the numbers of spawning adult salmon and steelhead have 
continued to decline toward extinction, despite these listings.
    More often, the NMFS nearly 7 years after the first listing 
has not adopted a recovery plan for Snake River Basin salmon 
and steelhead. If the agency meets its self-imposed and court 
ordered deadline, the NMFS will decide late in 1999 the key 
question of how to lift the deadly toll taken on four Federal 
dams on the Lower Snake River. Nor has the agency provided 
these listed salmon or steelhead runs with adequate or 
effective interim protection under the ESA.
    NMFS has dismally failed to implement its current 
biological opinion which began under court order in 1995.
    The agency did not adopt a spread the risk strategy between 
barged and in-river migration of juvenile salmon, did not 
provide adequate spill for safe passage of young fish past the 
eight dams, did not bring the elevation of John Day reservoir 
on the lower Columbia River to minimum operating elevation, did 
not release adequate volumes of water from upstream storage 
reservoirs, and did not meet targets for flow augmentation.
    The salmon desperately need all of these minimal 
protections, and the Sierra Club intends to hold all of the 
Federal agencies' collective feet to the fire for delivery of 
these measures in the courts, in the Congress, and in the 
Clinton Administration.
    While I do not see due diligence or proper performance on 
the part of NMFS, the agency is just one of several Federal 
agencies which has built this record of poor performance on 
Columbia Basin salmon recovery under the ESA.
    The U.S. Army Corps of Engineers has pursued an expensive 
and wasteful agenda of gold plating its dams with new equipment 
and technologies of at best dubious value to fish.
    The Bureau of Reclamation has not provided additional water 
volumes for flow augmentation in the Snake River, and indeed 
until recently, had not even consulted with the NMFS as 
required in the ESA.
    For most of this decade the Bonneville Power Administration 
has blamed fish and wildlife costs for its financial straits 
when the actual causes are BPA's crushing debt load from WPPSS 
bonds and wholesale electricity deregulation in 1992.
    So what we have here is a failure by numerous Federal 
agencies, in other words, a general failure of the Clinton 
Administration to save salmon and steelhead in the Columbia 
Basin.
    Turning now to H.R. 4335, I must tell you, Mr. Chairman, 
that the Sierra Club opposes this bill because it is not 
responsive to the root problem, the failure of the Clinton 
Administration to protect and restore Columbia Basin salmon and 
steelhead under the Endangered Species Act.
    This administration's U.S. Fish and Wildlife Service is 
unlikely to perform any better than this administration's 
national marine fisheries service. Moreover, the transfer of 
ESA functions between the two agencies would inevitably cause 
even further delay in taking necessary actions to save these 
magnificent fish. It would particularly delay the 1999 decision 
on the Lower Snake River dams.
    So to adapt Shakespeare a bit, I come not to praise NMFS, 
nor to bury it.
    What should the Congress do to put Columbia Basin salmon 
recovery back on a successful track?
    No. 1. Appropriate full funding for needed studies into the 
biology, engineering, economic impacts and mitigations of 
proposed salmon recovery actions. Similarly, the Congress 
should refuse funding for wasteful gold plating technological 
fixes such as juvenile fish transportation which offer little 
or no benefit to salmon and steelhead.
    Two. Support and promote preparation of a single unified 
salmon recovery plan among the three sovereign governments 
within the Columbia Basin. Federal Government, the four states, 
and the 13 American Indian tribes. All three sovereign 
governments have legal authorities and obligations for Columbia 
Basin recovery to all three must participate together in the 
planning and implementation of the recovery program.
    No. 3. Keep the Clinton Administration to its promised 1999 
decision on the Lower Snake River dams. In this particular 
case, delay makes for huge waste. Multi hundred million dollar 
waste.
    And fourth, follow the independent biology, such as the 
independent scientific advisory board.
    The best available science is telling us that the salmon 
need river ecosystem restoration, not more techno-fixes.
    Thank you for this opportunity to testify today. And I 
welcome your questions.
    [The prepared statement of Mr. Baker may be found at end of 
hearing.]
    Mr. Pombo. Thank you. Mr. Ziari.

 STATEMENT OF FRED ZIARI, CHAIRMAN, EASTERN OREGON IRRIGATION 
                 ASSOCIATION, HERMISTON, OREGON

    Mr. Ziari. Good afternoon. My name is Fred Ziari. I am the 
chairman of the Eastern Oregon Irrigation Association. We are 
located in Hermiston, Oregon, which is about 20 miles south of 
here.
    Our members are, represent local farmers, ports and water 
users in Eastern Oregon.
    I should mention before I start that if you want to know 
who killed the Oregon Plan, and consequently delayed fish 
recovery, the man to my right, the Sierra Club, did that, and 
Trout Unlimited, the ones that filed the lawsuit that killed 
that good voluntary program that was supposed to save salmon.
    Our members have a long history of working in a cooperative 
manner with Congress, state, Tribes and Federal agencies in 
implementing and enhancing fish runs in Eastern Oregon.
    Over the past 15 years our farmers working cooperatively 
with the Confederated Tribes of Umatilla and the related 
agencies have successfully implemented the Umatilla Basin 
Project which has brought the salmon back to our river and has 
become a model of successful salmon recovery in the Northwest.
    In other words, we have been and we are committed in salmon 
recovery for long time. We irrigate some 200,000 acres of 
irrigated land in Eastern Oregon. Almost all of our products 
are processed locally and values are added. Annually over 80 
percent of our prod-

ucts are valued between $8 to $900 million annually, exported 
out of our region, and most overseas market through one of the 
most efficient and economical Columbia River barge 
transportation system.
    Over 8,000 people in our sparsely populated area are 
employed in agriculture and other food related industries.
    We do all of these with the use of only three-tenths of 1 
percent of Columbia River water. And that's about all of the 
water the state of Oregon uses in the whole state, three-tenths 
of 1 percent.
    Let me make one thing very clear. Columbia River system, 
which is the second largest river in the country, is not an 
over-appropriated river as some may want you to believe. The 
total of only 7 percent of the Columbia River water is utilized 
for agricultural, municipal and industrial use in Oregon, 
Washington, Idaho, Montana and British Columbia combined. Only 
7 percent. Ninety three percent of all the water is untouched 
and is used for fish and hydro.
    Our farmers are a vital part of providing food for our 
citizens at home and hungry world abroad. And we are very proud 
of these achievements. As the world population are expected to 
reach over 10 million people in the coming decades, our ability 
to produce high quality and affordable food supplies become 
even more vital.
    All of these achievements are now in jeopardy through 
unrealistic dam removals over our dead bodies and excessive 
flow augmentation proposals by our Federal agencies. We watch 
with bewilderment how NMFS and an army of Federal agencies have 
totally abandoned cooperative spirit of working with local 
officials and the resource users.
    When they are presented with the resolution to a problem by 
resource users, they instead decided to implement a mean 
spirited policy to inflict pain and suffering to water users 
and landowners, which you have seen one, Mr. Hale.
    The zero net water policy, which they have implemented, 
totally stops all of the irrigation. It has no meaningful 
analysis has been done, no consultation with the local 
agencies, and it's not prudent and reasonable alternative. And 
it violates our state laws.
    This no net water loss policy not only stopped all 
irrigation, it also impacts all of our cities. A good example, 
the city of Umatilla, which I am engineer for, has a total of 
3300 people, and following a statewide search for a suitable 
site, the State of Oregon now is constructing the newest state 
prison in Umatilla, which will house 1500 prisoners, and employ 
500 staff, doubling the town's population.
    To serve this facility, the state holds a state approved 
water rights for a mere 23 cfs, cubic feet per second, out of 
over 200,000 cfs, but this permit, they cannot meet NMFS flow 
policy, and the city is wondering, now what? And how will they 
meet the needs of their citizens?
    There are other cities around Eastern Oregon that face the 
same situation.
    Maybe we should stop the criminal and send them all to Mr. 
Stelle's neighborhood.
    My time is up. I have the recommendation for Congressional 
action, and I hope you will consider that.
    [The prepared statement of Mr. Ziari may be found at end of 
hearing.]
    Mr. Pombo. Thank you. Mr. Erickson.

STATEMENT OF RICHARD ERICKSON, SECRETARY/MANAGER, EAST COLUMBIA 
         BASIN IRRIGATION DISTRICT, OTHELLO, WASHINGTON

    Mr. Erickson. Good afternoon. My name is Dick Erickson. I 
am the present manager of the East Columbia Basin Irrigation 
District. I would like to thank the members of the Committee 
for the opportunity to provide information about the effects of 
NMFS flow augmentation policies. The Columbia Basin Project was 
constructed by the United States Bureau of Reclamation to 
provide approximately 622,000 acres of farmland by diverting at 
Grand Coulee Dam approximately 3 percent of the river's flow.
    The project is authorized by Congress to ultimately 
irrigate 1,095,000 acres.
    The NMFS mandated flow policy caused the Bureau of 
Reclamation in July 1993 to impose an administrative moratorium 
on new Columbia Basin Project water service. That moratorium 
immediately resulted in the shelving of all planning for 
further development for the Columbia Basin project.
    That action hit late in the EIS study process to enlarge 
the existing canal to 87,000 acres. This delay or cancellation 
of further development appears to many who are unfamiliar to be 
simply an opportunity foregone.
    It is more complicated than that. Between one-third and 
one-half of the 87,000 acres are irrigated by deep wells. All 
those wells were permitted by the state of Washington in the 
late 1960's and early 1970's at a density estimated to give 
that aquifer a 30 year economic life.
    Thirty years have now nearly passed and many of those wells 
are not sustainable long-term.
    The NMFS inspired Bureau moratorium has also taken 
authorized water supplies amounting to about 85,000 acre-feet 
per year from the already developed first half of the project. 
Because of the moratorium the Bureau has rescinded previously 
authorized contractual authorities for the districts to 
irrigate about 13,000 more first half acres, translating to 
about 39,000 acre-feet per year.
    Also reneged on was the authority to provide up to 60,000 
acre-feet per year of project water to area industries and 
communities for municipal and industrial use. The project's M & 
I ability is now capped at the amount then already in use which 
is about 14,000 acre-feet per year, locking up the balance of 
46,000 acre feet.
    This NMFS driven, Bureau enforced moratorium, exacerbated 
by the scarcity of groundwater, has brought much of the 
Columbia Basin Project area to the threshold of a no-growth 
scenario.
    To better understand that situation please consider the 
attached letter from the Port of Moses Lake which I will now 
summarize.
    Much of Moses Lake's industries are food processing 
companies that convert Columbia Basin raw agricultural products 
to value added consumer food products for domestic and export 
markets.
    In recent years, other types of industries have also 
located in the Moses Lake area which manufacture non-ag 
products such as elec-

tronics materials, automotive components, industrial chemicals 
and metal products. And this diversification is important to 
our economy and the area's working people to, among other 
things, help smooth out the inherent cyclical nature of the ag 
section.
    These industries have located around Moses Lake for a 
variety of reasons, but an economic supply of electricity and a 
dependable water supply are common needs of nearly all these 
manufacturers. Both of these fundamentals are now being 
threatened by the NMFS flow policies.
    The Moses Lake area's electricity is supplied by Grant 
County PUD and is generated at Priest Rapids and Wanapum Dams 
on the Columbia.
    NMFS flow policies enforced by FERC are you know at the 
point where the Grant PUD is having to spill something like 60 
percent of the Columbia's flows. This results in the need to 
purchase replacement power at higher cost. Grant's rates will 
need to increase and there is concern they may eventually 
exceed the region's market rate.
    Most of Moses Lake's industries' economic feasibility is 
very sensitive to power costs. Most of these industries also 
need water for the manufacturing processes and also for fresh 
water to blend with processed waste water so they can be 
treated by land application. The proportion of this processed 
water and either canal water or groundwater for blending is 
critical for both waste water treatment requirements and for 
crop nutrient requirements.
    The use of groundwater in the Moses Lake area has been 
maximized. Complicating this is the fact that Moses Lake area 
groundwater is naturally high in sodium and other salts, making 
it more difficult to use for some manufacturing processes and 
for blending water for wastewater treatment. A number of Moses 
Lake area food processors are using Columbia Basin Project 
canal water for blending water and process water. These project 
industrial municipal supplies should be our supply for the 
future. However, that is not presently possible on any 
meaningful scale, because of the Bureau's scale has caused the 
Bureau of Reclamation to impose a moratorium on any new 
Columbia Basin Project water services, including M & I.
    The letter concludes by saying, please give careful 
consideration to Moses Lake's energy and water needs as you 
look into these NMFS flow policies.
    This letter is signed by Port of Moses Lake Commissioner 
Larry D. Peterson.
    On behalf of the East Quincy and South Columbia Basin 
Irrigation Districts, I ask this Committee to use its 
considerable authority toward reducing the NMFS flow targets to 
levels supported by valid hydrology and valid biology and to 
end the Bureau's moratorium.
    Thank you very much.
    [The prepared statement of Mr. Erickson may be found at end 
of hearing.]
    Mr. Pombo. Mr. Phillips, last but not least.

 STATEMENT OF ROB PHILLIPS, DIRECTOR, NORTHWEST SPORT FISHING 
           INDUSTRY ASSOCIATION, OREGON CITY, OREGON

    Mr. Phillips. Like those preceding me, I also wish to thank 
the Committee for this opportunity today to comment on H.R. 
4335 specifically, and in general, upon the execution of the 
Endangered Species Act.
    My name is Rob Phillips, and unlike those preceding me, I 
am not a doctor or a scientist, I own a little advertising 
agency up in Yakima, Washington, and most of you might wonder 
what's this guy doing here. Well, much of our business is 
derived from sport fishing. We have accounts that advertise to 
support fishermen, sell equipment, and because of the decline 
in the salmon and steelhead in the last 10 years, our business 
has seen much of that effect, as well, and gone downhill.
    My concern over this has led me to serve on the board of 
the Northwest Sport Fishing Industry Association, and that's 
who I am representing today.
    Our association consists of hundreds of businesses and 
thousands of family wage jobs dedicated to our rivers, lakes 
and streams, full of fish.
    Many of our businesses have been deeply impacted by the 
implementation of the Endangered Species Act. Fishing closures 
and extensive regulations which are barriers to participation 
have severely impacted sport fishing opportunities for salmon 
and steelhead. Quite a few of our members have actually had to 
close their businesses in the last several years.
    Most of us recognize, however, that the Endangered Species 
Act is merely the messenger and not the message. Our watersheds 
are in trouble, and the salmon are the indicator species. 
Admittedly, the current manner in which the ESA is executed is 
very heavy handed in dealing with sport fisheries. Sport 
fishing is often the favorite short-term target.
    The problem is these burdensome short-term measures are 
meaningless without substantial long-term measures. This is 
where the current implementation of the ESA falls short in our 
opinion.
    There are scarce to no examples of enforcement action for 
the very real multi-generation take of salmon, steelhead and 
trout which occurs in many different areas.
    We feel that NMFS can and should play a stronger role in 
defining take and in enforcing serious violations, while 
helping to define and implement restoration actions for the 
remainder of the problems.
    Recovery will never be accomplished on the backs of the 
fishermen. Decades of fishing constraints have not brought 
about recovery. Massive smolt and adult mortalities caused by 
the Columbia/Snake River hydro operations are causing 
constraints on fisheries from Northern California to the Gulf 
of Alaska.
    Operations of the Columbia River hydro system must be dealt 
with in the same scrutiny and severity as sportfishing. NMFS, 
the U.S. Fish and Wildlife, Bureau of Reclamation, Corps of 
Engineers and BPA must all coordinate together to reduce the 
impacts which are strangling healthy fisheries throughout the 
region.
    H.R. 4335 does get to the heart of an important issue, 
however. The National Marine Fisheries Service and the U.S. 
Fish and Wildlife Service must be better partners if the 
precious fresh water resources of the region are to recover to 
fishable levels, reassuring the health of our watersheds.
    There are no laws prohibiting better cooperation between 
the agencies. Indeed, the dire plight of the resources demands 
better communication and cooperation throughout the Federal 
family.
    In Mr. Stelle's defense, we feel NMFS did the right thing 
by working with Governor Kitzhaber and the State of Oregon to 
build a state supported and executed cover recovery plan.
    In summary, from our perspective, the timing of the bill is 
inappropriate. Salmon and steelhead don't need new laws and 
don't need agency changes. What they need first, is enforcement 
of existing laws, regulations and authorities.
    Federal agencies need to have a better cooperation. Other 
improvements would include earlier work with the states before 
the situation is so severe. The longer we delay tackling the 
problem the more drastic and costly the measures for recovery 
become.
    Earlier participation by NMFS, or whatever Federal agency 
it might be, would facilitate a partner role with the states, 
rather than an enforcement role. Step in earlier.
    Northwest Sportfishing Association appreciates any intent 
in which the bill may have been written which strives to 
enhance the ability of the ESA to recover salmon and steelhead 
in our region.
    The Northwest Sportfishing Industry recognizes that the 
improvements in our watersheds and operations of the hydro 
system which benefit the weakest stocks will only further 
enhance the healthy populations available for harvest.
    We applaud any effort that allows us to plan for secure 
jobs and futures, and even to rebuild the 10,000 jobs lost 
during the salmon and steelhead decline. Thank you for the 
opportunity.
    [The prepared statement of Mr. Phillips may be found at end 
of hearing.]
    Mr. Pombo. Thank you. Ms. Chenoweth?
    Mrs. Chenoweth. Thank you, Mr. Chairman.
    I wanted to ask Mr. Baker in followup to a question that 
the Chairman had asked earlier about the Atlantic salmon, where 
does the Sierra Club stand on listing the Atlantic salmon? And 
I am sure you are aware of the notice in the Code of Federal 
Regulations, suddenly it was mysteriously withdrawn.
    Where does the Sierra Club stand?
    Mr. Baker. I must confess, I am not familiar with the case. 
My colleague on the East Coast deals with that issue for the 
Sierra Club.
    I will be happy to get in touch with him----
    Mrs. Chenoweth. Would you?
    Mr. Baker [continuing] and I will apprise the Committee of 
what our position is and what we are striving to accomplish.
    Mrs. Chenoweth. Thank you. And following up on Mr. 
Hastings's technique, when do you think we could expect that?
    Mr. Baker. Oh, if you are willing to accept the same 30 
days, I can assure you we will get you a response by October 
1st. If you would like it in a shorter term, I would be willing 
to talk to you about that, to check.
    Mrs. Chenoweth. October 1st is fine. And I was reminded, I 
think it's a Thursday.
    You endorsed the three sovereigns concept. And that 
troubles me. The three sovereigns concept involves the state 
and Federal and tribal governing authorities.
    Mr. Baker. Correct. Governments, not just governing 
authorities, but governments.
    Mrs. Chenoweth. And you indicate in your testimony you 
thought that there's a legal basis for that already in the law 
for the Tribes, for instance, to be one of the governing 
authorities in the management of the water in the Columbia 
system.
    Where is that legal authority?
    Mr. Baker. I didn't say management of water. I said that 
the Tribes have legal authority and obligation for salmon 
recovery in the Columbia Basin.
    The courts in three consecutive decades, three consecutive 
judges, have ruled that the Tribes do have a right to salmon in 
the Columbia Basin under their 1855 Treaty. That litigation has 
gone all the way to the Supreme Court.
    I would view that as an accepted fact that the Tribes do 
have an authority over salmon recovery, and we should honor 
that.
    In fact, we will probably be unable to proceed with a 
single unified recovery plan until we honor all of the legal 
authorities, all of the sovereign governments in the Columbia 
Basin. That would also include the states and the Federal 
Government.
    Mrs. Chenoweth. Mr. Baker, I am familiar with those cases, 
too, and I can't totally disagree with them.
    But as we study the objectives of the three sovereigns, it 
goes beyond just the Tribes having the right to the fish. It 
actually goes to river governance.
    And I think you will have to admit that, too, won't you?
    Mr. Baker. Obviously, when so many scientists have told us 
that the bulk, not the exclusive, but the bulk of mortalities 
to fish inflicted in the Columbia Basin, upper Columbia Basin, 
come at these dams, there is no alternative, if we're trying to 
build a single unified recovery plan, but to address that 
impact from the dams.
    Mrs. Chenoweth. Let me ask you, you are familiar with the 
pit tag results, aren't you?
    Mr. Baker. Yes, I am.
    Mrs. Chenoweth. Then you are probably aware that our pit 
tag results show that 719,850 adults salmonids passed over the 
fish ladders at Bonneville Dam, and that's more than a hundred 
thousand more than the 60 year average for that particular dam.
    Yet at The Dalles Dam, there was only 425,716 fish that 
passed that dam in that same year, 1997, and that's below it's 
41 year average.
    And one of the largest impacts between those two dams is 
about 800 or so gillnets. It appears that the gillnets have 
contributed to significant losses.
    I also want to say, Mr. Curtis testified that there was 
only 10,000 salmonids that got into Idaho last year, and I do 
want for the record to note that there was 159,385 adult 
salmonids that as-

cended the fish ladders at Ice Harbor Dam in 1997. So I think 
those figures are important.
    And I do want to say that you did give us a list of actions 
that should be taken, but I do think that together we need to 
deal with the problems that I've just mentioned, and that is 
the gillnetting. I think some day we're going to have to deal 
with whether that is an appropriate method for one single 
entity in this nation to deal with an endangered species.
    Thank you, sir.
    Mr. Baker. Mr. Chairman, would you like me to respond?
    Mr. Pombo. Yes. Go ahead.
    Mr. Baker. On the pit tag data, the scientists in the PATH 
group, which Dr. Anderson talked about on the first panel, have 
reviewed those pit tag data. They are unanimous in conclusion, 
that we must have an adult survival rate of smolts delivered to 
the estuary of the Columbia River, plus have a survival rate of 
at least 2 percent if we are to avoid extinction.
    We must have a rate of survival above 4 percent in order 
to, preferably 6 or 7 percent, if we are going to rebuild the 
runs to harvestable levels and meet our obligations, not only 
under the Endangered Species Act but those treaties, in 
addition the treaty with Canada.
    The pit tag data now is completely in from the 1995 class 
of smolts, and it indicates that the survival rate was less 
than one-half of 1 percent. That's a program that is simply not 
going to produce the results we need to make sure that these 
fish do not go extinct.
    With regard to, forgive me, there were a lot of things that 
you discussed there, Representative Chenoweth, with regard to 
the three sovereigns program and the Indian fishing rights, I 
would remind you that the Bolt decision requires the Tribes to 
participate in regulation of the fishery in the Columbia River, 
and while we agree with you that there need to be changes in 
harvest, a long list of experts over the last two decades, 
experts including those from the National Marine Fisheries 
Service, the Northwest Power Planning Council, the Oregon 
Department of Fish and Wildlife, the Columbia Basin Fish and 
Wildlife Authority, and even the Bonneville Power 
Administration, have estimated that the dams on the Snake River 
and the Lower Columbia are responsible for at least 80 percent 
of the human inflicted mortalities to these fish.
    That's not to say that we should not address impacts from 
harvest. But it is to say that if we are going to restore these 
fish, we're going to have to put at least 80 percent of our 
effort into relieving this total taken by these dams.
    Mr. Pombo. Mr. Romero-Barcelo.
    Mr. Romero-Barcelo. Thank you, Mr. Chairman.
    Mr. Baker, in your testimony you suggest there should be a 
river system restoration, the full scope, and for the rest of 
your testimony I also gather that that river ecosystem 
restoration would include the elimination of the Lower Snake 
River dams.
    Mr. Baker. The Sierra Club does support breaching the dams, 
removing the earthen portion of those dams and leaving the 
concrete structures in place.
    We take this position very reluctantly. We recognize the 
kind of impacts that Congressman Nethercutt talked about 
earlier with the second panel.
    But the scientists are telling us, they've told us in a 
number of blue ribbon studies now, that only if we have a 
healthy river are we going to have healthy salmon runs.
    Mr. Romero-Barcelo. When were those dams built, and how 
many are there?
    Mr. Baker. On the Lower Snake River, there are four Federal 
dams, Ice Harbor, Lower Monumental, Little Goose, and Lower 
Granite is located about five miles from where I live in 
Pullman, Washington, as the crow flies. The head of those four 
reservoirs is in Lewiston, Idaho, in Representative Chenoweth's 
district.
    Each of the dams was built consecutively upstream, 
beginning in 1961, and completed in 1975 with the impoundment 
at Lower Granite. Since that time salmon runs in the Snake 
River Basin have all trended downward.
    Mr. Romero-Barcelo. From the time they were built?
    Mr. Baker. As each of those dams was built, the trend line 
has been downward and increasingly downward as each of those 
dams was brought on line.
    Mr. Romero-Barcelo. Forgive my ignorance, but if those dams 
that have been there, there are other dams in other places 
where there are also salmon, in the other rivers, in the 
system, in the states of Oregon and Washington.
    Well, as you have heard in testimony today, there are 
rivers within the Northwest that have declining salmon runs 
that have no dams.
    I have never even tried to suggest that there aren't other 
causes of mortality to fish runs. And if you look at those 
rivers in the Northwest which have declining salmon runs but no 
dams, you will find another tale, another story of how human 
kind has had such an impact on the fish that they are 
declining.
    Typically in the Northwest, as you heard from Mr. Curtis 
and Mr. Stelle, the fish are spawning and rearing habitat.
    But the scientists are also clear that if we make a river 
that does not have good, healthy migratory habitat, such as by 
putting a dam in a river that has no safe passage for juvenile 
fish, you will bring that run to extinction, just as surely as 
silting up or otherwise destroying spawning and rearing 
habitat.
    I might add, sir, if you would allow me, responding to Mr. 
Nethercutt's concerns about impacts, we worry about them, too. 
I personally worry about them. I live just up from Lower 
Granite Dam. My wife's and my financial fortunes are tied to 
the local economy, just as so many of the people in the 
audience here today are.
    I can assure you I don't take this position lightly. It's 
come after an exhaustive review of the independent science. And 
I would observe that we as a society have shown a remarkable 
ability to find any number of very cost effective ways to run 
our economy, to get products to markets, to produce electricity 
that is affordable and serves as an engine for our economy.
    We have found a number of ways to conduct irrigation in an 
efficient way as Mr. Sierra just testified.
    What the scientists are telling us, that we are going to 
have to use that ingenuity, find some other ways than we are 
currently using to run this economy, because the fish need this 
river.
    I don't like that probably any more than some of the folks 
in the audience who are heckling me right now. It's a 
biological fact.
    We're going to have to find some way to make these rivers 
healthy again, or we are going to be without the salmon.
    I am here to assure you, Mr. Nethercutt, and members of the 
panel, that the Sierra Club has always had as its policy that 
whatever those economic impacts may be, we will support, we 
will advocate, we will fight for the best possible mitigation 
of those impacts and to try our utmost to make sure that every 
economic layer who is impacted by actions taken for salmon 
recovery is to the best of our ability kept whole.
    Mr. Romero-Barcelo. If the economic livelihood of people 
that live nearby, have their businesses nearby, agricultural 
farms nearby, do they need that system, those dam systems for 
their economic survival, which is your choice between the two?
    Mr. Baker. I believe we don't have to make that choice.
    Mr. Romero-Barcelo. In the meantime. If they are stopped 
now, if they no longer can have access now, I understand that's 
the situation----
    Mr. Baker. Representative, as I said earlier, the Federal 
waterway in the Lower Snake River was completed in 1975. There 
was a thriving agricultural economy in my part of Washington 
State long before the completion of those dams, and the 
initiation of that waterway.
    Since it has been completed, yes, the barge companies now 
enjoy a near monopoly on shipping from the lower Snake valley 
on a 50 mile area on either side of the river.
    But it wasn't always so. We managed to build a very strong 
agricultural economy by shipping crops to market on rail and 
truck, and we can convert back to doing so again. I am not 
saying that's easy. But it can be accomplished. And if we go 
about mitigating these kind of closures, like the closure of 
the Federal waterway, we can perhaps in the 21st century enjoy 
a win-win solution, healthy salmon runs that are responsive to 
our treaty obligations and an economy in the local area that 
continues to thrive.
    That's what I am seeking, and I hope that's what the 
Congress would be seeking, as well.
    Mr. Romero-Barcelo. Thank you very much. I have run out of 
time.
    Mr. Baker. I thank you, sir.
    Mr. Pombo. Mr. Nethercutt?
    Mr. Nethercutt. Thank you, Mr. Chairman.
    Mr. Baker, I can't resist following up, sir, on your 
comments.
    I would like to explore in this brief time how much 
sacrifice you and your organization are willing to accept.
    Assume that agriculture in the Columbia Basin disappears. 
Would that be acceptable, if the dams are breached? Assume that 
consequence occurs. Would that be acceptable to you and your 
group?
    Mr. Baker. Well, that's a hypothetical, and----
    Mr. Nethercutt. I am asking you to assume that, sir. Would 
that be acceptable?
    Mr. Baker. I am not in a position to really play these 
kinds of hypothetical games, sir, with all due respect.
    I would challenge you, if you want to put that hypothetical 
situation to me, to find an economist who really sincerely 
believes that that's the alternative we're facing.
    Mr. Nethercutt. What if I found a lot of farmers who 
believed that? Would that be sufficient to you, or does it have 
to be scientists who make the judgments about real life 
problems?
    The Sierra Club has a policy of zero net water loss. The 
Sierra Club has a no harvest policy in our forest.
    And I think the facts are, with a zero harvest policy in 
our public lands, you are going to see the disappearance of the 
timber industry, which in my judgment, from some people that 
I've talked within, the group you represent, that's just fine.
    I don't think you've heard anybody on any panel today say 
we find it acceptable that salmon disappears. Everybody on 
these panels are saying, we want to respect the salmon recovery 
efforts, but we also want to be reasonable about it, and 
understand the consequences of the action.
    But what I am hearing, sir, is that if the dams are 
breached, and I am going to resist that with every fiber I have 
while I am in Congress, you can assume that there will be a 
dramatic increase in power cost and the replacement of a clean 
power resource with a less environmentally acceptable resource, 
whether it's fossil fuels or nuclear. There's going to be a 
tremendous disruption to the use of the river system, the 
transportation that it is used for multiuse transportation, not 
just agriculture. There will be a tremendous impact on our 
roads, a tremendous impact on recreation, and all with a huge 
dollar cost.
    I think you can also assume that the Congress has to 
approve and appropriate funds to breach dams, which can run in 
the multi hundreds of millions.
    Now, the taxpayers are going to have to pay for all of 
that.
    I am not convinced that taxpayers are willing to sacrifice 
the economies of the Inland Northwest for your standard of 
acceptability for environmental protection or species 
protection. I just don't think that's going to happen. And it 
shouldn't.
    Talk about breaching the dams. I find a reluctance on your 
part to breach the gillnetting. I don't hear you saying that.
    I hear you say, well, we need to work through all of that.
    And I don't disagree with that either. But there seems to 
be a selective principle under which the Sierra Club operates.
    So, I think we have a rough road ahead of us. We have to 
look at the middle ground we heard from those witnesses saying 
that we have to work hard to do both, we can't sacrifice the 
farm and timber economies for the salmon, but we're going to 
try, and the states are going to try to find a balance.
    We shouldn't have this bureaucracy in place that restricts 
so much of common sense in the way public policy is decided.
    I want to say, too, to Dick Erickson, thanks. I went and 
looked at Rodeo Lake yesterday, and talked to people about the 
ground-

water conservation area, and efforts to be environmentally 
responsible.
    It's these kinds of people who are in opposition I think to 
what are extreme feelings and policies that you and your group 
advocate, for a single purpose rather than looking at the 
economic consequences of the policies you espouse.
    So I am happy to have your response. I am sorry to take so 
long to lecture, or at least make my expressions known. But 
this is a very serious issue. I think there has to be some 
reason in the policies that the Sierra Club adopts in order to 
have more credibility with a lot of people who care deeply 
about both the economy and species protection.
    If you have any comments.
    Mr. Baker. Well, we do not see a solution to the salmon 
crisis in the Columbia Basin which would lay waste to farms in 
this watershed. We never have, we never will.
    We always looked at every proposed action to save salmon to 
make sure that it has high biological benefit according to 
independent scientists, and that it is responsive to the needs 
of society's expressed in the political system.
    We have always recognized that nothing will go forward in 
the way of modifying these dams unless Congress approves it.
    And I take your challenge very seriously, Congressman.
    As the studies continue to, in the various Federal and 
state agencies, we are learning, that the value of the dams, as 
you've just stated it, is perhaps a bit overstated. The dams do 
not produce more than 5 percent of regional generation. The 
Northwest Power Planning Council has analyzed what the impacts 
would be of losing that generation, as well as breaching the 
dams and providing mitigation.
    Their analysis shows that BPA will continue to be a strong, 
viable public utility, if you will.
    We are looking at studies which indicate we can convert 
back to rail and truck.
    We would support the kind of infrastructure that needs to 
be made. We wouldn't just support them. We would advocate them, 
we would fight for them.
    These dams, contrary to some of the testimony I heard 
today, provide no flood control. If you would care to bring in 
a witness from the U.S. Army Corps of Engineers, you will learn 
these four dams are in front of the river projects, they are 
not capable of providing flood control.
    If anything, if I might be allowed to finish my statement, 
if anything, breaching these projects would probably provide 
more flood control to the cities of Lewiston and Clarkston. 
That's an engineering fact. Whether people like to accept it or 
not.
    Mr. Pombo. Thank you. I am going to recognize Mr. Hastings, 
but I would like to say one thing in the audience, that it's 
against the rules of the House to allow responses from the 
audience, to allow reaction from the audience. I've tried to be 
very lenient with that today. But I would like to encourage the 
audience to please try to restrict your comments during the 
testimony.
    It makes it difficult for those of us sitting up here if 
things get a little bit out of control. So I would just 
appreciate it if you would kind of keep it down.
    Mr. Hastings?
    Mr. Hastings. Mr. Baker, I think I will ask you some 
questions, too.
    Mr. Baker. I am starting to feel like a bartender at a 
Southern Baptist convention.
    Mr. Hastings. I am not going to pursue that one.
    Mr. Baker. I don't think I want to go any farther there 
either, Congressman.
    Mr. Hastings. I will just say, I know the last comment you 
made regarding flood control you make in reference to the Snake 
River dams.
    But I am old enough to have remembered the flood of 1949 
which came down the Columbia River. It was a pretty devastating 
flood.
    Now we have dams, about as many dams, in fact there are 
that many dams that were in-place, put in place since then, and 
we have had no terrific floods, and yet we have had high water 
years.
    I guess I would just question the scientific data that you 
refer to. But that may be an honest disagreement.
    You in your testimony, in answers to questions, referred a 
lot to scientists, so I am going to make the assumption that 
you believe that whatever decisions are made should be made on 
good and valid, scientific data. Is that a very good assumption 
on my part?
    Mr. Baker. That is a very fair assumption and a very 
accurate one.
    Mr. Hastings. Have you read Dr. Howard's White Paper Review 
with recommendations----
    Mr. Baker. Dr. Howard?
    Mr. Hastings. Dr. Howard Olsen. I am sorry.
    Mr. Baker. Yes, I have.
    Mr. Hastings. Would you care to comment on their conclusion 
in that study regarding the flow targets? Because you are 
critical of NMFS regarding their flow targets.
    The White Paper, as I understand it, says that the flow 
targets can be reached. Would you care to comment on that?
    Mr. Baker. Yes. I will comment. I will point out first of 
all, I am not a biologist, and the Sierra Club has no staff 
biologist. We have tried to review the entire scientific 
record.
    I must tell you that there are a number of scientists in 
the Federal Government, the state governments, at the Tribes, 
and on independent bodies, that do not agree with the 
conclusions in that White Paper.
    Dr. Anderson this morning said that his paper had been peer 
reviewed. Well, that's true. But it has not undergone 
independent peer review.
    And in the salmon biology that has been cut and quartered 
so frequently because of the very high stakes involved, that is 
the kind of review we would want to see.
    When we talked to independent biologists, they believed 
that the flow targets are needed by the salmon. They will not 
provide for a restoration of the runs, but they will give the 
salmon important protections in the interim.
    On the question of hydrology, I was a seated participant at 
the salmon summit which Senator Mark Hatfield convened in the 
winter of 1990-1991, in order to try to get ahead of the curve 
on the potential listings for salmon in the Columbia Basin.
    At the salmon summit we heard and viewed studies about 
hydrology which indicate that it is indeed difficult at best to 
meet these targets.
    That's one of the reasons why we have, the Sierra Club, and 
other fish advocates, have always tried to impress upon Members 
of Congress and other decisionmakers that we have a 
relationship on the hydrology where if we're going to have 
salmon runs, we have got to pull the reservoir down somewhere. 
You can either pull down the storage reservoir and get new 
augmentation, or you can breech dams on the lower Snake, and 
get far better benefit.
    Mr. Hastings. That begs the question, then. How much is 
enough? How much flow is enough?
    Where does the Sierra Club reach a conclusion that we will 
have maximized the flow? At what level is that? How many cubic 
feet per minute? Give me something----
    Mr. Baker. What I am suggesting, Congressman, with the dams 
in place, operating as they currently are, we will be unable 
with certainty to provide all of the flow augmentation that the 
fish need.
    Mr. Hastings. Does that include the Columbia stem, as well 
as the Snake?
    Mr. Baker. Yes, sir.
    Mr. Hastings. Let me just make this observation that Mr. 
Erickson made, then, in that regard.
    The Columbia Basin Project, over 500,000 acres, is 
irrigated by a net less than 3 percent of the water behind 
Grand Coulee Dam.
    Everybody has acknowledged that when Grand Coulee Dam was 
built, it was built without fish ladders, so all the runs are 
gone there. Those were gone a long time before. So we are only 
using 3 percent of the water behind Grand Coulee Dam.
    Now, that Lake Roosevelt goes all the way into Canada. I 
think it is a hundred and some miles there. So there is a lot 
of water back there clearly.
    Now, below Grand Coulee Dam you have, what, five rivers, 
the Cokononda, the Nettaw, the Entiot, the Wenatchee and the 
Yakima, that augment the flows into the Columbia River system.
    And you are saying that because the irrigation districts 
and the irrigated agriculture takes 3 percent of the water 
behind Grand Coulee Dam, and all the flows of those five rivers 
that I am saying, is not enough?
    Mr. Baker. I neglected in responding to Representative 
Nethercutt----
    Mr. Hastings. But answer----
    Mr. Baker. We have not embraced a zero net policy.
    Mr. Hastings. Thank you for responding to that. I am asking 
you, I am asking you a direct question. Is what I just 
outlined, is that not enough?
    Mr. Baker. The biologists tell us that that would probably 
not be enough, undoubtedly would not be enough to restore 
salmon runs.
    It would provide, however, important interim protection.
    Mr. Hastings. Let me understand this, then. Lake Roosevelt, 
I don't know how many cubic acres or feet that that holds, but 
presumably if what you are saying, that breaching dams on the 
Snake River will augment runs, then I think it is logical to 
follow what you are saying, that if one were to breach dams on 
the Columbia, you would come up with the same net result in 
your opinion, which would be more runs.
    Now, I really have a hard time accepting that, when all of 
that water behind Grand Coulee Dam keeps a constant flow in the 
Columbia River and it is augmented by these other rivers.
    Am I missing something in my understanding?
    Mr. Baker. Yes. I have been previously testifying about the 
Sierra Club's position on the Lower Snake River dams. We have 
also listened to the independent biologists, specifically the 
independent scientific group, which has told us we need to 
lower, not breach, but lower the reservoir level at John Day 
pool on the Lower Columbia, in order to, among other----
    Mr. Hastings. Of course that's downstream from the Snake, 
so you are still talking about the Snake River.
    Mr. Baker. I am sorry?
    Mr. Hastings. You are still talking about the Snake River.
    Mr. Baker. It is also intended to be responsive to the need 
to meet the kind of water velocities, flow, water temperatures 
and a healthy river that the salmon need in the upper Columbia.
    As I understand the hydrology from the salmon summit given 
to me by competent hydrologists from the salmon summit on----
    Mr. Hastings. One hydrologist?
    Mr. Baker. No, sir. A number of hydrologists.
    If you want to reduce the flow augmentation from Grand 
Coulee and other projects in the upper Columbia, you must lower 
reservoir in the lower part of the river that the salmon are 
going through.
    That's the only other solution to the problem of providing 
the fish with the healthy flows and ecosystem that they need.
    Mr. Hastings. Let me just conclude my remarks by asking 
you, I say this very seriously, I'd like to know, I think 
everybody here and certainly this Committee wants to know how 
much is enough. What is adequate? How many cubic feet, you pick 
it, cubic feet per second at any point, maybe four or five 
points on the Columbia River. Because otherwise you are just 
saying we need more water. We need more water. But what is 
adequate? What is adequate? And that has not to me ever been 
answered.
    In fact I asked you directly, and I am not saying you are 
skirting the issue but you certainly haven't answered me 
directly. Maybe you know what the answer is or maybe you have 
to research that. But if that's the case, I would like to you 
respond to me.
    I don't care where you want to pick it. Do you want to pick 
the flow of Wanapum Dam, you tell me what is adequate at that 
point, and then you can go on down stream, if you want to go to 
the Snake River, do it at Ice Harbor Dam, if you want to do it 
at John Day, at The Dalles, that's already on the record, if 
you want to do it at Bonneville, I don't care where, but if you 
would give me a position in writing on what is adequate as far 
as flow at those particular points on the river system, I would 
appreciate it.
    Could you do that for me?
    Mr. Baker. Sure. And I assume the same October 1 deadline--
--
    Mr. Hastings. Since you anticipated my next question, I 
will accept that gratefully. Thank you.
    Mr. Pombo. I hate to do this, but Mr. Baker----
    Mr. Baker. Boy, do I wish I had that lunch now.
    Mr. Pombo. Just so I can understand the Sierra Club's 
vision on this, is that we would breach the four dams on the 
lower Snake.
    Mr. Baker. Yes.
    Mr. Pombo. We would return the agriculture of the area to 
pre-dam conditions, operate in a way that they did before that? 
I am just trying to understand your testimony previously.
    Mr. Baker. No, sir. I didn't say that.
    Mr. Pombo. You said we had a vibrant agriculture before the 
dams and we could return to the way we were doing things at 
that time.
    Mr. Baker. Well, since the building of Ice Harbor Dam, the 
reason I stopped you was not out of disrespect, I want to 
assure you, the reason I stopped you is that since the building 
of Ice Harbor Dam in the early 60's, there have been installed 
some 13 pumps for taking irrigation water out of that pool and 
cultivating a number of thousands of acres of cropland, which 
was not there previously.
    From testimony I've heard from Mr. Ziari, among others, it 
is feasible to extend those pumps and intakes so that we can 
continue to, with the irrigation ag along that pool.
    Mr. Pombo. So you would allow irrigation to continue?
    Mr. Baker. Absolutely. It's a water right.
    Mr. Pombo. It is the barges would be the part that would 
not continue?
    Mr. Baker. That appears from the economic studies I have 
seen to be the major impact upon agriculture in the lower Snake 
valley. And if the dams are bypassed, that is one of the 
results, that the Federal waterway would close, yes, sir.
    Mr. Pombo. You also said, and you can correct me if I am 
wrong, you have also said that you would support trucking or 
railroads and the infrastructure necessary in order to 
accomplish that.
    Am I correct in assuming that?
    Mr. Baker. Yes, sir. We would support those investments.
    Mr. Pombo. That is somewhat inconsistent with my experience 
in California in terms of the positions that the Sierra Club 
has taken in terms of trucking and establishing that kind of 
infrastructure.
    There's been a lot of opposition, building the roads and 
freeways and stuff necessary to accomplish that in that 
particular state.
    But just so I can understand, up here you guys would 
support that?
    Mr. Baker. Well, I am going to have to answer that 
question, Mr. Chairman, two ways.
    First of all, I am not familiar with the particular roads 
and railroads that you are referring to in California. If you 
would provide me with some of the proposed infrastructure 
investments that you feel the Sierra Club was opposed to, I 
would be more than happy to take that up with my California 
colleagues and respond to you, why we took a position----
    Mr. Pombo. No. I know where they are opposed. They filed 
lawsuits and stuff. I can very easily go to the lawsuit and 
determine why they were opposed.
    Mr. Baker. Uh-huh.
    Mr. Pombo. But what I am interested in is if I am going to 
tell these folks you can't use barges anymore, you've got to 
use trucks, and diesel is not inexpensive, and it's also known 
for some impact on air quality, if I am going to tell you you 
can't use barges any more, these guys are using trucks, I don't 
want you to come back in 5 years and say, well, we were kidding 
about trucks, you can't use those either.
    I just want to make sure that we understand each other.
    Mr. Baker. Sure. And that leads to----
    Mr. Pombo. You support freeways, you support all of the 
infrastructure necessary to truck their products to a port to 
export their product?
    Mr. Baker. That leads me to the second part of my 
responsibilities. I don't know what particular highways might 
be proposed. I do not know what particular new roadbeds----
    Mr. Pombo. I can promise you there will be hundreds of 
miles of six lane freeways that will be necessary in order for 
us to replace the current transportation system.
    I wish we had a barge system where I am from that we could 
effectively move our products to port. Unfortunately, we don't.
    But as a result California is criss-crossed with major 
freeways.
    Mr. Baker. The County Commissions where I live, looking at 
this, didn't propose any six lane highways. It was upgrades of 
the current highways, to four lanes, and in another cases, 
simply an upgrade of the pavement on a number of county roads.
    That proposal, I would see no opposition from the Sierra 
Club.
    As I said earlier, we would probably be fighting for those 
kind of proposals.
    Mr. Pombo. I don't want to look back in the previous 
testimony, but I forget how many million ton of product we were 
talking about.
    I can assure you that repaving county roads is not going to 
move millions of tons.
    Mr. Baker. I am simply reporting to you what the County 
Commissioners where I live tell me is needed. About $32 million 
worth of road improvements.
    Mr. Pombo. Let me go to a different topic. That goes to 
power generation. You can correct me if I am wrong. You said 
that there were other forms of power generation that the Sierra 
Club would support.
    Mr. Baker. Yes, sir.
    Mr. Pombo. Can you let me in on what those are?
    Mr. Baker. First and foremost, this region takes great 
pride in the strides we have made forward in capturing the 
resource of energy conservation. That was----
    Mr. Pombo. Excuse me. I didn't say energy conservation. I 
said power generation. Let me know which forms of power 
generation the Sierra Club now supports.
    Mr. Baker. If I might be permitted to complete my answer 
about energy conservation. This region in the Northwest Power 
Planning Act declared conservation a generating resource for 
the purposes of planning and providing energy supply.
    Mr. Pombo. Well, as far as a cowboy from California is 
concerned, can you tell me what forms of power generation the 
Sierra Club supports?
    Mr. Baker. Yes, sir. We support energy conservation, which 
is estimated to offer a resource much larger than the average 
output of these dams.
    We have also supported and continue to support clean--the 
development of clean renewables, another cornerstone of the 
Northwest Power Planning Act. There is a huge resource in this 
region in wind and solar power, and we support its acquisition, 
bringing it on line.
    Mr. Pombo. I represent the area that probably has the 
largest wind generation facility in the world, and have been 
part of that industry from day one. I am probably more familiar 
with wind energy generation than any Member of Congress, past, 
present, or probably future. Because I have great hopes that 
some day a great portion of our energy could be produced by 
wind.
    But I can tell you the technology is not there at this 
time.
    The ability to supplement existing systems is there with 
wind energy. But for it to be a source of generation, for 
people to depend upon, it's just not there yet.
    It's interesting that when we began the wind energy 
generation project in San Joaquin County and Alameda County in 
California, the environmental groups were in support of that.
    But they are now no longer in support of that because it 
has destroyed the view in the hills of having all the windmills 
up there, and they filed a number of lawsuits to try to take 
them out.
    So, you know, you are damned if you do and you are damned 
if you don't.
    And this is a huge concern to me, when you start talking 
about, we could do away with the dams, and energy production 
could be replaced by some mythical thing out there in the 
future, and the transportation infrastructure can be replaced 
by some mythical thing out there in the future, where the 
reality is the money is not there to build all your freeways to 
move this stuff, the technology does not exist to have wind or 
solar energy replace all of the stuff, the future of what we 
could get out of the dams.
    So it is not as cut and dried as the way you would like to 
put it.
    Finally, I would like to ask you specifically about the 
Oregon Plan. And it's my understanding that Sierra Club was 
party to the lawsuit that resulted in that plan being rejected.
    Mr. Baker. Yes, sir.
    Mr. Pombo. It's difficult for me to understand why, when 
you have a state and Federal Government get together on an 
environmental issue like saving the salmon and all of the 
bloodshed and everything that comes with that, how difficult 
that is to get the state and local government to agree with the 
Federal Government on any.
    It appears at least from my vantage point that the vast 
majority of the citizens in Oregon agreed to this plan.
    I know I've been contacted by a number who felt that the 
plan went way too far and that Oregon was giving up way too 
much.
    But it is difficult for me to understand why, if you have 
this kind of collaboration that's put together with the state 
and Federal Government agreeing that this is the best thing for 
salmon, we would have the Sierra Club file a lawsuit to stop 
them from doing that.
    Mr. Baker. Actually, we filed a lawsuit, Mr. Chairman, in 
order to make certain that the fish were listed under the 
Endangered Species Act. We did not file a lawsuit to disrupt 
the Oregon Plan.
    Mr. Pombo. But the purpose of the Oregon Plan was to 
prevent it from being listed on the Endangered Species Act. You 
wanted to list it under the Endangered Species Act.
    So it appears that your effort was to undermined what they 
were trying to do.
    Mr. Baker. You first characterized the Oregon Plan as a 
bona fide good faith effort to stave salmon and steelhead.
    To the extent that that was what the plan intended to do, 
we supported it.
    To the extent that it was intended to substitute or defer 
or otherwise prevent a listing of coho, which they deserve 
under law, we were opposed to the Oregon Plan, and filed our 
lawsuit.
    We were not in any way trying to dispute the Federal, state 
partnership in the plan. We were trying to make sure that fish 
got the protection under the law that they deserved.
    Mr. Pombo. Well, apparently there were a lot of people that 
disagreed with you on that position. Which brings me to my 
final point, and then I will stop.
    The Sierra Club have, if you go back to the original 
Endangered Species Act and read the original Endangered Species 
Act, read the testimony that occurred before Congress at the 
time, it's really pretty difficult to find any major problems 
with the original Act.
    But we end up here today with all of these problems. And I 
think that if you study case history on this, a lot of it has 
been through lawsuits. And it's been judges, courts in 
different parts of the country who have taken what was the 
original Endangered Species Act and interpreted it in different 
ways. And we have ended up with a law that I believe today is 
impossible to implement.
    That's why we ended up with so many conflicts when this 
reaches real people.
    Do you think it's time that the Sierra Club and other 
environmental organizations sit down and look at the law and 
say, these are the problems we have with it, let's try to make 
some changes, let's reauthorize this Act, but these are the 
problems we have, and we know we're not going to get everything 
we want, but let's try to make some change in this so we don't 
have the kind of conflicts that we currently have?
    I would venture to say that there are very few issues that 
you could come to this community and have over 400 people show 
up on for a Congressional hearing. Obviously there is a major 
conflict. We have major problems.
    Is it time for you guys to sit down and realistically say, 
these are the problems with the Act and let's go?
    Mr. Baker. Mr. Chairman, us guys have done that. We have 
sat down----
    Mr. Pombo. Well, I am going to interrupt you here. I've 
been the Chairman of the Endangered Species Task force, the 
principal author of the revisions, the principal in the 
Republican Party over the past 4 years, and you haven't sat 
down with me.
    Mr. Baker. I can't explain why that might not have 
happened, other than you may not have asked us to come to your 
door.
    Mr. Pombo. I have asked on numerous occasions.
    Mr. Baker. I can assure you that we have carefully reviewed 
the endangered species for reauthorization, we have proposed a 
number of changes which we believe would be responsive not only 
to making for better assurances that species will not decline, 
much less go extinct, and will be responsive to making it 
possible for the Act to be implemented in a way that's 
responsive to the concerns of people in society.
    We have to my knowledge brought our documents to Capitol 
Hill. I cannot explain to you why we may not have come by to 
talk to you. But if you are inviting us, if you are opening 
your door----
    Mr. Pombo. My door is open. It has always been open. I have 
invited you in on a number of occasions. Even after I was named 
the eco-thud of the year.
    I realize that this--I appreciate you coming and testifying 
and sharing with us your opinions. I would greatly appreciate 
you and the rest of the panel answering any further questions 
that we have.
    This issue is obviously quite emotional. This issue is 
obviously a source of great conflict in the country today.
    I don't think that you can put all the scientists and 
biologists and politicians in the world in one room, and it 
doesn't make any difference, because as long as real people are 
being hurt by it, we have got a problem. And unless we fix that 
problem, we're not going anywhere.
    And I thank all of you very much for being here, for your 
testimony.
    As we continue to work through this, as Congress continues 
to try to make an Endangered Species Act that works for 
wildlife and for people, the testimony we receive today will be 
a great help to all of us.
    And thank you very much. The hearing is adjourned.
    [Whereupon, at 2:45 p.m., the Committee was adjourned.]
    [Additional material submitted for the record follows.]
 Statement of Hon. Robert F. (Bob) Smith, a Representative in Congress 
                        from the State of Oregon

    Thank you, Mr. Chaimman, for holding this hearing. The 
National Marine Fisheries Service's (NMFS) implementation of 
the Endangered Species Act (ESA) is a very important issue for 
not only my district, but for the entire Pacific Northwest. 
This region's effort to recover salmon species protected under 
the ESA is unparalleled and the cost of this effort on the 
lives of our people and the economy of our region is 
immeasurable. I think that it is safe to say that almost every 
person and industry in this region have felt, or will soon 
feel, the effects of the decisions of NMFS. If not from the 
consequences of the listing of the coastal Oregon coho, then 
through the long-temm recommendation for operation of the 
Federal Columbia River Power System (FCRPS) due from NMFS next 
year. Consequently, this hearing is not only very important, 
but also very timely.
    As you will hear from many of the witnesses present, NMFS 
has failed to implement the ESA in a manner consistent with its 
mandates. NMFS does not implement the ESA in a timely manner. 
Instead, decisions are delayed well beyond statutory deadlines. 
It does not base its policies on sound science or even reality. 
It fails to provide applicants with prudent and reasonable 
alternatives that are technologically and economically 
feasible. In addition, it has yet to identify the overall goal 
of the region's efforts, spending hundreds of millions of the 
region's dollars every year on measures that they cannot say 
with any certainty will benefit the protected salmon. The list 
goes on and on. The overall effect has been a haphazard effort 
based upon speculation, rather than science.
    This cannot continue. NMFS's irresponsible implementation 
of the ESA has had a detrimental effect on our economy. The 
Columbia River and its system of 30 multi-purpose Federal dams 
are the backbone of our regional economy. Since 1937, when the 
first dam was built, the system has grown to provide the region 
with a low-cost and stable supply of electricity, navigation 
through a series of locks from the Pacific Ocean to Lewiston, 
Idaho, irrigation for agriculture, flood control capabilities 
and recreational opportunities. As a result, the Pacific 
Northwest has enjoyed a strong economy built up around the 
FCRPS.
    The measures required by NMFS under the ESA have diminished 
the value of the FCRPS to the region, particularly with regard 
to hydroelectric power production. Now, certain policies and 
measures being implemented or discussed threaten to diminish 
the system's value even more.
    No Net Loss Policy on Water Withdrawals. NMFS is 
implementing a new policy on water withdrawals in the Columbia 
River and its tributaries that is called ``No Net Loss.'' NMFS 
has said that no new water withdrawals, including withdrawals 
under existing but undeveloped water rights, will be allowed 
until the flow targets it set in its 1995 Biological Opinion 
are met. As you will hear from my good friend and constituent, 
Mr. Bob Hale of Inland Land Company, this policy is not based 
on sound scientific evidence or even reality. There is no 
conclusive evidence that more water in the river will actually 
benefit the salmon. Even more troubling and reflective of 
NMFS's tendency to base costly policies on bad science is that 
there is no evidence that the river's flow was ever at the 
level required by NMFS in its '95 Biological Opinion. Recent 
studies have shown that those flow targets cannot be met even 
if all irrigation withdrawals in the Columbia basin were 
stopped.
    Nevertheless, this unrealistic policy is being used as a 
basis for denying existing water rights no matter how small the 
impact of the proposed withdrawal to the overall flow of the 
river or to the health of threatened or endangered salmon. Just 
as troubling is the fact that NMFS is implementing this policy 
without regard for state water rights. This utter disregard for 
state rights to water, the viability of our regional economy, 
and existing scientific evidence is unconscionable.
    If this policy continues to be implemented, family farms 
like Inland Land Company will be forced to reduce production or 
to go out of business. As more and more water withdrawals are 
denied, valuable agricultural land will not be used and 
industries dependent upon agriculture, abundant water and low-
cost electricity will locate elsewhere.
    Breaching Dams. As the time for the new recommendation for 
operating the FCRPS nears, more and more conservation groups 
are calling for breaching the Lower Snake River dams and the 
John Day dam on the main stem of the Columbia River. Some say 
that this is the only way to recover threatened and endangered 
salmon. Again, this is an irresponsible statement. It 
completely ignores the impact on salmon of overfishing, adverse 
natural trends and other activities. In addition, no objective 
scientific analysis has yet to determine, conclusively, that 
removal of the dams will save the salmon runs. Yet, the 
economic, social and environmental costs will be enormous. At a 
minimum, the region will lose all barge transportation to 
Lewiston, Idaho, a good portion of its low-cost electricity 
supply and the stability of its transmission system. All of 
which will have to be replaced at a huge environmental and 
economic cost to the region.
    The bottom line from my perspective is that the region's 
economy cannot continue to bear the uncertainty and risk 
resulting from irresponsible environmental policies and 
statements. In addition, it will not bear the devastation that 
will occur if the dams are breached.
    The Federal Government, whether through NMFS or the U.S. 
Fish and Wildlife Service, must, at a minimum, make the 
following changes:

        <bullet> It must adopt fiscally responsible policies that are 
        supported by good science. The region cannot continue to pay 
        hundreds of millions of dollars every year on measures that 
        NMFS thinks may benefit protected salmon.
        <bullet> It must work closely with those people and interests 
        impacted by their decisions to find reasonable solutions. No 
        policy is a good policy if it does not reflect the concerns of 
        those directly impacted.
        <bullet> It must also be held accountable for its decisions and 
        actions. The region cannot continue to finance costly measures 
        that do not accomplish its intended goals. Finally, it must 
        develop recommendations for future FCRPS operations and water 
        use that can be implemented within the current configuration of 
        the system and that are consistent with state water rights.
    Thank you, again, Mr. Chairman, for holding this hearing today.
                                 ______
                                 
  Statement of Speaker Lynn Lundquist, Oregon House of Representatives
    Chairman Young and members of the Committee, I am Lynn Lundquist 
from Powell Butte, Oregon and serve as Speaker of the Oregon House of 
Representatives. I appreciate the opportunity to testify before you 
today on an issue that has had a significant impact on the local 
communities that comprise this region. There is no question that the 
Federal Endangered Species Act has, and unless changed, will continue 
to adversely impact the Northwest region's economy, environment and 
sense of community.
    I will keep my comments brief and to the point. I hope I am able to 
give you an illustration ofthe concern in the region by passing along 
three points this morning.

Point one: a bad law can not be administered as a good policy.

    The Federal Endangered Species Act (ESA) does not provide effective 
mechanisms for species recovery and fails to encourage states' 
participation in the recovery of threatened and endangered species. The 
comments and frustrations that will be expressed during this hearing 
are due partially to the fact that the ESA has not proven to be an 
effective mechanism in encouraging the recovery of species.
    To further demonstrate my point, I would encourage you to consider 
what has happened to Oregon's efforts to recover the Oregon Coastal 
coho salmon. Facing a potential listing, Oregon developed a plan to 
address Oregon Coastal coho salmon recovery. The plan is referred to as 
the Oregon Plan for Salmon and Watersheds or ``Oregon Plan.'' The 
Oregon Plan outlines hundreds of measures state agencies are currently 
undertaking to recover the species. The Oregon Legislature authorized 
over $30 million to be used for implementing the provisions of the 
plan. In addition to the $30 million, contributions in the form of 
habitat improvements on private lands have been estimated to be well 
beyond $100 million. Let me again stress that this is on private land 
where private citizens and companies are conducting the work. The 
Oregon Plan includes a variety of actions that would not be achieved by 
a listing under the ESA.
    When the NMFS made a decision not to list one of the evolutionary 
significant units of the Oregon Coastal coho salmon, the decision was 
immediately challenged in court. In a significant blow to the Oregon 
Plan, and further proof that the ESA needs to be changed, the court 
concluded that the ESA does not allow for the consideration of the 
biological effects of future or voluntary conservation measures, thus 
the decision to not list should be reevaluated. This conclusion 
resulted in the NMFS listing the species effective October 9, 1998.
    The fact is Oregon has a plan, the money and an unprecedented 
commitment from industry and landowners to save Oregon's salmon and 
streams while the Federal Government literally has no tools to achieve 
species recovery. The Federal Government's track record is dismal when 
it comes to developing a timely recovery plan, let alone implementing 
measures that result in increased numbers of salmon. Reform of the ESA 
is needed to bring about a new approach to the way the states and 
Federal Government can work together to achieve species recovery.
Point two: agencies can make a bad law even worse.

    Although I have highlighted some of the concerns with the ESA 
itself, not all of the disappointment has been solely as a result of 
the law. Obviously, agencies have discretion in how the law is to be 
administered. The NMFS has created considerable frustration among 
legislators, state agencies and citizens, especially those citizens who 
have to comply with the directives or uncertainty created by NMFS. A 
primary concern with the NMFS is their apparent mistrust of the motives 
of local communities to develop local solutions to the issues 
surrounding species recovery. The forcing of Federal mandates upon the 
communities will be less than successful in recovering species.
    In Oregon we have a variety of examples in which the actions of 
NMFS has not furthered the species recovery but has instead created 
resentment with the agency. Examples include the development of a 
variety of Memorandum of Agreements (MOA) that involve the NMFS in 
areas including forest practices, water withdrawal, agricultural 
activities and even gravel removal. In addition, the agency has told 
state legislators to help secure funding for salmon recovery yet has 
failed to request any Federal assistance to support Oregon Coastal 
salmon recovery efforts.
    A way to judge the effectiveness of the NMFS is to look at what it 
has accomplished. With respect to salmon recovery in the Columbia 
Basin, the NMFS has not yet developed an acceptable plan, provided a 
definable objective or created a process that has resulted in progress 
towards the recovery of species. Something needs to change if we are to 
be successful in our objective.

Point three: it is imperative NMFS and other Federal agencies do not 
infringe upon Western water law and the states' sovereignty over the 
allocation of the resource.

    I believe you will hear examples how the NMFS has impacted and will 
continue to impact the allocation of water in the West. To be blunt, 
this is unacceptable and will not be tolerated. NMFS has indicated its 
desire to consult with state water resource agencies on all water 
withdrawals in regions where fish are listed under the ESA. This 
strategy appears to be more a tactical maneuver to influence or prevent 
the withdrawal of water.
    It is important to note the actions and requirements by NMFS create 
an additional burden on state agencies as well. If NMFS wishes to 
consult with state water agencies on all water withdrawals in areas 
impacted by the ESA, who is responsible for the increased expenses 
associated with the state having to respond to NMFS' concern? My 
experience has been that NMFS is happy to tell you what to do yet they 
don't want to help pay for it.
    In summary, my request is simple, change the ESA law to allow for 
local solutions to species recovery, direct the agency or agencies to 
be a partner in the process and stay away from infringing on states' 
authority over water rights. I would again like to thank Chairman Young 
and the members of the Committee for the opportunity to share with you 
my thoughts on the issues regarding the NMFS and the ESA.
                                 ______
                                 
          Statement of Hon. Ted Ferrioli, Oregon State Senator
    Mr. Chairman and Members of the Committee, thank you for the 
opportunity to testify in favor of H.R. 4335 that would consolidate 
administration of the Endangered Species Act under authority of the 
Secretary of the Interior.
    Mr. Chairman, as you well know, the two Federal agencies that 
administer the Endangered Species Act are U.S. Fish & Wildlife Service 
(USF&WS) and National Marine Fisheries Service (NMFS).
    U.S. Fish & Wildlife Service is responsible for managing listed or 
protected avian and terrestrial species and native aquatic species. 
National Marine Fisheries Service is responsible for managing listed 
and protected marine mammals, aquatic species and anadramous (fresh-to-
salt water migratory) fish.
    Because some aquatic species and marine mammals are migratory and 
some aquatic species are non-migratory but share the same spawning and 
rearing habitat, there is an overlap of administrative and management 
authority between these agencies. For instance, USF&WS is responsible 
for managing Bull Trout which spawns and rears in very cold, clear 
water normally associated with uplands and headwaters.
    In managing for Bull Trout, USF&WS has developed guidelines 
affecting virtually every aspect of natural resource management 
associated with riparian areas and uplands, including grazing, timber 
harvesting, water withdrawals for irrigation, vegetation management, 
recreational fishing and other aspects that affect habitat.
    In addition to these guidelines, a formal reconciliation with 
USF&WS--called Conferencing--is required for virtually all management 
actions proposed on or near Bull Trout habitat whether on Federal or 
non-Federal lands.
    Mr. Chairman, listed species of salmon and steelhead trout spawn 
and rear in some of the same habitat as Bull Trout. Salmon and 
steelhead are anadramous, or fresh-to-saltwater migrating fish. As 
such, they fall under the authority of NMFS.
    NMFS has developed its own steelhead guidelines for proposed 
management actions on or near riparian areas--guidelines which are 
similar, but not identical to USF&WS guidelines for Bull Trout. 
Conferencing with NMFS for listed anadramous species is also required.
    Mr. Chairman, on the same reach of a headwaters stream, land and 
resource managers must develop a set of prescriptions to meet the 
requirements for Bull Trout, including Conferencing with USF&WS, and a 
similar but not identical set of prescriptions to meet requirements for 
steelhead or Salmon, including Conferencing with NMFS.
    This obvious duplication of efforts is costly and unnecessary, not 
only to landowners and taxpayers, but also to those who rely on timely 
and efficient Federal decisionmaking. Let me provide an example: The 
Summit fire was caused by lightning on August 13, 1996. During 24 days, 
the fire burned across 37,961 acres of mixed conifer forestlands, 
damaging riparian areas and leaving a mosaic of fire-killed timber 
estimated at approximately 300 million board feet.
    Because of the extreme complexity of planning for management 
actions on Federal lands, especially where reside threatened or 
endangered species--Malheur National Forest Planning Staff wrote, then 
rewrote the Summit Fire Recovery Project, eventually preparing two 
Environmental Impact Statements. On July 12, 1998, a Record of Decision 
was issued calling for salvage and rehabilitation of approximately 
6,600 acres producing about 50 million board feet of timber.
    Major requirements of the fire recovery project draft EIS included 
development of a Water Resources Management Plan, Consultation with 
USF&WS for Bull Trout, and Consultation with National Marine Fisheries 
Service for steelhead.
    Mr. Chairman, although prescriptions for Bull Trout management on 
riparian areas in the project area were designed to protect cold, clean 
water and spawning and rearing habitat for all aquatic species, the 
complexity and cost of the Summit Fire Recovery Project was 
considerably accelerated by the development of yet another complete set 
of management prescriptions for steelhead under direction of NMFS, also 
designed to protect cold, clean water and spawning and rearing habitat 
for aquatic species.
    Along with other planning delays, and the continuing threat of 
litigation by radical environmentalists, the Summit Fire Recovery 
Project, which should have taken no more than six months from planning 
to implementation, required more than 23 months to complete. The cost 
of suppression for the Summit Fire was $25,400,000. Planning for this 
project cost approximately $1.2 million for the original DEIS and 
additional $356,432 for the Supplemental DEIS.
    During the months between the fire and the eventual approval of the 
recovery project, insects and blue stain fungus infested the stands and 
severe checking reduced the value of salvageable timber. If conducted 
in August 1997, the project could have produced $6.9 million for the 
Federal treasury according to the Final Environmental Impact Statement 
(page 2-21). Today, the project will produce less than one sixth of 
that amount, or $1.1 million according to the Final Supplemental 
Environmental Impact Statement issued July 12, 1998 (page S-6).
    Members of the Committee, the delay and expense caused by mere 
duplication of effort as we saw in the Summit Fire Recovery Project may 
be the least costly aspect of dual administration of the Endangered 
Species Act.
    Mr. Chairman, you may have heard of the Oregon Plan for the 
recovery of Salmon and steelhead. It is a state-driven plan for the 
recovery of Coastal Coho salmon and many species of steelhead.
    The purpose of The Oregon Plan is not merely to avoid the ``take'' 
of listed species,--the only requirement on landowners under the 
Endangered Species Act--but actually to recover aquatic species by 
involving forestland owners, irrigators, cattle producers, dairymen, 
farmers and municipal watershed managers in a cooperative effort to 
improve water quality and aquatic habitat.
    Early in the process of developing the Oregon Plan leading to a 
Memorandum of Agreement to facilitate a ``no-list'' decision for 
Coastal Coho salmon, NMFS expressed its intense dislike of the Oregon 
Forest Practices Act, indicating a strong desire to rewrite the Act and 
demanding changes in virtually every aspect of forestland management.
    Eventually, NMFS submitted a proposal to the Oregon Board of 
Forestry titled A Draft Proposal Concerning Oregon Forest Practices. 
The proposal was developed by NMFS staff without input from those 
familiar with Oregon forest practices. Some of the proposed changes 
are, in a word, preposterous. For instance, in the section titled 
``Hydraulic Conditions Required for Adult Fish Passage'' culvert design 
is detailed:

        ``Where culvert lengths exceed 150 feet, a bridge installation 
        should be strongly considered. Generally, culverts smaller than 
        six feet in diameter are not adequate for fish passage and 
        should not be used. Culverts less than 10 feet in diameter 
        require lighting within the culvert barrel, provided by a 
        vertical riser (above the road surface), or by artificial 
        lighting at least every 75 feet (Draft Proposal on Oregon 
        Forest Practices, February 17, 1988--Appendix VI, page VI-3).
    The document also proposes to increase the buffer width for fish-
bearing streams, in some cases to 300 feet on each side. Elsewhere, 
NMFS advocates the prohibition of forest management activities . .. 

        ``. . . in wet weather conditions (typically two inches of 
        precipitation in 24 hours) especially during the winter period 
        (October 1-April 30). Hauling or skidding should not resume for 
        48 hours after precipitation ends or until road surfaces and 
        ditches are not flowing with water.'' (Draft Proposal on Oregon 
        Forest Practices, February 17, 1988--Section V, 2 A page 47-
        48).
    Mr. Chairman, Western Oregon is famed for many things, among them 
is its prodigious rainfall--measured at more than 200 inches per year 
in some coastal areas. A shutdown of operations in coastal areas for 
rain, or throughout the state during the period from October 1 to April 
30 is particularly disconnected from the reality of Oregon 
climatological conditions.
    Analyis of NMFS February 17, 1998 Draft Proposal Concerning Oregon 
Forest Practices prepared by Oregon Small Woodlands Association and 
Oregon Forest Industries Council concludes that NMFS proposals will 
cost Oregon forestland owners an estimated $25.4 billion in lost 
economic value and render forestry operations impossible or unfeasible 
on 41 percent or 3.3 million acres of private forestland. (``Summary of 
Macro Economic Impact of NMFS Forest Practice Proposal,'' Oregon Small 
Woodlands Association and Oregon Forest Industries Council, April 
1998).
    Mr. Chairman and members of the Committee, this is an unconsionable 
intrusion by a Federal agency into the management authority of the 
state of Oregon and an even more egregious intrusion against the 
interests of private landowners.
    I urge you to bring to heel what is clearly an agency out of 
control and to remove administrative authority under the Endangered 
Species Act from the Department of Commerce and National Marine 
Fisheries Service.
    Mr. Chairman and members of the Committee, even though our 
experience with the Department of Agriculture and U.S. Fish & Wildlife 
Service in administration of the Endangered Species Act leaves much to 
be desired, administration of the Act by the Department of Commerce 
acting through NMFS is a disaster. We therefore strongly urge passage 
of H.R. 4335.
    Mr. Chairman and members of the Committee, again, I thank you for 
the opportunity to provide testimony and stand ready to answer your 
questions.
                                 ______
                                 

    Statement of James J. Anderson, Associate Professor, School of 
                  Fisheries, University of Washington

    I wish to thank the House Resource Committee for the 
opportunity to appear at this hearing. I am an Associate 
Professor in the School of Fisheries at the University of 
Washington and have been involved with Columbia research for 
over a decade. My group and I have developed models for fish 
passage through the hydrosystem and for harvest management. I 
am currently a member of PATH, which is a group of scientists 
tasked with quantitatively evaluating proposed fish recovery 
strategies including increased smolt transportation and 
breaching the lower Snake River dams. In these studies I have 
worked extensively with National Marine Fisheries Service 
scientists and managers.
    My specific comments concern the NMFS flow targets as an 
Endangered Species Act management tool. I also note my thoughts 
and observations on how science has been used in ESA salmon 
management. Simply put NMFS has justified many actions in terms 
of their qualitative benefits. Because of the increasing 
complexity of ESA management, the benefits of actions must be 
put in terms of the numbers of fish and the costs of the 
actions.

The Two Cultures At NMFS

    NMFS has two cultures, a scientific culture responsible for 
basic and applied research on fish and their ecosystem and a 
management culture responsible for regu-

lating commercial fisheries and recently for implementing the 
ESA for salmon. Most of my experience has been with the NMFS 
scientists and I have high regard for their integrity, 
dedication and abilities to conduct scientific research in the 
charged atmosphere of endangered species issues. NMFS 
scientists have decades of experience with salmon and their 
continued involvement is essential to insure that endangered 
species are recovered. NMFS managers have an even more 
demanding task. Balancing the social and economic factors 
affected by the ESA is a difficult job because of the political 
constraints and limitations of the science that often is unable 
to provide clear explanations and conclusions. I believe that 
for effective management the two cultures must be integrated 
and work together.

Management Lags Science

    The relationship of NMFS science and management is critical 
to the success and failure of the ESA implementation. A well-
known observation in fisheries is that management lags science, 
sometimes by a decade. Management is not unaware of the recent 
scientific results, but in the fast moving political arena it 
is often difficult to resolve the scientific uncertainties to 
the point that they can be incorporated into management. 
Consequentially managers typically favor past ideas in making 
decisions. This is not a surprise considering that management 
must balance public perceptions as well as the scientific 
information, and in this regard, the public often takes views 
derived from their desire for a particular outcome. They often 
select or reject a scientific result according to whether or 
not it supports their belief. Managers of ESA resources can not 
take this approach.
    Acceptance of scientific principles is a slow process so it 
is natural to focus on old beliefs in making decisions. But it 
is essential for that managers educate the public on the 
relevance of recent scientific work. NMFS has not always done 
this. In any case, fisheries managers must not ignore the new 
research, nor fail to resolve the conflicting claims. It is in 
this regard that ESA salmon managers need to use the available 
science and especially for the interim decisions involved with 
the daily allocation of water resources.

Flow Targets

    I will focus on the flow policy of NMFS. A decade ago many 
fish biologists believed that the Snake River salmon decline 
was mainly the result of increased fish travel time through the 
hydrosystem. It was thought that by increasing flow to mimic 
the predam flows the fish would return to the predam levels. 
Improved survival studies and model results indicate that a 
strong increase in fish returns from flow increases is not 
possible. The current estimate of the impact of flow on spring 
chinook is a hundred times less than was previously believed. 
The flow augmentation program may produce a 1 percent increase 
in runs, far less than the 1000 percent needed to recover the 
spring chinook from its present level.
    In developing the Biological Opinion for dam operations in 
1995, and again for the mid Columbia stocks in 1998, NMFS did 
not incorporate the quantitative estimates that challenge the 
efficacy of flow as a fish recovery action. NMFS, in both 
instances, called for flow targets during the smolt migration 
and based the justification on circumstantial and largely 
outdated evidence. Nowhere in the analyses were quantitative 
estimates provided. It appears that the underlying NMFS belief 
was that, although a flow survival relationship can not be 
demonstrated, it is likely that one exists and therefore it is 
worth increasing flows to obtain an unspecified benefit in 
survival.
    The recent analysis conducted by PATH has found no evidence 
that increased flows will significantly increase spring chinook 
returns, neither directly through improved hydrosystem passage 
nor indirectly through an unspecified relationship between 
river flow and post hydrosystem survival. For the subyearling 
fall chinook migrants the studies do show a relationship 
between survival and a number of river properties including, 
temperature, flow, water turbidity and the timing of the 
migration. My recent analysis of the fall chinook data suggests 
a relationship between fall chinook smolt survival and fish 
size. Furthermore, if the operative factor is fish size, then 
flow augmentation, which may cool the water and initiate early 
migration, could reduce fish size and decrease survival. The 
important point here is that, although flow correlates with 
survival in some years, a correlation is not evidence that 
increases in flow within a year will improve survival. Flow 
could be beneficial or detrimental; we simply do not know its 
affect at this time.
    Under these results, no flow survival in spring chinook and 
uncertainty for fall chinook, NMFS made a policy decision to 
strongly manage flow, irrespective of proof that it benefits 
fish. In addition, the flow targets are hydraulically 
impossible to achieve in below average water years. 
Furthermore, NMFS has been inflexible in reevaluating the flow 
targets in light of the new information and it has not 
aggressively pursued a resolution of the scientific claims on 
the impacts of flow.

Water Withdrawal Policy

    To support the flow targets NMFS imposed a moratorium on 
new water withdrawals in the Columbia and Snake River basins. 
Where and when water is withdrawn is clearly important to the 
level of impact it has on fish. A water withdrawal above 
spawning grounds may impact egg survival but the same 
withdrawal in the mainstem will have virtually no impact on 
smolt survival. The NMFS policy does not distinguish these 
differences. It is inflexible to the individual needs of water 
users and the varying impact of water on fish. This failure to 
quantify individual actions will not work in the long term 
where demands for salmon restoration increasingly confront the 
demands for water. Since the demands for both will only 
increase it is essential to quantitatively assess the impacts 
of withdrawals on a case by case basis using the best available 
models and data.

Putting Numbers On Actions

    For two decades now regional fish recovery actions have 
been justified on the grounds that they appear to benefit to 
fish. There has been few quantitative assessments of the 
actions, few peer reviews of the claims, and little flexibility 
in allocating resources. Although the region, through groups 
such as PATH, is now attempting to put numbers and 
probabilities on the impact of actions, only a limited number 
of issues are being addressed. Issues, such as the evaluation 
of the flow targets and water withdrawal moratoriums, are not 
being addressed.
    I believe that the atmosphere of distrust and adversity in 
managing threatened and endangered salmon is to some degree, 
because managers have failed to quantify results and challenge 
unsupportable claims on the benefits or detriments of actions. 
Instead of addressing issues in terms of the numerical cost and 
benefits and ranking actions by their effectiveness NMFS has 
used inflexible targets and moratoriums. These qualitative and 
largely intuitive approaches to management encourages fish 
advocates to misuse the scientific information and push for 
unrealistic demands and it forces water users into resolving 
issues through the courts and governmental intervention.
                                ------                                


  Statement of William Stelle, Jr., Regional Administrator, National 
               Marine Fisheries Service, Northwest Region

    Mr. Chairman, thank you for the opportunity to appear 
before you today. Your letter of invitation suggests I focus my 
testimony on the National Marine Fisheries Service's (NMFS) 
implementation of the Endangered Species Act (ESA), whether 
NMFS' ESA program overlaps or is consistent with the Fish and 
Wildlife Service's ESA program, and whether our implementation 
of the ESA is cost-effective. Finally, you asked for my views 
on H.R. 4335, which proposes to transfer the Department of 
Commerce's responsibilities for conserving threatened and 
endangered marine and anadromous species to the Department of 
the Interior. In my testimony, I will address these issues from 
a regional perspective, since our salmon program in the 
Northwest is a significant part of NMFS' ESA program. I will 
also raise several additional national concerns relevant to the 
proposed transfer of responsibilities.
    Since these hearings are being held in the Pacific 
Northwest, we have focused our comments on NMFS' efforts to 
protect and recover imperilled salmon throughout this region. 
Clearly, Pacific salmon listings have affected almost every 
watershed on the West Coast and the interior Columbia Basin. 
Without a doubt, these listings have a more far-reaching impact 
than previous ESA listings. Salmon listings, proposals to list, 
and associated actions affect almost every ecoregion of the 
West Coast north of Los Angeles. These salmon listings affect 
one of the most precious and precarious resources of the West: 
water. The salmon's life cycle is complex and its migration 
vast. Hundreds of human activities have destroyed salmon 
habitat and brought salmon populations to the brink of 
extinction: timber harvest, farming, mining, irrigation and 
water development, road-building, urbanization, damming, 
dredging, hydropower operations, fishing, fish culture . . . 
the list is quite long.
    As you know, the ESA imposes a number of duties on the 
Secretaries of Commerce and the Interior. Whenever Federal 
agencies take actions that affect listed salmonids, they must 
consult with NMFS or the Fish and Wildlife Service, whose job 
it is to advise whether the Federal action will jeopardize the 
continued existence of the listed species. This determination 
is a complex and difficult one when it comes to salmon because 
the interacting effects of so many human activities threaten 
salmon's very existence.
    In the Northwest Region, NMFS has established a large 
program to help Federal agencies meet this consultation 
requirement. NMFS has reviewed Federal actions as 
geographically broad as the Northwest Forest Plan and as local 
as a scientific permit for a very localized Forest Service 
activity. Since 1991, with the first salmon listings in Idaho, 
NMFS has completed review of several thousand activities. NMFS 
has taken steps to make the consultation process more 
efficient. For example, we encourage Federal agencies to 
conduct ``programmatic'' consultations. That is, we ask them to 
consult with us on broad programs and policies. In this sort of 
consultation, we can jointly develop general principles and 
procedures to apply to individual actions. When individual 
actions are consistent with those principles and procedures, we 
can move very quickly through them. This approach was recently 
upheld by the Federal district court in Western Washington in 
reviewing NMFS' consultations on Northwest Forest Plan actions. 
We entered into a Memorandum of Understanding to coordinate 
consultation on operation of the Federal Columbia River Power 
System that required the operating agencies to submit only one 
biological assessment from which both NMFS and Fish and 
Wildlife Service developed their respective biological 
opinions.
    Simply gearing up to take all of the actions required by 
the ESA has been a tremendous challenge for NMFS. It takes many 
biologists a considerable amount of time to sort through and 
understand the status of individual populations of a species, 
how various actions affect them, and whether the fish 
populations can withstand the impacts and remain viable. To 
help us do our job, since 1991 Congress has increased the total 
NMFS budget for salmon by $16.5 million. This has allowed us to 
increase the regional staff from some 50 employees in Portland 
and Seattle in 1991 to 150 employees spread throughout the 
region today. With the help of Congress, and to be more 
responsive to constituents throughout the region, we opened 
field offices in Boise, Olympia, and Roseburg.
    Over the past twenty years, NMFS has developed a world 
class salmon science program covering a number of areas crucial 
to the Pacific Northwest. Our salmon science program consists 
of a major, nationally-renowned program on fish passage and 
survival research in the Federal Columbia River Power System 
that is absolutely vital to evaluating the effects of Federal 
dams on salmon recovery. That program has been in place since 
the mid 1970s and now consists of roughly sixty scientists. Our 
salmon science program also consists of a major conservation 
biology division which provides the risk assessments that 
support: (a) our listing and recovery programs; (b) habitat and 
chemical contaminations research programs that may be used in 
support of cleanup and restoration efforts for hazardous wastes 
sites by EPA and the Federal natural resource trustees; and (c) 
salmon rearing and fish disease research that is helping chart 
the path for improved hatchery practices in the Pacific 
Northwest. Finally, with funding from the Bonneville Power 
Administration, we have launched a major research effort into 
the ocean and estuarine survival of salmonids to better 
understand the role of ocean and estuarine conditions on salmon 
survival and recovery.
    The success of our salmon science program also can be 
measured in terms of its ability to understand the factors that 
put salmon at risk. We have developed over the last twenty 
years of effort world class expertise to evaluate the impacts 
of differing human activities on the salmon life cycle (e.g., 
dam operations and fish passage; fishing activities; fish 
husbandry; and general pollution of the marine and estuarine 
environment). We are developing state-of-the-art techniques for 
examining the cumulative impacts of various types of activities 
and mitigation measures and indicating the degree to which 
these create a risk to a local salmon population. We can use 
the state-of-the-art science and technology to look at various 
types of impacts and mitigation measures and indicate the 
degree to which risk will be increased or lessened.
    Probably the most difficult task in implementing the ESA 
for a species like salmon is trying to calculate how to 
allocate the conservation responsibility when there are many 
factors that have caused salmon to decline throughout the West. 
All of these factors must be addressed if we want to restore 
salmon. The status quo is literally driving salmon runs to 
extinction, and we must make basic changes in how we approach 
salmon and their habitat if our salmon are to remain part of 
the heritage of the Pacific Northwest.
    To respond to your second request, I'd like to talk about 
coordination between the two Services to ensure consistency. 
Even before coastal salmon stocks were listed, NMFS began 
working with the U.S. Fish and Wildlife Service to ensure that 
Federal agencies, states, tribes and private citizens could 
count on the agencies to be efficient and consistent in their 
responses. For example, the Services worked together on the 
Federal technical team that developed the Northwest Forest Plan 
to ensure it was adequate for all aquatic species, including 
salmon. We also started working with the Fish and Wildlife 
Service after realizing that landowners in Oregon, Washington 
and California were developing habitat conservation plans for 
the threatened northern spotted owl and wanted assurance that 
any plan they developed for owls would address salmon as well. 
To provide landowners with ``one-stop shopping,'' NMFS and the 
Fish and Wildlife Service established a joint office in 
Olympia, Washington, where biologists from both services 
collaborated on the development and review of habitat 
conservation plans. That office was instrumental in developing 
the Washington DNR and mid-Columbia PUD Habitat Conservation 
Plans.
    The Services have taken other actions to be certain we 
implement the ESA consistently and efficiently for Federal 
agencies and private landowners. Some of the more obvious 
actions are our joint regulations and policies on consultations 
and habitat conservation plans. We are issuing a number of 
joint policies for private landowners, including the ``no 
surprises,'' ``candidate conservation agreement,'' and ``safe 
harbors'' policies that give landowners greater future 
certainty when entering into conservation agreements with the 
Services. To make certain our staffs adhere to consistent 
procedures when dealing with the public and other Federal 
agencies, we have issued joint policy and guidance documents, 
such as the Section 7 Consultation Handbook and Habitat 
Conservation Handbook. We have issued a number of other joint 
technical policies such as our artificial propagation policy. 
Whenever one of the Services takes a major action or faces a 
novel situation, we communicate with each other at the regional 
and national level to ensure our approaches to the ESA are 
consistent. We are currently working on future, joint policies, 
like one on candidate conservation agreements, that will ensure 
a consistent level of service between NMFS and the Fish and 
Wildlife Service.
    Although NMFS and the Fish Wildlife Service coordinate our 
activities to provide the same level and kind of service to 
other agencies and the public, each agency brings different 
strengths to the Federal ESA program. Our strengths--NMFS with 
extensive marine expertise and the Fish and Wildlife Service 
with extensive freshwater and terrestrial experience--are 
complementary in the ESA program. Both NMFS and the Fish and 
Wildlife Service implement the ESA on rivers and streams in the 
Pacific Northwest despite clearly divided responsibility for 
different listed species. To take care of listed Pacific salmon 
from their cradle to their graves, NMFS has had to add 
expertise on freshwater ecosystems to its existing marine 
expertise. Although this freshwater expertise and 
responsibility appears to ``overlap'' with the Fish and 
Wildlife Service, it is absolutely necessary to provide a 
coherent service for the people, communities, and industries 
that depend on salmon for their economic and social well being. 
There is no duplication of costs between our ESA programs; in 
fact, NMFS' ESA program is extremely cost-effective.
    Finally, you asked for my views on H.R. 4335, which is your 
proposal to transfer NMFS' ESA responsibilities to the Fish and 
Wildlife Service. NMFS' largest ESA program is for salmon, 
which is where this proposal would have the greatest impact. 
The Administration opposes H.R. 4335 for the reasons discussed 
below.
    The Pacific Northwest is in the midst of a major challenge 
to recover salmon runs that face extinction. Meeting this 
challenge will affect major facets of northwest life: power; 
water resources; fishing; forest and agricultural land 
management; and the like. This region is on the brink of some 
very important decisions on the Columbia River power system. We 
are also gearing up for major re-licensing efforts for many big 
hydropower projects, including some in Idaho.
    The National Marine Fisheries Service is unquestionably 
dedicated to the recovery of salmon in the Pacific Northwest. 
Our leadership of and involvement in many of the key salmon 
efforts is substantial--from the Columbia River Power System to 
the Oregon Salmon Plan to the growing efforts of Washington 
communities to prepare for salmon listings in Puget Sound. The 
challenges associated with joint administration of the ESA in 
this region are significant but resolvable; the benefits of 
shifting salmon responsibilities would be fewer than 
anticipated, while the disruption, confusion, and delays 
associated with the transfer of ESA responsibilities would be 
very substantial.
    That said, we must ask ourselves what problem this 
legislative proposal is intended to solve and is this proposal 
the best solution. Is there concern that other Federal agencies 
and private parties are ``overloaded'' trying to deal with two 
separate Services protecting at least two (but usually more) 
different species? If so, such a transfer might address that 
concern because there would be only a single ESA agency. There 
are other ways to address this concern such as steps the 
Services have already taken, that are not as disruptive. 
Earlier I provided examples of joint consultations, joint HCPs, 
and co-location of offices that has helped provide ``one-stop'' 
shopping services to Federal agencies and applicants. We are 
exploring other administrative ways of coordinating NMFS' and 
Fish and Wildlife Service's ESA programs like joint processing 
of Federal agency actions that affect threatened or endangered 
species, which has streamlined the Corps of Engineers' 
permitting program elsewhere in the country.
    Is the main concern duplication of effort, that is, several 
biologists analyzing the same action? Right now, there is very 
little duplication of effort. The number of biologists working 
on a consultation depends on the geographic scope of the 
action, the number and diversity of species involved in the 
consultation, and the probable environmental significance of 
the action. Right now, if an action affected bull trout, 
chinook salmon, and grizzly bears, NMFS and Fish and Wildlife 
Service would have to assign both fishery and wildlife 
biologists to evaluate the action. With the proposed transfer 
of ESA responsibilities, the Fish and Wildlife Service would 
still require both fishery and wildlife biologists to evaluate 
the action so there probably would not be an appreciable 
reduction in the number of biologists required to implement the 
ESA.
    Some will argue that the main problem is that NMFS is too 
protective of species in its application of the ESA, and the 
best solution is eliminating us from the program. Others would 
argue that we are not protective enough. We respect those views 
as part of the public dialogue associated with the difficult 
task of protecting salmon and clean, healthy water. The 
Administration has said many times, salmon throughout the West 
are in deep trouble, and it is the full range of human actions 
that have put them there. We cannot keep doing business in the 
Northwest the way we have been and expect salmon to survive in 
the wild. The Fish and Wildlife Service, with its proud legacy 
of environmental stewardship, would give you the same answer.
    Shifting NMFS' ESA responsibilities to the FWS would create 
confusion and delays that could last for years. I mentioned 
earlier what NMFS has done to prepare for the special challenge 
of managing salmon issues in the Pacific Northwest. It has 
taken us some years to get to a point where we can implement 
our salmon program efficiently. We have gathered a lot of 
expertise on salmon science and salmon management, and we have 
invested a lot of resources to develop working relationships 
with the hydropower industry (public and private) to address 
salmon issues. We now have a good staff organized and equipped 
to administer the ESA to conserve salmon species cost-
effectively. Our organization is fairly simple, our numbers are 
lean, and our people are skilled at their jobs.
    If NMFS' ESA responsibilities were transferred to the Fish 
and Wildlife Service, they would have to repeat what we did--
organize to get the job done, locate and train new staff, find 
space, and request appropriations. In addition to preparing to 
handle salmon in freshwater ecosystems, the Fish and Wildlife 
Service would have to gear up for new marine responsibilities 
based on this proposed legislation. Based on our experience, we 
estimate that they would need a minimum of about 150 new FTEs 
and about $16.5 million in new money just to start handling the 
additional workload necessary to protect Pacific salmon. The 
confusion and delays associated with the transfer you propose 
would create major inconveniences and delays to private 
landowners, fishing communities, and timber interests--all 
whose lives are affected by listed salmon. It would, therefore, 
substantially disrupt ongoing efforts throughout the Pacific 
Northwest in salmon recovery at the worst possible time. If the 
transfer occurs without providing the Fish and Wildlife Service 
the personnel and funding to handle the new workload, the 
difficulties will become much larger.
    Finally, I think we need to examine what the other 
consequences of transferring authority to the Fish and Wildlife 
Service might be. Right now, people engaged in marine fisheries 
only deal with one Federal management agency; transferring ESA 
responsibility will require them to deal with two agencies 
where listed species are involved. Hence, transferring ESA 
responsibility to the Fish and Wildlife Service solves a 
perceived problem for people on land, but creates new problems 
for people who make their living from the sea.
    Would the benefits of this proposal outweigh the 
consequences? As I said, I think the main perceived benefit is 
to other Federal agencies and individuals who work on rivers 
and forests and now must deal with two Services. On the other 
hand, people who earn their living from the sea and now deal 
only with NMFS, would have to deal with NMFS and the Fish and 
Wildlife Service. There are trade-offs to either approach: who 
benefits, who loses? My agency and I look forward to engaging 
the Congress, and the region, on that question.
    Although most of my testimony, up to this point, has 
involved the extensive efforts undertaken by NMFS to meet its 
responsibilities to protect endangered and threatened species 
of Pacific salmonids, H.R. 4335 would reach far beyond these 
troubled species.
    Under the Endangered Species Act, in addition to listed 
salmonids, NMFS is responsible for many other marine species, 
including the Arctic bowhead whale, the Pacific and Atlantic 
humpback whales, the blue whale, the Steller sea lion, the 
Hawaiian monk seal, seven species of sea turtles. Even if NMFS' 
ESA responsibilities were transferred, NMFS and its parent 
agency, the National Oceanic and Atmospheric Administration 
(NOAA), would continue to have significant responsibilities to 
protect and recover these animals pursuant to the Marine Mammal 
Protection Act, the Magnuson-Stevens Fishery Conservation and 
Management Act, the Whaling Convention Act, the National Marine 
Sanctuaries Act, and statutes implementing a dozen 
international conservation agreements, in addition to our other 
authorizing legislation. With respect to whales, sea lions, sea 
turtles and ESA-listed species of marine fish, H.R. 4335 would 
increase, rather than decrease, the need for interagency 
coordination and would give rise to more, not less, duplication 
of effort and expertise.
    Setting aside the issue of salmonids for the moment, NMFS 
and NOAA strongly object to transferring ESA authority to 
Interior since NMFS and NOAA would still have to address the 
relevant ESA concerns in managing marine fisheries, marine 
mammals, and aboriginal whaling that have the potential to 
adversely affect other marine species such as whales, dolphins, 
seals, sea lions and sea turtles.
    To name just a few of the ongoing ESA issues that would be 
made more complicated by enactment of H.R. 4335, the management 
of the Alaskan groundfish fisheries, now handled by the 
Regional Fishery Management Councils and NMFS, must take into 
account the needs of the Steller sea lions. Management of the 
lobster fishery and the gillnet fisheries in New England must 
also take into account the needs of the right and humpback 
whales. So too must management of the salmon gillnet fisheries 
in Alaska and recreational activities in the Hawaiian Humpback 
Whale National Marine Sanctuary must take into account the 
needs of the humpback whales that migrate from Alaska to 
Hawaii. Under H.R. 4335, Interior would be granted much greater 
control over these fisheries.
    Even more significantly, NMFS' national and international 
responsibilities to protect sea turtles from incidental take in 
shrimp fisheries would not go away if responsibility for 
endangered species were transferred from NMFS to Interior, 
since sea turtles are considered ``fish'' under the definitions 
of the Magnuson-Stevens Act.
    As should be obvious, the above issues concerning the 
interaction of marine fisheries and species protected under the 
Endangered Species Act, the Marine Mammal Protection Act and 
the National Marine Sanctuaries Act are all quite 
controversial. NMFS and NOAA have more than two and one-half 
decades of experience in coordinating conservation programs for 
living marine resources. NOAA is the Nation's oceans agency. 
The Department of the Interior could not easily acquire our 
expertise.
    Even with respect to Pacific salmonids, NMFS and the other 
NOAA agencies would have to remain involved in ESA matters as a 
result of our broad ocean fishery resource management 
responsibilities, including the Federal Power Act, the Fish and 
Wildlife Coordination Act, the Coastal Zone Management Act, as 
well as the new requirements of the Sustainable Fishery Act 
that requires the Regional Fishery Management Councils, in 
cooperation with NMFS, designate essential fish habitat, which 
for salmonids at least, will cover much the same river basins 
as are now covered by our ESA programs. In short, even if NMFS' 
current ESA responsibilities were transferred to Interior only 
with respect to anadromous species, NOAA and NMFS would not be 
relieved of work and the public would not have fewer Federal 
agencies to deal with.
    Mr. Chairman, thank you again for the opportunity to 
testify. I look forward to answering any questions you may 
have.

         Mr. Stelle's response to questions from the Committee

Dear Mr. Chairman:
    The Committee requested that the National Marine Fisheries 
Service supplement my testimony at your hearing in Pasco, 
Washington, on September 2, 1998. I was asked whether the 
Endangered Species Act abrogates state water law. I am pleased 
to provide the following as further response to this question.
    It is inevitable that both state and Federal environmental 
statutes intended to protect aquatic species and their habitat 
will intersect with the exercise of established water rights. 
It has been the consistent approach of this Administration to 
meet ESA water needs consistent with state law. Consistent with 
this position, the Federal agencies have deliberately 
implemented their programs, including those for the ESA, to 
respect water rights. Some examples include:
        <bullet> Columbia and Snake River Basins, Washington, Oregon 
        and Idaho:

        In 1995, during ESA consultations on Federal hydropower 
        operations, the Federal Government concluded it would implement 
        flow augmentation from the Upper Snake River through 
        acquisition by the Bureau of Reclamation from willing sellers 
        and express compliance with Idaho state water law.

        <bullet> Rio Grande River Basin, New Mexico and Texas:

        Similar to the Snake River Basin, the U.S. Fish and Wildlife 
        Service and the Bureau of Reclamation are working with local 
        and state parties to meet water needs for listed species 
        pursuant to state law.

        <bullet> Upper Colorado Recovery Implementation Plan, Colorado, 
        Utah, New Mexico and Arizona:
        This plan, which provides recovery measures for fish species 
        listed under the ESA, calls for implementation of instream flow 
        needs under state law.
    In addition, compliance with state water law for ESA water needs is 
central to efforts in the lower Sacramento River (Bay Delta Agreement), 
the Platte River, and across Colorado.
    With respect to aquatic species protected under the ESA, it is also 
important to ask where the courts are on the interaction between 
implementation of the ESA and the exercise of state law based water 
rights. Perhaps the closest case on point where the courts had to 
address state water rights in the context of ESA is United States v. 
Glenn-Colusa Irrigation District, 788 F. Supp. 1126 (E.D. Cal. 1992). 
In this case involving endangered Sacramento River winter run chinook 
salmon NMFS successfully sought to enjoin an irrigation district from 
diverting water pursuant to a state water right because an inadequately 
screened diversion was directly taking these juvenile salmon. The court 
addressed state water law issues and found that compliance with the 
prohibitions of Section 9 of the ESA did not abrogate water rights, but 
rather required that the right be exercised in a manner that did not 
violate the take proscription.
    In our view, the fair and effective management of these issues can 
only be accomplished through open and candid discussion among water 
users and those agencies implementing programs protecting and restoring 
our aquatic resources. NMFS encourages such basin-wide planning efforts 
to meet the ESA needs of listed species as well as the needs of water 
users to the fullest extent possible.
                                 ______
                                 
    Statement of Jeff Curtis, Western Conservation Director, Trout 
                               Unlimited
    Trout Unlimited, the Nation's largest coldwater fisheries 
conservation organization, appreciates this opportunity to testify at 
this hearing on Endangered Species Act implementation and H.R. 4335. TU 
has over 100,000 members nationwide in over 450 chapters. We have over 
7,000 members in Oregon, Washington and Idaho.
    Trout Unlimited is opposed to this legislation. From our 
perspective, Columbia River salmon management would not be fixed if 
this bill were passed. Frankly, I cannot imagine the U.S. Fish and 
Wildlife Service carrying out its ESA responsibilities much differently 
than the National Marine Fisheries Service (NMFS). And, if they did, 
the Federal courts would certainly force them to carry out their 
responsibilities consistent with ESA mandates. Let us recall that, 
while Judge Marsh ratified NMFSs current approach in American Rivers v. 
NMFS, he did so with a considerable degree of skepticism.
    At this time, moving anadromous salmonid recovery responsibilities 
to an agency previously not involved in these issues is a recipe for 
mass confusion. Given the imperiled species status and pending court-
imposed deadlines, the chance that upcoming decisions would have a 
random quality to them would be greatly enhanced.
    Rather than tinkering with Federal agency organization and 
responsibilities, we endorse the development of a regional structure 
along the lines of the ``three sovereigns'' process currently being 
discussed by the governors of the four Columbia Basin states. We 
believe a process involving the major governmental agencies in the 
basin--state, tribal and Federal--that is open to participation by 
other interested parties, will move the region closer to a consensus on 
salmon and energy issues. While we are not so naive that we think 
complete consensus will ever be reached on these issues, we do believe 
the region as a whole can come to a more complete understanding of the 
issues.
    But, in the end, it is not process but rather dramatic action that 
is needed to save salmon. To be blunt, the problem with the Columbia 
River is that we have changed the river to something that is now much 
less hospitable to salmon and steelhead. We have changed the 
hydrograph, running the river so it suits power production as opposed 
to running it the way that it ran when salmon were plentiful. We have 
dewatered and degraded many of the tributaries that spring chinook and 
steelhead need for spawning. And perhaps most importantly, we have 
turned a flowing river into a series of slow moving lakes.
    Recently Trout Unlimited endorsed proposals to breach the four 
lower Snake River dams. We recognize that we are advocating major 
changes in the system and we know that prompts two important questions. 
First, do we really have to make changes as significant as breaching 
dams to restore salmon? Trout Unlimited believes that to save ESA 
listed chinook and sockeye salmon and steelhead that return every year 
bound for Idaho's headwaters we do. Twenty years of failed barging and 
trucking experiments to get fish around these dams have demonstrated 
that, in essence, we can't fool mother nature. It is time to take more 
drastic actions. The Independent Scientific Advisory Board (ISAB) has 
concluded that the juvenile fish transportation program will not 
restore salmon. The ISAB has called for a normative river approach--
restoring some sections of the Columbia/Snake River system to more 
natural conditions such as those found in the Hanford reach of the 
mainstem Columbia--to provide necessary habitat for salmon recovery.
    Second, and perhaps the more obvious question, is it worth it to 
the region? Obviously, to those of us who believe that salmon are an 
icon of the region and a symbol of who we are, the answer to that 
question is obvious. But to those who look at these issues in more 
traditional economic terms, I believe the answer is still in the 
affirmative.
    While everyone knows that one of the assets of the Northwest, 
salmon, is at risk, we are also in some danger of losing another 
asset--low cost federally subsidized power. In an era of energy 
deregulation, the question must be asked why the rest of the nation 
should subsidize cheap power in the Northwest. More importantly, why 
should New Yorkers pay more to heat and cool their homes than folks 
from Seattle or Pasco? Why should Californians pay more for energy for 
their businesses than Oregonians?
    The answer that we in the Northwest give is that our power system 
provides public benefits as well--investments in renewables, energy 
assistance for the poor and, most importantly, salmon conservation. If 
the system does not provide those benefits, if the power system we are 
protecting for our own advantage is killing a natural resource we are 
charged with protecting, our position in defending the region's low-
cost power is much weaker.
    It is apparent the drawdown and dam breaching scenarios being 
considered will have both negative and positive effects on the economy. 
TU supports efforts to mitigate the negative impacts to current river 
users. But it is clear that these economic impacts are far less than 
what we could face if we lost the benefits of low cost power we have 
enjoyed since the 1930s.
    Many years ago, when there were no dams on these rivers, the fate 
of the Native Americans who lived in this watershed was inextricably 
tied to the salmon in the rivers. The salmon were articles of commerce 
as well as a food source. The health of the people and the salmon were 
linked. We do not believe that link has been broken. Our salmon and 
energy futures are still connected. If we sacrifice salmon for what may 
only be very short-term energy benefits to the region, in the long run 
we may very well end up with salmon extinctions and the loss of the 
competitive advantage of low energy costs. If, on the other hand, we as 
a region decide to make the tough decisions necessary to restore 
salmon, we stand a better chance of having a future that includes both 
salmon and a healthy economy.
    Trout Unlimited appreciates the opportunity to testify before the 
Committee.
                                 ______
                                 
   Statement of John K. Givens, Executive Director, Port of Kennewick
    Good morning, and thank you for the opportunity to participate in 
this hearing.
    My name is John Givens and I represent the Port of Kennewick, one 
of seventy-six port districts in Washington authorized into public 
service by the state legislature with a mission of fostering economic 
development. In carrying out that mission ports also work hard to be 
responsible environmental stewards of the resources they manage.
    My invitation to speak solicited remarks on the implementation of 
the Endangered Species Act (ESA), and views on H.R. 4335, regarding 
transfer of functions.
    I believe the Endangered Species Act of 1973 was enacted with the 
purest of intent to be a good piece of legislation that could be 
reasonably interpreted and easily managed. I also believe that during 
the past few years our changing environment has transformed the ESA 
into a nine hundred pound gorilla, often difficult to manage, and at 
times implemented on requirements that might lack common sense. I think 
it needs to be revisited by Congress.
    I'll share with you a good example of a potential recovery plan 
alternative being explored that, if carried out, would in my opinion be 
contrary to what most Northwest residents feel would be a common sense 
solution to the problem.
    The Columbia-Snake River system is one of our country's most 
valuable resources. That vital multiple use resource provides critical 
economic, recreational, and safety benefits to millions of people.
    The 465 mile federally authorized navigation corridor flows through 
a series of 46 ports, opening international trade markets to more than 
40 states. Forty-three percent of all wheat shipped from this country 
travels through the remarkable Columbia-Snake system. Yearly cargo 
volumes exceed 50 million tons and provide revenues exceeding $16 
billion dollars.
    Employment numbers created through that system exceed 50,000.
    The federally authorized dams which make that system unique have 
capacity to produce 75 percent of the Northwest's energy needs using 
renewable, plentiful, non polluting hydropower.
    About 50 percent of the 7.3 million acres of the producing farm and 
ranch land in Idaho, Oregon and Washington are irrigated with water 
supplied from that critical system. Yearly sales from those farms and 
ranches exceed $10 billion dollars.
    During 1996 and 1997 the Columbia-Snake River dams were credited 
with saving more than $4.8 billion dollars in property damage from two 
major flood events. The 70,000 acre feet storage capacity behind John 
Day Dam alone reportedly lowered the river level at Portland by 1.5 
feet during flooding.
    Reservoir related recreational activities created on those 
reservoirs add hundreds of millions of dollars to our country's economy 
each year.
    Yet, in spite of the unsurpassed benefits provided by that system, 
serious consideration is being given to breeching several of those dams 
and destroying the integrity of that federally authorized system 
because of perceived ESA listing requirements. The ESA has no 
accounting responsibility for the potential catastrophic aftermath a 
decision to tear down those dams might have on those who depend on the 
resources they provide. I hope Congress doesn't allow that to happen.
    During 1992, while I was serving as a Port of Clarkston 
Commissioner, the U.S. Army Corps of Engineers, after consultation with 
NMFS under the ESA, elected to stage a 30 day test drawing water down 
to a near natural river level on the Lower Granite pool of the Snake 
River. The purpose of the test was to measure infrastructure integrity 
under drawdown conditions.
    The economic interests of the area were not involved in the test 
planning except shippers were told to make alternative arrangements to 
barging for their transportation needs during the test period. The 
result of that 30 day activity caused serious distress. Lost business 
revenue was estimated in the millions of dollars. Substantial physical 
damage occurred, including sloughing embankments, heaving and separated 
highways, twisted commercial and recreational docks, and inoperable 
water intakes. No cargo moved from the Port of Clarkston for more than 
a month. A local marina operator ended up filing bankruptcy as a result 
of unrecoverable damage and business revenue loss.
    Thousands of resident fish were killed after being trapped in ponds 
which dried up when the river receded. The river corridor through 
Lewiston and Clarkston almost immediately became a stinking mud-flat as 
aquatic habitat decayed.
    While some economic mitigation was later made available for 
documented physical loss to private property, the pot was small and 
reimbursement was difficult obtain. An overwhelming majority of the 
people who experienced that drawdown never want that experience again.
    Now, six years later, we who depend on the integrity of the 
Columbia-Snake System are still living under the dark cloud of 
permanent natural river level drawdown while dam breaching options are 
being considered. Ports have great difficulty attracting many 
industries to their facilities with that curtain of uncertainty 
threatening large investments to bring needed jobs to communities.
    New ESA fish listings are occurring on a regular basis throughout 
the region. I understand that the Northwest has 15 species listed as 
threatened, and five as endangered under the ESA. In addition to those 
existing listings, 12 species have been proposed for threatened status, 
and two for endangered protection by either NMFS or USFWS.
    Once a population is tagged with an endangered listing, the only 
option available is to develop a sustainable recovery plan without 
regard to cost or economic effect. It deeply concerns me when I think 
about how the Endangered Species Act, if not sensibly interpreted, will 
drive the future of economic development in this country.
    Congress needs to review the ESA to make sure that recovery options 
are based on good science, sound economics and common sense logic. That 
makes for good policy. People deserve win-win solutions.
    I have concerns about the tiers of governing agencies involved in 
the ESA recovery process. It's hard to know where to turn to find help 
any more. Recovery efforts for anadromous fisheries are charged to 
NMFS. Unfortunately, that agency has both too few people and resources 
to meet the growing challenges facing them. I receive reports the NMFS 
consultation process is very slow. Recovery plans are difficult to 
complete, and then when finally approved are often challenged in court. 
Those involved with projects affected by threatened or endangered 
listings are often frustrated by the amount of energy and time involved 
on their parts due to agency resource scarcity.
    In closing, I'll say that I have no personal preference on what 
Federal agency, the Department of Interior or Commerce, is delegated 
the responsibility of coordinating ESA recovery. Consolidation seems to 
make sense. Single agency control is less likely to place two agencies 
at odds when recovering competing species. Expertise can be 
centralized. What is important is that the delegated recovery agency be 
given the tools (clear mission, people, expertise and funding levels) 
to do a good job.
    Thank you.
                                 ______
                                 
Statement of Bob Hale, Hale Farms, Shareholder, Inland Land Company LLC
    My name is Bob Hale. I am a shareholder in Inland Land Company LLC 
(``Inland''), 115 West Hermiston Avenue, Suite 240, P.O. Box 110, 
Hermiston, Oregon 97838. Inland was formed in 1994 by three family 
farms to develop an irrigated farm on several thousand acres of 
undeveloped agricultural land in Morrow County, Oregon. Inland leased 
the land it did because it had existing partially developed state water 
rights. No new state water rights were needed.
    I was born and raised in the small town of Echo, Oregon and have 
owned and operated farms in the area my entire life. We grow potatoes, 
onions and other crops for local food processors. New irrigated acreage 
needs to be developed in our area to replace land taken out of 
production due to urban expansion, groundwater restrictions and 
conversion of cropland to tree farms. Our local communities and food 
processors will not survive unless we maintain our agricultural land 
base.
    You have asked witnesses to address three questions: (1) whether 
the National Marine Fisheries Service (``NMFS'') is implementing the 
Endangered Species Act (``ESA'') consistent with the authority granted 
in the ESA; (2) whether their activities overlap or are consistent with 
those of the Fish and Wildlife Service; and (3) whether their 
implementation is being conducted in a cost effective manner. You also 
asked for our views on H.R. 4335, a bill that would consolidate ESA 
implementation in the U.S. Department of the Interior. Inland 
appreciates the opportunity to address these questions because our farm 
development has been stopped in it tracks by the NMFS and its 
unreasonable, unscientific and unrealistic Biological Opinion on our 
application to the U.S. Army Corps of Engineers (the ``Corps'') for a 
new pump station from the John Day Pool on the Columbia River.
    I cannot address your second question regarding consistency between 
NMFS and Fish and Wildlife Service activities under the ESA. Inland has 
had no dealings with the Fish and Wildlife Service, only the NMFS. 
Given our experience with the NMFS, enactment of H.R. 4335 seems like a 
good idea. We certainly do not need two Federal agencies implementing 
the same statute. I have to think that the Fish and Wildlife Service 
has had enough experience under the Act that it would not have issued 
the unscientific, highly political Biological Opinion NMFS issued on 
Inland's application.
    My testimony will focus on Inland's experience with NMFS 
implementation of the ESA: (1) its consistency with the Act; and (2) 
its cost effectiveness.
    On May 2, 1996, Inland filed its application with the Corps for a 
new pump station on the Columbia River. The existing point of diversion 
for the water rights on the property is on the Willow Creek arm of the 
Columbia. When Inland advised the Oregon Water Resources Department 
(``WRD'') of its intent to complete development of the existing water 
rights, the WRD contacted the Oregon Department of Fish and Wildlife 
(``ODFW''). ODFW expressed concern that increased pumping from the 
Willow Creek pump station would harm listed salmon and steelhead by 
attracting them into the mouth of the creek. In response to this 
concern and to avoid problems with the existing pump station if the 
John Day Pool were ever drawn down, Inland agreed to build a new pump 
station. A new pump station requires a section 10/404 permit. The 
permit application triggered consultation requirements under section 7 
of the ESA. Inland included an environmental assessment and biological 
assessment with its permit application in May 1996.
    Inland has obtained local zoning approval, a state fill and removal 
permit for construction, department of environmental quality 401 Clean 
Water Act certification, and water right permit extensions from the 
OWRD needed to develop the new farm. In spite of nearly a four year 
effort, however, we cannot begin work on the new pump station.
    Why? The May 16, 1997 Biological Opinion issued to the Corps by 
NMFS.
    A detailed permitting chronology is attached to my testimony as 
Exhibit A. The key points are that the Corps determined on July 19, 
1996 that the proposed pump station would not be likely to adversely 
affect any of the listed salmon stocks in the Columbia River. NMFS 
disagreed with the Corps and asked for a supplemental biological 
assessment. Inland submitted this to the Corps on September 18, 1996. 
The Corps reviewed it again, and again concluded on October 31, 1996 
that the proposed new pump station would not adversely affect listed 
species. NMFS did not issue its Biological Opinion until May 16, 1997. 
A copy of the Opinion is attached as Exhibit B.
    The ESA and its implementing regulations require consultation to be 
completed within 90 days. They also require NMFS and the Corps to 
explain to an applicant, in writing, if a longer period of time is 
required. In our case, the NMFS Biological Opinion was not issued until 
over one year after our application to the Corps and nearly eight 
months after the Corps submitted the supplemental biological assessment 
to NMFS. These delays in the consultation process are unconscionable. 
Applicants are forced to agree to extensions of the statutory timelines 
under the threat of an adverse opinion if they do not. Congress should 
impose the same type of hammer on Federal agencies under the ESA that 
the Oregon Legislature has imposed on many state and local government 
permitting activities. If NMFS fails to provide its opinion in a timely 
fashion, the requirement for the opinion should be waived.
    The ESA also requires the action agency and the NMFS to use the 
best available scientific information in preparing biological opinions. 
In our opinion, NMFS failed to do so. To understand how flawed the NMFS 
analysis was, you need to understand what the impacts of our project 
will be. You should also remember that we are completing development 
under existing water rights that are already partially developed.
    The Inland project when fully developed will pump a maximum of 303 
cfs. The peak withdrawal actually will occur only for about two weeks 
each season. The biological assessment reviewed and approved by the 
Corps concluded that this diversion would have no significant impact on 
smelt survival during out migration, nor on fish travel time in the 
John Day Pool. Under low flow conditions, the largest estimated impact 
on yearling chinook would be a total of 16 fewer smalls out of 16O,OOO 
migrants. The largest impact on travel time is 0.01 days, or about 15 
minutes for fish experiencing a migration of weeks or months. The 
Inland project would only divert two and one half one hundredth of one 
percent (0.025 percent) of the Columbia River system's water. The 
impact on flows in the river is so small it cannot be measured. This 
analysis was done by leading experts on Columbia River flows and fish. 
The Corps' experts agreed with it. In spite of this, NMFS concluded 
that issuance of the permit would be likely to jeopardize the continued 
existence of listed salmon in the Columbia and result in destruction or 
adverse modification of their critical habitat.
    Why did the NMFS reach this conclusion? NMFS acknowledges that the 
Inland diversion is only a small fraction of the river's flow and that 
Inland's fish screens and construction methods would avoid impacting 
the listed fish. NMFS reached its jeopardy conclusion entirely on the 
``cumulative impact'' of Inland's withdrawal when combined with all 
irrigation withdrawals in the entire Columbia Basin. NMFS decided that 
no more water should be allowed to be diverted from the river, even 
under existing state water rights, until the target flows established 
in NMFS' 1995 Biological Opinion on the Columbia River hydroelectric 
system are met.
    There are two fundamental problems with the NMFS analysis. First, 
the NMFS flow targets are unrealistic. Second, NMFS' analysis of the 
impact of irrigation withdrawals on Columbia River flows is flawed and 
was applied incorrectly and unfairly to the Inland project. Both of 
these problems arise from NMFS' opinions about river hydrology, not 
biology. NMFS is staffed largely by biologists, not hydrologists. It is 
baffling that NMFS, with no expertise on river hydrology, could trump 
the opinion of Corps experts on hydrologic impact analysis, when the 
Corps truly is the Federal expert on river flows and modeling.
    Several reports analyze the NMFS flow targets. The fact is that 
NMFS flow targets have never been met in the known history of the 
river. Recent reports by consultant Darryll Olsen and by Carl Dreher of 
the Idaho Department of Water Resources show that the NMFS flow targets 
could not be met even if all irrigation in the Columbia River Basin 
were eliminated. How can NMFS continue to assert that the flow targets 
are based on the best available scientific information?
    NMFS' use of the Bureau of Reclamation's draft report on the 
cumulative impacts of irrigations withdrawals on flows in the Columbia 
are even more flawed. NMFS requested the study and acknowledges that it 
is only a draft and only provides rough evaluations of impacts in low 
flow years. Based upon our discussions with Bureau of Reclamation 
staff, we believe NMFS knowingly misused and misinterpreted the 
Bureau's data to reach the result in wanted to reach politically in 
issuing the Inland opinion.
    Inland is being made to pay the price for all of the water 
withdrawals that have ever occurred in the Columbia Basin. The Bureau 
of Reclamation study counted the full amount of water use authorized 
under all state water rights (including permits, certificates and 
decreed rights) as water withdrawals. Based on this study, NMFS 
concluded that ``but for irrigation withdrawals, our ability to meet 
spring and summer stream flow objectives would significantly improve.'' 
The NMFS rejected the Corps' analysis of the impacts of the Inland 
project because the Corps did not take into account the ``contribution 
of existing water withdrawals'' to the baseline condition. In its 
analysis of current water withdrawals and assessment of future water 
withdrawals, NMFS counted partially developed unperfected water right 
permits, such as Inland's, as contributing to withdrawals. Counting all 
existing certificated, decreed and permitted water rights as 
withdrawals of water from the Columbia in determining the effect of 
water withdrawals on flows makes no sense. Every water right is not 
used every year and most water rights do not use the full amount of 
duty authorized. The NMFS analysis grossly overstates the impact of 
water withdrawals on flows. NMFS even counted non-hydraulically 
connected groundwater rights as contributing to the alleged flow 
depletions.
    Based upon this, the NMFS is not using the best science available.
    The ESA requires the NMFS to provide a ``reasonable and prudent 
alternative'' to the proposed action if it issues a ``jeopardy'' 
opinion. The NMFS ``reasonable and prudent alternative'' for the Inland 
project requires that:

          ``so that no water withdrawal occurs during times designated 
        as flow objective periods in the FCRPS opinion unless: *** the 
        permitted proves to NMFS' satisfaction that he will provide for 
        in stream use, at the point of diversion or upstream of this 
        point during periods when flow objectives are not expected to 
        be met, an amount of water from completed water rights that is 
        equivalent to the flow depletion caused by the new use. This 
        replacement flow is intended to result in zero net impact of 
        the new diversion on flow targets'' (emphasis added).
    NMFS adopted this unprecedented ``zero net impact'' policy as a 
reasonable and prudent alternative and imposed it for the first time 
ever on Inland.
    The ESA and its implementing regulations are clear that in order to 
be a ``reasonable and prudent alternative'' the alternative must meet 
the intended project purpose, be able to be implemented consistent with 
the action agency's statutory authority, and be economically and 
technologically feasible. 50 CFR Section 402.02. NMFS believes that the 
alternative required in its Biological Opinion can only be satisfied if 
Inland either does not divert water during periods when target flows 
are not being met; or replaces any water it diverts with other water 
rights dedicated to instream flows. If this is what the alternative 
requires, it does not meet the definition of a reasonable and prudent 
alternative because (1) it cannot be implemented in a manner consistent 
with the intended purpose of Inland's farm project; (2) cannot be 
implemented consistent with the Corps' legal authority and 
jurisdiction; and (3) is not economically and technologically feasible.
    In order to finance development of a new farm of this size, Inland 
must rely upon project financing from banks or other lenders. These 
lenders will not loan money unless they are sure that the loan can be 
repaid over the life of the project. Lenders will require assurance 
that the conditions of the 404 permit and all other permits will be 
able to be met over the term of any project loan. This means that 
Inland cannot wait and see whether target flows are being met in any 
given year and then arrange mitigation on an annual basis. The project 
cannot be built unless Inland can show lenders that it can provide 
replacement flows every year. Inland cannot develop its project not 
knowing from year-to-year whether it will be able to irrigate the land.
    The Corps may have the legal authority under Section 404 of the 
Clean Water Act to condition permits to meet the requirements of the 
ESA, but the Clean Water Act expressly recogmzes the authority of the 
states over water rights and states that the states' authority should 
not be abrogated or superseded by the Clean Water Act, 33 USC Sec.  
1251(g). As NMFS interprets the Biological Opinion, Inland's existing 
water right permits are essentially worthless. Target flows were not 
even met last year when there were record snowpacks and flows in the 
Columbia Basin. The tar-

get flow period extends over eighty percent of the irrigation season. 
NMFS is requiring Inland to acquire sufficient water rights to irrigate 
the entire farm to replace the water that would be diverted under 
Inland's existing permits, or to not divert at all during eighty 
percent of the irrigation season. If the Corps imposes such a condition 
in the permit, it would violate the Clean Water Act by making Inland's 
existing state permits worthless.
    Ever since the Biological Opinion was issued Inland has tried to 
figure out a way to meet NMFS' requirements. NMFS never even discussed 
Inland's project purpose or economic and technical feasibility of the 
``reasonable and prudent alternative'' with us before it issued its 
opinion. In spite of lengthy discussions with NMFS, the Corps and state 
officials, we have not figured out a way to meet the requirements of 
this supposedly reasonable alternative. It is very difficult under 
current state law to acquire existing water rights and convert them to 
instream uses. Even the Bureau of Reclamation's flow augmentation 
program has been for short terms. The holders of existing water rights 
are not willing to transfer them for the period needed for Inland's 
project financing. There is no organized market for such water 
transfers; they must be arranged with individual landowners which is 
time-consuming and uncertain. For all of these reasons, Inland believes 
that the NMFS interpretation of its own ``reasonable and prudent 
alternative,'' when tested against the real world situation facing 
Inland, does not meet the definition of a reasonable and prudent 
alternative at all.
    In spite of the NMFS' questionable flow analysis and seemingly 
unachievable alternative, Inland met with the Corps to try and satisfy 
the NMFS alternative. Inland and the Corps agreed on an approach we 
thought would work. We met with NMFS officials on July 31, 1997 to 
explain our approach. Inland and its lessor offered to voluntarily 
cancel 12,120 acres of the existing water rights to mitigate for 
developing the rest. NMFS representatives were not receptive to the 
proposal. A copy of the Inland proposal is enclosed as Exhibit C for 
your information. Inland believes that the proposal exceeds the 
requirements of the Biological Opinion. Inland would ensure that valid 
existing water right permits that have been partially developed will be 
permanently reduced at a ratio of 1.5 to 1. The replacement flow offset 
would exceed the peak amount the project would ever use, even though 
the peak withdrawal would actually only occur for about two weeks a 
year. Inland believes that its proposal assures no net loss of flow as 
required by the biological opinion. The only reason that the NMFS 
disagrees is that the NMFS thinks partially developed water rights 
should not be counted for purposes of offsetting future diversions. 
NMFS suggests that reducing rights under existing permits is a ``paper 
exercise'' that will not truly replace flows diverted for the new 
project. As discussed in our letter to the Corps of Engineers dated 
February 4, 1998 (attached as Exhibit D), the NMFS position is directly 
contrary to its own analysis of the effects of the project which 
counted unperfected rights in the baseline and in the analysis of 
cumulative effects.
    NMFS should not be able to have it both ways. If unperfected or 
partially perfected permits count for purposes of concluding that 
irrigation withdrawals are significantly impacting the listed species, 
then partially perfected permits should count if they are canceled in 
order to reduce the impact of such diversions on the species.
    What does this NMFS position really mean?
        <bullet> If any water permittee pumps more water next year than 
        they pumped the year before, resulting in additional 
        development under existing water rights, the Corps must 
        reinitiate consultation with the NMFS on the impacts of the 
        pumping.
        <bullet> In order to continue to develop existing valid state 
        water rights, cities, farms, ports and other businesses will 
        have to somehow obtain duplicate water rights and dedicate them 
        to in-stream flows even though the permittee has valid state 
        water rights and valid existing Federal permits for their pump 
        stations.
    If the NMFS approach is followed, the Federal Government would be 
sending a very unfortunate message to water users in the Columbia/Snake 
Basin. The message would be that no one who has to divert water from 
the river under either a new or an existing Section 404 permit can do 
so and still comply with the ESA. If the Clinton Administration wants 
to assure that growing cities and towns and the irrigation community 
avoid any Federal involvement requiring ESA compliance, this would be a 
great way to do it. Rather than encouraging salmon recovery efforts, 
the NMFS policy discourages it.
    As noted in the permit chronology, we were told throughout the 
discussions with state and Federal officials that every mitigation 
proposal we made and every variation we suggested was not acceptable to 
NMFS. Frankly, we faced a problem of ``bring me a rock'' with NMFS 
never explaining what kind of a rock they wanted. Instead, they simply 
rejected every feasible suggestion we made and insisted that the only 
acceptable solution would be somehow obtaining water rights equivalent 
to the maximum water withdrawal the project would ever make and 
dedicating them to instream flows. Perhaps the most frustrating moment 
came at a meeting in November 1997 when NMFS suggested, for the very 
first time, that Inland might be able to do a habitat conservation plan 
(``HCP''). Frankly, after six months of attempting to get straight 
answers from the agency, Inland had no desire to embark on an HCP since 
NMFS could provide us with no guidance on what would be required, how 
long it would take or the likelihood of getting approval.
    You can imagine our frustration when NMFS announced in June 1998 
that it had entered into an HCP with two public utilities in the mid-
Columbia allowing them to continue to operate hydroelectric facilities 
which kill fish. Their ``no net impact commitment'' simply requires 
them to meet a 95 percent survival rate for juvenile and adult salmon 
passing through the dams and reservoirs and a 91 percent overall 
survival rate. Inland's diversions would not impact even a fraction of 
the listed species affected by these dams. Why will NMFS reach an HCP 
agreement with public utilities, a no jeopardy opinion for the Federal 
hydro system and a no jeopardy opinion for sport and commercial fish 
harvests allowing all of them to directly kill fish while they will not 
allow a farmer to move an irrigation diversion point for existing state 
water rights that will have an immeasurable impact on flows and fish 
survival?
    No one appears willing to insist on good science from NMFS. Inland 
believes that the Biological Opinion on its project was issued for 
political purposes to placate environmental organizations, not because 
of any scientific justification. NMFS seems willing to live with a 
flawed cumulative effects analysis that grossly overstates the impact 
of irrigated agriculture on river flows. The NMFS view appears to be 
that any water withdrawals from the Columbia Snake River system are bad 
and should be discouraged and cut back. This is completely unrealistic 
given the population growth in the region, let alone the need to 
maintain the net base of irrigated lands.
    The NMFS no net loss policy cannot be met under existing state 
water law. Fundamentally, NMFS has told farmers in the Columbia Basin 
that further development of existing water rights will not be permitted 
if it requires any kind of permit from the Corps of Engineers or 
another Federal agency. Basically, NMFS is taking existing state water 
rights from landowners in order to create theoretical benefits for fish 
that cannot be measured in reality.
    Inland is willing to address the real environmental impacts of its 
project. Inland is willing to give up a portion the water rights it now 
has and to commit to the highest standards of water conservation in its 
operations. Rather than providing encouragement and incentives for 
companies like Inland to invest in effective mitigation efforts for the 
listed species, NMFS prefers to impose conditions that are impossible 
to meet in order to shut down water development.
    Is NMFS implementing the ESA consistent with the law Congress 
passed? In my opinion, no.
    Is NMFS implementing the ESA cost effectively? Again, in my opinion 
no.
    Inland has spent nearly $1 million trying to permit its project and 
because of NMFS we still cannot proceed. A fisheries biologist for the 
Corps Portland office said it best when he interrupted me during a 
technical presentation I was making on our project's non-measurable 
impact on fish survival when he said, ``. . . excuse me Bob, this isn't 
about science and biology, this is about politics.''

[GRAPHIC] [TIFF OMITTED] T1600.001

[GRAPHIC] [TIFF OMITTED] T1600.002

     Statement of Fred Ziari, Chairman, Eastern Oregon Irrigation 
                              Association

    My name is Fred Ziari and I am the chairman of Eastern 
Oregon Irrigation Association, located in Hermiston, Oregon. By 
profession I am an irrigation engineer with over 18 years of 
experience in water management fields in the Pacific Northwest. 
The Eastern Oregon Irrigation Association appreciates the 
opportunity to present its views on the role of the National 
Marine Fisheries Service on the management of our Columbia/
Snake River. Our Association represents farmers, ports and 
water users in Eastern Oregon.
    Our members have a long history of working in a cooperative 
manner with Congress, State, Tribes and Federal agencies in 
implementing and enhancing fish runs in Eastern Oregon. Over 
the past fifteen years, our farmers working cooperatively with 
the Confederated Tribes of Umatilla and the related agencies 
have successfully implemented the Umatilla Basin Project, which 
has brought salmon back to our river and has become a model of 
successful salmon recovery in the Northwest.
    We live in an area that on average receives less than 8 
inches of rainfall a year. Consequently our communities are 
totally dependent on the Columbia River for its agriculture, 
industries and municipal drinking water supplies.
    With the use of high technology such as satellite, aerial 
infrared, intensive soil moisture and crop monitoring, and the 
use of precision agriculture, our farmers have implemented one 
of the most extensive water conservation projects in the 
nation. This conservation effort has resulted in water savings 
of over 20 percent. We irrigate some 200,000 acres of lands in 
Eastern Oregon. Almost all of our products are processed 
locally and values are added. Annually over 80 percent of our 
agricultural products valued between $800 million to $900 
million, are exported out of our region and most for overseas 
market through the efficient and economical Columbia River 
barge transportation system. About 8,000 people in our sparsely 
populated area are employed in agriculture and related food 
processing. We do all this with the use of only less than 0.3 
percent of the Columbia River water.
    Let me make one thing very clear, that the Columbia River 
system, which is the second largest river in the country, is 
not an over-appropriated river, as some may want you to 
believe. A total of only 7 percent of Columbia River water is 
utilized for agricultural, municipal, and industrial use in 
Oregon, Washington, Idaho, Montana, and part of British 
Columbia. Our farmers are a vital part of providing food for 
our citizens at home and the hungry world abroad, and we are 
very proud of that achievement. As the world population are 
expected to reach to over 10 billion people in the coming 
decades, our ability to produce high quality and affordable 
food supplies becomes even more vital.
    All of these achievements are now in jeopardy through 
unrealistic dam removal and excessive flow augmentation 
proposals by our Federal agencies. We watch with bewilderment, 
how the National Marine Fishery Service and an army of other 
Federal agencies, have totally abandoned cooperative spirit of 
working with local officials and the resource users. At the 
same time they have wasted billions of dollars of 
Northwesterners' ratepayer's money with nothing to show for it. 
When they were presented with a resolution to a problem by 
natural resource users, they instead decided to implement a 
mean-spirited policy to inflict pain and suffering to water 
users and landowners. A good example of this politically driven 
rule making is ``flow augmentation'' and the total shutdown of 
the river system under the ``zero net water loss'' policy. This 
policy is of the utmost concern to all of our communities in 
Eastern Oregon.
    Under the ``flow augmentation'' policy, NMFS arbitrarily 
requires a minimum flow of 220,000 cubic feet per second up to 
August 15th at the McNary Dam, which is more water than is 
naturally available in the Columbia River system. Our average 
flow for the month of August is 125,000 cubic feet per second. 
If we shut down all of our water uses in the Pacific Northwest 
we still can not meet this flow target. This goal is not 
achievable, it is not scientific, and biologically has not been 
shown to aid in salmon recovery.
    The ``zero net water loss'' policy is a reactionary policy 
based on no meaningful or defendable analysis, no consultation 
with other Federal or state agencies, while at the same time 
they have failed to follow their mandated Reasonable and 
Prudent Alternative (RPA) rules. This policy impacts everyone 
in the Northwest that depends on the river and above all it 
violates our state water laws.
    This policy not only impacts our farmers and food 
industries, it also severely restricts our cities' ability to 
meet the drinking water supply needs of their citizens. Case in 
point, I am the engineer for the city of Umatilla, Oregon, a 
town of about 3,300 people located on the Columbia River, 25 
miles south of here. Following a state-wide search for a 
suitable sites, the State of Oregon is now constructing a new 
state prison in Umatilla which will house 1,500 prison inmates 
and employ 500 staff. To serve this facility, the City holds a 
state-approved water right to appropriate a mere 23 cubic feet 
per second from the Columbia River which has a mean river flow 
of over 200,000 cubic feet per second. But this permit which 
they worked so hard to get has been nullified by NMFS without a 
hearing or compensation. The City is wondering, now what, and 
how will they meet the needs of their citizens. There are other 
Cities in Eastern Oregon that are facing the same dilemma.

Recommendation for Congressional Action

    It is obvious to our members that the NMFS management 
policy is a failure that has not produced a workable regional 
plan to recover endangered salmon, nor do we have any 
confidence in them to produce a workable plan in the future.
        <bullet> It has become obvious to us that the present NMFS 
        Salmon recovery strategy is one of partisan political strategy, 
        not a scientific or even common sense solution. We ask your 
        help in overseeing their actions and to help bring 
        accountability into the process.
        <bullet> Our farmers are the stewards of the land and they own 
        over 70 percent of the riparian salmon habitat along the 
        rivers. However, these vital economic stakeholders have been 
        totally dismissed and shut out of this recovery process. 
        American citizens would have been totally outraged if for 
        example the government of Brazil did the same thing to Yanomami 
        Tribe of Amazon. For a meaningful recovery plan, landowners 
        must be part of the solution and be represented at the table. 
        We ask your help by empowering the resource users in this 
        process, and by supporting provisions in Senator Gordon Smith's 
        S. 2111.
        <bullet> The main problem may not be NMFS (although they have 
        lost many opportunities to make a difference), but it is the 
        unworkable ESA process that so far has failed miserably and in 
        my opinion has not effectively recovered any species. We 
        recommend that a bipartisan committee of the House and Senate 
        with the aid of a renowned scientific panel to investigate the 
        effectiveness of ESA process in recovering species and make 
        recommendations for its improvement. NMFS management policies 
        should provide a good case study.
        <bullet> ESA must be modified so that cooperative, and 
        volunteer recovery plans such as the Umatilla Basin Project 
        which was successfully implemented by our local communities, or 
        the one proposed by State of Oregon, the so called ``Oregon 
        Plan'' can be the focus of a cost effective recovery plan. By 
        the way a Federal Judge recently overturned this popular, 
        voluntary ``Oregon Plan'' which has frustrated our Oregon 
        Governor, Legislators and most of the citizens and is a prime 
        example of flawed ESA processes that presently NMFS is so 
        vigorously pursuing.
        <bullet> We support the provisions of H.R. 4335 and believe it 
        may be a more appropriate vehicle of species recovery provided 
        some modification to ESA is implemented.
    On behalf of our members we thank you for the opportunity to 
comment on this important issue which is vital to both our economy and 
our environment.
                                 ______
                                 
Statement of Alex McGregor, State President, Washington Association of 
                             Wheat Growers
    A flood of economic grief would be unleashed if the four lower 
Snake River dams were breached. Before this experiment to save 
dwindling salmon runs is imposed on people of the Northwest, we must 
look at the effects of dam breaching objectively. We must first look at 
what will be sacrificed in an experiment that may fail to save the 
fish.
    Some facts help put the impact of dams breaching in perspective.
        <bullet> The 1,250 mega-watts of the four Snake dams is equal 
        to 20 percent of Pacific Northwest residential needs, or over 
        100 percent of residential needs for Idaho and Montana 
        combined.
        <bullet> Navigation value is $414 million per year.
        <bullet> Irrigation loss on over 36,000 irrigated acres 
        representing annual farm value of $100 million to $150 million.
        <bullet> Dam decommissioning costs would be between $500 
        million and $816 million--with concrete removal, between $848 
        million and $1.22 billion.
        <bullet> Remaining BPA debt on the four dams is $864 million. 
        BPA would lose $200-million annually, and its financial 
        stability would be determined by an uncertain future 
        electricity market.
    I am most familiar with wheat production in Washington state and so 
use these figures to show the ripple effect of dam breaching beyond any 
one state's borders: Washington wheat contributes nearly $1.2 billion 
to the state's economy annually, with up to 90 percent of wheat being 
exported. Commodity shipments on Lower Snake barges are expected to 
increase by about 1 percent per year for the next 25 years, if the dams 
remain. That means in 2022 there likely will be about 5.2 million tons 
shipped compared with about 4.2 million today. The multimillion-dollar 
question is, ``If we lose navigation, where is all this traffic going 
to go?'' Rail and roads are not adequate to the task.
    The above question is as relevant to the environment as well as to 
economic health in the Northwest. Barging is efficient regarding 
emissions.
        <bullet> Hydrocarbon emissions: navigation is 20 percent of 
        rail and 14 percent of truck.
        <bullet> Carbon monoxide emissions: navigation is 29 percent of 
        rail and 11 percent of truck.
        <bullet> Nitrous oxide emissions: navigation is 29 percent of 
        rail and 5 percent of truck.
        <bullet> Barging efficiencies also extend to fuel use.
        <bullet> A ton of commodity can move 514 miles by barge on one 
        gallon of fuel.
        <bullet> A ton of commodity can be moved 202 miles by rail on 
        one gallon of fuel.
        <bullet> A ton of commodity can be moved 59 miles by truck on 
        one gallon of fuel.
    Additionally, hydropower is renewable, plentiful and non-polluting. 
Compare this to fossil fuels and nuclear energy as the next best 
alternatives for large-scale energy production.
    If barge navigation were halted, an additional 120,000 rail cars 
would be required annually, or an equivalent of 700,000 semi-trucks, 
greatly increasing highway congestion and/or traffic backups at 
railroad crossings. It would take an additional 204,320 semi-trucks or 
51,080 more railcars to handle just the wheat that is now carried on 
barges if barging were discontinued above McNary Dam.
    Revenue from the natural resources industries is an economic 
tributary running through the Northwest and it must be guarded to 
protect the human species. Wheat and other exportable crops are an 
important part of that tributary. The wheat commissions of Washington, 
Oregon and Idaho, as well as the grassroots grower associations in each 
of the three states, are united in their opposition to an experiment 
that not only may fail, but may cause hardship to people in this great 
region.
    Notions that we can turn back the clock, breach the dams, or lower 
the water to a ``natural'' level seemed farfetched when we first heard 
them a few years ago. Some activist groups view dam breaching as a way 
to return the river to its ``natural'' wild state of the past. Those of 
us who have lived near the river since before building of the dams 
realized no amount of money or nostalgia will bring back those former 
times. But the economic devastation our state would suffer in this 
forlorn search for the ``natural'' world few knew would be 
considerable.
                                 ______
                                 
                                 David J. Stueckle,
                                      LaCrosse, Washington,
                                                 September 2, 1998.
The Hon. Don Young
Chairman, Committee on Resources,
House Resources Committee
U.S. House of Representatives,
Washington, DC.
Hearing--Pasco, Washington, September 2, 1998
    Dear Sir:
    Just a few words about how important the dams on the Columbia and 
Snake Rivers are to agriculture in the Northwest. The railroads are 
gone and our local roads can not handle more load. The counties can't 
keep up with maintaining the roads. The barge traffic is very vital to 
get our crops to market year around.
    It upsets me a great deal that the NMFS has not considered the 
impact that dam removal will have on our economy.
    I don't want a Federal agency messing with my water rights.
    Hydroelectric power is important to our area because of the large 
irrigated area.
    Thank you for considering my concerns.
                                          David J Stueckle,
                                       LaCrosse, Washington
                                 ______
                                 

West Coast Seafood Processors Association, Portland, Oregon, letter to 
                             Hon. Don Young

    We recently reviewed a copy of H.R. 4335, the ``Endangered 
Species Consolidation Act'' which you introduced with several 
House colleagues. We understand that your Committee will be 
holding field hearings on the bill in September and ask that 
these comments be included in the hearing record. These 
comments are submitted on behalf of the West Coast Seafood 
Processors Association, whose members have seafood businesses 
in Oregon, Washington, California, and Alaska.
    Two years ago, you introduced legislation reforming the 
Endangered Species Act (ESA) which--among other things--made 
some of the same changes in law as does H.R. 4335. At the time, 
we generally supported ESA reform but expressed our concern 
with removal of the Secretary of Commerce from the ESA process. 
Subsequently, your Committee reported the bill with an 
amendment which maintained the Secretary of Commerce's role. We 
are therefore puzzled as to why the Committee is again looking 
at taking away the Secretary of Commerce's responsibilities 
under ESA.
    We understand the frustration that land-owners and land-
based resource industries have with the emphasis that the 
Department of Commerce has put on salmon restoration. As we and 
others testified before your Committee in April of this year, 
the Federal Government has poured billions of dollars into 
Columbia River salmon recovery, yet wild salmon returns are 
lower than when the recovery program started. At the same time, 
the Department of Commerce has virtually ignored the Pacific 
groundfish fishery, which in Oregon has a value greater than 
all other fisheries combined. Could money be better spent? We 
certainly think so.
    We also understand the concern that land-owners have to 
deal with several different Federal agencies under ESA. Again, 
we have the same concern. For the most part, we are able to 
deal with one Federal agency--the Department of Commerce--when 
it comes to ESA actions affecting marine fisheries. However, 
long-liners in Alaska and gillnet fishermen in Washington must 
deal with both the National Marine Fisheries Service (NMFS) and 
the U.S. Fish and Wildlife Service (USFWS) on seabird 
entanglement issues. Dive fishermen in California must deal 
with USFWS in regard to sea otter interaction. The problem--and 
the frustration--is the same at sea as it is on shore, but the 
answer is not to solve the problem on land by shifting the 
burden to small businessmen who make their living on the ocean.
    Here are examples of some of the problems that will result 
if H.R. 4335 is passed. The Pacific whiting fishery off 
California, Oregon, and Washington is managed by NMFS under a 
fishery management plan developed by the Pacific Fishery 
Management Council. NMFS and the fishing industry have long 
recognized that a certain level of salmon bycatch occurs in the 
fishery. Accordingly, NMFS issues a biological opinion 
specifying the allowable level of bycatch and the industry 
takes steps to monitor and avoid bycatch to stay within that 
allowable level. Both NMFS and the Council have found this to 
be a logical and acceptable arrangement.
    If H.R. 4335 were enacted, the issuance of a biological 
opinion and any arrangements to avoid salmon bycatch would fall 
under USFWS, an agency that has little knowledge and no 
experience with marine fisheries. In fact, section 2(d) of the 
bill would give USFWS management authority over any marine 
fishery that interacted with an endangered or threatened 
species. Marine fisheries management is convoluted enough 
without bringing in another Federal agency with no expertise in 
the area.
    In Oregon, Pacific groundfish fishermen, processors, and 
recreational anglers are already paying the cost of marine 
fisheries management through licenses, fees and taxes, as well 
as paying for endangered salmon programs in our State. We 
neither want nor need the additional burden of having marine 
fisheries management turned over to the Department of the 
Interior.
    A similar problem would occur in Alaska, where several 
marine mammal species are listed as threatened or endangered. 
Again, fisheries management authority would be removed from the 
relevant Council and NMFS, and placed in the hands of USFWS. 
The same problems would occur in New England (harbor porpoises 
and whales) and in the Gulf of Mexico (sea turtles). On the 
international front, NMFS would be removed from ICCAT if 
bluefin tuna are listed and from IATTC (threatened species of 
porpoises). In Hawaii, interactions between monk seals and long 
line fishermen would now come under the jurisdiction of USFWS.
    The Alaska Congressional delegation has worked hard to 
prevent the Department of the Interior from taking over fish 
and game management in Alaska under subsistence regulations; it 
seems inconsistent to allow that same agency to take over 
marine fisheries management in the entire country.
    Just this week, you were quoted in the press as saying 
``everyone wants the Endangered Species Act to work 
effectively.'' We agree; like you, we support ``the much needed 
ESA reform effort.'' Unfortunately, H.R. 4335 does not provide 
that reform; it simply shifts a set of problems from small 
businessmen on land to small businessmen on the ocean.
    We believe that there are better, more effective ways of 
alleviating the regulatory burden faced by land-owners and 
land-based resource industries. We are interested, as we have 
always been, in working with those entities, with you, and with 
your staff in finding reasonable answers to problems that we 
all face. However, H.R. 4335 as presently written is not one of 
those answers. Thank you for providing us the opportunity to 
comment
                                ------                                


     Letter from Linda M. Johnson, Director, Government Relations, 
           Washington State Farm Bureau, Olympia, Washington

    Dear Committee Staff:
    Enclosed is our testimony which we would like to have 
submitted for the record. I was in attendance at the hearing 
but in the confusion of the day, simply forgot to submit our 
testimony to your staff in attendance. Also included are copies 
of several letters one faxed to me by a member the other handed 
to me at the hearing. They asked me to be sure they were also 
submitted for the record as well.
    Please thank the Chairman for scheduling this hearing and 
all of the Committee members who were in attendance. Also, a 
hearty thanks to the Committee staff as well. We know that 
meetings which go as smoothly as this one did only happen 
because of the behind the scenes effort of staff.
    As you know it was well attended and our members that were 
in attendance were very pleased with the messages which were 
delivered. We truly appreciated the opportunity to attend this 
important hearing.
    If you have any questions, please don't hesitate to call me 
at the number shown above.

   Statement of the Washington State Farm Bureau, Olympia, Washington

    The Washington State Farm Bureau is very concerned with 
NMFS approach to saving the salmon under the jurisdiction of 
the ESA and their desire to breach the dams along the Snake and 
Columbia River.
    First we feel it is important to point out that the WA 
State Farm Bureau actively worked with the Joint Committee on 
Salmon Recovery for the past year and a half to create and pass 
legislation which would help to protect and recover the salmon. 
There were several pieces of legislation which were passed 
unanimously by the House and the Senate and signed by our 
Governor. The actions and the money which was allocated proves 
that our state and our farmers are determined to do the right 
thing, protect and recover the salmon.
    It is important to note that these bills depend on working 
closely with the landowners. Much of the habitat for salmon is 
located on private property. Landowners are willing to work 
towards this worthwhile goal as long as Agencies and Congress 
understand that people have to fit in this equation.
    NMFS has not been an easy agency to work with and often 
times have been a major stumbling block to our local efforts. 
They seem to have forgotten that the Grand Coulee dam was 
specifically built for irrigation of the Columbia Basin. They 
seem to have forgotten how important the power generated by the 
dams in our state is to the survival of the farms which were 
created because of the promise of irrigation water and power.
    As a result of these dams we have an excellent 
transportation system which is environmentally friendly. This 
barging system handles shipments of wheat and corn from as far 
as the midwest. By shipping freight on the river we actually 
help to improve the air quality in our state through fewer air 
emissions. We also help to cut our dependency on foreign fuel 
because it takes far less fuel to ship by water than by either 
rail or truck.
    Supporters of breaching the dams state that trucking and 
railroads will pick up the shipments. The existing 
transportation infrastructure is incapable of handling the 
increased freight. Eliminating barging would result in a marked 
increase of traffic on our already overloaded freeway system 
which leads into our port systems on the West Coast. We already 
have a freight mobility problem which we are trying to solve 
and this will only add to the problem. The highway system in 
Washington State is simply not capable of handling the amount 
of freight that is shipped up and down these rivers.
    Unfortunately, railroads eliminated a vast majority of 
their unprofitable spur lines years ago. This means that it 
will be almost impossible to bring rail back to the areas 
economically. Not to mention the fact that the railroads 
already can't meet the current needs of wheat shipments.
    Supporters of breaching dams state that it won't disrupt 
irrigation. Unfortunately when you lower the river to the 
levels they suggest our irrigation pipes are left sucking air 
instead of water. The cost of extending these irrigation pipes 
is not a cheap endeavor for farmers. Who is going to help cover 
this cost? That's assuming the farmers would even be allowed 
to, which is highly questionable when you view the way the 
environmental organizations currently use the court system.
    The power generated by the Bonneville Power system is a 
very important component of the success of farming in our 
state. As a result of reasonable electricity rates, we have 
farmers who have made major investments in irrigation 
equipment, dairy milking barns, and other capital investments. 
We have numerous food processing facilities which have been 
built to process the crops grown in eastern Washington, which 
also require reasonable power rates. Eliminate the access to 
reasonable priced power and many of these investments may not 
pay. Not to mention the number of jobs generated by the farms, 
and the supporting industries.
    The dams were also built for flood control, which seems to 
be conveniently forgotten by supporters of breaching. Is the 
government prepared to fund FEMA for the flood damage which 
will result if dams are breached?
    Contrary to the belief of supporters of breaching dams, 
generations of family farms would not survive for many of the 
reasons mentioned above.
    Next we want to point out that NMFS has been remiss in its 
duties. They have not researched the problems of the predators 
to the salmon. We have sea lions which are protected under the 
ESA feasting on salmon at the mouth of the rivers. We have sea 
gulls and terns which are also voracious predators. Why have 
they not expressed concern about predator control and done 
something about this? NMFS appears to have no studies which 
look at what happens to salmon when they are in the ocean. This 
is an important part of the salmon life cycle and yet it is a 
black hole as far as research. Why? Where is NMFS on this 
important piece of the puzzle?
    What about drift nets on the high seas? Not to mention the 
gill nets which are place in the river by the Indian tribes. Is 
anyone looking at these important pieces to the puzzle?
    Farmers are willing to do their part to provide good 
habitat for the salmon. But who is going to guarantee that we 
have salmon returning once the habitat is fully restored?
    We hope that Congress will take into consideration the 
complexity of this problem and allow the states of Washington 
and Oregon to move forward unimpeded. The ESA is not working as 
it is currently written and it is time to take a close look at 
what needs to be changed to make it work as Congress originally 
intended, before the economy of Washington State is devastated 
in the admirable hope of saving salmon.
    We ask that Congress take into consideration the people of 
Eastern Washington who face this economic disaster. We believe 
that a little common sense can go a long ways and the result 
will be both salmon and people surviving.
                                ------                                


  Statement of Richard L. Erickson, Secretary-Manager, East Columbia 
                       Basin Irrigation District

    Honorable Members of the Resources Committee:
    Thank you for the opportunity to provide information to the 
Committee about the effects on the Columbia Basin Project of 
the National Marine Fisheries Service's Columbia River flow 
policies. The Columbia Basin Project, constructed by the United 
States Bureau of Reclamation and now primarily operated by the 
East, Quincy, and South Columbia Basin Irrigation Districts 
presently provides irrigation water to approximately 622,000 
acres of farmland. This irrigation is accomplished by 
diverting, at Grand Coulee Dam, approximately 3 percent of the 
Columbia's flow. The Project is authorized by Congress to 
ultimately irrigate 1,095,000 acres.
    The NMFS mandated flow policy caused the Bureau of 
Reclamation in July of 1993 to impose an administrative 
moratorium on new Columbia Basin Project water service.
    This moratorium resulted in the shelving of all planning 
for further development of the Columbia Basin Project. This 
action hit late in the EIS study process to enlarge an existing 
canal to provide Columbia River water to 87,000 acres. That 
planning effort had begun in 1983, was nearing completion at 
the time it was shelved and had substantiated that this next 
phase of CBP development was economically feasible and had the 
support of both the U.S. Fish and Wildlife Service and the 
Washington Department of Wildlife because of the considerable 
new fish and wildlife habitat that would be created on the 
Project. This cancellation occurred in spite of the fact that 
the draft EIS demonstrated that the 87,000 acre development 
would need only another 0.3 percent of the Columbia's flow at 
Grand Coulee and that adverse impacts to anadromous fish would 
be negligible. That Bureau decision to stop planning does not 
appear to us to have been science driven but rather based on 
political expediency.
    This delay or cancellation of further development appears 
to many who are unfamiliar to be simply an opportunity 
foregone. However, between one-third and one-half of those 
87,000 acres are irrigated by deep wells. All these wells were 
permitted by the State of Washington in the late 1960's and 
early 1970's at a density estimated to give that aquifer a 30 
year economic life. That state action was taken with the 
expectation that the Federal Government would continue the 
orderly phased development of the second half of the Project, 
gradually replacing that groundwater source with surface water. 
Thirty years have now nearly passed. Many of those wells are 
not sustainable long term. The draft EIS estimated that by 
1989, the deep well irrigation in the CBP second half area had 
declined from a peak of 110,000 acres to about 90,000 acres.
    This NMFS inspired USBR moratorium has also taken 
authorized water supplies amounting to about 85,000 acre feet 
per year from the already developed first half of the Project. 
Because of the moratorium the Bureau has rescinded previously 
authorized contractual authorities for the Districts to 
irrigate about 13,000 more first half acres, translating to 
about 39,000 acre feet. Also reneged on was authority to 
provide up to 60,000 acre feet per year of Project water to 
area industries and communities far municipal and industrial 
use. The Project's M&I ability is now capped at the amount 
already then in use which is about 14,000 acre feet per year, 
locking up the balance of 46,000 acre feet.
    This NMFS driven, USBR enforced moratorium, exacerbated by 
the scarcity of groundwater, has brought much of the Columbia 
Basin Project area to the threshold of a no-growth scenario. To 
better understand that situation please consider the attached 
letter from the Port of Moses Lake.
    We are often told that our response to this moratorium and 
the source of our future water supply should be increased water 
conservation. Significant conservation is ongoing but is not a 
solution. In the East Columbia Basin Irrigation District the 
average on-farm use of water is now about 3.5 acre feet per 
acre. That average use was about 4.3 acre feet per acre in the 
past. That 0.8 acre foot per acre reduction is nearly a 20 
percent efficiency improvement and amounts to over 100,000 acre 
feet annually. However, there is no sincere willingness by 
government to allow the use of this conserved water to offset 
the effects of the Bureau's moratorium. Every time that concept 
is raised we are told that such use is contrary to Federal 
reclamation law, contrary to Bureau policy and contracts, is 
water spreading, should carry a much higher Bureau repayment 
cost and is contrary to state water law.
    An outrageous example of the extent to which these NMFS 
flow policies is dictating Bureau of Reclamation actions is the 
recent agreement by USBR to run Columbia River hydrologic 
studies for the Columbia River Intertribal Fish Commission 
showing Grand Coulee diversions to the Columbia Basin Project 
being reduced by 1 million acre feet per year. That would 
amount to a 40 percent reduction in the water available to CBP 
farms. Crop diversity is one of the hallmarks of the Project 
along with the multiple purpose use of Project waters for 
resident fish, wildlife and recreation. Assuming a 40 percent 
shortage would be distributed uniformly throughout the Project, 
instead of growing 70 or so different types of crops each year, 
only a handful would be possible--the potatoes, apples, onions 
and alfalfa hay, to name a few, would no longer be possible. 
Such a shortage would also likely diminish the Project created 
wetlands and lakes managed by the U.S. Fish and Wildlife 
Service and the Washington Department of Fish and Wildlife. 
While the Bureau's Acting Regional Director has offered 
assurances that no such actual reduction is seriously being 
contemplated, the fact that Bureau hydrologists would undertake 
a study that is contrary to the Congressionally authorized 
purposes of the Columbia Basin Project, that violates the 
Federal repayment contracts between the Bureau and the 
Districts and that runs counter to the primary water supply 
mission of the Bureau demonstrates that these Federal agencies 
are out of control in their zeal to enforce the Endangered 
Species Act.
    On behalf of the East, Quincy and South Columbia Basin 
Irrigation Districts, I ask this Committee to use its 
considerable authority toward reducing these NMFS flow targets 
to levels supported by valid hydrology and valid biology and to 
end the Bureau's moratorium.
    Regarding H.R. 4335, which if enacted would consolidate ESA 
authority with the Secretary of Interior, I'm not sure if that 
would be an improvement or not. In the Northwest, NMFS is using 
its ESA authorities to further an agenda of dam removal and 
single purpose control of mainstem flows. Judging from his 
statements and actions, the current Secretary of Interior has a 
similar agenda, especially regarding dam removal. If Congress 
determines to consolidate ESA authority to a single agency, it 
needs to be done in a manner that requires the responsible 
agency to minimize social and economic impacts as it 
administers the Endangered Species Act.

         Letter from Port of Moses Lake, Moses Lake, Washington
                                Port of Moses Lake,
                                     Moses Lake, Washington
                                                   August 19, 1998.
Resources Committee,
124 Longworth House Office Building,
Washington, DC.
Honorable Members of the Resources Committee:
    Thank you for your interest in overseeing Columbia and Snake River 
fish flow augmentation targets being set by the National Marine 
Fisheries Service and other Federal agencies. The purpose of this 
statement is to be sure the Committee is aware that the NMFS flow 
targets are having impacts beyond those two rivers and beyond the 
economic sectors which are direct river users. Moses Lake, Washington 
is relatively far from the banks of the Columbia or the Snake but our 
community is being affected by these federally mandated flow policies.
    Much of Moses Lake's industries are food processing companies that 
convert Columbia Basin area raw agricultural products to value added 
consumer food products for domestic and export markets. In recent 
years, other types of industries have located in the Moses Lake area 
which manufacture non-ag products such as electronics materials, 
automotive components, industrial chemicals and metal products. This 
diversification is important to our economy and the area's working 
people to, among other things, help smooth out the inherent cyclical 
nature of the ag sector.
    These industries, ag and non-ag, have located around Moses Lake for 
a variety of reasons, but an economic supply of electricity and a 
dependable water supply are common needs of nearly all these 
manufacturers. Both of these fundamentals are being threatened by the 
NMFS flow policies.
    The Moses Lake area's electricity is supplied by Grant County 
Public Utility District and most of that energy is generated at Priest 
Rapids and Wanapum Dams on the Columbia. NMFS flow policies, enforced 
by FERC, are now to the point that Grant PUD is having to spill 
something like 60 percent of the river's spring and summer flow thus 
idling many generators. This results in the need to purchase 
replacement power at a higher cost. Grant PUD has worked diligently 
with NMFS for a couple of years to develop an ESA Habitat Conservation 
Plan. So far an affordable HCP has not been possible. Grant's rates 
continue to increase and there is concern they may eventually exceed 
the region's market rate. Many of our Moses Lake industries' economic 
feasibility is very sensitive to power costs.
    Most of these industries also need water for their manufacturing 
processes and also for fresh water to blend with the process wastewater 
so that it can be treated by land application. Most of this land 
application is done by irrigation of crops by nearby farmers so the 
wastewater is actually supplementing our irrigation supplies and has a 
beneficial effect on irrigation demands on the Columbia and on area 
groundwater. However, the proportion of process water and either canal 
water or groundwater for blending is critical both for wastewater 
treatment requirements and for crop nutrient requirements. These canal 
water and groundwater supplies are now on the verge of exhaustion.
    The use of groundwater in our area has been maximized. There is 
little argument about this from the ag sector, from municipalities and 
from industries. The circumstances under which the State will issue new 
groundwater permits are very limited. Complicating this even more is 
the fact that Moses Lake area groundwater is naturally high in sodium 
and other salts making it more difficult to use for some manufacturing 
processes and for blending water for wastewater treatment.
    A number of Columbia Basin Project area food processors are using 
CBP canal water for blending water and process water. These CBP 
municipal/industrial supplies should be our supply for the future. That 
is not presently possible on any meaningful scale. The NMFS flow 
policy, since 1994, has caused the Bureau of Reclamation to impose a 
moratorium on any new CBP water services, including M&I, even though 
previously existing reclamation contracts and state water rights 
certifi-

cates and permits provided for several thousands of acre feet of M&I 
service. The only M&I water now available through the Bureau of 
Reclamation and the irrigation districts is what comes from previously 
issued M&I contracts that have been surrendered. We are told that most 
of what is available through these cancellations is now spoken for. It 
is ironic that this NMFS flow policy, supposedly necessitated by the 
Endangered Species act, is now about to complicate our area's ability 
to comply with the Clean Water Act.
    The Port of Moses Lake has worked hard to attract these industries. 
These industries have invested much in locating here. These companies 
are national and international in scope. With today's global economy 
they no doubt have opportunities elsewhere. Please give careful 
consideration to Moses Lake's energy and water needs as you look into 
these NMFS flow policies.
            Sincerely,
                                         Larry D. Peterson,
                                                      Commissioner.
                                 ______
                                 

 Statement of Rob Phillips, Director, Northwest Sportfishing Industry 
                              Association

    Honorable members of the Committee, thank you for the 
opportunity today to comment on H.R 4335 specifically, and in 
general upon the execution of the Endangered Species Act. I am 
Rob Phillips, joint owner of the advertising firm Smith, 
Phillips and Dipitrio located in Yakima. Approximately 40 
percent of our advertising billings are directly tied to 
sportfishing and tourism related businesses. We acutely 
experience downturns in salmon and steelhead populations, as 
advertising dollars can often be the first part of a budget 
cut.
    My concern over the declines led directly to my service on 
the board of directors of the Northwest Sportfishing Industry 
Association. Our association consists of hundreds of businesses 
and thousands of family-wage jobs dedicated to our rivers, 
lakes and streams being healthy and full of fish. Since fish 
live in every zip code, you will find our businesses 
distributing our economic benefit throughout the region. 
Information regarding our business membership and economic 
impacts of the Sportfishing Industry are enclosed with this 
testimony.
    Our businesses have been deeply impacted by the 
implementation of the Endangered Species Act. Fishing closures 
and extensive regulations which are barriers to participation 
have severely impacted sportfishing opportunities for salmon 
and steelhead. Many of our businesses have not been able to 
survive the declines.
    Most of us recognize, however that the Endangered Species 
Act is merely the messenger and not the message. Our watersheds 
are in trouble, and the Salmon are the indicator species. 
Admittedly, the current manner in which the ESA is executed is 
very heavy-handed in dealing with sportfisheries. Sportfishing 
is often the favorite short-term target. The problem is, these 
burdensome short-term measures are meaningless without 
substantial long term measures.
    This is where the current implementation of the ESA falls 
apart. There are scarce to no examples of enforcement actions 
for the very real multi-generation ``take'' of salmon, 
steelhead and trout which occurs from hydro passage and habitat 
degradation. We feel that NMFS can and should play a stronger 
role in defining take and enforcing serious violations 
(especially where they occur under section 7) while helping to 
define and implement restorative actions for the remainder of 
the problems. In other words, enforce the worst actions, while 
helping with compliance in other areas.
    Recovery will never be accomplished on the backs of 
fishermen. Decades of fishing coxswains have not brought about 
recovery. Massive small and adult mortalities caused by 
Columbia/Snake river hydro operations are causing constraints 
on fisheries from Northern California to the Gulf of Alaska. 
Operations of the Columbia River hydro system must be dealt 
with in the same scrutiny and severity as sportfishing. We 
continue to apply tune-ups to a car that needs a whole new 
transmission. NMFS, USF&W, BuRec, The Corps, and BPA must all 
coordinate together to reduce the impacts which are strangling 
healthy fisheries throughout the region.
    H.R. 4335 does get to the heart of an important issue, 
however. The National Marine Fisheries Service and the U.S. 
Fish and Wildlife Service must be better partners if the 
precious freshwater resources of the region are to recover to 
fishable levels, reassuring the health of our watersheds. There 
are no laws prohibiting better cooperation between the 
agencies--indeed the dire plight of the resources demands 
better communication and cooperation throughout the Federal 
family.
    NMFS did the right thing by working with Governor Kitzhaber 
in the State of Oregon to build a state supported and executed 
recovery plan. It is unfortunate that Judge Stewart struck down 
the NMFS ``no list'' decision for coho in the coastal ESU, 
however NMFS is standing by the Oregon plan in the Courts. We 
hold that NMFS will accept the substance of the Oregon Plan as 
a recovery plan, when a final listing determination is made.
    As Governor Kitzhaber facilitated coordination and 
communication throughout State agencies in the Oregon Plan, we 
must demand the same of the Clinton Administration. Truly, if 
there is fault to find with the National Marine Fisheries 
Service's implementation of the Endangered Species Act, much of 
it lies in the sideways accountability. Federal activities will 
only move in the same direction when turf issues are removed 
and the Administration demands more accountability from its 
agencies for salmon recovery.
    With the onset of numerous listings and proposed listings, 
now is not the time to shuffle the deck chairs on the Titanic. 
It may be that in the future, salmon and steelhead will benefit 
from transferring responsibilities under the ESA. Changing into 
another vehicle is not something a sane person does while the 
vehicle is moving.
    In summary, from our perspective the timing of the bill is 
inappropriate. Salmon and Steelhead don't need new laws and 
don't need agency changes. What they really need first, is 
enforcement of existing laws, regulations and authorities. 
Federal agencies need to have better accountability to the 
Administration and better communication and cooperation. It is 
pathetic that taxpayers and ratepayers fork over dollars in one 
hand that destroy salmon, while paying out of the other hand 
dollars to save salmon. ACCOUNTABILITY, COORDINATION, & 
COMMUNCATION!!
    Other improvements would include earlier work with the 
states before the situation is severe. Everyone knows that an 
ounce of prevention is worth a pound of cure. The longer we 
delay tackling a problem, the more drastic and costly the 
measures for recovery. Earlier participation by NMFS (or any of 
the Federal agencies for that matter) would facilitate a 
partner role with the states, rather than an enforcement role. 
STEP IN EARLIER!
    ESA levels of recovery do not often meet other standards of 
recovery. In this region, the Power Council, the Lower River 
Treaty Tribes, and the States of Washington and Oregon all have 
recovery to harvestable levels as their standards. The goals of 
ESA should be to the harvestable levels that give a return to 
society on the investment, as well as allow for better 
coordination between the sovereigns in the region.
    NSIA appreciates any intent with which the bill may have 
been written which strives to enhance the ability of the 
Endangered Species Act to recover salmon and steelhead in our 
region. NSIA recognizes that the improvements in our watersheds 
and operations of the hydrosystem which benefit the weakest 
stocks will only further enhance the healthy populations 
available for harvest. We applaud any effort which allows us to 
plan for secure jobs and futures, and even to rebuild the 
10,000 jobs lost during the salmon and steelhead declines.
    We ask that you help our industry in demanding 
accountability and enforcement out of the administration and 
the agencies involved in salmon. The future of our industry 
will be dim without it.
                                ------                                


 Response from James M. Baker to written questions from Mrs. Chenoweth

Re: Atlantic Salmon Recovery
    At the Pasco, Washington hearing of the Committee on 
Resources on September 2, 1998, Rep. Chenoweth directed me to 
respond in writing to her and the Committee no later than this 
date. This letter is written in compliance with her directive.
    By my recollection from the hearing, Rep. Chenoweth asked 
me to compare and contrast the recovery efforts under the 
Endangered Species Act (ESA) for. coho salmon in Oregon, and 
Atlantic salmon on the East Coast. She also asked me to explain 
any differences in Sierra Club policies or actions for the two 
fish on the two coasts.
    In 1993 two conservation groups--not the Sierra Club--
petitioned for ESA protection of Atlantic salmon throughout its 
historical range in New England rivers. In 1995, the National 
Marine Fisheries Service (NMFS) and the U.S. Fish and Wildlife 
Service proposed an ESA listing for the fish as ``threatened,'' 
but only for those stocks of Atlantic salmon spawning in seven 
rivers in the state of Maine.
    In contrast, the Sierra Club was one of 23 organizations 
which petitioned the NMFS for listing of coho salmon in Oregon, 
Washington State, and California, and was one of several co-
plaintiffs which successfully sued the NMFS in order to force 
the agency to propose an ESA listing for coho salmon. The 1995 
proposed listings comprehensively covered all native coho in 
all streams in Oregon from the Columbia River south to 
California, and indeed beyond to Monterey Bay.
    In December, 1997, the Federal agencies declined to list 
Atlantic salmon in deference to the Maine Salmon Plan. 
Similarly, the NMFS in 1997 declined to list coho salmon in 
Oregon in deference to a state plan, which, like its 
counterpart in Maine, was entirely voluntary. The Sierra Club 
and several co-plaintiffs sued the NMFS for refusing to list 
Oregon coho, and earlier this year, a Federal district judge 
remanded the decision to the agency which subsequently did list 
the fish as ``threatened'' in Oregon rivers.
    In contrast, conservation organizations on the East Coast, 
including the Sierra Club, have not yet decided whether to file 
a lawsuit against the Federal agencies for not listing Atlantic 
salmon in Maine and/or throughout New England. From Rep. 
Chenoweth's remarks at the September 2 hearing, I surmise that 
she concludes from their failure to date to challenge the 
Federal agencies in the courts that the Sierra Club and other 
New England conservation groups support, or approve of, the 
Maine Salmon Plan.
    Such a conclusion is incorrect. First of all, the Maine 
plan applies to fish stocks in just seven rivers in one state, 
instead of the regional effort in all Atlantic salmon-bearing 
rivers throughout New England which conservationists continue 
to seek. Moreover, the Maine plan lacks funding, enforcement, 
and accountability, and even includes a stakeholders process 
which has no representation from environmental organizations. 
So the lack of a Federal lawsuit from conservation groups does 
not in any way mean support for, approval of, or even 
acquiescence in, the Maine Salmon Plan. At this time, the 
Sierra Club and other conservation organizations simply have 
not decided whether to file a lawsuit for ESA protection of 
Atlantic salmon.
    Turning briefly to another matter raised at the Pasco 
hearing, Rep. Chenoweth asserted that PIT-tag (Passive Induced 
Transponder) data demonstrate that the ``800 gill-nets'' set by 
American Indians in the Columbia River below the Snake River 
confluence inflict an inordinate and predominant toll on 
upriver salmonid stocks. Federal, state, tribal, and 
independent biologists do not agree with this interpretation of 
the PIT-tag data. Moreover, the Columbia River Inter-Tribal 
Fish Commission informs me that, throughout this decade, 
American Indians have never put 800 nets in the river. Law 
enforcement programs by the Bonneville Power Administration 
confirm that the Tribes have not violated harvest limitations 
under U.S. v. Oregon.
    Thank you for this opportunity to respond to Rep. Chenoweth 
at this later date. If you have additional questions or would 
like further information, please do not hesitate to contact me 
at your earliest convenience.

  Response from James M. Baker to written questions from Mr. Hastings

Re: Flow Augmentation for Columbia Basin salmon
    At the Pasco, Washington hearing of the Committee on 
Resources on September 2, 1998, Rep. Hastings directed me to 
respond in writing to him and the Committee no later than this 
date. This letter is written in compliance with his directive.
    According to my notes from the hearing, Rep. Hastings 
directed me to respond to the following question: ``How much 
flow [augmentation] is enough [for Columbia Basin salmon and 
steelhead]?'' Rep. Hastings asked this question with regard to 
a white paper ``The Columbia-Snake River Flow Targets/
Augmentation Program'' by Darryll Olsen (1998) criticizing flow 
targets set by the National Marine Fisheries Service (NMFS).
    Over the past quarter century, biologists have identified a 
positive correlation between river flow during juvenile 
salmonid migration, and survival to spawning adulthood. In an 
exhaustive review of the scientific literature commissioned by 
the Northwest Power Planning Council, Glenn F. Cada of Oak 
Ridge National Laboratory (1993) concluded that ``the general 
relationship of increasing survival with increasing flow in the 
C[olumbia] R[iver] B[asin] still appears to be reasonable.'' In 
its landmark Return to the River, the Independent Scientific 
Group (1996) noted this positive correlation, and encouraged 
flow regimes which approach the natural hydrograph as an 
important way to provide the ``normative'' river conditions 
required for salmon and steelhead recovery. The data cited in 
the white paper by Darryll Olsen (1998) also demonstrate this 
positive relationship between flow and salmonid survival.
    While positive, the exact one-to-one relationship between 
flow and fish survival has not been determined by biologists at 
this time. The reason for this lack of precision is the 
inability of scientists to conduct the proper and necessary 
research. The U.S. Army Corps of Engineers and the Bureau of 
Reclamation have never provided sufficient flows properly timed 
to meet research protocols. Moreover, the huge number of 
juvenile fish needed to attain statistical validity has never 
been available.
    In 1990, the Columbia Basin Fish and Wildlife Authority 
(CBFWA) recommended a flow augmentation program to provide 
adequate salmonid survival through the mainstem dams and 
reservoirs on the Columbia and Snake Rivers. The CBFWA proposal 
set minimum targets of 300,000 cubic feet per second (cfs) in 
the Lower Columbia and 140,000 cfs in the Lower Snake River 
sustained during the spring migration, and lower targets of 
250,000 cfs and 100,000 cfs respectively sustained during the 
summer juvenile fish migration. CBFWA recommended these flow 
targets based upon historical data; the CBFWA proposal has 
never been tested in-the-river. Nevertheless, the CBFWA 
recommendation for flow augmentation remains the best available 
answer to Rep. Hastings' question as to ``how much flow is 
enough.''
    As I testified at the September 2 hearing of the Committee, 
hydrological evidence was brought to the regional Salmon Summit 
in 1990-91, and subsequently to the Northwest Power Planning 
Council that the current configuration of dams and reservoirs 
in the Columbia Basin can not attain the CBFWA flow 
recommendations on a sustainable basis. For this reason, the 
Salmon Summit explored, and the Northwest Power Planning 
Council in 1994 recommended, reservoir drawdowns at the four 
Lower Snake dams and at the John Day project on the Lower 
Columbia as the only way to achieve the water and juvenile fish 
travel speeds equivalent to the CBFWA flow proposal. Basically 
the salmon need either very deep drawdowns of storage 
reservoirs for flow augmentation, or relatively shallow (in 
vertical elevation) drawdowns of some of the run-of-the-river 
reservoirs through which the fish migrate. As I said earlier, 
the four dams on the Lower Snake and the John Day Dam on the 
Lower Columbia River have been investigated throughout this 
decade for these drawdowns at run-of-the-river projects.
    As you know, the white paper by Darryll Olsen also argues 
that the currently configured system of dams in the Columbia 
Basin can not achieve these high flow targets recommended by 
CBFWA, or those specified by NMFS in its ``Biological 
Opinion.'' For this reason, Olsen contends that NMFS should not 
set any flow augmentation targets. That the dam system can not 
meet the CBFWA flow targets does not mean that lesser flows are 
not beneficial. Therefore, the Sierra Club and fish 
conservation organizations reject Olsen's argument in his white 
paper because biologists have concluded that there is a 
positive relationship between flow and salmonid survival, and 
because the perilous situation of the salmon and steelhead 
close to extinctions demands the prudent course of taking the 
most risk adverse actions--in this case, flow augmentation.
    The Olsen white paper further argues that, because 
scientists have not established the exact relationship between 
one cfs of flow during juvenile fish migration, and some 
resulting number of salmonid surviving to spawning adulthood, 
NMFS has no justification for setting any flow augmentation 
targets. First of all, Olsen bases his argument on a very 
limited set of PIT-tag (Passive Integrated Transponder) data, 
which, as I stated earlier, would actually support the flow-
survival relationship when added to the larger data set which 
biologists have gathered historically. Moreover, to conclude 
that NMFS should set no flow targets, Olsen must prove that 
there is no flow-survival relationship whatsoever, which his 
white paper patently can not and does not do. Therefore, the 
Sierra Club and fish conservation organizations reject this 
second of Olsen's arguments, too, once again because biologists 
have concluded that there is a positive relationship between 
flow and salmonid survival, and because the perilous situation 
of the salmon and steelhead close to extinctions demands the 
prudent course of taking the most risk adverse actions--in this 
case, flow augmentation.
    Clearly I differ with the arguments and conclusions of the 
Olsen white paper. In this regard, I would respectfully remind 
Rep. Hastings and the Committee that the white paper has not 
undergone independent peer review by biologists, economists, or 
hydrologists.
    Turning briefly to another matter raised at the Pasco 
hearing, Rep. Hastings and others on the Committee panel 
expressed skepticism about my assertion that the four Federal 
dams on the Lower Snake River provide no flood control. Here is 
an excerpt from a copyrighted article in the Lewiston Morning 
Tribune of August 16, 1998:

        The four dams between Lewiston and Pasco, that are being 
        considered for breaching--Lower Granite, Little Goose, Lower 
        Monumental and Ice Harbor--are run-of-the-river dams. ``A run-
        of-the-river dam has some significant application in water 
        management, but they are not necessarily true flood control 
        dams. That's what storage reservoirs are for,'' says Dutch 
        Meter, spokesman for the corps at Walla Walla. ``Run-of-the-
        river dams must pass virtually all the water that arrives.''
    Again I would respectfully submit that a witness from the U.S. Army 
Corps of Engineers will confirm my assertion at the hearing that the 
four Lower Snake dams by their design have no flood control function.
    Thank you for this opportunity to respond to Rep. Hastings' 
question in writing. If you have additional questions or would like 
further information, please do not hesitate to contact me at your 
earliest convenience.

[GRAPHIC] [TIFF OMITTED] T1600.003

[GRAPHIC] [TIFF OMITTED] T1600.004

[GRAPHIC] [TIFF OMITTED] T1600.005

[GRAPHIC] [TIFF OMITTED] T1600.006

[GRAPHIC] [TIFF OMITTED] T1600.007

[GRAPHIC] [TIFF OMITTED] T1600.008

[GRAPHIC] [TIFF OMITTED] T1600.009

[GRAPHIC] [TIFF OMITTED] T1600.010

[GRAPHIC] [TIFF OMITTED] T1600.011

[GRAPHIC] [TIFF OMITTED] T1600.012

[GRAPHIC] [TIFF OMITTED] T1600.013

[GRAPHIC] [TIFF OMITTED] T1600.014

[GRAPHIC] [TIFF OMITTED] T1600.015

[GRAPHIC] [TIFF OMITTED] T1600.016

[GRAPHIC] [TIFF OMITTED] T1600.017

[GRAPHIC] [TIFF OMITTED] T1600.018

[GRAPHIC] [TIFF OMITTED] T1600.019

[GRAPHIC] [TIFF OMITTED] T1600.020

[GRAPHIC] [TIFF OMITTED] T1600.021

[GRAPHIC] [TIFF OMITTED] T1600.022

[GRAPHIC] [TIFF OMITTED] T1600.023

[GRAPHIC] [TIFF OMITTED] T1600.024

[GRAPHIC] [TIFF OMITTED] T1600.025

[GRAPHIC] [TIFF OMITTED] T1600.026

[GRAPHIC] [TIFF OMITTED] T1600.027

[GRAPHIC] [TIFF OMITTED] T1600.028

[GRAPHIC] [TIFF OMITTED] T1600.029

[GRAPHIC] [TIFF OMITTED] T1600.030

[GRAPHIC] [TIFF OMITTED] T1600.031

[GRAPHIC] [TIFF OMITTED] T1600.032

[GRAPHIC] [TIFF OMITTED] T1600.033

[GRAPHIC] [TIFF OMITTED] T1600.034

[GRAPHIC] [TIFF OMITTED] T1600.035

[GRAPHIC] [TIFF OMITTED] T1600.036

[GRAPHIC] [TIFF OMITTED] T1600.037

[GRAPHIC] [TIFF OMITTED] T1600.038

[GRAPHIC] [TIFF OMITTED] T1600.039

[GRAPHIC] [TIFF OMITTED] T1600.040

[GRAPHIC] [TIFF OMITTED] T1600.041

[GRAPHIC] [TIFF OMITTED] T1600.042

[GRAPHIC] [TIFF OMITTED] T1600.043

[GRAPHIC] [TIFF OMITTED] T1600.044

[GRAPHIC] [TIFF OMITTED] T1600.045

[GRAPHIC] [TIFF OMITTED] T1600.046

[GRAPHIC] [TIFF OMITTED] T1600.047

[GRAPHIC] [TIFF OMITTED] T1600.048

[GRAPHIC] [TIFF OMITTED] T1600.049

[GRAPHIC] [TIFF OMITTED] T1600.050

[GRAPHIC] [TIFF OMITTED] T1600.051

[GRAPHIC] [TIFF OMITTED] T1600.052

[GRAPHIC] [TIFF OMITTED] T1600.053

[GRAPHIC] [TIFF OMITTED] T1600.054

[GRAPHIC] [TIFF OMITTED] T1600.055

[GRAPHIC] [TIFF OMITTED] T1600.056

[GRAPHIC] [TIFF OMITTED] T1600.057

[GRAPHIC] [TIFF OMITTED] T1600.058

[GRAPHIC] [TIFF OMITTED] T1600.059

[GRAPHIC] [TIFF OMITTED] T1600.060

[GRAPHIC] [TIFF OMITTED] T1600.061

[GRAPHIC] [TIFF OMITTED] T1600.062

[GRAPHIC] [TIFF OMITTED] T1600.063

[GRAPHIC] [TIFF OMITTED] T1600.064

[GRAPHIC] [TIFF OMITTED] T1600.065

[GRAPHIC] [TIFF OMITTED] T1600.066

[GRAPHIC] [TIFF OMITTED] T1600.067

[GRAPHIC] [TIFF OMITTED] T1600.068

[GRAPHIC] [TIFF OMITTED] T1600.069

[GRAPHIC] [TIFF OMITTED] T1600.070

[GRAPHIC] [TIFF OMITTED] T1600.071

[GRAPHIC] [TIFF OMITTED] T1600.072

[GRAPHIC] [TIFF OMITTED] T1600.073

[GRAPHIC] [TIFF OMITTED] T1600.074

[GRAPHIC] [TIFF OMITTED] T1600.075

[GRAPHIC] [TIFF OMITTED] T1600.076

[GRAPHIC] [TIFF OMITTED] T1600.077

[GRAPHIC] [TIFF OMITTED] T1600.078

[GRAPHIC] [TIFF OMITTED] T1600.079

[GRAPHIC] [TIFF OMITTED] T1600.080

[GRAPHIC] [TIFF OMITTED] T1600.081

[GRAPHIC] [TIFF OMITTED] T1600.082

[GRAPHIC] [TIFF OMITTED] T1600.083

[GRAPHIC] [TIFF OMITTED] T1600.084

[GRAPHIC] [TIFF OMITTED] T1600.085

[GRAPHIC] [TIFF OMITTED] T1600.086

[GRAPHIC] [TIFF OMITTED] T1600.087

[GRAPHIC] [TIFF OMITTED] T1600.088

[GRAPHIC] [TIFF OMITTED] T1600.089

[GRAPHIC] [TIFF OMITTED] T1600.090

[GRAPHIC] [TIFF OMITTED] T1600.091

[GRAPHIC] [TIFF OMITTED] T1600.092

[GRAPHIC] [TIFF OMITTED] T1600.093

[GRAPHIC] [TIFF OMITTED] T1600.094

[GRAPHIC] [TIFF OMITTED] T1600.095

[GRAPHIC] [TIFF OMITTED] T1600.096



                 HEARING ON THE ENDANGERED SPECIES ACT

                              ----------                              


                      THURSDAY, SEPTEMBER 3, 1998

                          House of Representatives,
                                    Committee on Resources,
                                                      Boise, Idaho.
    The Committee met, pursuant to notice, at 10 a.m. in the 
Boise City Hall, 150 North Capitol Boulevard, Boise, Idaho, 
Hon. Richard W. Pombo presiding.
    Mr. Pombo. Good morning. I would ask unanimous consent that 
my entire statement, opening statement, be included in the 
record. I am, in the interest of time, going to summarize my 
opening statement.
    It is great to be here in Boise, Idaho, today to have an 
opportunity to hold another in a series of hearings on the 
Endangered Species Act, on its impacts, what is working, what 
is not working, possible changes that can be made. 
Specifically, there is legislation that has been introduced 
that would deal with the National Marine Fisheries Service and 
the transfer of functions over to Fish and Wildlife in the 
Interior Department, which is one of the issues that we are 
covering today.
    One of the--what we would hopefully like to take away from 
the hearing is a lot of good ideas, a lot of good discussion, 
good debate, on what is occurring, what is working, and what is 
not working. One of the major concerns that many of us have is 
that we continue to have major conflicts over the 
implementation of the Endangered Species Act.
    Everyone who has testified before our hearings in the past 
has voiced strong support for saving endangered species and 
being able to have a strong and vibrant wildlife, at the same 
time, reducing the conflicts between people and their 
environment. So one of the things that we would like to do is 
come away with some real good discussion.
    I would like to ask all of you, today, that are members of 
the audience, one of the House Rules that we have is that we do 
not allow comments coming from the audience. We have a very 
full and long schedule that is ahead of us. And any comments, 
positive or negative, shouted out from the audience do nothing 
more than cut time down of the people that are testifying and 
their ability to get their point across.
    One of the things that we would like to do is to have the 
ability to have everyone have their say and have their 
opportunity to speak here this morning. So I would appreciate 
it if we would have the courteousness from the audience at this 
time.
    I would like to turn to the Ranking Member on the 
Committee, Mr. Romero-Barcelo, for any possible opening 
statement he may have.
    Mr. Romero-Barcelo. Thank you, Mr. Chairman. I would like 
to say thank you once again for holding these hearings. I think 
this is important to everyone throughout the Nation. The 
Endangered Species Act has created a lot of issues. And 
wherever there are endangered species, there is conflict 
between what some groups feel should be done and what piques 
people's interest.
    And I think the hearing we had yesterday and today is a way 
of learning. I learned a lot. The more I learned, the more I 
realized I have to learn from the issues involved in so many 
different decisions and statements that have been made and what 
is the cause and what are the solutions. So I think it is 
definitely a very important issue.
    There is a lot of interest yesterday and today. We have 
seen a number of people who have come to these hearings. So it 
is my pleasure to be here, and I look forward to learning a 
little bit more about this and what the solutions might be.
    Mr. Pombo. Well, I thank you very much. Just so everybody 
knows, Mr. Romero-Barcelo flew all the way from Puerto Rico to 
participate in this hearing. We appreciate him being here.
    Mr. Romero-Barcelo. We do have some endangered species over 
there, the manatee and the turtle.
    Mr. Pombo. Well, thank you for being here. Congresswoman 
Chenoweth, your opening statement.
    Mrs. Chenoweth. Thank you, Mr. Chairman. I join my 
colleague, Mr. Crapo, in welcoming both of you to Boise. We are 
just thrilled that you would bring the Committee into Boise on 
this very, very important issue.
    And before I begin my opening statement, Mr. Chairman, I 
would like to ask for unanimous consent to enter into our 
record the statement of our Senator Dirk Kempthorne, who had 
planned on being here and taking part in this hearing, but was 
called back to the Senate, as you know, and they are now in 
session.
    Mr. Pombo. Without objection, it will be included.
    [The prepared statement of Senator Kempthorne follows:]

Statement of Hon. Dirk Kempthorne, a Senator in Congress from the State 
                                of Idaho

    I am pleased that Representative Helen Chenoweth is holding 
this hearing today to address the role of the National Marine 
Fisheries Service in implementing the Endangered Species Act. 
As you know, I have dedicated a considerable amount of my 
energy toward reforming the Endangered Species Act over the 
last several years. Hearings throughout the country--and 
particularly in the West, where we have significant ESA 
issues--were integral to the Senate Committee on Environment 
and Public Works' fact-finding mission during the development 
of my ESA reauthorization bill. Undoubtedly, the law needs to 
be reformed, and to that end I am truly glad that 
Representative Chenoweth has elected to hold these NMFS 
jurisdiction hearings in the West.
    The subject of this hearing is particularly relevant to the 
dilemma we have been facing with regard to the decline of 
Idaho's salmon and steelhead. As you know, the debate has been 
strongly focused on flushing and spilling more Idaho water or 
removing the lower Snake river dams in an attempt to aid fish 
migration. I remember in 1995, my Senate Subcommittee on 
Drinking Water, Fisheries, and Wildlife held a hearing on the 
salmon spill policy on the Columbia and Snake rivers. At that 
hearing, the NMFS was criticized for the lack of good, peer-
reviewed science which contributed to its decisions on the fish 
spill policy.
    It is vital that decision-makers like NMFS take into 
account the effects of all factors which contribute to fish 
decline when determining a preservation strategy. Issues such 
as predation and harvest should not be eclisped by the 
attention focused on spill and dam removal. However, I am 
concerned that the issue of fish harvest has placed the 
National Marine Fisheries Service in a situation where it must 
prioritize between two competing missions. On the one hand, the 
NMFS facilitates and oversees commercial fishing in U.S. 
waters. On the other hand, the agency has been entrusted with a 
mission of conservation to preserve this resource for the 
future. I believe there must be a clear separation between 
NMFS's role as a conservation organization and its role as a 
fisheries development and management organization. At a 
minimum, the NMFS biological opinion on harvest should be 
independently peer-reviewed to ensure that harvest methods are 
consistent with conservation goals. For example, I am concerned 
about the bycatch of salmon in groundfisheries since there is 
no way to prevent the taking of endangered and threatened fish 
in a groundfish catch. The bycatch loss of any of these fish 
could jeopardize an entire distinct population segment. In 
addition, the NMFS' definition of harvestable surplus with 
regard to endangered fish species should be seriously 
questioned.
    These hearings should help Congress sort out whether the 
two NMFS missions are truly complementary, or whether competing 
priorities greatly limit NMFS's ability to review the fullest 
spectrum of solutions when considering fish recovery options. 
The new avenues of debate and discussion that these hearings 
will produce are productive and needed. As a Member of Congress 
who has made ESA reform one of my most important goals, I am 
gratified to see these issues addressed here today, and I thank 
the Chairman for this opportunity to express my views.

    Mrs. Chenoweth. Thank you.
    I, again, want to publicly thank Chairman Don Young, who is 
my good friend from Alaska, for bringing the House Resources 
Committee to Boise.
    There are few things that are more symbolic of Idaho and 
the Pacific Northwest than the salmon. The salmon represents 
the enduring spirit of survival. And for generations, the 
salmon has struggled to return year after year to the same 
spawning grounds. This same spirit of survival is shared by the 
pioneers who settled the new frontier and built Idaho. Like the 
salmon's struggle, many Idahoans are struggling. We have to 
find a way for everyone to survive and to thrive. And this is 
why we are here today, to look for solutions that will not only 
save the fish but save Idaho's remarkable way of life.
    Under the Endangered Species Act, the National Marine 
Fisheries Service, an agency within the U.S. Department of 
Commerce, was given responsibility for management of oceangoing 
fish. This authorization has unfortunately involved the 
National Marine Fisheries Service fish biologists managing 
timber, rangeland, road building, farmland, and just about 
every on-land activity that you can possibly imagine. What was 
once an agency dedicated to managing ocean fisheries now finds 
itself hundreds of miles inland involved in every aspect of 
land use.
    National Marine Fisheries Service's fish management has 
become so incredibly single-minded that people are not longer 
part of the equation. We find that, like the salmon, many, many 
Idahoans are struggling too. Again, we must find a way where we 
can all live together.
    There is no other issue in Idaho or the Pacific Northwest 
that is as emotionally charged as salmon and steelhead 
management. It is an issue that we can all agree has been mired 
in controversy. Rhetorical battles are the norm, not solutions. 
Yet we offer a solution.
    Together, I and other members of the House Resources 
Committee have drafted a simple piece of legislation to take 
one step, only one step, in the right direction. No one, 
including myself, claims this bill will solve all of our 
problems and put an end to the controversy. Yet it will 
consolidate authority. It will make government more efficient 
and accountable and consistent and lead, I believe, to better 
fish management simply because of that accountability. I 
believe everyone can support that concept, and I look forward 
to hearing constructive comments to improve the bill.
    The Endangered Species Consolidation Act, H.R. 4335, 
authored by Don Young and cosponsored by myself, Mr. Crapo, Mr. 
Pombo, and others, transfers National Marine Fisheries 
Services' ESA functions to the Fish and Wildlife Service. By 
bringing under one roof all ESA functions, everyone--the 
farmer, the rancher, the recreationist, the lumberman, the 
mine, the environmental groups, State and Federal agencies--
will know that U.S. Fish and Wildlife Service determinations 
will be final. Today's dual agency responsibility allows for 
feasible deniability and a lack of accountability. Our bill 
will paste a big sign over the Fish and Wildlife Service that 
says, ``The buck stops here, right here.''
    There can be finality despite our long and bitter 
experience of being whipsawed between multiple Federal 
agencies. Further, and possibly even more frustrating, agency 
decisions are often contradictory.
    Take, for instance, the bull trout. Steps taken by NMFS to 
save the salmon impact the bull trout, and steps taken by Fish 
and Wildlife Service to help the bull trout affect the salmon. 
Duplicative ESA authority results in contradictory policies and 
paralyzing controversy.
    It is my view that if ESA enforcement authority were under 
one roof, there would be more consistent policies that could 
accomplish both salmon and bull trout recovery objectives.
    There are numerous examples of duplicative and 
contradictory agency actions: the Fish and Wildlife Service 
habitat conservation plan, 2 years in the making, completely 
gutted by NMFS--a loss of tens of thousands of dollars; an 
Idaho timber sale once approved by NMFS and the Fish and 
Wildlife Service put on hold a year later; an Army Corps of 
Engineers study indicating success in the transportation of 
smolt downriver, but a NMFS decision stated exactly the 
opposite.
    Clearly, interagency turf battles and contradictory 
policies and decisions will not piece together the salmon 
puzzle. But we can solve these problems by consolidating ESA 
authority in one agency.
    A word of caution, though, don't mistake this simple piece 
of legislation for an attempt at ESA reform. ESA's substantive 
recovery requirements and legal protections remain totally 
intact and are in no way affected by this legislation. Our bill 
merely speaks to government efficiency, responsibility, and 
accountability. It does not solve all of the issues, but it is 
a start.
    Since late July when we introduced our Endangered Species 
Consolidation Act, I have heard many comments and concerns. And 
it is certainly far from clear that the Fish and Wildlife 
Service will necessarily do a better job than NMFS of fish 
management.
    After all, it was the Fish and Wildlife Service who 
introduced the wolf into Idaho--and you know how I felt about 
that--and is forcing the reintroduction of the grizzly bear--
you know how I feel about that--both predator species, over the 
objection of the people of Idaho, the Governor, our 
legislature, and the entire congressional delegation. The Fish 
and Wildlife Service has done nothing to engender the trust of 
Idahoans.
    But when it comes to accountability, the Federal Government 
has become skilled at passing the buck, and we must pick our 
poison. This is the purpose of the bill, and this is exactly 
why I asked Don Young to bring the Resources Committee to 
Idaho. Congress must listen carefully to what Idahoans have to 
say.
    And last, I want to say that America is the most benevolent 
country in the history of the world. We lead the world in 
humanitarian actions and helping people to a better way of life 
and a better future. Yet we have left people out of the 
equation on the salmon issue by allowing our region to be mired 
in controversy and our economy to degrade to a shadow of its 
former self.
    It is inconceivable to me that many groups and individuals 
have focused solely on the dams for the solutions here rather 
than looking at the legion of issues involving salmon 
restoration.
    And with that, I do want to say in closing that, in my 
opinion, the NMFS has no authority to force another government 
agency to violate a congressional mandate, whether it is 
Dworshak Dam or taking water out of Idaho for an unproven 
measure like salmon fleshing. And I think that we, in the 
Congress, must be very watchful and very vigilant with regards 
to those kinds of agency actions.
    Mr. Chairman, without objection, I would conclude now, and 
I would like to enter my entire testimony into the official 
record. Thank you.
    Mr. Pombo. Without objection.
    [The prepared statement of Mrs. Chenoweth follows:]

 Statement of Hon. Helen Chenoweth, a Representative in Congress from 
                           the State of Idaho

    Welcome everyone. I want to publicly thank Chairman Don 
Young, my good friend from Alaska, for bringing the House 
Resources Committee to Boise. I also want to thank my good 
friend from California, Richard Pombo, the Chairman of the 
Endangered Species Task Force established by Newt Gingrich, for 
chairing this hearing. I welcome my colleague from Puerto Rico, 
Carlos Romero-Barcelo, to Boise. I know my colleague and fellow 
Resources Committee member, Mike Crapo, is as concerned as I am 
about what is happening in our state of Idaho.
    There are few things more symbolic of Idaho and the Pacific 
Northwest than the salmon. The salmon represents the enduring 
spirit of survival. For generations, the salmon has struggled 
to return year after year to the same spawning grounds. This 
same spirit of survival is shared by the pioneers who settled 
the new frontier and built Idaho. Like the salmon's struggle, 
many Idahoans are struggling. We have to find a way for 
everyone to survive and thrive. This is why we are here today--
to look for solutions that will save the fish, and save Idaho's 
remarkable way of life.
    Under the Endangered Species Act, the National Marine 
Fisheries Service, an agency within the U.S. Department of 
Commerce, was given responsibility for management of ocean-
going fish. This authorization has unfortunately evolved into 
NMFS fish biologists managing timber, rangeland, road building, 
farmland and just about every on-land activity you can imagine. 
What was once an agency dedicated to managing ocean fisheries 
now finds itself hundreds of miles inland involved in every 
aspect of land use.
    NMFS' fish management has become so incredibly single-
minded that people are no longer part of the equation. We find 
that, like the salmon, many, many Idahoans are struggling too. 
Again, we must find a way to all live together.
    There is no other issue in Idaho or the Pacific Northwest 
that is as emotionally charged as salmon and steelhead 
management. It is an issue that we can all agree has been mired 
in controversy. Rhetorical battles are the norm, not solutions. 
Yet we offer a solution. Together, I and other members of the 
House Resources Commit-

tee have drafted a simple piece of legislation to take one step 
in the right direction. No one, including myself, claims this 
bill will solve all of our problems and put an end to the 
controversy. Yet it will consolidate authority, make the 
government more efficient, accountable and consistent, and lead 
to better fish management. I believe everyone can support that 
concept and I look forward to hearing constructive comments to 
improve the bill.
    The Endangered Species Consolidation Act (H.R. 4335) 
authored by Don Young and cosponsored by myself, Mike Crapo, 
Richard Pombo and others, transfers NMFS' ESA functions to the 
U.S. Fish & Wildlife Service. By bringing under one roof all 
ESA functions, everyone--the farmer, rancher, lumberman, miner, 
recreationist, environmental groups, state and Federal 
agencies--will know that U.S. Fish & Wildlife Service 
determinations will be final. Today's dual agency 
responsibility allows for feasible deniability and a lack of 
accountability. Our bill will paste a big sign over the Fish & 
Wildlife Service that says, ``The Buck Stops Here . . . Right 
Here.''
    There can be finality despite our long and bitter 
experience of being whipsawed between multiple Federal 
agencies. Further, and possibly even more frustrating, agency 
decisions are often contradictory. Take for instance the bull 
trout. Steps taken by NMFS to save the salmon impact the bull 
trout; and steps taken by FWS to help the bull trout affect the 
salmon. Duplicative ESA authority results in contradictory 
policies and paralyzing controversy. It is my view that if ESA 
enforcement authority were under one roof there would be a more 
consistent policy that could accomplish both salmon and bull 
trout recovery objectives.
    There are numerous examples of duplicative and 
contradictory agency actions; a FWS habitat conservation plan 
two years in the making completely gutted by NMFS--a loss of 
tens of thousands of dollars; an Idaho timber sale once 
approved by NMFS and the FWS put on hold a year later; an Army 
Corps of Engineers study indicating success in the 
transportation of smolt down river, but a NMFS decision stated 
exactly the opposite.
    Clearly, inter-agency turf battles and contradictory 
policies and decisions will not piece together the salmon 
puzzle. But we can solve these problems by consolidating ESA 
authority in one agency.
    A word of caution: Don't mistake this simple piece of 
legislation for an attempt at ESA reform. ESA's substantive 
recovery requirements and legal protections remain totally 
intact and are in no way affected by this legislation. Our bill 
merely speaks to government efficiency, responsibility and 
accountability. It does not solve all of the issues, but it's a 
start.
    Since late July when we introduced our Endangered Species 
Consolidation Act, I've heard many comments and concerns. It is 
certainly far from clear that the Fish & Wildlife Service will 
necessarily do a better job than NMFS of fish management. After 
all, it was the FWS who introduced the wolf into Idaho and is 
forcing the re-introduction of the grizzly bear, both predator 
species over the objection of the people of Idaho, its 
legislature, its Congressional delegation, and Governor. The 
FWS has does nothing to engender the trust of Idahoans.
    But when it comes to accountability, the Federal Government 
has become skilled at passing the buck, and we must therefore 
pick our poison. This is the purpose of the bill, and this is 
exactly why I asked Don Young to bring the Resources Committee 
to Idaho. Congress must listen carefully to what Idahoans have 
to say.
    Lastly, I want to say that America is the most benevolent 
country in history. We lead the world in humanitarian actions 
and helping people to a better way of life and future. Yet 
we've left people out of the equation on the salmon issue by 
allowing our region to be mired in controversy and our economy 
to degrade to a shadow of its former self.
    We've even gone so far as to consider radical, false 
solutions like destroying the four lower Snake River dams, when 
we should be looking for common sense solutions that work.
    It is inconceivable to me that many groups and individuals 
have focused solely on the dams, rather than looking at the 
legion of issues involving salmon restoration. What about 
predation and changing ocean conditions? I recently learned 
that NMFS has approved a commercial harvest of threatened and 
endangered chinook and salmon. Last year's fall harvest from 
August 27 to September 20 gill netted 64,100 chinook and 22,700 
steelhead. And I understand that historically this fishery has 
taken 40 percent of the total fall chinook run with large 
incidental catches of steelhead.
    Let me say that I am not taking issue with tribal cultural 
and ceremonial salmon harvests. However, this fall chinook gill 
net harvest is solely commercial, often selling the fish for as 
little as a dollar per pound. If these fish are truly 
endangered, why do we continue to harvest so many of the 
remaining adults? These are the only endangered species with an 
allowable harvest.
    When NMFS' salmon decisions literally cost the region 
hundreds of millions of dollars annually and have had the 
effect of putting people out of work and shutting down 
industries, allowing a commercial harvest of the very chinook 
and steelhead that we are trying to save is a little bit 
insane.
    Again, we are all here together. We are all struggling 
together. H.R. 4335 is a good start in laying the foundation to 
make a more consistent, efficient and responsive Federal 
Government.
    One final note, Mr. Chairman. Last Tuesday I held a hearing 
in Orofino, Idaho on drawdowns of the Dworshak Reservoir to 
flush salmon downriver. For the last few years NMFS has forced 
the Corp of Engineers to ``draw down'' the reservoir in an 
unproven experiment to flush salmon downriver.
    The unexpected result was a significant impact on bull 
trout habitat and kokanee salmon--another example of NMFS' 
actions adversely affecting another agency.
    In my opinion, the NMFS has no authority to force another 
government agency to violate a Congressional mandate--in this 
case the legislation that authorized Dworshak Dam--for an 
unproven measure like salmon flushing.
    Mr. Chairman, the drawdowns at Dworshak are a violation of 
law, and break the promises made to the local people. 
Dworshak's authorizing statute specifically promised the people 
of Idaho flood control, power generation, log transportation 
and recreation.
    It is legally, ethically, and worst of all, morally wrong 
for unelected bureaucrats to re-craft the dam's mission and 
purpose, and wreak havoc on a community that relied on promises 
made by the Federal Government.
    Mr. Chairman, without objection, I would like to enter this 
testimony into the official record as a case study of how the 
NMFS has gone too far.
    [The above mentioned material can be seen at the Committee 
office where it will be kept on file.]

    Mr. Pombo. Mr. Crapo?
    Mr. Crapo. Thank you, Mr. Chairman. I appreciate you and 
our Ranking Member for being here and for giving us the 
opportunity to hold this hearing on what is probably one of the 
most critical issues in the Pacific Northwest. And the issue, 
as I see it today, is not just with regard to the legislation 
before us, but with regard to the question of how we manage 
salmon and steelhead recoveries and we how manage endangered 
species actions.
    For some time, I have been a very open and vocal critic of 
the National Marine Fisheries Service and the way that it has 
approached salmon and steelhead recovery measures.
    And I think that whether one comes from the--from any of 
the many different perspectives that we have in the Pacific 
Northwest, whether it be from the perspective of the salmon and 
steelhead recovery effort or the perspective of the economies 
and the jobs in Idaho and in the Pacific Northwest that are at 
risk because of some of the proposed decisions that have been 
on the table for the last several years and that are now on the 
table or other perspectives.
    It seems to me that there has been great concern with the 
management decisions and the approach of the National Marine 
Fisheries Service. This is not the first hearing at which I 
have raised these concerns. And I think that to kind of 
highlight what I am focusing on here today, it seems that we 
have got to insist on more regional State and local involvement 
in the decisionmaking process.
    In Idaho, we have been under Governor Batt's very good 
leadership working on a plan to try to spread the risk and 
approach the issue of salmon and steelhead recovery in a 
sensible way by building consensus among the different 
competing interest groups.
    Not everybody was happy with that plan. People had to give 
and take in order to work together. But we were getting people 
to give and take and work together in Idaho, yet our voice fell 
on deaf ears. Our efforts to provide a path forward fell on 
deaf ears at the National Marine Fisheries Service.
    And, in fact, the service actually, in the face of what I 
thought was pretty strong consensus, chose alternate 
approaches, which were not justified. They were not justified 
by science. They were not justified by politics. They were not 
justified in the face of the type of consensus that we move 
forward.
    Even as recently as this year, after it looked like we were 
starting to make progress with some of the efforts to encourage 
the National Marine Fisheries Service to approach some of the 
ideas that we have developed here in Idaho. It turns out that 
the management actions taken by NMFS this year seem to ignore 
the very discussions that we have had and the very approaches 
that we have developed.
    And because of that, I was very willing to lend my name to 
the support for this legislation if, for no reason, than to 
engage this debate as to how we approach decisionmaking and how 
the Federal Government must interact with the States and the 
region in this case and local communities in the decisionmaking 
processes.
    I am very aware, as has already been referenced, that there 
are great concerns that people have with regard to the U.S. 
Fish and Wildlife Service. And had the U.S. Fish and Wildlife 
Service been the agency in charge for the past number of years, 
we would probably be holding a hearing here today about 
concerns with regard to the way that they had undertaken 
management decisions.
    I know that those concerns will be raised here today by 
many. And I guess what I hope comes out this hearing is a full 
airing and a full discussion of how we will approach this 
critical issue. It is critical to us in this region that we 
save the wild salmon and steelhead. And it is also critical to 
us in this region that we not destroy the economy of our 
region. And I am confident that we can do that.
    The economies of our region that have grown over the last 
decades are critical to the people of Idaho. And the jobs that 
they represent, strengthen and support the families of the 
people who live here in Idaho. And there are ways that we can 
maintain and strengthen and regain our cultural and wildlife 
heritage with the fish, the salmon, and the steelhead, without 
destroying economies.
    I am very concerned that right now we in the region, even 
as we work aggressively to develop consensus, do not seem to 
have a voice in the process. And that voice must be heard. And 
that is one of the reasons for this hearing, and I look forward 
to the testimony to be heard today. Because one way or the 
other, efforts like we have seen in Idaho and in the region to 
find a path forward have got to get past the bureaucracy that 
is now built up around the Endangered Species Act.
    Thank you, Mr. Chairman.
    Mr. Pombo. Thank you. I would like to call up our first 
witness here today, Governor Phil Batt. If he would join us at 
the witness table.
    Governor, I would like to welcome you here today. We have 
all had the opportunity to review your testimony. Feel free to 
summa-

rize your written testimony. The entire thing will be included 
in the record. Welcome, and you may begin.

     STATEMENT OF PHILIP E. BATT, GOVERNOR, STATE OF IDAHO

    Governor Batt. Thank you, Mr. Chairman, members of the 
Committee.
    I see in the rules that I am limited to 5 minutes. My 
testimony may run six or seven. I would like to read it, if I 
could.
    Mr. Pombo. Yes. Go ahead.
    Governor Batt. Mr. Chairman and members of the Committee on 
Resources, I congratulate the Committee for addressing the 
question of how Federal agencies could better serve the people. 
In this case, you are examining whether the U.S. Fish and 
Wildlife Service could better handle the responsibility of 
endangered species regulation than the National Marine 
Fisheries Service, the agency that now partially handles that 
responsibility.
    I want to say with emphasis, that I do not believe some 
Federal agencies are serving their constituents properly or 
implementing their authority consistent with the intent of 
Congress. Examples are abundant, and I will mention just a few.
    The Environmental Protection Agency has become so large and 
complicated that it has lost all practicality in the 
application of its responsibilities in the field. Its water 
quality actions have imposed unnecessary and indefensible 
burdens on the State of Idaho. EPA is not charged with 
protecting endangered species, but, after consultation with the 
U.S. Fish and Wildlife Service, they impose actions on us, 
which are addressed plainly for that purpose.
    Another example is the censuring of Idaho's DEQ for its 
enforcement procedures regarding air quality. Never mind that 
Idaho is one of the few states, maybe the only one, that has 
not even a single Federal non-attainment area under the State's 
jurisdiction. Our air quality is excellent and has improved 
dramatically. Our sin is not dirty air but failure to fine 
enough people and to shut down enough operations and thereby 
put people out of jobs. We believe in a cooperative effort with 
clean air as the objective.
    EPA believes in punishment with results only secondary. 
Chuck Clarke, the director, is most reasonable in his frequent 
discussions held between us. But when the lieutenants and 
privates in EPA do their work in the field, they are 
bureaucratic in the extreme and sound, sweet reason doesn't 
stand a chance. Costly State planning and remediation efforts 
are thrown on the scrap heap.
    Let's take another example, the U.S. Forest Service. Local 
Forest Service managers are great. They are practical. After 
careful consideration of the impact, they authorize occasional 
timber sales. Then the inevitable protests are filed, and the 
sales are canceled. The agency is powerless and the forests are 
debilitated by disease and fires caused by a lack of timely 
maintenance and harvest of forest products.
    The Department of Energy is another agency which is 
ineffective because of internal paralysis. The Pit 9 fiasco is 
baffling. Hundreds of millions of dollars have been spent and 
not a spoonful of waste has been removed. Radioactive 
materials, foolishly dumped into the pits years ago, continue 
to threaten our aquifer. President Clinton has thwarted efforts 
to open the central repositories necessary to carry out the 
national policy of waste disposal. Our new policy is gridlock.
    Federal agencies are not all bad. I believe FEMA, under 
James Lee Witt, has done a very good job in cleaning up 
disasters and also placing great emphasis on prevention.
    I also believe our military does an effective, although 
sometimes wasteful, job of protecting our freedom. Oftentimes, 
their job is complicated by other Federal agencies, such as the 
Bureau of Land Management.
    Speaking of the BLM, that agency has a history of imposing 
rules, which, in my opinion, are far beyond the authority 
granted by Congress. I must give credit to Bruce Babbitt for 
rescinding the proposed law enforcement rules on BLM land after 
I personally asked him to do so. But the agency still seems to 
impose arbitrary regulations in many areas.
    One of these topics is the tribal gambling question. Mr. 
Babbitt seems to have wide authority to decide questions on 
Indian gaming. He has asked for even more. States' rights seem 
to take a back seat in these matters. Fortunately, Congress has 
not acquiesced to him.
    President Clinton recently put out an executive order, 
which called for Federal supremacy over nearly all State and 
local matters. After a loud outcry, he put the matter on hold, 
but the increase in Federal power continues, occasionally 
taking a baby step backward but then regaining its pace.
    But I have digressed from the main question: Would we be 
better off dealing with U.S. Fish and Wildlife Service than 
with NMFS regarding anadromous fish recovery?
    The NMFS used to be concerned mainly with ocean fishing. 
Its involvement in regulating storage dams and water quality is 
a recent phenomenon. NMFS makes its decisions in conjunction 
with a myriad of Federal agencies, which you have pointed out, 
including the Bureau of Reclamation and the Corps of Engineers 
and others, as well as receiving input from state, private, and 
other sources.
    I believe Mr. Stelle is a capable, conscientious department 
director. But the department is pulled and tugged in so many 
different directions that its decisions are almost capricious. 
They have little basis in science or practicality.
    I proposed leaving more smolts in the river during high 
water years as opposed to barging so that we may get a better 
scientific comparison for future actions. And I have a lot of 
support for that proposal. But NMFS ignored that suggestion 
because of pressure from BOR and others. NMFS seems to be 
powerless to set a consistent course of action.
    But to move the anadromous fish recovery to the U.S. Fish 
and Wildlife Service? Wait a minute. These are the folks who 
brought us wolves. They are the ones who tell us we are going 
to get grizzly bears whether we want them or not. They are the 
Bruneau snail people. They will probably list the lynx soon. 
They were the chief cause of the paralysis imposed by the Upper 
Columbia River Basin EIS study. They were the chief protagonist 
of the special interest group which brought a suit to shut down 
most of Idaho through a ruling of a judge sitting in Hawaii.
    Mr. Ruesink is a pleasant fellow. He is a good, 
conscientious man, but he is a captive of the Federal rules. 
When he came to my office to discuss the grizzlies, he brought 
with him strong proponents of bear reintroduction from the 
private sector. They had little regard for those with opposite 
views. His agency has given short shrift to our plan for 
improving bull trout populations in Idaho. They chose to ignore 
the sound plans laid out by our agencies for recovery, in favor 
of imposing Federal dictates based mostly on shutting down our 
economy.
    We, in Idaho, are proud to be part of these United States. 
Our Federal agencies have a difficult job. The absurdities 
which arise are usually caused by overzealous interpretation of 
Congress' desires. You are to be commended for trying to 
clarify and monitor the laws you have passed concerning our 
resources.
    Yet in closing, I would like to gently remind you and our 
Congressmen that we work with these agencies every day and that 
we would appreciate being consulted before recommending such a 
major change in responsibility.
    Let me also say, that this debate is a worthwhile effort, 
and I congratulate you on bringing this to Idaho. Thank you.
    Mr. Pombo. Thank you very much, Governor.
    I would like to thank the Governor very much for his 
testimony.
    Governor Batt. Did you have questions? I am sorry.
    Mr. Pombo. That is all right. Thank you for your testimony. 
It is a great deal. You brought up many of the concerns that 
members of this panel, members of the Resources Committee have 
about the legislation, many of the concerns that I think we 
will hear about later today, and thank you for your testimony.
    Mrs. Chenoweth. And Mr. Chairman, I want to join you in 
thanking the Governor for his testimony. I think that his 
testimony reveals, from a man who has been so even-handed in 
his governing of this State, even-handed with everyone. It has 
been very admirable. But his testimony brings out the 
frustration that one, who is the chief executive officer of 
this State, has felt.
    And, Governor, I very much appreciate your time and your 
good testimony. Thank you very much.
    Mr. Pombo. Thank you.
    [The prepared statement of Governor Batt follows:]

          Statement of Philip E. Batt, Governor, Boise, Idaho

    Chairman Young and members of the Committee on Resources:
    I congratulate the Committee for addressing the question of 
how Federal agencies could better serve the people. In this 
case you are examining whether the U.S. Fish and Wildlife 
Service could better handle the responsibility of endangered 
species regulation than the National Marine Fisheries Service, 
the agency that now partially handles that responsibility.
    I want to say, with emphasis, that I do not believe some 
Federal agencies are serving their constituents properly, or 
implementing their authority consistent with the intent of 
Congress. Examples are abundant. I'll mention a few.
    The Environmental Protection Agency has become so large and 
complicated that it has lost all practicality in the 
application of its responsibilities in the field. Its water 
quality actions have imposed unnecessary and indefensible 
burdens on the state of Idaho. EPA is not charged with 
protecting endangered species but, after consultation with 
USFWS, they impose actions on us addressed plainly to that 
purpose.
    Another example is the censuring of Idaho's DEQ for its 
enforcement procedures regarding air quality. Never mind that 
Idaho is one of the few states, maybe the only one, that has 
not even a single Federal non-attainment area under State's ju-

risdiction. Our air quality is excellent and has improved 
dramatically. Our sin is not dirty air, but failure to fine 
enough people and to shut down operations and thereby put 
people out of jobs. We believe in a cooperative effort with 
clean air as the objective. EPA believes in punishment with 
results only secondary. Chuck Clarke, the director, is most 
reasonable in the frequent discussions held between us. But 
when the lieutenants and privates in EPA do their work in the 
field, they are bureaucratic in the extreme, and sound, sweet 
reason doesn't stand a chance. Costly state planning and 
remediation efforts are thrown on the scrap heap.
    Let's take another example--the U.S. Forest Service. Local 
forest service managers are great--they are practical. After 
careful consideration of the impact, they authorize occasional 
timber sales. Then the inevitable protests are filed and the 
sales are cancelled. The agency is powerless and the forests 
are debilitated by disease and fires, caused by lack of timely 
maintenance and harvest of forest products.
    The Department of Energy is another agency which is 
ineffective because of internal paralysis. The Pit 9 fiasco is 
baffling. Hundreds of millions of dollars have been spent and 
not a spoonful of waste has been removed. Radioactive 
materials, foolishly dumped into the pits years ago, continue 
to threaten our aquifer. President Clinton has thwarted efforts 
to open the central repositories necessary to carry out the 
national policy for waste disposal. Our new policy is gridlock.
    Federal agencies are not all bad. I believe FEMA, under 
James Lee Witt, does a good job in cleaning up disasters and, 
also, places great emphasis on prevention.
    I also believe our military does an effective, although 
sometimes wasteful, job of protecting our freedom. Oftentimes 
their job is complicated by other Federal agencies such as the 
Bureau of Land Management.
    Speaking of the BLM, that agency has a history of imposing 
rules, which in my opinion, are beyond the authority granted by 
Congress. I must give credit to Bruce Babbitt for rescinding 
the proposed law enforcement rules on BLM land after I 
personally asked him to do so. But the agency still seems to 
impose arbitrary regulations in many areas.
    One of these topics is the Tribal gaming question. Mr. 
Babbitt seems to have wide authority to decide questions on 
Indian gaming. He has asked for even more. State rights seem to 
take a back seat in these matters. Fortunately, Congress has 
not acquiesced to him.
    President Clinton recently put out an executive order which 
called for Federal supremacy over nearly all state and local 
matters. After a loud outcry, he put the matter on hold, but 
the increase in Federal power continues, occasionally taking a 
baby step backward but then regaining its pace.
    I have digressed from the question--would we be better off 
dealing with USFWS than with NMFS regarding anadromous fish 
recovery?
    The NMFS used to be concerned mainly with ocean fishing. 
Its involvement in regulating storage dams and water quality is 
a recent phenomenon. NMFS makes its decisions in conjunction 
with a myriad of Federal agencies, including the Bureau of 
Reclamation and the Corps of Engineers, as well as receiving 
input from state, private and other sources. I believe Mr. 
Stelle is a capable, conscientious department director, but the 
department is pulled and tugged in so many different directions 
that its decisions are almost capricious. They have little 
basis in science or practicality. I proposed leaving more 
smelts in the river during high water years as opposed to 
barging so that we get better scientific data for future 
actions. I had a lot of support for this proposal. But NMFS 
ignored that suggestion because of pressure from BOR and 
others. NMFS seems to be powerless to set a consistent course 
of action.
    But to move the anadromous fish recovery to USFWS? Wait a 
minute. These are the folks who brought us wolves. They're the 
ones who tell us we're going to get grizzly bears whether we 
want them or not. They're the Bruneau Snail people. They'll 
probably list the lynx soon. They were the chief cause of the 
paralysis imposed by the Upper Columbia River Basin EIS study. 
They were the chief protagonist of the special interest group 
which brought a suit to shut most of Idaho totally down, 
through a ruling of a judge sitting in Hawaii. Mr. Ruesink is a 
pleasant fellow, but he's a captive of the Federal rules. When 
he came to my office to discuss grizzlies, he brought with him 
strong proponents of bear reintroduction from the private 
sector. They had little regard for those with opposite views. 
His agency has given short shrift to our plan for improving 
bull trout populations in Idaho. They chose to ignore the sound 
plans laid out by our agencies for recovery, in favor of 
imposing Federal dictates based mostly on shutting down our 
economy.
    We, in Idaho, are proud to be part of these United States. 
Our Federal agencies have a difficult job. The absurdities 
which arise are usually caused by overzealous interpretation of 
Congress' desires. You are to be commended for trying to 
clarify and monitor the laws you have passed concerning our 
resources.
    Yet in closing, I'd like to gently remind our Congressmen 
that we work with these agencies every day. You might consider 
consulting with us before recommending a major change in 
responsibility.

[GRAPHIC] [TIFF OMITTED] T1600.097

[GRAPHIC] [TIFF OMITTED] T1600.098

[GRAPHIC] [TIFF OMITTED] T1600.099

    Mr. Pombo. I would like to call up our second panel: Mr. 
Thomas Kerr, Ms. Olivia James, Mr. Bob Maynard, Mr. Mark 
Limbaugh, and Mr. David Doeringsfeld. If you would, join us at 
the witness table.
    Thank you for being with us today. For those of you that 
have not had the opportunity to testify in the past, I will 
explain the light system to you.
    Your entire written statements will be included in the 
record. We ask you to summarize those and try to keep your oral 
statement within 5 minutes. The light system: Green is to 
begin, yellow is wrap it up, and red is to stop. And if you 
could try to stay within the 5 minutes, it would be appreciated 
by the Committee.
    Mr. Kerr, if you are prepared, you may begin.

  STATEMENT OF THOMAS KERR, COMMISSIONER, VALLEY COUNTY, IDAHO

    Mr. Kerr. I am Tom Kerr, Valley County Commissioner. I was 
born in 1937 in McCall, Idaho. I was raised there, educated 
there. I have a B.S. Degree in mining engineering from the 
University of Idaho in 1961. I have worked as a professional 
land surveyor in Valley County for 25 years, and I am very 
familiar with its people, conditions, and needs. I have served 
on the board of county commissioners since 1997.
    My testimony not only represents the views of my colleagues 
on the Valley County Board of Commissioners but also those of 
the Idaho Association of Counties, which represents the elected 
officials in Idaho's 44 counties. I do not believe that my 
views on NMFS are in any sense unusual, but, on the contrary, 
are typical of those of my colleagues around this great state.
    There is an ongoing project, the course of which has 
decisively shaped our view of the role of NMFS in fulfilling 
its responsibilities.
    The Warren-Profile Gap Road was built prior to the 
establishment of the Payette National Forest and is a public 
right-of-way under the jurisdiction of Valley County.
    In 1994, debris torrents washed out a 500-foot segment of 
the road along Elk Creek. During the Chicken Complex Fire, 
later in 1994, emergency funds were used to repair this damage. 
We experienced unusually heavy rainstorms during the year 
following the fire and high runoff caused the destruction of 
two bridges and seriously damaged portions of the road. Further 
storms and flooding caused even more damage to the road in the 
winter of 1996 and 1997.
    In February 1997, the Valley County Commissioners met with 
the representatives from the Forest Service, Federal Highways, 
National Marine Fisheries, Fish and Wildlife Service, Idaho 
Department of Lands, the timber industry and private landowners 
to put together an action plan for the repair of the road which 
would be consistent with the needs of the community as well as 
the requirements of the regulatory agencies.
    I am disappointed to report that the plan we agreed to in 
February 1997 has yet to come to fruition. There is no question 
that this failure is largely due to the inaction of the 
National Marine Fisheries Service.
    NMFS has consistently taken an inordinate amount of time to 
complete the analysis necessary for repair work to proceed. 
When it finally does come back with its review, it asserts that 
it still needs more information to issue a Biological Opinion, 
even when it already has received sufficient data. This view is 
shared by our local Forest Supervisor, Dave Alexander, who 
wrote in his June 9, 1998 letter to Ms. Elizabeth Gaar of 
National Marine Fisheries Service regarding their delay in the 
issuance of a Biological Opinion:

          ``I am very concerned that after 17 months of 
        discussion, analysis and meetings, and almost 3 months 
        after we jointly reached agreement which resulted in a 
        four-party memorandum of understanding outlining the 
        resolution of this issue, we are continuing to see 
        delays in the issuance of a Biological Opinion.''
    Rather than participating throughout in an open and 
straightforward way, NMFS seems only to take potshots at the 
successive plans they want submitted for approval. It would 
seem logical for them to identify all of the conditions needing 
mitigation at one time, rather than picking a new one later.
    On at least one occasion the NMFS representative admitted 
that he had not really read the report that was to be the 
subject of a meeting at NMFS's office in Boise with Federal 
Highways, Forest Service, Fish and Wildlife, Valley County, and 
a representative from Representative Chenoweth's office, most 
of whom had to travel to Boise for the meeting.
    I was left with a clear impression that talking to the 
locals is a low priority indeed, and that our point of view is 
not being fairly represented or even taken seriously.
    I observed that NMFS representatives have not had 
sufficient authority to speak for the agency, but we are 
convinced that the outcome may not be any different even if 
NMFS officials of sufficient stature participate in the 
process.
    One NMFS representative said they did not really care what 
the cost and inconvenience of NMFS's might be to the public. As 
long as NMFS has an institutional culture so resistant to 
public scrutiny, accountability, and cooperation, it is hard to 
imagine that this situation could improve.
    Meanwhile, the road remains unrepaired, local landowners 
are without access to their property, the State of Idaho has 
not been able to proceed with a timber sale, the Forest Service 
has limited access for forest management, and the United States 
taxpayers continue to foot the bill for more NMFS delays. The 
great irony is that more damage is being done while they are 
being delayed to the detriment of fish spawning and rearing 
habitat.
    Therefore, the commissioners of Valley County and the Idaho 
Association of Counties urges you to support H.R. 4335. While 
we are not always thrilled and happy with the positions taken 
by the U.S. Fish and Wildlife Service pursuant to the Act, it 
will get it under one agency. And our experience has been that 
they are more responsive and cognizant of our concerns, 
participate more openly in discussions of proposed action, and 
are generally more timely and efficient in reaching conclusions 
than is the National Marine Fisheries Service.
    Thank you.
    Mr. Pombo. Thank you.
    [The prepared statement of Mr. Kerr may be found at end of 
hearing.]

    STATEMENT OF OLIVIA JAMES, PRESIDENT, THE RIVER COMPANY

    Ms. James. Mr. Chairman, members of the Committee, thank 
you for the opportunity to comment on the Endangered Species 
Act.
    I represent The River Company, one of four outfitters who 
offer 1-day raft trips on the upper main Salmon River out of 
Stanley, Idaho. Stanley has a population of 69 and is almost 
totally dependent on tourism centered on river activities. We 
four outfitters, all together, do about a million dollars of 
business a season. We are small. Since Snake River chinook 
salmon were listed under the Endangered Species Act in 1992, we 
have been subjected to abuse of power, mismanagement, and 
overregulation by the U.S. Forest Service and National Marine 
Fisheries Service.
    Five-year permits issued in August 1996 require that as 
soon as chinook salmon are seen exhibiting spawning behavior on 
August 21st, whichever is sooner, anywhere in the navigable 30-
mile stretch of the Salmon River in the Sawtooth National 
Recreation Area, all floatboaters, commercial and private, must 
portage a half-mile section where salmon historically have 
nests or redds.
    We have to take out 2 miles above the federally funded 
official takeout through my company's leased picnic site. What 
is normally an eight-mile trip is shortened to five-and-a-half. 
While guests are getting a shorter river trip for their money, 
outfitters have to add vehicles and personnel to execute the 
portage and carry the rafts up the steep embankment at the 
improvised takeout. Our costs are further increased by funding 
federally required monitoring.
    Outfitters and the public are subject to a penalty point 
system for violating regulations. This resulted in the river 
being closed to public floating in mid-August in both 1996 and 
1997.
    Because new permits were not accompanied by a NMFS 
Biological Opinion and Incidental Take Statement, as was the 
case in years prior, as soon as a salmon moves off its nest, 
because of a passing floatboat, the river can be closed. In 
1997, the river was closed on September 10 because one fish 
moved off its redd twice, both times for less than 15 minutes.
    Previously, NMFS defined a ``take'' as a single fish moving 
off its nest three times, or eight different fish once each, at 
a distance of 10 feet or more for 20 minutes or more. Now, 
``take'' is no longer applicable. No disturbance is allowed.
    There is no documented evidence that displacement of listed 
chinook from a redd from more than 20 minutes is related to 
diminished spawning success or a diminished reproductive or 
survival rate for the species.
    To the contrary, the available scientific evidence for 
other chinook salmon indicates that spawning salmon may leave 
their redds for up to 8 hours a day with no adverse effects on 
spawning success as measured by egg retention in female 
spawners.
    We four tiny outfitters are victims of ``over protection'' 
of a fish listed under the Endangered Species Act. Instead of 
using the best scientific and commercial data available, the 
Federal agencies have relied on casual observations of redd 
displacement as justification for decisions to restrict and 
even prohibit the use of the river by floatboaters.
    Regulations governing floatboats have been based on two 
arbitrary assumptions: one, that floatboats pose a threat to 
endangered chinook salmon; and two, that the presence of 
floatboats will discourage salmon from spawning.
    In 1997, salmon spawned both where we portaged and where we 
rafted. This indicates that the original assumptions are false. 
Instead of using this opportunity to measure effects of float 
boating on salmon spawning, the Forest Service instead elected 
to close the river to floatboating.
    In general, the NMFS has taken a very conservative approach 
to the assignment of incidental take to habitat-related 
projects. Little or no incidental take is permissible for most 
Federal habitat projects, including floating on the upper 
Salmon River; while up to 86 percent direct mortality of 
juvenile salmon, is permissible in the hydropower system.
    In other words, aggressive regulatory measures are being 
taken against activities least limiting fish, while relatively 
passive measures are being taken against those most limiting 
fish.
    The Idaho Department of Fish and Game views the extreme 
restrictions on floating resulting from U.S. Forest Service 
consultation with NMFS as biologically inappropriate and 
economically and socially unfair. They view the current 
restriction on the use of floatboats in salmon spawning habitat 
as unnecessary given the minimal or nonexistent effects of 
floating on salmon that they have observed.
    The NMFS and U.S. Forest Service facile resort to the 
precept that floatboating disturbance leads to salmon 
mortality, if taken to its logical extreme, could allow these 
agencies to close the upper Salmon River and the entire 
Sawtooth National Recreational Area to recreational use 
altogether. Clearly, this was not Congress' intent when it 
established the Sawtooth National Recreation Area to, among 
other things, ``provide for the enhancement of recreational 
values.''
    Thank you.
    Mr. Pombo. Thank you.
    [The prepared statement of Ms. James may be found at end of 
hearing.]

       STATEMENT OF ROBERT A. MAYNARD, PERKINS COIE, LLP

    Mr. Maynard. Mr. Chairman and members of the Committee, 
thank you for inviting me to speak with you today.
    My name is Robert A. Maynard. I am an attorney practicing 
here in Boise, Idaho with the Perkins Coie law firm. I have 
given you my background in my written statement. I have 
practiced law in the environmental/natural resources arena for 
many years. My experience includes Endangered Species Act 
issues and working with the National Marine Fisheries Service 
and the Fish and Wildlife Service.
    A good bit of my recent private practice is focused on 
habitat conservation agreements which are negotiated between 
private land-

owners and the Services under Section 10 of the ESA. I have 
also been working with many people with concerns about 
something called essential fish habitat, which is a NMFS 
program based on some 1996 amendments to a statute known as the 
Magnuson-Stevens Act.
    NMFS's responsibilities and actions regarding essential 
fish habitat are quite relevant to NMFS and the Fish and 
Wildlife Service Endangered Species Act, or ESA, 
responsibilities. I want to focus on this connection in my 
remarks.
    H.R. 4335, to me, seems clearly directed at decreasing 
complexity and potential for conflicts between agencies in 
implementing the ESA. Currently, completing consultation under 
Section 7 and other procedures under the ESA can be quite time 
consuming. The complexity and time involved can be greater when 
both NMFS and the Fish and Wildlife Service have ESA 
jurisdiction regarding a particular project or program.
    We have this overlapping jurisdiction in the Columbia and 
Snake River basins, as you have all mentioned. For instance, 
NMFS's responsibility for salmon stocks and Fish and Wildlife 
Service responsibility for bull trout. We have got that just 
north of here in Bear Valley. I have mentioned some other 
examples in my written statement.
    Conflicts between agencies and substantial delays in 
completing these processes can be very costly to the 
government, businesses, and citizens.
    So consolidating ESA administrative responsibilities in the 
Department of Interior, as proposed in H.R. 4335, could 
simplifiy ESA implementation and increase its cost 
effectiveness. However, this would not necessarily eliminate 
the Department of Commerce's involvement in salmon and other 
fish and wildlife issues.
    For example, the Department of Commerce and NMFS would 
continue to have substantial responsibilities with respect to 
salmon under the Magnuson-Stevens Act. Under this statute or by 
virtue of fisheries expertise, NMFS could be expected to remain 
a consulting or cooperating agency in National Environmental 
Policy Act and other procedures carried out by Federal action 
agencies such as the Forest Service for various activities with 
the potential to impact salmon habitat.
    On this point, the ``essential fish habitat'' program is 
particularly important. The Magnuson-Stevens Act primarily 
concerns management of commercial marine or ocean fisheries in 
offshore waters. There are several regional fishery management 
councils that oversee that with the help of NMFS.
    The essential fish habitat--or EFH is the acronym I use--
amendments to the statute provide for the councils to identify 
essential fish habitat for fish species included in their 
fishery management plans.
    Federal agencies are thereafter required to consult with 
NMFS regarding federally funded or authorized activities which 
may adversely affect this identified EFH. There are some 
further provisions for commenting on State or Federal actions 
and recommending habitat conversation measures. Council-managed 
fish species include Pacific salmon.
    NMFS EFH regulations and draft recommendations to fishery 
management councils take an extremely broad approach to 
identifying EFH and activities with the potential to adversely 
affect EFH. Thus far, it appears that virtually all habitat is 
being proposed for identification as essential.
    For example, draft recommendations define EFH for Pacific 
coast salmon to include all fresh water habitat currently or 
historically accessible to salmon in Washington, Oregon, Idaho, 
and California, as well as coastal waters along the west coast.
    The NMFS regulations state that EFH will always be greater 
than or equal to ESA aquatic critical habitat for any council-
managed fish species listed under the ESA. The regulations 
furthermore set out an elaborate consultation process which can 
be compared to the ESA Section 7 consultation process.
    And this brings me to my basic point with respect to ESA 
implementation and H.R. 4335.
    In the event that NMFS ESA jurisdiction over salmon species 
is removed, NMFS could still be administering a consultation 
process as cumbersome as the Section 7 process over a 
geographic area as broad or broader than the reach of the ESA. 
So the process could be quite redundant with respect to 
activities to which the ESA applies.
    In my written statement, I have included the concern that 
many people in affected businesses and industries have about 
this approach that they consider unnecessarily broad, costly, 
and really counterproductive to implementing the Magnuson-
Stevens Act and fish protection in general.
    There has been concern expressed in the Senate 
Appropriations Committee's report about NMFS exceeding the 
intent of Congress under the Magnuson-Stevens Act.
    And to close, I would simply state that an effort to 
consolidate the ESA functions in the Department of the Interior 
and increase cost-effectiveness of ESA implementation should 
also address NMFS ESA jurisdiction and actions under the 
Magnuson-Stevens Act. If problems that are arising with EFH 
implementation are not dealt with, potential cost savings and 
other efficiencies of ESA consolidation may be substantially 
reduced.
    Thank you.
    Mr. Pombo. Thank you.
    [The prepared statement of Mr. Maynard may be found at end 
of hearing.]

 STATEMENT OF MARK LIMBAUGH, EXECUTIVE DIRECTOR, PAYETTE RIVER 
                 WATER USERS ASSOCIATION, INC.

    Mr. Limbaugh. My name is Mark Limbaugh. I am a fourth-
generation Idaho farmer. And I am also the Watermaster on the 
Payette River system in Idaho. I deliver over 150,000 acres of 
irrigation water, both natural flow and stored water, under 
State water law. And today I am representing the Payette River 
Water Users Association, an association that represents those 
150,000 acres and farmers that own and operate those acres as 
their executive director.
    First of all, I would like to enter into the testimony, if 
there is no objection, Mr. Chairman, the testimony of Mr. Sherl 
Chapman, the Idaho Waters Users Association Executive Director, 
and also Mr. Dewitt Moss, a member of the Committee of Nine and 
a known fish expert in Idaho.
    Mr. Pombo. Without objection, thank you.
    [The prepared statement of Ms. Chapman may be found at end 
of hearing.]
    Mr. Limbaugh. Mr. Chairman, members of the Committee, I 
appreciate the opportunity to talk to you today.
    Currently, under NMFS implementation of the Endangered 
Species Act, our Idaho water rights are under attack. Idaho 
currently provides between 2 and 2.8 million acre-feet of water 
to fish down the lower Snake River under the current NMFS flow 
augmentation flow targets program.
    Currently, however, the United States Bureau of 
Reclamation, under the direction of the Corps of Engineers and 
NMFS, is studying adding an additional million acre-feet of 
water from Idaho to augment flows in that reach. However, there 
are very little biological benefits that support this misuse of 
Idaho water.
    Target flows on the lower Snake River are artificially set 
too high, in my opinion. Current studies indicate that 
hydrologically those flows cannot be met with all the water 
that is taken during average or dry years. But yet, NMFS still 
studies recovery methods that require Idaho water.
    During the past 100 years, Idaho irrigation development has 
not appreciably affected the flows of the lower Snake River. 
The trend lines show a modest decrease in flows over the 
hundred-year period in the spring and a modest increase in 
flows during the summer critical time period that NMFS is 
trying to meet these target flows.
    The million acre-feet, if obtained by the Federal 
Government, would only meet target flows 35 percent of the 
time.
    Now, what is the impact of that million-acre feet coming 
out of Idaho, if, in fact, that is the route that NMFS wants to 
take in their 1999 Biological Opinion? Between $40 million and 
$70 million in lost direct net economic impact to the state. 
That does not include secondary economic impact, such as food 
processing, other jobs, and tax-base related activities.
    Between 200,000 and 500,000 acres of productive Idaho 
farmland would be dried up forever. The remaining acres would 
suffer shortages in average and dry years of up to 700,000 
acre-feet of water. Recreation would be impacted as reservoirs 
were drawn down every year down to the mud flats that we don't 
see right now. But we will see if the additional million acre-
feet is provided by Idaho.
    White water river recreation would be limited because of 
the increased flows in that time period. Obviously, resident 
fisheries and water quality in our reservoirs in Idaho would be 
extremely impacted.
    Well, what is the benefit of this flow augmentation? Flow 
augmentation currently only provides one-tenth of one mile per 
hour increase in velocity. Flow survival studies do not show 
any significant improvement. Currently, we only have a 0.4 to 
0.6 percent smolt adult return ratios. We need to improve those 
between 250 and 400 percent just to maintain current stocks.
    While NMFS studies the extremes of draining Idaho of its 
water or taking out dams, other measures have been ignored. 
Predators such as the Rice Island and Caspian terns eat between 
10 and 15 million smolts. And that is only one colony out of 
eight colonies that are predators to the smolt salmon. 
Pinnipeds injure or kill up to 70 percent of our returning 
adults.
    And while NMFS protects redds, as Ms. James suggests, in an 
unconscionable way, we still allowed in 1997 under an OSU, 
Oregon State University, study up to 1 million fall chinook to 
be harvested while only 360,000 spring, summer, and fall 
chinook collectively made it to Bonneville Dam. So this is the 
result of an agency that does not have the management and is 
not accountable for what they are doing.
    In closing, using Idaho water to recover salmon and 
steelhead will not work. Irrigation is the reason for an 
abundance of food supply in this nation. Irrigated agriculture 
silently and reliably provides up to $60 billion in western 
income, and Idaho is a big part of that.
    Regardless of what happens to H.R. 4335, we cannot allow 
Federal agencies to overturn State water law, undermine Idaho's 
water supply, damage our food supply, and revert our productive 
valleys that you see here today back to the dusty, barren, 
sage-covered lands that our forefathers found here over a 
hundred years ago.
    Thank you.
    Mr. Pombo. Thank you.
    [The prepared statement of Mr. Limbaugh may be found at end 
of hearing.]

   STATEMENT OF DAVID DOERINGSFELD, MANAGER, PORT OF LEWISTON

    Mr. Doeringsfeld. Mr. Chairman, members of the House 
Resources Committee, on behalf of the Idaho seaport, Port of 
Lewiston, we appreciate the opportunity to speak with you 
today.
    Implementation of the Endangered Species Act was initially 
carried out with the best of intentions. However, complex and 
often conflicting requirements of ESA have made it almost 
impossible to produce a fish recovery plan which can be 
implemented and which produces win-win solutions.
    Yesterday, you heard from one of the ports on the Mid-
Columbia River concerning the implementation of ESA by NMFS. I 
would like to echo some of those concerns.
    Once a species is listed as endangered, the only option 
available is to develop a recovery plan without any regard to 
cost, social, or economic impacts. While the people of the 
Northwest want to save anadromous fish, they are not willing to 
do so at any cost, and they don't want to be part of empty 
gestures or false promises for the fish.
    Our Northwest lifestyle is built around the remarkable 
Columbia/Snake River System. The many benefits we have received 
have shaped our communities, our culture, and are a vital part 
of the Northwest economy.
    Approximately 90 percent of our region's agricultural 
products are exported. We all rely on the Northwest's unique 
integrated system of growing, processing, storing, and 
transporting food for export. Losing one link in the chain 
would have serious effects and our lives would be drastically 
different without it.
    Over 40 percent of all the wheat grown in the United States 
is exported through the Columbia/Snake River System. River 
barges carry essential cargo 465 miles from Lewiston, Idaho to 
Astoria, Oregon, stopping at 25 ports along the way. This 
extraordinary river system creates a safe river passage and has 
made the Pacific Northwest the market basket of the world.
    Yet today, we have a black cloud hanging over the economic 
future of the Pacific Northwest and NMFS appears to be the only 
agency in charge of whether we will have prosperity or 
disaster.
    When ESA gives a single Federal agency the power to control 
public and private land use, throw out state conservation 
plans, and dictate the amount of water that flows in our 
rivers, common sense would indicate that we have gone too far.
    I believe that we need open discussions in which to develop 
a river governance framework whereby the region retains control 
over ESA implementation. The Governors of Idaho, Montana, 
Oregon, and Washington are currently exploring river governance 
options. We are hopeful that a broadened Northwest Power 
Planning Council will be given the authority to oversee ESA 
implementation.
    I don't pretend to be an expert on fish, but if we have 
learned anything by now, it is that there is no magic solution 
to the fish problems in the Northwest. Fish runs all along the 
West Coast are in decline, not just the fish that encounter 
dams. The people in the Northwest don't like lose-lose schemes 
like destroying dams or massive flow augmentation, especially 
when it is not known whether these efforts would return even a 
single fish.
    When we consider whether transferring ESA enforcement 
responsibilities from one Federal agency to another, as 
outlined in H.R. 4335, it is difficult to ascertain which 
agency would be more effective since agency control seems to 
make sense. Currently, we have Federal biologists from NMFS, 
U.S. Fish and Wildlife Service, and the Corps all working on 
fish recovery. Centralizing the authority and expertise to 
provide a clear mission and reduce conflicting goals.
    So here is the bottom line in this whole debate. Along with 
other Northwesterners, we want to preserve the things we value 
most about living in the Pacific Northwest; a rural culture and 
a strong regional economy capable of supporting families and 
communities for years to come.
    Our dams are a vital link in the structure of the 
Northwest's economy. We have grown to depend on them to provide 
dependable low-cost power to our homes, deliver goods to world 
markets, protect ourselves from floods, and provide 
recreational opportunities.
    We simply want common-sense solutions that really work. We 
deserve a win-win solution for everyone connected with the 
river, one that allows the fish to thrive but preserves the 
benefits of our remarkable river system for future generations.
    Thank you very much.
    Mr. Pombo. Thank you.
    [The prepared statement of Mr. Doeringsfeld may be found at 
end of hearing.]
    Mr. Pombo. Mrs. Chenoweth?
    Mrs. Chenoweth. Thank you, Mr. Chairman. I wanted to ask 
Tom Kerr that you mentioned in your testimony the Chicken Creek 
Fire from several years ago. Wasn't this one of the several 
large fires on the Payette last year? Or what year did that 
occur?
    Mr. Kerr. Representative, that was in 1964 with the Chicken 
Complex. We had the Savage Creek fire and the Chicken Complex 
that burned through that area. That was one of them. The 1994 
was the one that burned up the Corral. The Blackwell Fire and 
the Chicken Complex was all in that fire. That is part of what 
precipitated the massive erosion down there.
    Mrs. Chenoweth. Do you know if NMFS was involved in any of 
the decisions while the fire was burning?
    Mr. Kerr. NMFS would not let them, it is my understanding, 
use borate or any other control systems on that fire down in 
the main south fork of the Salmon, because it would be 
injurious to the fish, notwithstanding the fact that several 
hundred thousand tons of material washed off after the fire 
into the stream.
    Mrs. Chenoweth. What happened to the elk and the deer and 
the other critters?
    Mr. Kerr. I didn't see too many down there.
    Mrs. Chenoweth. What was the final size of the fires?
    Mr. Kerr. The final size of the fires was supposedly, with 
the Blackwell and the Corral fire--I don't think it joined up 
with the Chicken, but it was the largest fire in the United 
States.
    Mrs. Chenoweth. Do you know how much timber was burned and 
how much of that burned timber has been salvaged?
    Mr. Kerr. Very little of it has been salvaged due to the 
delays. I don't know how much was actually destroyed. I do know 
that as a member of the Big Payette Water Quality Council, we 
were worried about Payette Lake quality. And while we were in 
the middle of the study, the Blackwell and Corral fire burned 
up over 52 percent of the watershed of the lake, which really 
didn't help the water quality too much.
    Mrs. Chenoweth. Thank you. Thank you, Commissioner.
    I wanted to ask Mr. Mark Limbaugh, you mentioned a study 
done by the Idaho Department of Water Resources Director, Karl 
Dreher, showing the flow argumentation has done nothing and can 
do nothing to recover the fish. Why do you believe that NMFS 
continues with their thinking, I believe faulty, of the 
benefits of flow augmentation?
    Mr. Limbaugh. You know, I don't really understand it 
either, Congresswoman. You know, Karl Dreher, our director, did 
do a study. And in his opinion, the declines in the salmon 
populations cannot be the result of changes in the Snake River 
flows as measured at the lower Granite Dam because the flows 
haven't changed.
    NMFS is continuing to use Idaho water because we are 
probably the easiest target. We don't understand how our water 
can help when it only provides the very incremental 
hydrologically insignificant velocity increases that it does. 
However, the economic impacts, as you can tell by my testimony, 
are unconscionable for our state.
    Currently, we are missing out on opportunities to use that 
very same water in this State for recharge of our aquifers, for 
our municipal and industrial uses that are getting very close 
to running out of supply and all because of NMFS continued 
efforts to include Idaho water in any kind of a recovery plan.
    Mrs. Chenoweth. Mark, you state that you feel NMFS flow 
augmentation policies really are threatening food production 
and food processing, which contribute, I think you said in your 
testimony, about $60 billion annually to the western United 
States besides helping feed the people of the world. Do you 
think the average citizen really understands these threats to 
the very fabric of our nation?
    Mr. Limbaugh. Well, we are very concerned, because 
irrigation is the reason why we have such a reliable and 
sustainable food supply. Irrigation provides us the stability 
to grow any crop in the West that is, you know, suitable for a 
certain climate. And most of the fresh fruits and vegetables 
that we rely on and need for the 21st century for the very 
health of our Nation are grown in the West under irrigated 
projects, because of that reliability, because of that 
sustainability.
    And so, consequently, to attack irrigation attacks our food 
supply. Food does come from Albertson's. It comes from our 
farms. And irrigation is the main ingredient that makes it 
possible to grow any kind of crop at all in the West.
    Mrs. Chenoweth. Thank you very much.
    Mr. Pombo. Mr. Romero-Barcelo?
    Mr. Romero-Barcelo. Thank you very much, Mr. Chairman.
    Mr. Limbaugh, do you know about drip irrigation?
    Mr. Limbaugh. Yes, I do.
    Mr. Romero-Barcelo. What kind of irrigation do you use 
here?
    Mr. Limbaugh. Irrigation techniques in Idaho range from 
drip to pivots and overhead sprinklers, and also, there are 
some gravity flows.
    Mr. Romero-Barcelo. The drip irrigation consumes very 
little water.
    Mr. Limbaugh. The drip irrigation consumes very little 
water. However, economically, it is infeasible because of the 
price of crops. And if that price goes up, obviously, the price 
goes up for the consumer as well. So, you know, really, the use 
of water is probably the most efficient economical use and it 
actually passes right through to the consumer, the savings that 
Idaho and other irrigation areas provide.
    Mr. Romero-Barcelo. Except for one thing; the drip 
irrigation keeps, maintains the topsoil better and doesn't 
allow the washing away of soil as other types of irrigation do.
    Mr. Limbaugh. Possibly. However, we are coming up and using 
more and more management practices in our basin to provide for 
cleaner water allowing the topsoil to be left on the field. And 
that is very easy to do with new technology.
    Mr. Romero-Barcelo. I wasn't aware of that. The other thing 
is, I know that the drip irrigation was, I think, basically 
developed in Israel where they turned the desert into a 
farmlands and very, very profitable farmlands. That is why I 
was just asking whether that was being used here. Your answer 
is that yes, it is being used?
    Mr. Limbaugh. Yes, it is.
    Mr. Romero-Barcelo. But it is not economically feasible for 
some farmers?
    Mr. Limbaugh. It is not wide-spread, no.
    Mr. Romero-Barcelo. Mr. Maynard, I want to make sure that I 
know what your position is regarding the bill with all of the 
jurisdiction of the Endangered Species Act under the Fish and 
Wildlife Service instead of where it is now. Are you in favor 
of that or do you have your doubts about that? And if you do 
have doubts, why is it that you are in favor?
    Mr. Maynard. Thank you, Congressman Romero-Barcelo. I don't 
have a position on the bill. I think it has merit. There are a 
lot of issues that need to be addressed. And to make it work, 
if we are going to get to a truly consolidated, more cost-
effective ESA approach that is going to be by consolidating 
functions in one department, in particular this essential fish 
habitat program needs to be.
    Mr. Romero-Barcelo. But you mentioned some of the 
jurisdiction that the management services still have, which 
they still have under this bill. Is that correct?
    Mr. Maynard. Yes. The basic point would be, you'd take away 
NMFS's ESA consultation and other responsibilities and they 
would be still be there at the table with this essential fish 
habitat consultation in the same areas on the same activities.
    Mr. Romero-Barcelo. If they were going to be passed over 
the Fish and Wildlife Service, how do you suggest that that 
problem be solved? Does it not have a solution?
    Mr. Maynard. Well, in terms of the essential fish habitat 
responsibilities in the Magnuson-Stevens Act, you could look 
at, basically, bringing that program in to where it focused 
more on offshore marine habitat and consultation regarding 
that, rather than activities that are hundreds of miles inland 
that do not concern commercial fishing.
    If ESA consultation covers those activities, an exclusion, 
to avoid redundancy, that would avoid duplication from the EFH 
program might work. You might treat it that way. If someone was 
doing the ESA, the consultation, there is nothing more you need 
to do for this Magnuson-Stevens Act.
    Mr. Romero-Barcelo. So where would you suggest certain 
changes to this bill in order to prevent what you are just 
indicating?
    Mr. Maynard. I think that sort of thing should be 
considered. I don't have specific suggestions today.
    Mr. Romero-Barcelo. Could you come up with the some 
specific suggestions later on?
    Mr. Maynard. I could sure try.
    Mr. Romero-Barcelo. All right. I would ask how much of a 
timeframe would you like to come up with some kind of a 
suggestion?
    Mr. Maynard. Give me a couple of weeks at least.
    Mr. Romero-Barcelo. Fine. A month is all right too. Thank 
you very much.
    [The information referred to follows:]
------------
DRAFT NOTIFICATION OF H.R. 4335, A BILL TO TRANSFER TO THE 
SECRETARY OF THE INTERIOR THE FUNCTIONS OF THE SECRETARY OF 
COMMERCE AND THE NATIONAL MARINE FISHERIES SERVICE UNDER THE 
ENDANGERED SPECIES ACT OF 1973

    Insert the following after SEC. 2:

        SEC. 3 ENDANGERED SPECIES ACT PREEMPTION WHERE APPLICABLE OF 
        MAGNUSON-STEVENS FISHERY CONSERVATION AND MANAGEMENT ACT 
        ESSENTIAL FISH HABITAT PROVISIONS
    (a) Any essential fish habitat designated for a fish species 
pursuant to the Magnuson-Stevens Fishery Conservation and Management 
Act (16 U.S.C. 1801 et seq.) shall not include any critical habitat 
designated for the same species pursuant to the Endangered Species Act 
of 1973 (16 U.S.C. 1531 et seq.).
    (b) Any action for which a formal or informal consultation or 
conference is completed pursuant to section 7(a) of the Endangered 
Species Act of 1973 (16 U.S 1536(a)) covering a fish species included 
in a fishery management plan pursuant to the Magnuson-Stevens Fishery 
Conservation and Management Act (16 U.S.C. 1801 et seq.) shall not be 
subject to any essential fish habitat consultation, comment, 
coordination, or recommendation regarding the same species pursuant to 
the Magnuson-Stevens Fishery Conservation and Management Act
    (c) For purposes of this section, the terms ``action'' and 
``species,'' shall have the same meaning as in the Endangered Species 
Act of 1973.

    Mr. Pombo. Mr. Crapo?
    Mr. Crapo. Thank you, Mr. Chairman. Mr. Maynard, I will 
stick with you for a minute. I was interested in your testimony 
about the essential fish habitat. And perhaps you said this, 
but I am not quite clear on it. Is the function of the 
essential fish habitat program, which is under the Magnuson-
Stevens Act. Correct?
    Mr. Maynard. That is correct.
    Mr. Crapo. Is that duplicative of the Endangered Species 
Act studies or programs, or is it supplemental? See what I am 
asking?
    Mr. Maynard. As currently proposed, and in the implementing 
regulations, it appears to me to be duplicative and kind of an 
add-on to such procedures as ESA's Section 7 consultation for 
activities that might affect salmon in the Snake River Basin, 
for instance. That you would be doing your ESA consultation, 
and then you would have to do additional documentation and 
procedures to get through this EFH consultation process, a 
document called an EFH assessment, which is similar to 
biological assessments that has additional requirements. So it 
is duplicative and adds to.
    Mr. Crapo. So in terms of trying to address the question 
you've raised, it seems to me there are two obvious approaches. 
One would be to eliminate the EFH requirements, or the other 
would be to consolidate the EFH requirements under the 
Endangered Species Act and have that all be managed by one 
entity. Am I correct in perceiving it that way? Are those two 
obvious approaches? And if so, do you have a preference between 
either of those approaches?
    Mr. Maynard. I think those are each an option. Just 
thinking today, I do not think that giving an essential fish 
habitat function to the Fish and Wildlife Service--a Magnuson-
Stevens Act responsibility to the Fish and Wildlife Service 
makes a lot of sense.
    Mr. Crapo. You don't think that does?
    Mr. Maynard. It doesn't strike me as a logical division of 
labor or authority.
    Mr. Crapo. So that should stay with the National Marine 
Fisheries Service, if it stays?
    Mr. Maynard. I think so. And therefore, it would make more 
sense to make sure that the NMFS Magnuson-Stevens Act, EFH 
responsibility doesn't overlap with inland terrestrial ESA 
responsibilities. But if it stops at the coast, it should be 
workable. If it is going to extend farther than that, then 
there ought to be an ef-

fort at just avoiding duplication. That if you do something 
with Fish and Wildlife Service under the ESA, that is good 
enough.
    Mr. Crapo. All right. Thank you.
    Mr. Limbaugh, again, you may have covered this in your 
testimony, but I want to understand it correctly. Could you 
describe to me just geographically where the water users that 
you represent operate?
    Mr. Limbaugh. OK. Mr. Crapo, in the Payette River Valley, 
we go from McCall on down to the mouth of the Payette and the 
Snake River. The majority of the intensive farm efforts are in 
the lower valley. But we also represent irrigators up on the 
north fork and the south fork of the Payette River System. So 
they are mostly livestock raisers and hay producers.
    Mr. Crapo. Now, are you aware of any studies--I know there 
have been some studies that have occurred over time recently 
about what the impact of taking another million acre-feet of 
water for water augmentation would do to irrigation, for 
example. Are you aware of any recent studies that would 
indicate what kind of impact that would have in the area you 
would represent here today?
    Mr. Limbaugh. Currently, the only study that we have been 
looking at--and, of course, it is such a absurd notion, that 
the only study that has been done on this is the United States 
Bureau of Reclamation that they are continuing to complete now.
    And the updates that we have had show that Cascade 
Reservoir, which is a water quality limited reservoir, and also 
provides about, oh, I would say, about 300,000 acre-feet of 
contracted storage space to our lower valleys, basically, would 
be disseminated every year because of that million acre-feet 
drop.
    Plus the fact that by reducing the number of contracted 
storage space in that reservoir, it would reduce the amount of 
water available for the existing farmers. And that would result 
in some fallowing or drying up of farm ground in our valleys.
    Mr. Crapo. So do I understand you correctly that you would 
expect at least 300,000 acre-feet of water to be diverted to 
irrigation purposes?
    Mr. Limbaugh. At least for that particular use, yes. And 
the reason why you look at the numbers and the reason why the 
Bureau is setting such huge numbers is because of reliability. 
If they are going to provide a million acre-feet every year, 
then they have to, you know, basically, get quite a little bit 
more water secured than that amount of storage and natural 
flows in order to provide that amount of water on an annual 
basis.
    Mr. Crapo. I see my time is up. If I could just ask one 
more quick question, Mr. Chairman? Do you know of any 
correlation in terms of how many acres of ground has to leave 
production for each acre-foot of water that is lost in your 
region?
    Mr. Limbaugh. You know, if you are talking storage space, 
like I say, we have storage space that protects us during dry 
years and so, you know, we don't use all of our storage space 
every year because of that. But we have used all of it in 
recent history. In 1994 and 1992, we have used all of our 
storage space. But basically, in order to provide, let's say, 
300,000 acre-feet of water from the Payette basin, you would 
probably be looking at between 100,000 and 120,000 acres of 
fallowed ground, in my opinion.
    Mr. Crapo. All right. Thank you.
    Mr. Pombo. Mr. Doeringsfeld, how many tons of products do 
you ship in and out of the Port of Lewiston every year?
    Mr. Doeringsfeld. Out of the Port of Lewiston we move 
approximately 800,000 tons of wheat barley and approximately 
18,000 TEUs, or containers, out of the port.
    Mr. Pombo. How many containers?
    Mr. Doeringsfeld. Containers--it is not measured by 
tonnage. It is measured by compound measures, TEUs, 20-foot 
equivalent units. And we move approximately 18,000 containers 
out of the port.
    Mr. Pombo. And that is shipping out. What about coming in?
    Mr. Doeringsfeld. Coming in--out of the Port of Lewiston, 
mainly, what comes up the river visits the Port of Whitman 
County, which is a port within about a 5-mile radius of the 
Port of Lewiston. So what we have inbound from the Port of 
Lewiston is really almost non-existent.
    For instance, if you look at the tonnage of wheat and 
barley that moved out of the port, and then you looked at those 
containers, that represents about a $12.5 million 
transportation savings that goes back to the--mainly to the 
family farmers within that area.
    Mr. Pombo. And the 18,000 containers, those are the ocean 
shipping containers that are used.
    Mr. Doeringsfeld. That is correct.
    Mr. Pombo. Thank you.
    Ms. James, you talked about, in your testimony, the fish 
being scared off their nests when the floatboats go by. How do 
you know?
    Ms. James. How do we know that the floatboats are the 
reason that the fish move?
    Mr. Pombo. Well, do you actually see the fish scared away?
    Ms. James. Well, you see the fish move. But if you watch 
the fish from the road when there aren't any boats, they move 
around too. So no one knows that they are moving because a 
floatboat went by. That is not possible to prove.
    Mr. Pombo. I know, and that is kind of why I am asking.
    Ms. James. But that is what the restrictions are based on, 
the fact that if a floatboat goes by and the fish moves, it is 
assumed that we caused that fish to move. And in the old days 
when we had a ``take'' statement from NMFS, it was OK as long 
as the fish returned within 20 minutes. But now that we don't 
have any ``take'' statement, it isn't OK if the fish moves.
    Mr. Pombo. Do you have somebody standing there watching?
    Ms. James. Oh, yes. The Forest Service is there all the 
time.
    Mr. Pombo. Every time you send a boat out, somebody is 
standing there watching?
    Ms. James. Supposedly. They feel compelled to watch every 
redd when there is a boat on the water.
    Mr. Pombo. Are you serious?
    Ms. James. Whether it is an outfitter or a private citizen.
    Mr. Pombo. We really have somebody there watching as you go 
by?
    Ms. James. Yes. And not only that, we have to pay--we 
outfitters have to pay the Idaho Department of Fish and Game to 
watch also. Because we aren't legally allowed to pay the Forest 
Service, which is what they wanted. It is now written in the 
permits. And NMFS insists--and NMFS is there too sometimes--
that we watch to make sure that these fish are not disturbed.
    Mr. Pombo. You said that you have an 8-mile----
    Ms. James. That is all we float, 8 miles.
    Mr. Pombo. An 8-mile run.
    Ms. James. Yeah.
    Mr. Pombo. And there is somebody who stands at every 
point----
    Ms. James. At every redd.
    Mr. Pombo. At every redd?
    Ms. James. Well, you see, most of the redds are in this 
half-mile section that we portage.
    Mr. Pombo. What if there is one outside of that half-mile--
--
    Ms. James. Well, then they take special notice of that one. 
Because if the fish moves when we float, then they close the 
river. That is what happened last year, because that is not 
allowed. Fish aren't allowed to move because of floatboats.
    Mr. Pombo. And does anybody stand there when the boats 
aren't going by?
    Ms. James. I don't think so. But we also are paying for a 
single-wing aircraft to fly up the river, the whole 30-mile 
stretch, once a week from August 1st to August 15th and twice a 
week after August 15th, to look for redds that might not have 
been spotted by people standing on the banks. And the 
outfitters have to pay for that too.
    Mr. Pombo. Can they see them from an airplane----
    Ms. James. They can see them better from an airplane. And 
the reason they decided this is because last year they did 
their annual air survey in September, which they always do, to 
count the number of redds in the river. And they discovered 
they'd missed one. So now the Forest Service and/or NMFS has 
decided that the only way to be sure we have got every redd is 
to have twice a week aircraft spotting.
    Mr. Pombo. I am going to have to get out there to see one 
of these next time I come.
    I know my time is almost up. I wanted to ask Mr. Kerr a 
question.
    In your prepared testimony you talk about February 1997 the 
Valley County Commission met with representatives of the U.S. 
Forest Service, Federal Highway Administration, National Marine 
Fisheries, U.S. Fish and Wildlife Service, Idaho Department of 
Lands, the timber industry, and private landowners.
    You go on to say that you put together a plan for the 
rebuilding of this road and maintenance of this road. You state 
that because of the inaction of the National Marine Fisheries 
Service between February 1997 to now you have not done 
anything.
    Am I to understand from this testimony that everyone else 
who was a party to this had agreed to it?
    Mr. Kerr. When we were at the meeting, it was--all of them 
were there. It was facilitated by the United States Forest 
Service. There was a chart made up of schedules, of deadlines 
that were to be met by each agency, and everything. I am not 
sure if every agency met their deadlines and schedules.
    But I do know that a primary reason that they did not was 
everything that they submitted that went to NMFS was either 
ignored--the only way we got back to a meeting with NMFS was 
the Federal Highways and Forest Service forced a meeting that I 
mentioned in Boise that forced them back to the table to sit 
down and talk about this. And this was almost a year and a half 
later.
    Mr. Pombo. So the only thing stopping you from doing the 
work on this particular road at this point is NMFS?
    Mr. Kerr. Basically, yes.
    Mr. Pombo. All right. Thank you.
    Mr. Kerr. It is so difficult to get an answer out of them. 
When you do answer them, then they come back with something 
else. And it just seems like a delaying tactic. I am not sure 
whether if it was all under the U.S. Fish and Wildlife if the 
results would be any different, but we feel that it would be 
quicker.
    Mr. Pombo. I don't know if it would be any different or 
not. It is just that we do have oversight responsibility in a 
lot of the things that--a lot of the problems that we end up 
dealing with are problems within the bureaucracy. And if this 
is a particular problem within the bureaucracy, it is something 
apparently Congresswoman Chenoweth is aware of. And it is 
something, I think, that bears further study to find out what 
exactly is going on. But thank you.
    I want to thank this panel. I am going to excuse you. But I 
will say there may be further questions that the Committee has. 
Those will be submitted to you in writing. You can respond in 
writing in a timely fashion. Your response will be included in 
the hearing record. Thank you.
    [The information referred to may be found at end of 
hearing.]
    Mr. Pombo. I would like to call up the third panel: Mr. Tom 
Stuart, Mr. Mark Pollot, Mr. Jerry Klemm, and Mr. Dell 
Raybould.
    Thank you for joining us. I would like to welcome this 
panel here today. I believe you all heard the instructions in 
terms of the time limit. Your entire written testimonies will 
also be included in the record. I appreciate you all being here 
today.
    Mr. Stuart, you may begin.

 STATEMENT OF TOM STUART, BOARD PRESIDENT, IDAHO RIVERS UNITED

    Mr. Stuart. Mr. Chairman, thank you very much for coming to 
our beautiful State, and I hope you enjoy your visit.
    Mr. Pombo. I always enjoy it when I come here.
    Mr. Stuart. My name is Tom Stuart. I am the Board President 
of Idaho Rivers United. I also own a business in the Stanley 
Basin on the Salmon River. I think it is remarkable that from a 
town of 69 people, we have two representatives here today, with 
my friend Olivia James. I really appreciate that. I had no idea 
we had such influence on this Committee. It is remarkable.
    Today, I speak with the same sort of frustration I have 
heard from many of the other speakers. I also speak on behalf 
of a significant portion of the conservation community in 
Idaho, about 2,000 members of Idaho Rivers United, and another 
5,000 members and club members of the Idaho Wildlife 
Federation.
    Both of our organizations, I should point out to you, along 
with national organizations like Trout Unlimited, the National 
Wildlife Federation, America Rivers and others, have already 
endorsed the retirement of four unnecessary dams on the lower 
Snake River to restore Idaho salmon. We believe that the 
science is now clear.
    We believe these dams produce a small amount of what is 
surplus power. We believe that these dams also provide no flood 
control since they are run-of-the-river projects. We believe 
that there are alternatives to move commerce from ports in the 
Lewiston and Clarkston region that should be exercised.
    Now, H.R. 4335 is certainly about the ESA and the roles of 
the NMFS and the Fish and Wildlife Service. But I think we must 
all be honest with ourselves today. We realize that the 
underlying issue is really the salmon and steelhead crisis in 
the Northwest. And the central issue in that crisis is whether 
or not to mothball four unnecessary dams on the lower Snake 
River between Lewiston and Pasco.
    First, let me discuss briefly the value of salmon 
restoration to our region. It is a huge economic resource for 
us that I believe is your responsibility as well as mine. As of 
1988, the value of sport and commercial salmon fishing in this 
region accounted for 62,000 jobs, and a $1.2 billion annual 
contribution to the region's economy.
    In Idaho, we don't get a lot of that, but with our remnant 
steelhead fishery we still have about $90 million worth of 
contribution annually and 2,700 jobs. We, in the fishing 
community in Idaho, the business community, have already 
suffered a great deal with the loss of chinook fishing. We have 
had no general chinook salmon fishing season in Idaho since 
1978, with an estimated loss of about 1,800 jobs and about $60 
million per year the result.
    In a recent Idaho Statesman article about the little town 
of Salmon, Idaho, one gentleman was quoted as saying, ``We lost 
our thriving salmon economy when Lower Granite Dam was built in 
1975, and we lose $1 million a week.''
    I want to take a moment--I am sorry the Mr. Romero-Barcelo 
has left--but I want to take a moment to thank the Minority 
party for the invitation to represent this huge sector of the 
region's economy. We realize that the economic value of the 
resource is huge. And I know that both the Majority and 
Minority sides have a crucial interest in this. The family wage 
jobs in fishery-related businesses are your responsibility, and 
I urge you to weigh them heavily.
    In your letter of invitation the question was posed whether 
NMFS is implementing the ESA consistent with the Act. And the 
answer is, frankly, in my view, that the NMFS has not yet been 
allowed to.
    I would criticize the NMFS in several areas; some have 
already been mentioned. I echo Governor Batt's criticism that 
the NMFS has not adequately weighed Idaho's recommendation to 
``spread the risk'' as was strongly supported by Congressman 
Crapo in 1998 and in previous years; we have not been able to 
influence that process to the degree that I think is 
appropriate.
    Further, the NMFS has a demonstrated institutional bias 
toward barging and trucking fish that I believe has 
significantly compromised their objectivity in future 
decisions. Any reasonable person might ask whether the NMFS can 
be truly objective. But there is more that must be said here.
    I want to observe also, that there is no other single issue 
in the Northwest that is so contentious and so polarized as 
this one. I have a friend in Stanley Basin that remarked to me 
that no agency, NMFS or the Wildlife Service, can wade through 
a swamp so full of alligators and expect to arrive on the other 
side without a few teeth marks. We must acknowledge up front 
that no agency that would potentially remove dams to save 
salmon is likely to escape the wrath of those who oppose salmon 
restoration or oppose that solution.
    Now, a larger question, I think, comes to the forefront, 
and it is not which agency should be in charge, but why the 
laws compelling the United States to save salmon, the Columbia 
Basin salmon, have not yet been upheld. I would hope this 
Committee would encourage new initiatives in that direction 
with new commitment.
    It has been the goal of some Members of the Congress to 
weaken the content of the ESA or to disable its implementation. 
This may well be the goal of H.R. 4335 despite any perceived 
merits of transferring the ESA authority from one agency to 
another.
    Unfortunately, the legislation is proposed by some whose 
credibility may be compromised or whose effectiveness in this 
issue may be compromised because they have been perhaps better 
known for ridicule of the ESA or of endangered species rather 
than for their concern about salmon recovery.
    We all make statements we would like to take back. But with 
all due apologies, we can't speak effectively about salmon 
processes after we announce that Idaho salmon are not 
endangered because we can buy them at the grocery store.
    The science is now conclusive. PATH process scientists now 
agree that retiring the four dams on the lower Snake will 
recover the fish with 99 to 100 percent certainty. Now, nothing 
would please me more than to have Secretary Babbitt in charge 
of removing these dams on the lower Snake. But I can't believe 
that is what is really being offered by this legislation.
    The probable goal is to strip authority for salmon recovery 
from the NMFS, transfer it to the Fish and Wildlife Service, 
and then disable the Wildlife Service in the appropriations 
process. I can't see the Nation's promises being kept by this 
legislation.
    I think it is more important to keep the regional 
processes, which are on track now, at least toward a solution, 
whatever that is, in place to make the 1999 decisions that are 
now imminent. At another time, perhaps 2 years ago, I would 
have supported this legislation.
    I believe at this time with the ongoing processes well 
under way and a lot of water under the bridge, and with no 
further delay tolerable for the fish, that I cannot support 
H.R. 4335.
    Whatever one's opinion of NMFS's past performance, I think 
the 1999 decision should proceed without disruption. I think we 
are going to hear a lot about who should be in charge. This is 
the im-

portant question, but it doesn't get at the root cause of our 
continued collective inability to solve the salmon dilemma.
    I think our inability stems to date from a focus on process 
and justifying the status quo and justifying the fact that we 
simply built a few too many dams, rather than on leadership and 
a commitment to finding solutions and getting on with the 
mitigation that is appropriate.
    We don't need a solution to process. We need a solution to 
salmon decline. As long as we are more concerned about process 
than solutions, I am convinced that we will fail. We can 
restore salmon fisheries. We can reduce the demands or 
eliminate the demands on Idaho water. We can save $90 to $100 
million of taxpayer and ratepayer money by mothballing the four 
dams on the lower Snake.
    And I would urge this Committee to let NMFS press ahead 
with their work and be ready to stand by with ready and quick 
action for appropriations and authorizations, and focus on the 
mitigation that is going to be required for the good folks of 
the Port of Lewiston and the others who may face economic 
readjustments from the need to rescue jobs in our salmon and 
steelhead fishing sectors.
    Thank you very much. I am sorry I ran just a bit over time.
    Mr. Pombo. Thank you.
    [The prepared statement of Mr. Stuart may be found at end 
of hearing.]

  STATEMENT OF MARK POLLOT, FOUNDATION FOR CONSTITUTIONAL LAW

    Mr. Pollot. Thank you, Mr. Chairman, members of the 
Committee. Before I start my remarks, I would like to request 
the indulgence of the Committee. I just recently got out of the 
hospital, so I am behind on my written testimony. I would like 
the consent of the Committee to submit after today's hearing.
    I have to respectfully disagree with Mr. Stuart. I believe, 
of course, that the steelhead and the salmon are the context in 
which this hearing has arisen. However, the real issue here is, 
in fact, ensuring a valid and viable decisionmaking process and 
also some certainty among the people who are affected by 
endangered species regulation by making sure that there is one 
outfit that they go to, one set of regulations that they must 
examine to know what it is they have to do and how it is they 
have to go about doing it.
    And some of the members of the Committee know something of 
my background. I started my legal career at the Justice 
Department in Washington and spent the better part of my time 
there in what is now called the Environment and Natural 
Resources Division. Originally, it was called the Land and 
Natural Resources Division, the name having been changed to 
protect the innocent, I guess.
    In the process of being there, I had to work with agencies 
like NMFS and like the U.S. Fish and Wildlife Service and the 
Forest Service and the BLM and got to know how they operated 
from the inside as well as how they operated from the outside. 
And while most of the folks that I had to deal with were at 
least well-intentioned and trying to do the best job possible, 
I certainly ran into more than my share of people there whose 
grade school report cards must have read, ``Does not work and 
play well with others.''
    In 1993, I published a book. And in the process of doing 
the research for that book, I found out that in that particular 
year alone, the year in which I wrote the book, there were 
63,000 pages in the Federal Register in that year alone of 
regulations, proposed regulations, amendments, and proposed 
amendments to regulations.
    As of last year, I believe last year there was somewhere in 
the neighborhood of 93,000 pages. That does not include, of 
course, the statutory language itself, the regulatory guidance 
letters, the internal guidance that is the judicial decisions 
and so forth that pour out of agencies and legislative bodies 
both at the Federal and the state level.
    The idea that one may be presumed to know the law in the 
face of this onslaught is absurd. So the idea that one should 
have a multitude of agencies all addressing overlapping areas 
of jurisdiction with regard to species management is, one, I 
think it is about time that it has been examined and that 
legislation has been proposed to put it all in one place, one-
stop shopping as it were, so that one is not now faced with 
even competing or even conflicting regulations, assuming one 
can find them in the first place.
    This is not about really who would be the better manager of 
the Fish and Wildlife Service. I am no more happy with how the 
Fish and Wildlife Service than with how NMFS does it. But I do 
believe it is a move in the right direction to put it one place 
and to at least increase the chances of both quality 
decisionmaking and accountability.
    However, having said that, I must also point out that as 
Mr. Maynard, for example, said, there are areas out there that 
remain--in the Magnuson-Stevens Act, there is only one of these 
areas that remains hidden. For example, the Bureau of Land 
Management has its own, what you might call, personal 
endangered species program. They refer to it as species of 
special concern.
    But it allows them, without even the limited safeguards of 
the Endangered Species Act, undertakes species regulation and 
to control the activities not only public but on private land 
adjacent to but surrounded by public land just as NMFS and Fish 
and Wildlife Service presently do under the Section 7 
consultation requirement.
    The bottom line of all of this is that I can certainly 
point to any number of absurdities, absurd decisions that have 
come out there. But the bottom line also is that we deal with 
two kinds of laws, whether it is endangered species regulation 
or any other kind of regulation, that is substantive law and 
procedural law.
    Substantive law, of course, for example, is the part in the 
ESA that says, ``Thou shalt not take an endangered species 
without obtaining an incidental take permit.'' However, no 
matter how good the substantive law is--and I see my time is up 
here, so I will wrap up as quickly as possible.
    No matter how good the substantive law is, if the 
procedural laws are not addressed, the substantive law might as 
well not even be there.
    We are all familiar with the fact that it is not only State 
and Federal agencies but local agencies who will take the works 
of legislative bodies, provide their own spin and gloss to 
them, and essentially rewrite that legislation. And the way you 
do that is through administrative processes.
    And the way in which that rewrite of regulation is 
maintained is that at the judicial review level, courts have 
abdicated their responsibility to interpret the laws as passed 
by the Congress and defer to agency determinations as to what 
that law means; meaning, basically, is the law is whatever the 
agency says that it is unless the judge or judges that are 
involved so find that interpretation so distasteful that they 
are willing to override that law.
    So I believe that this is a good first step and necessary 
first step. But to make this work properly, you must first seek 
out those other areas of overlapping regulation that are more 
or less hidden. And second, must seek to amend such laws as the 
Administrative Procedure Act to require courts to give 
meaningful scrutiny to agency determinations.
    And also, I might suggest that you look at the possibility 
of an analogy California has called the Permits Streamlining 
Act that places meaningful time limits on agency actions such 
that if they don't act in a meaningful and responsible fashion, 
they lose the opportunity to act and the regulated public is 
allowed to proceed.
    Thank you.
    Mr. Pombo. Thank you.
    [The prepared statemenmt of Mr. Pollot may be found at end 
of hearing.]

  STATEMENT OF JERRY KLEMM, PRESIDENT, PULP AND PAPERWORKERS 
                        RESOURCE COUNCIL

    Mr. Klemm. Mr. Chairman, members of the Committee, and 
ladies and gentlemen in the audience, before I begin my 
testimony, I would like to say that I am here representing the 
United Paperworkers International Union Local 712 in Lewiston, 
Idaho and the Pulp and Paperworkers Resource Council; it is a 
nationwide organization with over 400,000 members. I am 
currently the regional director for the 10-State Rocky Mountain 
region.
    I am concerned with some of the comments that I have heard 
today on mitigation. Labor is not going to stand by and watch 
our jobs being flushed down the river. We are going to stand up 
tall and be heard, and you are going to hear more of us. We are 
not going to be replaced by minimum wage jobs. I am alarmed at 
the building power of small regulatory agencies to circumvent 
and reinvent the law of the land to meet very narrow goals 
established in far less than perfect legislation. What I 
believe are united consequences of those narrow goals that are 
not mitigated by that same legislation.
    I do not believe, for example, that the authors of the 
Endangered Species Act knew that the National Marine Fisheries 
Service would use the Act to circumvent individual and state 
water rights in pursuit of their aims. This is especially 
troubling when dealing with issues like flow augmentation where 
the working hypothesis is unworkable.
    NMFS believes massive flow augmentation will help fish. 
Idaho Fish and Game Director Steve Mealey says, ``Flow 
augmentation will not recover the fish and it places large 
burdens on vital state interests.'' While I don't like Mr. 
Mealey's solution, which is dam removal, I do agree that flow 
augmentation is not the answer.
    But flow augmentation is a perfect vehicle for NMFS to use 
to take water rights in an attempt to wrest control of water in 
the West to meet their own ends away from states and 
individuals and use that water.
    I am not suggesting there is a malicious conspiracy at work 
here to take western water. I am saying that a small regulatory 
agency with veto power of Federal, State, and private land 
management has interpreted the law in such a way that the net 
result is the taking of Western water without due process.
    While NMFS has been busily engaged following its narrow 
path, her sister agency in the Department of Interior, the U.S. 
Fish and Wildlife Service, is engaged in its own efforts to 
meet the same ends, but not always by the same means. How 
painful it must be for the leadership in these two agencies, 
both charged with implementing and enforcing the ESA, to have 
to work around, over, and through each other and everyone else 
to implement the Act. Their experience and training are often 
in conflict. Their political bosses answer to different 
drummers for different reasons. Their histories and clientele 
are so different. Their veto power and willingness to use that 
power shaped by their experience.
    I absolutely support H.R. 4335 to consolidate those 
agencies that hold such power over the rest of us. While more 
sophisticated populations in cities far removed from Lewiston 
may think this is much ado about nothing, the time will come 
when they will appreciate what you are trying to do here.
    The first time busy big city mayors go up against Will 
Stelle and the gang, they will realize it was the right thing 
to do after all. Wasn't it Will Stelle who said on 12-15-97, 
``Science will not give us the answers, although many pretend 
otherwise''?
    If not science, who? The answer is, Will Stelle and NMFS, 
unbridled by the democratic process or the principles of 
republican forms of governance. Ridiculous, you say? When NMFS 
and the U.S. Fish and Wildlife Service vote, who may vote them 
down? When they enforce the flawed and often ruinous law, who 
may veto them? To whom are these people accountable?
    The answer, of course, is that you, Mr. Chairman, and your 
colleagues may ultimately veto those agencies. But you cannot 
prevail against an administration so dedicated to sacrificing 
human and community needs.
    You, in good faith, enacted this law to help endangered 
species. You could not know that your intent would so mutate as 
to be unrecognizable today from the legislation enacted so long 
ago. Who could foresee the dueling agencies and cross-purposes? 
Who could predict that the administration would so cynically 
use the law to further their own dark ends over the very 
particular rights of individuals and States?
    Stelle's recent hostile takeover of the issuance of the 4d 
rule for spotted owl in Oregon demonstrates NMFS cannot be 
trusted to work cooperatively in an administration supposedly 
dedicated to collaborations. It is time to muzzle the hounds 
and bring some management to chaos. It is time to either bind 
the two agencies together or make them one. Or if that is not 
possible, limit NMFS's authority to the ocean and U.S. Fish and 
Wildlife Service inland. Make the boundary the coastline.
    I am not a biologist. I am not a professional. I am a 
welder at the mill where I work. I don't pretend to have all of 
the answers. But I do know something about organizing to get 
something done. A prophet said we cannot serve two masters, and 
I believe him.
    In closing, I believe that the laboring people in the State 
of Idaho need what we call certainty. Right now, the way things 
are going we have got no certainty. We end up wondering whether 
our jobs are going to be here today or tomorrow or the next 
day. It has got more gyration than Wall Street did last week. 
And we need to have that leveled out and have something 
available for us in the future for our children and their 
children.
    Also, on behalf of UPIU Local 712, and my employer, The 
Potlatch Corporation, I would like to request that you keep the 
record open for additional testimony.
    Mr. Pombo. The record will be held open for probably about 
2 weeks for additional testimony for the record. Thank you for 
your testimony.
    [The prepared statement of Mr. Klemm may be found at end of 
hearing.]

STATEMENT OF DELL RAYBOULD, CHAIRMAN, COMMITTEE OF NINE, WATER 
                           DISTRICT 1

    Mr. Raybould. Chairman, members of the Committee, it is a 
pleasure for me to be here today to testify on behalf of the 
Committee of Nine. I am chairman of the Committee of Nine. The 
Committee of Nine is an advisory committee to Water District 1. 
It comprises of about 15,000 irrigators in Southern and Eastern 
Idaho that irrigate over 1.2 million acres of agricultural 
farmland. We irrigate out of the Snake River and out of many 
reservoirs, both private and Federal reservoirs that contribute 
to that water system.
    Today I am here to express the concerns of thousands of 
irrigators, and not only irrigators but also industrial water 
users and municipalities that depend on irrigated agriculture 
in Southern and Eastern Idaho.
    We are talking about NMFS today. NMFS has been charged with 
developing a recovery plan for recovering the endangered 
salmon. They have avoided making the tough decisions required 
to protect the salmon. But instead, they shifted from a 
recovery plan to efforts in seeking water for flow 
augmentation.
    We water users are not only concerned about the use of 
water for irrigation, but we are vitally concerned about our 
local economies, the resident fisheries, the beautiful 
recreation areas that have been created over the years by these 
irrigation reservoir systems.
    I am just going to give a quick example. Henry's Lake is a 
private reservoir of which I am a director of that reservoir. 
It is located at the headwaters of the Henry's Fork of the 
Snake River, the leading tributary to the Snake River.
    And over the years, since Palisades Reservoir was 
constructed, there has been ample storage water that we have 
been able to develop water exchanges between reservoirs that 
has allowed us to keep the water levels in these upper 
reservoirs at high levels by exchanges with other reservoirs. 
That has made it very feasible for the fisheries to develop in 
those beautiful streams up there.
    If NMFS takes an additional million acre-feet or the 
million-and-a-half acre-feet they want out of Idaho, it will 
effectively preempt these water exchanges. These small 
reservoirs and and many of our Federal reservoirs will be drawn 
down to the very limit every year, ruining recreation, ruining 
fisheries, and also limiting irrigated agriculture.
    That is the thing that we are most concerned about today, 
is that NMFS and fish and wildlife have tunnel vision. They are 
not looking at the overall effects that some of the decisions 
that they are making will affect all of us. We are all in the 
same boat here in this.
    There has been no willingness of NMFS or other Federal 
agencies to admit that because of conditions beyond the control 
of man that maybe the recovery of salmon to the extent that 
sport fisheries and the Indian tribes want may not be possible. 
Most of this is due to the effects of climatic conditions in 
the Pacific Ocean, in the estuaries where the salmon grow and 
mature.
    I am going to refer to a recent study of the Scripps 
Institution of the Oceanography at San Diego, California, which 
was published this July in the Journal of Science. Where they 
say that the major result of these dramatic ocean temperature 
changes shift salmon populations north to the Gulf of Alaska. 
The most spectacular shifts upward have been the sockeyes and 
the pink salmons.
    Again, these sharp declines have been attributed to the 
changes in the survivorship of young and juvenile salmon in the 
open ocean, irrigation and reservoir storage have had nothing 
to do with it.
    We don't hear NMFS say anything about the pinnipeds, about 
the terns, about all of the predators that have shifted north 
from California because of these climatic changes. None of that 
is being addressed, only taking Idaho water. Is it any wonder 
that many in the water community believe that the Federal 
Government is using the Endangered Species Act as a vehicle to 
control Idaho water?
    As far as H.R. 4335, I talked to one irrigator that is a 
little bit worried about the Federal Government. And he said 
that ``If the cannibals are going to eat you, does it matter 
which pot you are boiled in or which tribe does the cooking?''
    Well, we are a little dubious about Fish and Wildlife. We 
are also dubious about the government agencies that have come 
in here and mandated and commandeered our water. In one 
instance, we have been negotiating for several years on some of 
these endangered species; the snails, for example, and the 
deerflats issue in the Snake River.
    We had a deal worked out on the Deerflats. When it went 
back to Washington, DC, the solicitor back there came back to 
us and said, ``No deal, we are not going to do that. We want 
the water.'' Now, on another occasion, we met with the 
Department of Justice officials in Pocatello. And they informed 
us as irrigators, that we had no right to maintain our bona 
fide contracts that we have with the Federal Government for 
space in the reservoirs. They said we will take it and that is 
that. If you don't like it, sue us.
    We are a little bit upset about the heavy-handed way that 
we have been handled by some of these agencies. And I would 
suggest to you, Committee, in closing, that you take a deep 
look into the funding of these programs. Where is the money 
coming from for NMFS to continue these exploratory experiments 
that they are proposing. Where in the BOR budget are they 
getting money to purchase water or to rent water?
    Where in the Endangered Species Act is authority given for 
NMFS to require BOR to abrogate their bona fide contracts with 
reservoir spaceholders to acquire this 1,427,000 acre-feet of 
water? Where is this coming from?
    I cannot believe that they have that right or authority. I 
can't believe that you as a Congress have given them that 
authority to abrogate contracts that were approved in previous 
legislation.
    There are thousands of jobs here at stake in Idaho. Our tax 
base, our school system is dependent on our economy, of which 
the potato industry in Idaho is a little more than one-third of 
our total economy.
    In recent studies by the BOR as to the economic effects of 
what would happen if this million acre-feet is taken out of 
Idaho, a very cursory--very small attention was given to what 
would happen to our economy if the potato industry were to be 
in demise. And this million acre-feet will do just that.
    There are thousands and thousands and thousands of jobs at 
stake, cities at stake, businesses at stake, and our school 
system at stake. I could go on, and I hope that you have the 
opportunity to read my statement in full. It outlines a lot of 
these things that I have said here.
    We are concerned. We as irrigators have been on the front 
line now on this for the past several years. And we are now 
seeing some of our recreation people and some of our city 
people all at once realizing what is happening to them. So I 
would suggest to you, as a Committee, that you do review these 
things very carefully.
    And I thank you very much for the opportunity of being here 
today representing the water users of the State of Idaho.
    Mr. Pombo. Thank you. Thank you, panel, for your testimony.
    [The prepared statement of Mr. Raybould may be found at end 
of hearing.]
    Mr. Pombo. Mrs. Chenoweth?
    Mrs. Chenoweth. Thank you. Your testimony was very 
impressive. I wanted to ask Mr. Stuart, you are President of 
the Idaho Rivers United. Is that your full-time employment?
    Mr. Stuart. No, ma'am. I am a volunteer. I am a businessman 
in Stanley, Idaho, and a retired military officer.
    Mrs. Chenoweth. Retired military officer?
    Mr. Stuart. Yes, ma'am.
    Mrs. Chenoweth. And you are a businessman in Stanley, 
Idaho?
    Mr. Stuart. Yes.
    Mrs. Chenoweth. What do you do in Stanley?
    Mr. Stuart. I run the Redwood Motel and Cabin Complex in 
Stanley. I have owned and operated it for 20 years.
    Mrs. Chenoweth. I found your testimony very interesting, 
especially in view of the fact that the testimony that we have 
heard from Mr. Klemm and Mr. Raybould about the fact that if we 
see destruction of our system as we know it now very suddenly, 
there would be a sudden loss of jobs.
    What do you think after you listen to Mr. Klemm? What do 
you think these people are going to do?
    Mr. Stuart. Ms. Chenoweth, I am sensitive to that, and I 
appreciate your concern. I must point out, though, that the 
status quo is neither cheap nor benign at this point. We have a 
very costly series of dams on the lower Snake that ratepayers 
and taxpayers pay dearly for. And I am sure you are well aware 
of the costs to maintain and operate and sustain those 
operations. Workers like Mr. Klemm are not going to benefit 
from change, certainly.
    But there is a strong case to be made that the costs far 
outweigh and far exceed the benefits of those particular 
projects.
    Mrs. Chenoweth. You are not answering my question.
    Mr. Stuart. I am sorry. My concern about Mr. Klemm, I share 
his concern. The jobs in Idaho----
    Mrs. Chenoweth. You feel his pain?
    Mr. Stuart. I wouldn't go that far. I share his concern. I 
come from a long union background. I think the jobs in Lewiston 
must be protected. And I would urge this Committee to be the 
spearpoint of that. I believe that changes in the lower Snake 
River to restore a very valuable resource, the fisheries 
resource, are inevitable.
    And I would encourage--I applaud Mr. Klemm for taking a 
strong position. I think the unions and the workers of Lewiston 
must take a strong position to assure that the necessary 
mitigation to adjust for change is in place.
    Mrs. Chenoweth. Thank you, Mr. Stuart. They have taken a 
strong position, and I hope that you will study their strong 
position very much.
    In your testimony you mentioned that we need to devise 
alternatives to moving commerce out of the Port of Lewiston. Do 
you know what those alternatives mean in the form of tens of 
thousands of additional truckloads of commerce going down that 
scenic highway? Are you prepared to support the increase in 
truck traffic and diesel-driven and gasoline-driven truck 
traffic?
    Mr. Stuart. Congresswoman Chenoweth, I think this is a 
wonderful opportunity for leaders like yourself to rebuild the 
road and rail network into Lewiston and Clarkston. I would be 
first in line to support a four-lane highway to Pasco and to 
modify the rail facility in the Port of Lewiston to accommodate 
the 26-car-plus trains to handle the grain commerce and the 
Potlatch traffic that we certainly need to sustain and want to 
sustain out of the Port of Lewiston.
    That is mitigation that is totally appropriate, and I would 
strongly support it.
    Mrs. Chenoweth. Are you familiar with a man by the name of 
John Schuler, a sheep rancher in Montana?
    Mr. Stuart. No, ma'am.
    Mrs. Chenoweth. Who was charged with the taking of one 
endangered species, a charging grizzly bear?
    Mr. Stuart. I am not familiar with that.
    Mrs. Chenoweth. I would be happy to send you the case.
    Mr. Stuart. I would like for you to do that.
    Mrs. Chenoweth. They found him guilty because he defended 
his life by taking one endangered species.
    The salmon has been listed as an endangered species.
    Mr. Stuart. Yes, I know.
    Mrs. Chenoweth. Why aren't we treating salmon and the bear 
and everyone else alike? Why are we giving a special privilege 
to stake the salmon in commercial fishing, gill netting, and 
every other way? Where in the law is there one reference to one 
species having an exemption?
    Now, you have made broad implications and big political 
statements in your testimony. You cite the law for me, sir.
    Mr. Stuart. Ma'am, the basis for protecting our salmon 
fisheries is multifold in at least three----
    Mrs. Chenoweth. I want specifics.
    Mr. Stuart. The Indian Treaties of 1855 provide for the----
    Mrs. Chenoweth. I want the specifics in the Endangered 
Species Act.
    Mr. Stuart. Can you clarify your question for me, please?
    Mrs. Chenoweth. I don't think it could be more clear. Where 
in the Endangered Species Act was any one species given 
exemption from the provisions of the Act and allowed to be 
killed?
    Mr. Stuart. You are correct. There are no provisions, 
except those under section 10, the consultation process.
    Mrs. Chenoweth. Mr. Pollot, I would like to ask you with 
regards to the water that is stored behind the dams, who owns 
that water?
    Mr. Pollot. Well, the physical water is the State of 
Idaho's. The right to use the water is owned by the person, to 
the water rightholder.
    Mrs. Chenoweth. What about the unallocated water? Who owns 
that water?
    Mr. Pollot. Water which is unallocated is owned by the 
State of Idaho.
    Mrs. Chenoweth. Now, you just heard Mr. Dell Raybould talk 
about the fact there have been agencies who have said we are 
going to take the water, even up to 1.427 million acre-feet.
    Mr. Pollot. Well, I have two problems with that, 
Congressman. The first problem, of course, is that one cannot 
take which--under the Federal Constitution one cannot take 
which does not belong to the Federal Government without paying 
for it. The Fifth Amendment's Just Compensation Clause requires 
that if they take something for public use, they have to pay 
for it. And they have to pay just compensation, not mere 
compensation.
    So Congress, for example, could not even set a rate of 
compensation for that. And the courts have made it very, very 
clear that that is their job.
    Second, even under those circumstances, the Federal 
Government may, of course, exercise its power of eminent domain 
under the Fifth Amendment. However, that power belongs to 
Congress. Congress may delegate that to the specific agencies. 
If Congress does not authorize the agency to do that, it cannot 
even take even if it wishes to pay for it.
    And by the way, the storage contracts are themselves 
property separate and independent from the water, separate and 
independent from the water rights, and are just as subject to 
the limitations on the Federal Government of the Fifth 
Amendment as to water and the water rights themselves.
    Congress, actually, in the Endangered Species Act--and I 
can't remember the section numbers right off the top of my 
head--specifically provided that if water was needed for 
endangered species purposes, it could be acquired but it could 
be only be acquired in accordance with State procedures.
    Now, as I read the Endangered Species Act as it currently 
is written, Bureau of Reclamation, Fish and Wildlife Service, 
and NMFS cannot merely go in without complying with State 
procedures and acquire that water.
    Mrs. Chenoweth. Mr. Pollot, let me ask you, are what is now 
commonly being called storage rights by the agencies, are those 
really bona fide water rights?
    Mr. Pollot. Well, I guess the best analogy to use is, if I 
own a parking garage. I own the parking garage.
    Mrs. Chenoweth. Now, wait a minute. Let us say that the 
agencies own the parking garage.
    Mr. Pollot. OK. The agencies own the parking garage. If I 
come to enter into an agreement, whether it is an expressed 
agreement or implied agreement on the back of the ticket, or 
whatever, and I go in and I store my car in that garage. 
Depending on the terms of the contract, nothing--the ownership 
of my car, just like the ownership of the water, does not pass 
to the owner of the garage.
    I have rented that space. I have a contract with that 
person. And as long as I adhere to my contract, I am allowed to 
park my car there. Other than having to pay that person for 
that privilege--and courts would determine the contracts--I 
have no obligation. He has no right over my car.
    Mrs. Chenoweth. Very interesting.
    Mr. Raybould, can you tell me, has the Federal Government 
ever offered any potential compensation for the potential loss 
of that 1.427 million acre-feet as it would impact the nine 
committees that you represent, water committees?
    Mr. Raybould. No. The compensation that the water users 
have received up-to-date for the test program that has been 
underway for the past 4 years--the Idaho legislature authorized 
a test program for 427,000 acre-feet on a willing-seller 
willing-buyer basis, which was negotiated kind of in Washington 
by Senator Craig. But that water has been rented by the Bureau 
of Reclamation.
    At this point in time, there has been no attempt for the 
Federal Government to come in and take over the space in those 
reservoirs. However, the Bureau of Reclamation is presently 
undergoing an economic impact study to determine what the 
economic impacts would be to the economy of the State of Idaho 
and to individuals if the Federal Government did come in and 
take this 1.427 million acre-feet of water.
    There has been no talk up to the present as to any 
compensation. And we are very concerned about the frivolous way 
that the BOR is determining these economic impacts. Because it 
doesn't take into consideration secondary and third impacts and 
tax bases and those kinds of things that would affect the 
livelihoods and the lifestyle of the people here in Idaho.
    So there has been no approach yet saying we will compensate 
you so much for the taking of this space in these reservoirs. 
But so far, they have just said we may do it.
    Mrs. Chenoweth. Thank you, Mr. Raybould.
    And Mr. Chairman, I want to apologize for going over my 
time. I try not to do that, but when I hear testimony from men 
like Jerry Klemm, who have left his job and traveled 400 miles 
to get here, that testimony is serious stuff.
    And when I hear the testimony from Mr. Raybould about the 
impact on an entire region of our State, the southern part, and 
Mr. Klemm representing the northern part, I get pretty 
concerned. Thank you very much for your patience.
    Mr. Pombo. Mr. Romero-Barcelo?
    Mr. Romero-Barcelo. No questions.
    Mr. Pombo. Mr. Crapo?
    Mr. Crapo. Thank you, Mr. Chairman. And I will be brief.
    I wanted to ask Mr. Raybould, I am sorry, but I had to step 
out just toward the end of your testimony. Did you state in 
your testimony whether there had been any studies that indicate 
what the loss of irrigation land would be if an additional 1 
million acre-feet of water were diverted from irrigated 
activity?
    Mr. Raybould. There has been estimates in the ranges 
between 500,000 and 800,000 acres that would be dried up. And, 
of course, that would depend on the particular water year, the 
kind of winter that we have, and the natural flow that we have 
in our streams.
    I think the thing that has been overlooked by the Bureau of 
Reclamation and by many who were talking about this is the loss 
of our high-value crops. We are seeing bankers, every year, 
because of farm conditions and because of their own interests, 
contacting watermasters, contacting irrigation districts every 
spring to find out whether or not there are ample supplies of 
storage water available so that they can lend money to growers 
to plant high-value crops like potatoes, beans, and sugar 
beets.
    And if these water supplies are diminished and we are not 
sure that we have an adequate water supply to carry us 
completely through the season to the maturing of these crops, 
bankers will not loan money to plant those crops. We will be 
reduced to going back to pasture, to dry grazing, those kinds 
of things, that even though there will be acres in production, 
they will not be producing the kind of crops that produce the 
revenue that it takes to maintain our economy. That is the 
seriousness of it.
    Even though we are talking about some acres coming out of 
production, it is the kind of acres that are coming out of 
production that is going to have the devastating effect on our 
economy.
    Mr. Crapo. Thank you very much. And I just wanted to talk 
to Mr. Stuart for just a minute.
    Tom, I read your testimony, and I understand the strong 
concern that you are raising and I appreciate it. In fact, I 
share with you the concern to try and make certain that we 
don't disrupt and cause further delay in resolving the issue 
with regard to salmon recovery.
    I think that as--I made a little note in your testimony 
that I thought that was one of the most critical issues that we 
have to face as we look at this legislation. The question I 
have to you is, I assume that you--well, you said in your 
testimony--you have your own problems with NMFS and some of the 
processes.
    Mr. Stuart. Absolutely.
    Mr. Crapo. Do you believe that it would necessarily require 
the disruption of the process for the transfer of jurisdiction 
to take place?
    Mr. Stuart. No, sir. I don't think it would necessarily 
require the disruption. But that is my concern, along with 
concerns about the appropriations process that I stated also in 
my testimony.
    Mr. Crapo. And that is kind of the issue I wanted to focus 
on, because I would certainly hope that whatever we do--and as 
I said at the outset of this hearing, I am very concerned that 
whether it is this legislation or some other approach that we 
start getting some results and some actions taken so that we 
can resolve this issue in a way that takes into consideration 
human and economic factors and takes into consideration the 
species and finds the path forward that we can get out of here.
    Do you believe that, short of some type of disabling 
activity in the appropriations process or manipulations of the 
appropriations process, that a good faith effort to try to move 
the process forward could be achieved under either agency?
    Mr. Stuart. Congressman Crapo, I would like to see more 
detail on that. I think that despite my criticism of NMFS's 
past performance in many areas--I have detailed a few of 
those--One I forgot was the management of the upper river, 
which my friend, Olivia James, addressed very adequately, is a 
total misdirection of priorities.
    And it is possible that the Fish and Wildlife Service could 
do the job for us. My concern is, of course, the potential 
disruption at this time, very late in the 1999 decision 
process. Of course, the NMFS, in the last couple years, has 
brought many processes to bear, and is heading toward a 
solution, whatever that solution is, with PATH, with economic 
studies, and other vehicles for regional consensus and 
collaborative efforts.
    I am concerned. I don't want to delay what has been 
accomplished to date or restart or reaccomplish any of it. I 
think that would be a grave error. That is my concern.
    I see no substantial gain from legislation, at this point 
in the process, of transferring authority to the Fish and 
Wildlife Service, whereas 2 years ago, I believe there would 
have been a substantive gain. I think the focus of your 
Committee should be to focus on the mitigation issues that Mr. 
Klemm, I think, has so articulately stated. I think that is 
where the focus should be.
    Mr. Crapo. Well, I think you certainly raised a very 
important question about the way it could be introduced into 
the process of what we do. On the other hand, I think we all 
want to be sure that we also introduce into the process the 
decisionmaking regime that will take into consideration the 
important critical factors of this panel and others have 
brought forward.
    Mr. Stuart. Yes.
    Mr. Crapo. Thank you very much.
    Mr. Pombo. Just to continue on with that, Mr. Stuart, it is 
this Committee's responsibility. And as oversight 
responsibility on endangered species, over the past 20 years, 
we have spent billions of dollars on the recovery of salmon. I 
think that you will agree that we have had very little to show 
for that.
    Mr. Stuart. Yes, sir, very little to show for it.
    Mr. Pombo. We have continually become more conflicted. We 
have the result where members of the community are very divided 
on the issue. It is very confrontational. You have people like 
Mr. Klemm and all of his coworkers that are looking at this as 
a loss of jobs, about wiping out an entire industry that he 
represents and all of the men and women that work there.
    And on the other side, we have people who have made their 
living as fishermen off of that industry that have watched that 
be destroyed.
    Mr. Stuart. That is correct.
    Mr. Pombo. In that context, we look at this and we say 
there is something wrong here, and we need to fix that. You 
continually stated people were trying to protect the status 
quo. I don't think there is a single person on the Committee 
that says a status quo is a good idea.
    Mr. Stuart. I am glad to hear that, Mr. Chairman.
    Mr. Pombo. I don't think there is a person that is 
testifying before the Committee thinks that a status quo is a 
good idea. Nobody that I have met yet in the past 2 days have 
come up to me and argued don't do anything, everything is 
working great. Everybody has said we have major problems. And 
we need to fix that.
    Mr. Stuart. Yes.
    Mr. Pombo. It is not constructive to debate, to come in and 
say that, Well, because this Member of Congress, whether you 
were referring to me or someone else, has been critical of the 
Endangered Species Act. That member has lost some kind of 
credibility, I believe was your term. Because in the last few 
minutes I have heard you being critical of the Endangered 
Species Act and of the results of that Endangered Species Act. 
And I would question whether or not that destroys your 
credibility to speak on the issue at this point.
    Mr. Stuart. Well, I hope not. I do share your observation 
that the ESA is definitely an imperfect document. I know that 
the NMFS is obviously an imperfect agency as is the U.S. Fish 
and Wildlife Service. It is an issue of balance.
    I support the goals of the Endangered Species Act, as I am 
sure the members of this Committee do, and I am anxious to see 
them implemented.
    Mr. Pombo. I have been very up front about my position on 
the Endangered Species Act. I believe in the original goals 
with the Endangered Species Act. I believe that what the 
agencies are being asked to implement today is an utter 
disaster both for people and for wildlife.
    I think it has gotten to the point where it is nearly 
impossible to administer this law in any sane fashion. We have 
people who are having their water rights taken away from them 
by Federal agencies, who have no authority whatsoever to do it. 
But they are being told by court decisions somewhere or 
bureaucratic or regulatory decisions somewhere that this is 
what they have to do.
    And it is not what--you know, the environmental community 
has made a lot of this law through lawsuits and court 
decisions. It is not going to be long before the irrigators are 
out there making the same kind of law based upon lawsuits. And 
in the meantime, your salmon are going to disappear, because 
nothing is being done to go after recovery of those salmon.
    Two years ago, we held a hearing in Vancouver, and I asked 
a representative of the fishing industry at that time, if I 
gave you a billion dollars a year to recover the salmon, could 
you do a better job than what is being done? And he said 
absolutely.
    And I think that there are very few people who would look 
at the situation that we are in today and say, If I had a 
billion dollars a year to spend on the recovery of the salmon, 
could I do a better job than what is being done? And I believe 
whether it is people with your point of view or people with 
other points of view, they could do a much better job, or at 
least they feel they could do a better job than what is being 
done.
    It is the responsibility of this Committee to hold 
oversight hearings and to determine how the public's money is 
being spent and whether the public interest is being fulfilled 
by the Federal agencies. And that is not being done, in my 
humble opinion.
    Mr. Stuart. I agree with you, sir. We need to do a better 
job across the board.
    Mr. Pombo. If we are going to solve the problems that we 
have with the Endangered Species Act and come to some kind of 
consensus and solution, it is only going to be done when 
reasonable people sit down and discuss reasonable solutions 
that protect individual rights, which are protected by our 
Constitution, at the same time doing a better job of protecting 
wildlife.
    That has not happened yet. And until we have reasonable 
people sit down and throw away the kind of accusations and the 
kind of demagoguery that has existed up to this point, it is 
never going to happen.
    I thank the panel a great deal for your testimony. I have 
had the opportunity to read all of your testimony that has been 
submitted up to this point. There will be further questions 
that are going to be asked. I do thank all of you for giving us 
your time here today.
    I believe this is an extremely important issue not just for 
Idaho or the Pacific Northwest, but an extremely important 
issue for our entire country. Because this is the battleground, 
this is the front line in this war that we are waging. And 
until we come to some kind of a reasonable solution, this is 
not going to end.
    Thank you very much, and I will excuse the panel.
    I would like to call up the fourth panel: Mr. Will Stelle, 
Mr. Shawn Cantrell, Mr. Jim Little, and Mr. Mitch Sanchotena.
    I would like to welcome our fourth panel here today. You 
have heard me describe the time constraints that we are under. 
I will ask you to stay within the 5 minutes. Your entire 
testimony will be included in the record. If you do not, I will 
have to ask you to wrap up and finish it.
    Mr. Stelle, I allowed you to go way over yesterday, and I 
would appreciate it if you would stay within the 5 minutes. You 
may begin.

  STATEMENT OF WILL STELLE, NATIONAL MARINE FISHERIES SERVICE

    Mr. Stelle. Thank you, Mr. Chairman and members of the 
Committee. Again, I appreciate the opportunity to visit with 
you here in Boise on this important subject. And I will move 
quickly through my comments and watch the light bulbs closely.
    First, some general observations about the salmon setting 
and then some of the basics about our approach to it. First and 
foremost, the most important starting point to this debate is 
to understand that, as a factual matter, salmon and steelhead 
runs are at serious risk of extinction throughout the Pacific 
Northwest. And that is why we are here today.
    Second, equally important, the causes of the salmon problem 
are many and extensive. There are no single causes, and there 
are no single silver bullets. It is not just a question of the 
dams. It is not just a question of overfishing. It is not just 
a question of water. And it is not just a question of ocean 
conditions. It is all of the above. We must understand the 
solution must be comprehensive to be successful.
    Third, the people of the Pacific Northwest are absolutely 
committed to the restoration of our salmon and steelhead runs. 
The distinction of these runs is not an option. Salmon 
restoration and salmon recovery is not a political issue, 
because everybody agrees that it must happen. Nor is it a 
partisan football to be tossed back and forth.
    It is a simply a matter of priorities. And for the people 
here in the Pacific Northwest, it is a priority for all of us. 
The issue understood, fundamentally--the most important issue 
is an issue of habitat. Restoring salmon runs is the same thing 
as protecting the productivity of our rivers and streams, which 
is the same thing as protecting our clean water; clean water, 
healthy streams, strong robust salmon runs.
    Some of the fundamentals of the approach that we are 
bringing to salmon restoration: First, and foremost, a 
commitment to good science to pursue good science, whatever way 
it leads us. It is an absolute rock-hard commitment.
    Second, a commitment to a comprehensive life cycle approach 
to salmonid recovery that takes into account and addresses all 
of the major features of risks to our salmon populations; 
again, no silver bullets.
    Third, fostering partnerships wherever we can with states, 
with localities, with public and the private sector to 
effectuate a more successful restoration effort.
    In the Columbia River management, we have worked very, very 
hard with the States and the tribes and the communities in 
decisions on how to operate the dams and what to do literally 
on a week-by-week basis.
    We have major habitat conservation agreements with 
utilities in the mid-Columbia area and with the operators up 
and down the West Coast. We have worked very hard with the 
State of Oregon, we are doing so with the State of Washington. 
These collaborative partnerships are essential.
    Finally, we must also honor our fiduciary obligations, our 
trust obligations, to the treaty tribes here in the Pacific 
Northwest who have formal treaties with the United States.
    Major challenges to salmon recovery:

          One, the scientific uncertainty. There is no absolute 
        clarity that science will give us, and we must always 
        remember that. There will always be uncertainty. We 
        must make judgments.
          Two, the blame game. There is absolutely the tendency 
        time and again to pass the buck and to point fingers. 
        We will not be successful in salmon recovery unless we 
        grow up, take responsibility, and put our shoulders to 
        the task together.
          Three, jumping to conclusions. We are too prone to 
        jump too quickly to conclusions when the science is not 
        in and when doing so prematurely is not responsible. 
        And I say, in this particular, I was impressed with the 
        discussions yesterday on the whole issue of flow 
        survivals, which came up earlier today. And on that 
        particular matter, I am looking forward to sitting down 
        with some of the witnesses here and yesterday to go 
        through the science and to see whether or not we can 
        come to an agreement on what that science says. It is 
        absolutely our responsibility.
          Four, to build a sustainable ethic to protecting our 
        streams, protecting our clean water, and restoring our 
        salmon runs is vital to a healthy landscape and vital 
        to a healthy economy.
    Mr. Chairman, I will stop there. I look forward to 
questions from you and the other members of the Committee.
    Thank you.
    Mr. Pombo. Thank you.
    Mr. Cantrell?

   STATEMENT OF SHAWN CANTRELL, NORTHWEST REGIONAL DIRECTOR, 
                      FRIENDS OF THE EARTH

    Mr. Cantrell. Thank you.
    My name, for the record, is Shawn Cantrell. I am the 
Regional Director for Friends of the Earth, based in Seattle, 
although I would note that I am originally from the State of 
Idaho. My father still lives here. So it is nice to be back 
home. I was born near Mullen, Idaho, in Mrs. Chenoweth's 
district, I believe.
    And I would also note that my wife's family is from Puerto 
Rico. So it is a nice, interesting mix here this morning, 
unexpected but enjoyable. So thank you for giving me the 
opportunity to speak.
    Mr. Romero-Barcelo. I haven't met anybody from Puerto Rico.
    Mr. Cantrell. My wife is from there, and my in-laws are 
currently back there visiting right now. So it may be wiser 
that I go back with you to enjoy.
    Anyway, to address the subject matter at hand, I would like 
to begin by just highlighting a couple points from my written 
testimony. I won't go through all of them. But suffice it to 
say that my organization, and many others, have very 
significant problems with the National Marine Fisheries Service 
and their implementation or lack of implementation of the 
Endangered Species Act.
    I would note just three basic points. One, that they have 
had 7 years since the first Snake River fish was listed, and 
they have yet to develop a recovery plan. What they have done 
is a series of biological opinions that we feel are wholly 
inadequate for actually restoring the fish. And even those 
inadequate biological opinions have not fully been implemented. 
And I could refer you to the testi-

mony and be happy to answer questions about those specific 
concerns.
    But in the broader context of today's hearing regarding 
H.R. 4335, while we are not a fan of NMFS's actions to-date on 
ESA, we do not think that this bill would actually improve the 
Federal Government's ability to implement the Endangered 
Species Act and actually restore fish runs in the Pacific 
Northwest.
    We are concerned, as Mr. Crapo was having some discussion 
with Mr. Stuart on the last panel, in regards to the delays 
that this bill may produce into the 1999 decision. That would 
be our single biggest concern about this bill.
    If there is a way to have the Fish and Wildlife Service 
take over responsibility and still guarantee that the 1999 
decision was made on time and then implemented in an expedient 
way, that would go along with addressing our concerns about 
this specific bill.
    But I have serious concerns that the bill could actually 
allow that 1999 decision, both the decision itself and then 
implementation to take place in a timely way. So that is 
probably our biggest concern.
    In my written testimony I equate this bill to--it reminds 
me somewhat of the adage rearranging deck chairs on the 
Titanic. Because while the ship is sinking we may put this 
agency in charge or that agency in charge, and then it doesn't 
necessarily help save any of the fish or the passengers on 
board. So that would be our biggest concern about the bill.
    We do recognize the concerns that Mrs. Chenoweth and others 
have expressed on the idea of overlapping management authority. 
We have heard a number of concerns from previous witnesses. And 
we think that there are more direct, more straightforward ways 
of addressing that in a way that would actually streamline the 
system.
    In my testimony, the written testimony, I note in the State 
of Washington, there is a process called JARPA, which is the 
Joint Aquatic Resource Permitting Application, where you have 
four different State agencies that previously had separate 
permitting processes for a single activity. And they have come 
up with a single joint application.
    I don't know if that is an exact transferable piece, but I 
think it points to the type of things that can be done while 
separate agencies maintain their own jurisdiction or 
responsibility that can streamline the process, that is, in 
fact, the intent of the bill. So I would point the Committee to 
look at those sort of examples if that is the intent of the 
legislation.
    As far as how to actually make sure that fish are restored, 
I was very pleased to hear every single member of the Committee 
this morning in your opening comments, say that that is, in 
fact, your goal of seeing the Northwest salmon runs, and the 
fish runs in particular in the Idaho basins coming out of the 
Snake River, see them restored.
    We would offer three specific suggestions. The first, as 
Mr. Stelle says, science does not provide absolute answers, but 
it tends to provide better answers than a pure political 
process. And we are concerned that more often than not politics 
is being substituted for science on many decisions.
    And we would point to a number of documents that highlight 
what can work and what cannot work or at least have more 
indications. Particularly the ISAB, the Independent Science 
Advisory Board, their return to the river, while not a 
blueprint for detailed restoration, I think is the direction I 
would urge the Committee to try to make sure the Federal 
agencies follow.
    Second is to hold the administration accountable, make sure 
that they, in fact, make the 1999 decision, that it does not 
slip, whether the Army Corps or the National Marine Fisheries 
Service or any other agencies find reasons or excuses to 
setting aside the questions for another 3 or 4 or 5 years, or 
even 3 or 4 or 5 more months.
    We will not get a definitive, absolute silver-bullet 
answer, but I think that there will be ample information and 
evidence to make informed decisions in 1999 and would encourage 
this Committee to make sure that the administration sticks with 
that time line.
    Including--I would add that by helping make sure that the 
appropriations process that will be decided in the next month, 
each of you can help influence to make sure that the studies 
for the John Day and Lower Snake River decisions on those 
studies in the appropriation bill are, in fact, approved.
    And the third and final point that I would mention here is 
that on the broader level beyond the specifics of the Snake 
River, if you are hoping to improve the Endangered Species Act 
while me and my organization probably will have a number of 
differences with members of the Committee on a range of issues, 
I would think that on one area that we could probably have 
significant agreement is that the benefit of providing more tax 
incentives for individual landowners on areas where if you find 
an endangered species on your property, instead of shoot, 
shovel, and shut up, that there is an incentive for the 
landowner to actually report that species.
    I think that the vast majority of property owners, whether 
they be farmers or loggers or anybody else who own property 
that has endangered species on it shut up that and that there 
are incentive to want to comply with the law. But right now, 
oftentimes, there is a disincentive to comply.
    We would encourage the Committee to consider ways, 
particularly using tax incentives, to make sure that landowners 
do fully comply and report and encourage that through tax 
incentives.
    With that, I will close and thank the Committee for the 
opportunity to testify. And I will be happy to answer 
questions.
    Mr. Pombo. Thank you.
    [The prepared statement of Mr. Cantrell may be found at end 
of hearing.]

       STATEMENT OF JIM LITTLE, IDAHO CATTLE ASSOCIATION

    Mr. Little. Good afternoon, Mr. Chairman. I am representing 
the Idaho Cattle Association and the National Cattlemen's Beef 
Association. I am an ICA past president, former chairman of the 
NCBA Private Property and Environmental Management Committee, 
and I recently completed a 3-year term as Idaho's obligatory 
member on the Pacific Fisheries Management Council.
    I am a forest grazing permittee with a cattle and horse 
grazing permit in Bear Valley in central Idaho, in Valley 
County, I might add, where there are listed species that are 
administered by both the National Marine Fisheries Service and 
the U.S. Fish and Wildlife Service.
    After glancing at the list of cosponsors for this 
legislation, I can tell it is an attempt to bring much needed 
common sense into the bureaucratic administration of an overly 
repressive Federal law. It is worthwhile to consider whether or 
not one Federal agency could do the job that two are currently 
charged with. With that in mind, I want to share some of my 
personal examples and some hopefully constructive comments on 
the pending legislation.
    In the late 1980's, U.S. Forest Service did an 
environmental assessment on my grazing allotment to address the 
concerns about the spawning grounds for the Snake River spring 
chinook salmon. We cooperated in that assessment and came up 
with a mutually acceptable plan.
    In 1992, the spring chinook was listed by NMFS as 
threatened and through the consultation process with the Forest 
Service, it was decided that an extensive monitoring plan would 
be put into place to determine whether we were achieving the 
desired results. This was done with a strong commitment from 
the Forest Service that if it didn't work, then we would be 
removed from that allotment.
    After 5 years of extensive and extremely expensive 
monitoring and a comprehensive review by the National Riparian 
Service Team, it has been determined that our riparian areas 
are functioning at risk and in an improving trend. The Boise 
National Forest has spent in excess of $100,000 per year in 
monitoring three Bear Valley allotments.
    To pay for this, the Boise Forest has been forced to use 
approximately 70 percent of its entire range betterment budget 
among other funding sources. Supposedly, range betterment funds 
are intended for use across the forest for improvements 
directly related to livestock usage with traditional projects 
like water troughs and fencing.
    The bad news is that NMFS refuses to let the Forest Service 
off the hook for this costly monitoring and because the 
monitoring effort is such a deficit operation dollarwise, I 
feel that our future on that allotment is very limited.
    This past spring, the U.S. Fish and Wildlife Service listed 
the bull trout as an endangered species. And just over a month 
ago, the Forest Service had a collaborative team meeting in 
Bear Valley to look at habitat for both the spring chinook and 
the bull trout. This collaborative team consisted of Forest 
Service officials, grazing permittees, representatives from 
both NMFS and the Fish and Wildlife Service and the interested 
public.
    Some observations: The management scheme or our allotment 
is being cast in stone and inflexibly applied to a neighboring 
allotment with somewhat different conditions. Even though the 
bull trout habitat in the Bear Valley Basin is in good to 
excellent condition overall, there are still some restrictive 
conditions that are being mandated, in my opinion, only to 
satisfy an overarching court decision regarding consultation on 
any new listed species.
    Another bit of information that I learned at this 
collaborative 3-day team meeting is that the Fish and Wildlife 
Service has not been at the table throughout the Governor of 
Idaho's formation of a Bull Trout Action Plan that was designed 
to forego listing of the bull trout. The reason that they give 
is that there was no money to fund participation in that 
extensive effort still going on by the State of Idaho.
    Some thoughts and concerns that I have of the proposed bill 
H.R. 4335:

    It is my opinion that some of the conflicts with people on 
the ground and the administering agencies are personality 
conflicts and arrogance by the administrators of the Endangered 
Species Act. In one area I hear people railing against NMFS and 
in another it is the high-handedness of the Fish and Wildlife 
Service.
    In preparing for this testimony, I contacted the presidents 
of two other northwest cattlemen's associations. And one 
thought this bill was a great idea and they should go for it. 
The other did not want to give Bruce Babbitt any more power of 
any kind. I tried to make the argument that Secretary Babbitt 
would be with us forever, but I made no headway in changing 
that strong opinion.
    Idaho was given two seats on the Pacific Fisheries 
Management Council because of our anadromous fish habitat. At 
the present time, all of our anadromous fish are listed as 
threatened or endangered. So Idaho has virtually no impact 
through the council process in their management. The listing 
has done nothing to help the fish stocks.
    1998 was supposed to, in Bear Valley, be a high fish return 
year. While it was above the low year average, it was still 
nearly 20 percent lower than the last spike 5 years ago. So we 
haven't turned the corner at all yet.
    I am becoming more convinced that we need a change in our 
natural rearing conditions in the ocean before any appreciable 
improvements in returning numbers will take place. When and if 
that happens, everybody will take credit for the improving fish 
numbers.
    Another area that I have some questions about is whether 
U.S. Fish and Wildlife Service has the people and expertise to 
deal with potential listing of ocean species. Pardon the pun, 
but they may be a fish out of water on this complex subject.
    In summary, there are many problems that need to be solved 
in the authorizing language and in the administration of the 
Endangered Species Act. The Forest Service is whipsawed every 
which way by the ESA in general, and they are very uneasy in 
challenging the edicts that come to them from NMFS or the Fish 
and Wildlife Service.
    Neither NMFS or the Fish and Wildlife Service are 
authorities in livestock management, but they assume that role 
rather hastily at times. One thing for certain, the lowly 
forest user is the loser.
    Thank you, Mr. Chairman.
    Mr. Pombo. Thank you.
    [The prepared statement of Mr. Little may be found at end 
of hearing.]

    STATEMENT OF MITCH SANCHOTENA EXECUTIVE DIRECTOR, IDAHO 
                 STEELHEAD AND SALMON UNLIMITED

    Mr. Sanchotena. Thank you, Mr. Chairman, members of the 
panel. I represent Idaho Steelhead and Salmon Unlimited. We are 
primarily a sport fishing organization consisting of about 
2,300 members.
    I will go through this and maybe pick up a little time for 
us. If I understand correctly, our purpose here is to discuss 
the question whether the Fish and Wildlife Service is better 
suited to deal with endangered anadromous salmonids in 
freshwater than NMFS.
    Let me add, NMFS bashing in Idaho is preceded only by 
Clinton. It is easy to say that NMFS is a bigger part of the 
problem than they are the solution. But the Fish and Wildlife 
Service's track record on endangered species actions isn't much 
better, if any.
    It would have been informative to have a witness from the 
U.S. Fish and Wildlife Service share with this Committee and 
the region's stakeholders their views on how to better 
implement the ESA for salmon and steelhead.
    Presently, there is such a hodgepodge of ESA listings 
occurring--some with recovery plans, most without--that one 
hand doesn't know what the other is doing. Continuing a 
piecemeal approach to ESA recovery--even with a singular 
authority--is doomed to fail for most species.
    Singular plans for salmon, steelhead, bull trout, sea 
lions, seals, terns, wolves, eagles, and so on are expensive 
and poorly coordinated. Add to this problem continual 
intimidation and manipulation by politicos and you have a 
formula for economic destruction and species collapse.
    Therefore, it makes both scientific and economic sense to 
have a singular entity in authority. Also, the time has come 
for multispecies recovery plans. A plan should balance man's 
and nature's needs. It should consider marine mammals in the 
estuary at one end of the Columbia Basin and fishing and 
ranching at the other, then make adjustments that provides 
balance to both.
    The legislation you are considering giving authority to a 
single entity has value. It also has risks. Representative 
Chenoweth, given some of your past reputation and comments on 
salmon and steelhead protection, ISSU questions why this 
legislation at this time? We hope you will be able to erase 
some of our skepticism.
    If transferring ESA's authority for steelhead and salmon 
away from NMFS and giving it to the Fish and Wildlife Service 
is Congress's wish, then some explicit assurances must be 
accorded society that the transfer is a resolution to the 
declining salmon and steelhead problem.
    A final version of legislation transferring authority away 
from NMFS should contain explicit language directing the new 
authority to adhere to the 1999 decision time line for a final 
salmon recovery plan. Any delay in this decision point is 
unacceptable.
    All full-time employees and all appropriated funding for 
completion of the 1999 should be transferred as well. It seems 
to many of us it is easier for Congress to manipulate 
Interior's budget than Commerce's and NOAA's budgets. 
Therefore, there must be explicit assurances in any new 
legislation that recovery plan funding will be provided.
    If you get all that done, then I would suggest that we all 
just step out of the way and let this entity do its job.
    I would like to wrap this up by simply pointing out that 
there are already a multitude of laws passed by Congress to 
protect Snake River salmon and steelhead. In the past, these 
fish have provided economies from Alaska to Stanley, Idaho. 
They can quickly do so again if we adhere to past laws and 
promises.
    So obey the laws that Congress has passed and fulfill 
mitigation promises you have made and you probably will not 
have to burden yourselves with trying to come up with new laws. 
Congress' track record of following existing law leaves us with 
little optimism another law on top of the magnitude of salmon 
laws already in place will solve the problem for our fishery or 
for society.
    Thank you very much.
    Mr. Pombo. Thank you.
    [The prepared statement of Mr. Sanchotena may be found at 
end of hearing.]
    Mr. Pombo. Mr. Sanchotena, in your statement, the final 
part here left me a little bit confused. You said, ``Your track 
record of following existing laws leaves us with little 
optimism another law on top with multitude''--what do you mean 
our track record with following existing law?
    Mr. Sanchotena. Mr. Chairman, there are laws ranging from 
the Endangered Species Act to the Lower Snake River 
Compensation Plan that protect Idaho's wild steelhead and 
salmon. They also protect and were designed to provide 
continued supplies of fish for fishing.
    As you know, all of our steelhead and salmon are virtually 
now on the Endangered Species List. And Idaho has not had a 
general statewide salmon season since 1978, 3 years after Lower 
Granite was completed.
    So the track record of implementing the laws that are there 
to provide mitigation to the fishermen. Believe me, I can 
find--I have got some sympathy with others who are now looking 
at having their jobs mitigated. Mitigation has not been very 
effective for Idaho fishermen. I was a fishing guide from 1980 
to 1991 and watched our runs decline dramatically and have 
watched many in the fishing community in Idaho and throughout 
the Pacific Northwest go out of business.
    Mr. Pombo. So who do you blame for not abiding by those 
laws?
    Mr. Sanchotena. Well, I think the burden has to fall on 
Congress there. I think that you are our elected officials to 
ensure that the laws that you pass are administered. I am not 
saying you in the personal sense, but you as the U.S. Congress.
    If you pass a law, and you have no intent of following up 
to assure that the Northwest Power Act is being implemented or 
the Lower Snake River Compensation Plan is being implemented, 
the fault must lie on you. If I am wrong----
    Mr. Pombo. I don't disagree with you so far. You are right. 
I heard a statement earlier that was repeated back to me by a 
reporter that said that--someone had made the statement that 
this was a--that holding hearings like this was a delaying 
tactic--and was trying to change the subject more or less from 
that.
    But it appears to me that our responsibility--and I do 
blame Congress for this. When NMFS doesn't do its job, 
ultimately, it is the--you know, the executive branch's 
responsibility that they are not implementing the laws 
correctly.
    But it is Congress' fault for not holding oversight 
hearings like this and not saying, ``If you don't do your job, 
we are going to take it away from you and give it to somebody 
who will.'' And I am no big fan of the Fish and Wildlife by any 
stretch of the imagination. But at the same time, it is very 
apparent from people in all quarters of this debate that there 
is a problem up here. And NMFS is the one that is responsible 
for implementing this part of the law today. And if they are 
not implementing this part of the law, it is Congress' 
responsibility to find out why. And if they can't do it to give 
it to somebody else to make sure it gets done.
    And I think that that debate started this legislation as 
part of that. And I think the authors of the legislation would 
be the first to admit that this is the first step in the 
process of finding out how we change this so that we do have 
some action and that we don't have the kind of dislocation and 
the fights that we have had in recent years.
    Mr. Sanchotena. May I make a statement?
    Mr. Pombo. Yes.
    Mr. Sanchotena. I guess our concern is that does this 
legislation get at the root of the problem or is there another 
vehicle that Congress has available to come at the very 
problems that we are discussing?
    The purpose of the Lower Snake River Compensation Plan was 
to mitigate fisheries, and the Northwest Power Act was to 
create equality. And I don't have to go through the laws. You 
all know them. But is this the right vehicle to do that? If 
so--you know, Congressman Crapo has heard us say before that 
this is probably the place we should start.
    But today we question is this the right vehicle or is there 
another vehicle to get at NMFS and at the entities in this? 
Because we are not getting them. We have had hearings on this 
issue over and over and the followup is another hearing. And 
the fish continue to go extinct and so appreciate our 
frustration.
    Mr. Pombo. I appreciate your frustration, believe me, it is 
on both counts, in that nothing is being done and that all we 
have is a lot of talk. I can appreciate that.
    One other thing about your statement, you make the 
statement in your written testimony about being invited by the 
Minority to speak. Just so you understand, all witnesses are 
invited by the Committee to attend.
    The process that we go through as a consultation process 
between the Minority and the Majority to determine an adequate 
representation of people to be present; there are no, and there 
never are, any witnesses that are strictly Minority or Majority 
witnesses. It is a collaborative effort, and we make every 
effort that we can to have that kind of collaboration.
    That is the normal way that it has been handled. And in 
every committee that I have chaired, that is the way it has 
been done.
    Mr. Sanchotena. I appreciate that. Please keep in mind I am 
a native Idahoan. I like to be asked to do things by native 
Idahoans. And I am always going to be a native Idahoan and so--
--
    Mr. Pombo. Well, you were, because that is who is on the 
Committee. Thank you.
    Mr. Crapo. Mr. Chairman, may I have unanimous consent to go 
next since I have got to leave soon?
    Mr. Romero-Barcelo. Of course.
    Mr. Pombo. No objection, Mr. Crapo.
    Mr. Crapo. Thank you, Mr. Chairman, and I appreciate the 
Ranking Member, Mr. Romero-Barcelo, for agreeing to let me go 
next.
    Mr. Stelle, in the few moments I have, you and I have had a 
lot of discussion over this issue and I won't go back over all 
of those. But with the opportunity I have here, I just wanted 
to discuss with you one of the concerns that I have had.
    As you know, Idaho has been developing this spread-the-risk 
policy and has been developing a lot of consensus in the region 
to move toward that policy. And it was my understanding that, 
in the last season, NMFS has ultimately agreed to at least move 
toward this spread-the-risk policy and leave more of the fish 
in the river for an opportunity to see if we couldn't get a 
handle on some of the dates that we were seeking to get to 
evaluate these options. That is what I thought the 
understanding was, the decision under the Bi-Op.
    But then from the data I got as a result of last year's 
operations, it appears that that was not done and that 
virtually all of the fish--well, I won't say all, but something 
like 80 percent of the fish ended up being barged.
    Is that data correct? And if so, why did we not pursue this 
spread-the-risk policy?
    Mr. Stelle. Thank you, Congressman. First, after all, yes, 
we have had good constructive discussions. And actually, I 
appreciate them a lot. You focus hard on substance and that is 
good.
    In response to the issue, this spread-the-risk issue in 
1997, which you, I know, track very closely. I made the 
decision in consultation with the implementation team and the 
States and tribes participating to refer the issue of how many 
fish in the barge and how many fish in the river to the 
Independent Science Advisory Board.
    In recognition of the continuing debate about what the 
science is and in the belief that that referral in soliciting 
advice from the board would help--would be constructive in 
trying to come together on agreement on this. The board 
issued--our request to the board went, I think, in November of 
last year.
    In January of this year, it issued its report to us on the 
issue of how many were in the river and how many in the barges 
and did adopt the spread-the-risk or recommend to us to so 
adopt it. And we did so.
    At the beginning of the migration season this year, that 
was the overall program that the implementation team was given 
to design weekly operations. I do not--so in answer to the 
question, was that the overall direction, the answer is yes.
    Mr. Crapo. That was my understanding.
    Mr. Stelle. I do not honestly know what the numbers are as 
they are playing out through the end of August and now into 
September. The migration season is just about done now. I would 
be happy--if there are more fish transported than a targeting 
50-50 objective overall through the entirety of the season, my 
guess is it may have been because of the very high extreme 
temperatures in the lower Snake in August.
    I would be happy to get you those numbers, those precise 
numbers. I will do it as soon as I can. And then if you want to 
discuss them further, I can do so either on the telephone or in 
writing.
    Mr. Crapo. All right. I appreciate that.
    Mr. Sanchotena, do you have information--are you aware of 
the impact of this year's operation in terms of how many fish 
were barged or how many were left in the river?
    Mr. Sanchotena. Well, as Mr. Stelle has alluded to, overall 
migration is just winding down. I think a lot of the concern 
has to focus around the spring migrants. And at the end of the 
spring migration period for spring chinook, summer chinook, 
steelhead, the ecological valuable stock of the Snake Basin, 
that number came out nearly 88 percent in the barges with about 
12 percent being left in the rivers.
    Mr. Crapo. That is the reason I asked, because that is the 
number that I picked up on and was focused on.
    And Mr. Stelle, at least through the spring migration, why 
would that be the case if, in fact, NMFS had adopted the 
spread-the-risk policy that we have been debating over for the 
last couple of years?
    Mr. Stelle. I honestly don't know whether or not those are 
the numbers. That actually sounds very high to me.
    Mr. Crapo. It sounds pretty high to me, too.
    Mr. Stelle. Again, I am not ducking this. But let me find 
out what the numbers are, and then I will be prepared to answer 
that question.
    Mr. Crapo. All right. Thank you very much.
    Mr. Stelle. What they are and why.
    Mr. Crapo. Those are all the questions I have, Mr. 
Chairman.
    Mr. Pombo. Thank you, Mr. Crapo.
    Mr. Romero-Barcelo?
    Mr. Romero-Barcelo. Thank you, Mr. Chairman. I just wanted 
to thank you, Mr. Chairman, and Chairman Young for having held 
these hearings. These 2 days have really been an education for 
me in two major issues. One major issue is the implementation 
of the Endangered Species Act and also in the interrelationship 
between both conservationists and those who are looking forward 
only to the interests of the people and population and the 
business interest.
    During these 2 days, we have had people testifying from all 
areas of interest. We have had fishermen, commercial and sports 
fishermen. We have had conservationists. We have had 
businessmen. We have had farmers. We have had cattlemen. 
Everyone that is involved here in Idaho and Washington.
    The only one, unfortunately, we have not heard from are the 
salmon. It reminds of an anecdote I don't know if you have 
heard. But American humorist Robert Benchley, he was studying 
history at Harvard University and they gave him a test. They 
asked him to discuss the farm and fisheries either from the 
British point of view or from the American point of view.
    And he answered that he didn't know much about the British 
point of view, nor about the American point of view. But he was 
going to discuss it from the point of view of the fish.
    So I guess if we could hear from the salmon, we might even 
know better what would help them along to have healthy runs. I 
think it is something that all of us are interested in, even 
those of us that don't live in the area. We have been eating 
salmon, which is not only a delicious fish but also a very 
healthy fish to eat, so it is of interest with the economy.
    And as I said, I have learned a lot, but I still feel that 
I have even more to learn. And the issue is not easy, but there 
is a lot of interest. I know that Representatives Helen 
Chenoweth and Dick Pombo, who is our chairman, and Chairman 
Young and all of the members of the Resource Committee are 
interested in finding something that would help this along.
    I just wanted to make those comments and thank you once 
again, all of you, for being here and testifying and thank the 
Committee for this opportunity.
    Mr. Pombo. Thank you.
    Mrs. Chenoweth?
    Mrs. Chenoweth. Thank you, Mr. Chairman.
    And I also want to thank you, Mr. Romero-Barcelo, and your 
lovely wife for joining us in our city.
    Mr. Romero-Barcelo. Thank you.
    Mrs. Chenoweth. I hope you enjoy your time here.
    Mr. Romero-Barcelo. What little we have seen of it we like 
very much.
    Mrs. Chenoweth. Mr. Chairman, before I move on to my 
questioning, I would like to enter into the record the written 
testimony of Dewitt Moss on behalf of the Northside Canal 
Company and the Twin Falls Canal Company and the Committee of 
Nine, Water District 1.
    Mr. Pombo. Without objection.
    [The prepared statement of Mr. Moss may be found at end of 
hearing.]
    Mrs. Chenoweth. Thank you.
    I wanted to ask Mr. Stelle, were you in the room when Ms. 
Olivia James gave her testimony?
    Mr. Stelle. No, ma'am, I wasn't.
    Mrs. Chenoweth. She testified that she has a floatboat 
operation.
    Mr. Stelle. Actually, I did catch the tail end of that. I 
am sorry, yes.
    Mrs. Chenoweth. She indicated that the document, the take 
document, was taken back and so the fact that a redd moving 
from its spawning area for more than 20 minutes no longer 
applied. And one redd that moved from its spawning area for 
just 10 minutes or 12 minutes was sufficient to impact the 
floatboat operations.
    I wanted to give you a chance--that is so bizarre to me. I 
wanted to give you a chance to address that. What do you know 
about that?
    Mr. Stelle. I don't know anything about that. To be honest 
with you, I don't know about the take statement and disturbance 
times and that kind of stuff. I would be happy to check----
    Mr. Pombo. If we could yield for a minute. I am going to 
have the staff compile the testimony that she gave and the 
question and answer period and give those to you. Because I not 
only find it bizarre; I find it completely ridiculous. And I 
would like to have some kind of a statement back from you guys 
explaining to the Committee exactly what is going on.
    Mr. Stelle. Absolutely.
    Mr. Pombo. She works up there every day and she didn't seem 
to be able to explain to me in common-sense terms why it is 
happening. So if you guys have some kind of answer for it, I 
would appreciate it.
    Mr. Stelle. Yes, absolutely.
    Mrs. Chenoweth. Mr. Stelle, right now we are operating 
under a biological opinion that has not taken into 
consideration the impacts of the bull trout. Right? And let me 
ask you, there are some other species, the cutthroat trout that 
may be listed, does the biological opinion take into 
consideration those other species?
    Mr. Stelle. The reason I am pausing, Representative 
Chenoweth, my recollection is that we have actually two 
biological opinions governing the operation of the hydropower 
system, which is what I assume you are referring to, a 1995 one 
and then a subsequent one in 1998 to respond to the steelhead 
listing.
    My recollection is that 1998 biological opinion, I thought 
was a joint opinion with us and the Fish and Wildlife Service 
that did not take into account bull trout but I am not sure. 
Absolutely, bull trout impact and sturgeon impacts as we do 
those biological opinions on steelhead. So that, for instance, 
sturgeon has been listed by the Fish and Wildlife Service for 
quite a while below Kootenai.
    And the operations that we adopted in the 1995 and in the 
1998 biological opinions for the hydropower system very much 
took into account both the impacts on and the needs for 
sturgeon as well as steelhead. So there is a very intentional, 
conscious effort to look at the multiple needs of whatever 
species may be listed and try to blend them as you formulate 
recommendations.
    But to your question on bull trout, I think it was a joint 
opinion in 1998, but I am not sure.
    Mrs. Chenoweth. I looked for it. I couldn't find it.
    Mr. Stelle. OK.
    Mrs. Chenoweth. I appreciate your followup on it.
    Mr. Stelle. Sure.
    Mrs. Chenoweth. You know, last year our studies showed that 
there was about 719,850 adult salmonids passing over the fish 
ladder at Bonneville. And that is 100,000 more adult salmonids 
than the 60-year average for that dam. Of the Dalles Dam passed 
425,716, that is in 1997, and it is below the 41-year average.
    Now, the devastating difference of nearly 300,000 adult 
salmonids lost between the two dams is linked to many things; 
predators, of course, but in large part, the gill netting. And, 
you know, it looks like there has been a large number of fish 
that have been taken because of the gill netting.
    Now, I notice that the National Marine Fisheries Service 
has just authorized tribes to gill-net more chinook salmon this 
fall, which seems to be outside the ceremonial and cultural 
tribal time of fishing, which has historically been in the 
spring.
    So on the one hand, you know, Ms. Olivia James can't float 
her boat over a certain area because it might disturb a redd. 
And yet you are authorizing gill netting. And these are the 
inconsistencies that we are dealing with here. And it seems so 
very baffling to us and the questions that we do need to have 
answered. Would you care to address that?
    Mr. Stelle. Yes. It is a fair point and an important issue 
on how you balance sort of the allocation impacts as you are 
trying to reduce overall mortalities here.
    First and foremost, on this floatboating issue, the most 
basic fact of floatboating and redds, particularly in that 
drainage, is that those are the survivors. Those fish have made 
it back. They are the most important fish to protect, because 
they are the link to the next generation.
    And we work very hard to try to develop--working with the 
Forest Service and the floatboating industry on an arrangement 
that can protect the redds and also continue to provide 
opportunities for floatboating in an important part of the 
tourist season. And we understand that, and we have put a lot 
of effort into it. I will answer the detailed questions once I 
get them from the Committee.
    On the issue of fishing in the main stem zone, what we call 
Zone 6, it is fundamentally an issue of honoring our 
obligations under a Federal court-imposed settlement called 
U.S. v. Oregon, whereby the States, the Federal fish managers, 
and the tribal salmon managers must come together every year 
and reach agreements on who gets to catch what fish where. And 
every year we do so for the fisheries in that main stem area.
    The basic rule that we have, ma'am, is that there is a 
division of the overall available fish pie that we have agreed 
to, under the Columbia River Fish Management Plan, which has 
been approved by the court. So those negotiations take place 
under that Oregon court-approved plan.
    The fishery, it is a healthy fishery that originates in the 
Hanford Reach. It is a good robust fishery. The numbers are 
quite high. They can be 80,000 or so and can support a fishery. 
It is the last bread-and-butter fishery for the Columbia River 
salmon tribes.
    Their spring and summer chinook fishery is gone. It has 
been gone for years. And it is really their last fishery. We 
worked very hard to authorize reductions or changes in fishing 
patterns on that healthy fall chinook population to reduce 
impacts on spring summer chinook and on steelhead in the Snake. 
And I think we are successful in that effort.
    But fundamentally, the authorization is for the last 
healthy tribal fishery on the last healthy fall chinook 
population of the main stem of Columbia. It is not a risk to 
those populations in that all of those fish are there and the 
fishery can sustain it.
    Mrs. Chenoweth. The case that you are referring to, the 
decision, did the decision specifically address the fall 
chinook gill netting?
    Mr. Stelle. No. The gill netting is simply a technique that 
the tribes use.
    Mrs. Chenoweth. Did they specifically address the fall 
chinook fishery?
    Mr. Stelle. Absolutely. The Columbia River Fish Management 
Plan absolutely lays out agreements on how to allocate the fall 
chinook fishery.
    Mrs. Chenoweth. The plan does, but did that decision?
    Mr. Stelle. Yes. The plan sets the overall framework. And 
then every year, fishery managers get together and negotiate 
the specific numbers based on that overall allocation pie.
    Mrs. Chenoweth. The Oregon case that you referred to?
    Mr. Stelle. Yes.
    Mrs. Chenoweth. Did the judge specifically?
    Mr. Stelle. Every year, the judge generally approves the 
agreement that the parties reach for the numbers for that 
particular year. And in the case of the fall chinook fishery 
for this year, the parties were before the court yesterday. And 
I don't believe he approved it yesterday, but we are expecting 
a court order today any time.
    Mrs. Chenoweth. For sure approval for this was given 
several weeks ago, wasn't it?
    Mr. Stelle. The negotiations under U.S. v. Oregon with all 
of the state and tribal fish managers have been going on pretty 
much through the summer. I think the final negotiation was 
reached, tentative agreement, maybe 3 weeks ago. And then we 
had a court date with a judge who oversees the implementation 
of the plan yesterday.
    Mrs. Chenoweth. Thank you.
    Mr. Stelle. You are welcome.
    Mrs. Chenoweth. That answered my question. Thank you.
    Mr. Pombo. Just to followup on that, a question popped into 
my mind. You said the State fish agencies--State and Federal 
fish agencies and the tribes, is there anyone else involved?
    Mr. Stelle. Yes, the National Marine Fisheries Service and 
the Fish and Wildlife Service. So it is the Federal, State, 
tribal fish managers.
    Mr. Pombo. Are there any FGOs or other stakeholders that 
are involved with those discussions?
    Mr. Stelle. No, sir. This overall framework really 
originated in litigation between the State fishery managers, 
the Federal Government, and the tribes, oh, 15 years or so ago. 
So that is----
    Mr. Pombo. So there are no outside FGOs or other 
stakeholders that are involved with the discussions? It is just 
the intergovernmental groups?
    Mr. Stelle. The meetings, I believe, are public, though a 
lot of them are very tedious. I warn everybody. But the actual 
parties to the agreement are----
    Mr. Pombo. I don't know what tedious means. Let me ask you 
a question. We had a county commissioner, Mr. Kerr, testify 
earlier. And I don't know if you were present when he 
testified.
    But in February 1997, they met with representatives of the 
U.S. Forest Service, Federal Highway Administration, National 
Marine Fisheries, U.S. Fish and Wildlife, Idaho Department of 
Lands, the timber industry, private landowners, and others to 
get together to come up with a plan consistent with the needs 
of the communities as well as of the requirements of the 
regulatory agencies.
    And again, I say this was February 1997 they met to do some 
work on a road that had washed out. As of this date, there has 
been no action by the National Marine Fisheries. I am led to 
believe that all of the other Federal and State agencies had 
signed off on a plan.
    He goes on to quote a letter from a forest supervisor, 
David Alexander, who wrote to a Ms. Elizabeth Gaar at the 
National Marine Fisheries Service. And he quotes, ``I am very 
concerned that after 17 months of discussion, analysis, and 
meetings and almost 3 months after we jointly reached agreement 
which resulted in a four-party memorandum of understanding 
outlining the resolution of this issue, we are continuing to 
see delays in the issuance of the biological opinion.''
    It appears the National Marine Fisheries is the one that 
has been holding us up for what has gone on 19, 20 months in 
getting this work done. Is there any explanation why they are 
holding that up when it appears that the other Federal 
agencies, environmental and otherwise, signed off on the plan?
    Mr. Stelle. I am sure there is, Mr. Chairman. Let me offer 
a couple of thoughts on it. First of all, I am not that close 
to this specific road repair work. I believe, if my memory 
serves me correctly, that the road repair effort really 
consisted of the short-term emergency work and then some 
longer-term restoration work.
    Short-term emergency work was necessary to move through 
quickly. And I think the approval has occurred and that work 
has been done. I read his testimony this morning. I saw that 
reference to the letter from David Alexander to Elizabeth Gaar. 
I don't know about this specific biological opinion.
    Again, I would be happy to find out about it and actually 
call him if that is appropriate, or call you.
    Mr. Pombo. I would like you to report back to Congresswoman 
Chenoweth's office what you find out on this, as well as call 
Commissioner Kerr.
    Mr. Stelle. Sure. I would be happy to.
    Mr. Pombo. And let him know when he expects approval on 
this. It is obviously an issue of great concern on this. In 
reviewing the testimony, if you go on, they have had additional 
meetings that included the Congressman's office and it appears 
that it did not result in anything happening. It is issues like 
this that cause the kind of legislation that we are talking 
about today to be introduced.
    Mrs. Chenoweth?
    Mrs. Chenoweth. I would like to ask Mr. Little a question. 
I would like to know the types of monitoring that NMFS has 
required of the U.S. Forest Service that you are involved with 
as a cattleman and also the types of activity that you and 
other permittees have done to try to satisfy NMFS.
    Mr. Little. Yes. Thank you, Congresswoman. We, in 
cooperation with the Forest Service, put together a grazing 
scheme to establish utilization patterns not to exceed and 
seasons of use that were, early in the season, along the creek 
that is the spawning ground for the spring chinook. And then 
with a listing of the fish, the measure of the success was the 
stream bank's ability and changes in it.
    And they showed improvement every year from the time they 
started the monitoring except one. In that year, they had some 
interns go out with very little training and do the monitoring. 
And so they were concerned that that may have skewed what was 
going on. But, be that as it may, we showed a consistent 
improvement and the range con monitors, what we do and it helps 
us to verify that we don't exceed the utilization standards.
    The other monitoring they do involve the--we have got two 
different divisions of the Forest Service doing the monitoring. 
And they are the ones that are doing the work and assimilating 
all of the data. And so they have done it. This national 
riparian review team came in and looked at the data, looked at 
the stream banks and agreed that they were, as I stated in my 
testimony, that they were an improving trend.
    They did recommend that they continue monitoring whether 
livestock were there or not. Well, that sounds grand and noble. 
But you know when the livestock are gone--and if you keep up, 
we will be gone. I would be real surprised if we lasted another 
year there, because the Forest Service just can't continue to 
rape all of the budgets and put that into just a small specific 
area.
    But the National Review Team said to continue monitoring. 
Without us monitoring funding will be low on their budgeting 
scheme. Once we are gone, it just won't happen. But anyhow, if 
they had backed off and said, just continue the utilization to 
see that we are in compliance with the plan, because we have 
shown the trend that we were making the changes. We could live 
with that.
    We are about the only resource use left in the area. We 
have half-a-million cubic yard blowout from the upper end of 
the valley that filled all of the rearing pools. While the 
source of that blowout has been repaired, it will take time for 
the pools to reestablish. But we are still there. And I think 
it is just the nature of the beast that they have got to 
regulate who is there. And, of course, there is no recreation 
monitoring.
    The height of concern for me is that we have got so many 
different agencies. We have got the tribes. We have got the 
Fish and Game. We have got the Forest Service. We have got the 
National Marine Fisheries. I swear to God, they are getting 
more traffic now along the stream bank, than we were when the 
cattle were unmanaged. It just blows my mind. But that is 
basically the gist of it.
    Mrs. Chenoweth. Is this the traditional spawning habitat?
    Mr. Little. Oh, yes.
    Mrs. Chenoweth. So the salmon has been there for years?
    Mr. Little. It has huge spawning numbers. And there is real 
good documentation that shows the declining number of redds 
that are just a direct opposite, when you graph them, compared 
to the increase in the hydroelectric units on the Columbia or 
the lower Snake and Columbia. And as those hydroelectric units 
come up, the redd count goes down. It is just in direct 
contrast.
    There is no question that we were doing some things wrong. 
We now have turned the corner and know how to manage the 
livestock.
    But while the grazing impacts on the fish have been 
negated, there is such a lag time until the spawning numbers 
turn around and get better, we are going to long since be 
history. There is too many restrictions based on the numbers of 
fish that are currently there. When the streams were just 
trampled to death at the turn of the century--well, you hear 
stories of fish climbing over each other to get up that creek.
    There is a real good evidence of that in history. And of 
course, it is prime, spawning habitat for the wild fish. There 
are no hatchery fish in that basin.
    Mrs. Chenoweth. Mr. Stelle, would you like to respond to 
that? It seems as though, judging from Mr. Little's comments 
that grazing has had--especially grazing practices today--have 
had negligible impacts on the returning salmon. What is your 
plan for the future with regards to grazing on public lands?
    Mr. Stelle. I would be happy to. First of all, I would like 
to note that I think it is my recollection that we were at a 
hearing here with you probably 2 years or 3 years ago that I 
think then helped lead to some further discussions amongst the 
agencies in June along this whole subject. And a lot of folks 
worked pretty hard on it.
    On the issue of monitoring dollars, I think those are 
Forest Service monitoring dollars. And to be honest with you, I 
am not quite sure whether or not the issue is whether or not to 
ease up on monitoring requirements, and if so, how that has 
been presented or worked through. I just don't know, Jim.
    Mr. Little. It is my understanding that these monitoring 
dollars don't serve us. Like I say, it is almost raping the 
Forest Service range betterment fund budget to the detriment of 
other forest users in the rest of Boise Forest. And the Forest 
Service just can't in good conscience spend that kind of money 
for these three allotments, as you know, have taken so much 
money compared to the dollars that they have received in 
return.
    And if you are going to make our grazing fee get up to do 
that you are probably talking $30, $40, $50 a day in rent. It 
is just incredible. The number I had put to me was $120,000 a 
year.
    Mrs. Chenoweth. Is this being done through a memorandum of 
understanding?
    Mr. Stelle. I don't think anything so formal.
    Jim, correct me if I am wrong. I do think it represented an 
agreed upon strategy for--a multiyear strategy for grazing on 
these allotments worked out between the forest, Jim, and the 
State and Federal fish and game agencies. I don't think it was 
formalized in some formal way.
    Mrs. Chenoweth. All right. Thank you, Mr. Chairman.
    Mr. Pombo. Thank you.
    I want to thank this panel for your testimony and for 
answering our questions. Again, there may be additional 
questions that will be submitted to you in writing. If you can 
answer those in writing for the Committee, it would be 
appreciated.
    [The information referred to may be found at end of 
hearing.]
    Mr. Pombo. As always, it was a very valuable hearing. The 
insights that you brought to the Committee, we will keep with 
us and we will take back. I think it is an educational process 
for us all.
    I want to thank all of the members of the audience for 
being here, all of the people who had the opportunity to 
testify.
    The Committee hearing record will be held open for those 
people who wish--who did not have an opportunity to testify but 
wish to submit testimony to the Committee. That can be 
submitted to the House Resources Committee, and it will be 
included in the record.
    [The information referred to may be found at end of 
hearing.]
    Mr. Pombo. Thank you all very much for being here. The 
hearing is adjourned.
    [Whereupon, at 1:24 p.m., the Committee was adjourned.]
    [Additional material submitted for the record follows.]
    Statement of Thomas W. Kerr, Commissioner, Valley County, Idaho

    Mr. Chairman and Members of the Committee:
    Thank you for inviting me to speak to you about the role of 
the National Marine Fisheries Service (NMFS) in implementing 
the U.S. Endangered Species Act of 1973, as amended.
    I am Tom Kerr, County Commissioner, Valley County, Idaho. I 
was born in 1937 in McCall, Idaho, educated in the McCall-
Donnelly school system and went on to earn a Bachelor of 
Science degree in Mining Engineering from the University of 
Idaho in 1961. My wife and I returned to McCall in 1973 and I 
have worked as a professional land surveyor in Valley County 
since that time. In the course of running my business, I have 
surveyed in every portion of Valley County and am very familiar 
with its people, conditions and needs. I have served on the 
Board of County Commissioners since 1997.
    In today's testimony I am not only representing the views 
of my colleagues on the Valley County Board of Commissioners. 
My observations and comments were also prepared in conjunction 
with the Idaho Association of Counties, a non-profit, non-
partisan association dedicated to improving county government 
for the people of Idaho and representing each of the elected 
officials in all forty-four of Idaho's counties. I do not 
believe that my views on NMFS are in any sense unusual, but, on 
the contrary, are typical of those of my colleagues around this 
great state.
    Allow me to tell you a bit about an ongoing project, the 
course of which has decisively shaped our view of the role of 
NMFS in fulfilling its responsibilities under the Endangered 
Species Act.
    The Warren-Profile Gap Road was built prior to the 
establishment of the Payette National Forest and as such is a 
public right-of-way under the jurisdiction of Valley County as 
established under both state and Federal law. The road is 
maintained by the U.S. Forest Service pursuant to an agreement 
between Valley County and the Forest Service.
    In 1994, debris torrents washed out a 500 foot segment of 
the road along Elk Creek. During the Chicken Complex Fire later 
in 1994, emergency funds were used to repair this damage. 
Unfortunately we experienced unusually heavy rainstorms during 
the year following the fire. The resulting high runoff caused 
the destruction of two bridges and seriously damaged portions 
of the road along a one-and-half mile section of the road. 
Further storms and flooding caused even more serious damage to 
the road in the winter of 1996-97.
    In February of 1997, the Valley County Commission met with 
representatives from the U.S. Forest Service, Federal Highway 
Administration, NMFS, U.S. Fish and Wildlife Service, Idaho 
Department of Lands, the timber industry and private landowners 
to put together an action plan for the repair of the road which 
would be consistent with the needs of the community as well as 
requirements of the regulatory agencies. I am disappointed to 
report that the plan we agreed to in February of 1997 has yet 
to come to fruition. There is no question that its failure is 
largely due to the action--or, rather, inaction--of the 
National Marine Fisheries Service.
    Throughout the process NMFS has consistently taken an 
inordinate amount of time to complete the analysis necessary 
for repair work to proceed. When it finally does come back to 
us with its review, it asserts that it needs still more 
information to issue a Biological Opinion, even when it has 
already received sufficient data. This view is shared by our 
local Forest Supervisor, David Alexander, who wrote in his June 
9, 1998, letter to Ms. Elizabeth Gaar of NMFS regarding their 
delay in the issuance of a Biological Opinion:

        ``I am very concerned that after 17 months of discussion, 
        analysis and meetings, and almost three months after we jointly 
        reached agreement which resulted in a four-party memorandum of 
        understanding outlining the resolution of this issue, we are 
        continuing to see delays in the issuance of a Biological 
        Opinion.''
    Rather than participating throughout in an open and straightforward 
way, making its requirements explicit, NMFS seems only to take pot-
shots at the successive plans submitted for its approval. It would seem 
logical for them to identify all of the specific conditions needing 
mitigation at one time, rather than picking out a new one later.
    In addition to being slow, I have observed that to the extent that 
NMFS has participated in planning the repairs of the Warren-Profile Gap 
Road, its representatives have not had sufficient authority to speak 
for the agency. On at least one occasion, the NMFS representative 
admitted that he had not really read the report that was to be the 
subject of a meeting at NMFS's office in Boise with the Federal 
Highways, U.S. Forest Service, U.S. Fish and Wildlife, Valley County 
Commissioners, and a representative from Rep. Chenoweth's office, most 
of whom had to travel to Boise for the meeting. Since NMFS has not seen 
fit to send actual decision-makers to the table, we are left with the 
clear impression that talking to the locals is a low priority indeed, 
and that our point of view is not being fairly represented or even 
taken seriously.
    Nevertheless, we are not convinced that even were NMFS officials of 
sufficient stature participating in the process that the outcome would 
be any different. NMFS representatives have made it abundantly clear 
that they do not share our concerns. In fact, they remain quite 
indifferent to the public whose agents they are meant to be. On one 
occasion we were actually told by a NMFS representative that they did 
not really care what the costs and inconveniences of NMFS's actions 
might be to the public. As long as NMFS has an institutional culture so 
resistant to public scrutiny, accountability and cooperation, it is 
hard to imagine that this situation could improve.
    Meanwhile, the road remains unrepaired, local landowners are 
without access to their property, the State of Idaho has not been able 
to proceed with a timber sale approved years ago, the U.S. Forest 
Service has limited access for forest management, and United States 
taxpayers continue to foot the bill for more NMFS delays. The greatest 
irony is that past delays in repairing the road have caused more 
erosion and delivery of dirt and debris to the stream to the detriment 
of fish spawning and rearing habitat. No doubt, the continued delays 
will cause more unnecessary erosion, not to mention the increase in the 
cost of construction to the taxpayers each year.
    Therefore, the Board of Commissioners of Valley County and the 
Idaho Association of Counties urges you to support H.R. 4335 to amend 
the Endangered Species Act in order to transfer the authority of the 
Secretary of Commerce under the Act to the Secretary of the Interior. 
While we are not always thrilled with the positions taken by the U.S. 
Fish and Wildlife Service pursuant to the Act, our experience has been 
that it is more responsive and cognizant of our concerns, participates 
more openly in discussions of proposed actions and is generally more 
timely and efficient in reaching conclusions than is the National 
Marine Fisheries Service.
    Again, thank you for inviting me to speak on this important issue.
                                 ______
                                 

 Statement of Sherl L. Chapman, Executive Director, Idaho Water Users 
                              Association

    I am Sherl L. Chapman, Executive Director of the Idaho 
Water Users Association. The Association is a non-profit 
volunteer organization consisting of over 180 irrigation 
districts and canal companies, more than 100 agri-businesses 
and professional firms and several hundred individuals 
interested in managing, administering and protecting the water 
resources of the State of Idaho. Our members deliver nearly all 
of the irrigation storage water impounded in the State of 
Idaho. Today you have before you H.R. 4335 titled ``The 
Endangered Species Consolidation Act.'' The stated purpose of 
the bill is to convey ESA responsibilities solely to the U.S. 
Fish and Wildlife Service for administration primarily because 
of mismanagement by the National Marine Fisheries Service. We 
wholeheartedly agree that the National Marine Fisheries Service 
has mismanaged the salmon restoration program in Idaho as well 
as other ESA programs around the nation. Unfortunately, the 
issue today is not one of whose name is attached to ESA 
responsibilities but of Federal irresponsibility and 
incompetence in administering a program to restore salmon in 
the Pacific Northwest. There are as many as five (5) Federal 
agencies and Tribal entities involved in efforts to restore 
salmon and their appears to be little, if any, coordination or 
effort to increase the efficiency or cost effectiveness of 
restoration programs. It is our belief that Congress must take 
control of the program by requiring, even demanding that the 
Federal agencies involved evaluate restoration programs on the 
basis of science, effectiveness of restoring salmon runs, cost 
effectiveness and efficiency. For the last several years over 
one-half billion dollars has been spent in the region each year 
in salmon recovery efforts. There is little oversight of where 
the funds are spent, what they are used for and in many cases 
the very entities receiving the funds are those who have 
personnel making decisions on disbursement of the funds. It 
appears to be an incestuous relationship and unless there is 
immediate control many more billions of dollars will be spent 
on this program without oversight or a chance of success. If 
the private sector were to operate in this manner any company 
functioning like NMFS would very quickly go bankrupt. There 
appears to be no oversight, project management or analysis of 
the effectiveness of the programs by NMFS or other Federal 
agencies such as the Corps of Engineers, the Bureau of 
Reclamation and the Bonneville Power Administration. For these 
reasons the Idaho Water Users Association urges Congress to 
immediately commission a GAO audit of the NMFS salmon 
restoration programs to determine where the money is going, the 
management relationships and to determine the efficacy of the 
programs.
    The National Marine Fisheries Service has attempted to 
characterize irrigated agriculture in Idaho as being 
responsible for the decline in salmon runs in the Columbia-
Snake River system by blaming the industry for reduced flows in 
the Snake River system. In a Biological Opinion issued in 1997 
related to the Inland Land Development Program in Oregon NMFS 
stated ``A. But for irrigation withdrawals, summer flow 
objectives would be met every year (100 percent) (with 
reservoirs operated for flow augmentation) whereas with 
withdrawals summer flow objectives are met less than of the 
time.'' These statements would seem to indicate that NMFS 
believes that survival of the Snake River Chinook Salmon cannot 
be achieved unless the NMFS flow objectives are met and since 
NMFS states that ``Irrigation withdrawal is the principle 
reason for missing flow objectives in the Snake River'' they 
also apparently believe irrigation withdrawal must be 
curtailed. Historical and current data, however, clearly 
contradict the NMFS rhetoric. A review of the U.S. Geological 
Survey records for the Weiser gage on the Snake River near 
Weiser, Idaho since 1911 clearly show that the average runoff 
from the Snake River basin has not significantly changed since 
1911. Additionally, as can be shown in the attached figure 
taken from a report written by Karl Dreher, Director of the 
Idaho Department of Water Resources depicts what has actually 
happened in the hydrologic system. The figure shows the average 
flows in the Snake River at Lower Granite Dam where NMFS has 
set the current flow targets for the Snake River system. The 
blue portion of the graph shows the average Snake River flows 
from April 10 to June 20, the spring flow target period and the 
tan portion of the graph shows the average flows from June 21 
to August 31, the summer flow target period. The red vertical 
bars show the irrigated acreage in the Snake River basin above 
Lower Granite Dam. The most interesting aspects of the figure, 
however, are the trend lines that are depicted on the graph and 
show the average flows for the period of record since 1916. 
These trend lines demonstrate what actually has happened to 
Snake River flow at Lower Granite Dam during the 144 day period 
that NMFS claims is critical to salmon recovery. The upper 
trend line declines from about 130,000 cubic feet per second to 
about 120,000 cubic feet per second during the spring since 
1916. This is not the result of diversion to irrigated acres 
but merely operations for flood control and storage of spring 
runoff to preserve water for use later in the season. 
Irrigators divert very little water during this spring period. 
The reduction has been less than eight (8) percent of the Snake 
River flow during the spring months. The more interesting 
portion of the graph, however, is the trend line from 1916 to 
1996 for the summer flow target period when irrigation should 
have the most significant impact on Snake River flows if, in 
fact, there is an impact at all. This trend line indicates an 
increase in flow since 1916 from about 38,000 cubic feet per 
second to about 41,000 cubic feet per second, a net increase of 
about eight (8) percent during the period of time NMFS claims 
irrigation withdrawals are adversely affecting Snake River 
flows and the salmon. While the graph clearly does not take 
into account the impact of irrigation development prior to 1916 
both, NMFS and the Idaho Department of Fish and Game has 
repeatedly asserted that there were viable fish runs in the 
1950's and both were allowing major harvest until 1978. If the 
fish were viable in 1950 then certainly they were viable in 
1916. My reason for explaining this contradiction in NMFS 
policy and science is to again point out that NMFS would rather 
speculate about salmon recovery and ignore science in an effort 
to force Idaho to increase instream flows to meet other 
agendas.
    NMFS has insisted on water being taken from Idaho for flow 
augmentation since the early 1990's. The Northwest Power 
Planning Council was forced into a water budget regime in 1990 
and ever increasing blocks of water have been taken from Idaho 
ever since. Over the last six (6) years from 1.6 to over 2.5 
million-acre feet of water have been sent downstream by Idaho 
each year in an effort to recover fish. Part of this water has 
been provided by Idaho irrigators under a cooperative agreement 
in an effort to assist the agency in a flow augmentation 
experiment to determine whether or not there were any real 
benefits to salmon from flow augmentation. The rest has been 
taken without consideration for Idaho's economy or resident 
fisheries and without the concurrence of the state. While there 
are a myriad of scientific reports all over the board on this 
issue, the general consensus appears to be that no significant 
benefit can be directly attributed to flow for salmon 
restoration. In spite of this, NMFS appears to be continuing 
its efforts to take even more water out of Idaho. NMFS has 
insisted through the U.S. Army Corps of Engineers that the 
Bureau of Reclamation investigate the impact to Idaho if an 
additional one million-acre feet of water were to be taken each 
year for salmon restoration and flow augmentation. Preliminary 
drafts of the study indicate that under the worst case scenario 
(a series of dry years) use of an additional one million-acre 
feet of water out of Idaho would result in over 700,000 acres 
of irrigated land in Idaho being dried up. This would result in 
an average, direct economic impact to Idaho of at least five 
hundred million dollars per year. This, of course, would have 
major secondary economic impacts throughout the entire state. 
The recreation and sports fishing community is also impacted. 
Exceedence curves developed for the study by the Bureau of 
Reclamation indicate that under the worst case scenario many of 
the major reservoirs in Idaho would be dry or without usable 
storage approximately five (5) to eight (8) percent of the 
time. Since Idaho has numerous blue ribbon trout fisheries 
below these reservoirs (South Fork Snake River, Henry's Fork 
Snake River, South Fork Boise River, Deadwood River, Boise 
River) the fishing and recreational opportunities and the 
resident fisheries established in the reservoirs and those 
streams would be decimated. In addition to fishing 
opportunities the white water rafting industry would also be 
largely destroyed since, in most cases, water released for 
irrigation during the summer months provide the flows necessary 
for an industry that contributes millions of dollars to the 
state economy. All of this for a program that clearly will not 
restore or recover Idaho's salmon.
    I could provide many other examples of NMFS's inability to 
manage the programs to recover Snake River stocks of salmon. 
I'm sure that during the two field hearings held by this 
Committee that you have heard of other flagrant examples of 
inefficiency and incompetence. The National Marine Fisheries 
Service is now moving toward the adoption of a 1999 Biological 
Opinion. This opinion is supposed to incorporate the data and 
information obtained over the last several years and propose a 
reasonable salmon recovery effort. However, during 
conversations with NMFS personnel it is clear that they intend 
to continue to focus on flow augmentation, irrespective of the 
data and the studies that show little, if any, correlation 
between flow and survival. They continue to ignore or minimize 
the issues of predation, dam modification, harvest and other 
alternative opportunities for salmon recovery that could be 
initiated within one or two years. Because of their 
incompetence the region has been forced into a useless debate 
of dam breaching versus flow augmentation with little 
opportunity to discuss the issues that can really affect salmon 
recovery. Just as an example, 10-20 million smolts per year are 
eaten as they reach the Columbia River estuary by Caspian terns 
nesting on an artificial island in the Columbia River. If that 
one colony were eliminated 10-20 million more smolts per year 
that have already made the 900 mile downstream journey would 
reach the ocean. We believe that this is just one example of an 
opportunity to do something quickly that will, in fact, assist 
salmon recovery.
    If the National Marine Fisheries Service continues blindly 
down the path of flow augmentation there will certainly be a 
major confrontation with the State of Idaho and the rest of the 
region, which ultimately will result in litigation and 
opposition resulting in stalemate and ultimately salmon 
extinction. It does not make sense to precipitate such a 
confrontation over a scientifically unsound program of flow 
augmentation. We urge you as a Committee and the Congress as a 
whole to initiate significant oversight of the National Marine 
Fisheries Service and force the agency to react to science and 
implement reasonable and prudent programs to restore salmon and 
move away from the flow augmentation which is scientifically 
unsound but politically expedient for the agency. After 
fighting with the agency for nearly a decade we believe that 
only Congress will get their attention and force them to do 
what is right.
    I appreciate the opportunity to present this testimony to 
the Committee and would be happy to respond in writing to 
additional questions if requested.

[GRAPHIC] [TIFF OMITTED] T1600.100

  Statement of Mark Limbaugh, Executive Director, Payette River Water 
                        Users Association, Inc.

    My name is Mark Limbaugh. I am a native Idahoan and a 
fourth-generation farmer from Fruitland, Idaho. I am also the 
Watermaster for the Payette River Basin in Idaho, delivering 
storage and natural flow from the Payette River to over 150,000 
acres of prime Idaho farmland. I also represent the Payette 
River Water Users Association as their executive director, 
whose members encompass practically all of the irrigated acres 
in the basin. Today, I represent those members, who are 
extremely concerned about their irrigation water supplies for 
the future of their farms and families.
    As I understand it, the question posed by the Committee 
today is whether the National Marine Fisheries Service (NMFS) 
is implementing the Endangered Species Act (ESA) consistent 
with the authority granted in the ESA, whether their activities 
overlap or are consistent with those of the Fish and Wildlife 
Service and whether their implementation is being conducted in 
a cost effective manner.
    Ladies and gentlemen, under the current implementation of 
the ESA by NMFS, our time honored water rights in this state 
are currently under attack. NMFS continues to promulgate 
recovery measures requiring more and more Idaho water be dumped 
from our reservoirs to augment flows on the lower Snake River 
at Lower Granite Dam for the purpose of aiding endangered 
salmon migration. The flow augmentation experiment the State of 
Idaho agreed to participate in during the past several years 
has not worked, with very little biological evidence to support 
this misallocation of Idaho water. In contrast to the limited 
effectiveness of flow augmentation as a recovery measure, the 
economic trade-offs are immense for the State of Idaho.\1\
    In this experiment, Idaho has voluntarily provided 
approximately 2.0 to 2.8 million acre feet of stored water for 
annual flow augmentation from both willing sellers and U.S. 
Army Corps of Engineers-managed projects in an attempt to meet 
flow targets set by NMFS at Lower Granite Dam downstream on the 
lower Snake River. One of the main problems with the NMFS flow 
targets is that they are set artificially too high, resulting 
in target flows not being met and a call for additional water 
from Idaho in an attempt to meet these impossible target flows.
    A recent USBR hydrologic regulation study demonstrated that 
NMFS flow targets cannot be met in all months (that affect 
seasonal averages), specifically during low or average water 
years, because they require more water than the hydrologic 
system can provide--with or without net irrigation depletions 
from the Snake-Columbia River Basin.\2\ In fact, the past 1OO-
years of irrigation development in Idaho have not significantly 
decreased flows during the spring and summer time periods NMFS 
has set flow targets for on the lower Snake River.\3\ Yet, as 
directed by NMFS, the U.S. Army Corps of Engineers has asked 
the U.S. Bureau of Reclamation to study the hydrologic, 
economic and social implications of acquiring an additional one 
million acre-feet of Idaho water for enhanced flow augmentation 
on the lower Snake River.
    If this additional one million acre-feet of Idaho water 
were added to the water currently flowing from our storage 
reservoirs, the estimated annual economic benefits lost to 
Idaho would range from $40 million to $70 million in direct net 
economic valued.\4\ This huge economic loss, which does not 
include secondary economic effects, would devastate the economy 
of the State of Idaho, and wipe out most of our agricultural 
communities whose very existence relies upon irrigated 
agriculture. In order to acquire this additional million acre-
feet of Idaho water, estimates call for between 200,000 and 
500,000 acres of productive farmland to be dried-up and over 
1.4 million acre-feet of storage space be reassigned or 
reacquired from irrigators.\5\ The result: an annual irrigation 
shortfall of up to 500,000 acre-feet for the remaining 
irrigated acreage, which would fallow an additional 100,000 to 
150,000 acres of farmland, significant additional reservoir 
level reductions during peak recreational and irrigation use, 
and higher river flows during peak summer recreational use.\6\
    Idaho would experience a serious adverse impact to its 
recreational industries due to the reduced summertime reservoir 
levels and higher river flows, which would further reduce the 
overall usefulness of our reservoirs for regional fisheries and 
flat-water recreation and our rivers for whitewater recreation. 
Also, hydropower production efficiencies would be impacted due 
to these higher river flows, which may exceed productive 
capacities at several facilities on the river.
    All these negative impacts to irrigators, recreation, 
hydropower, and the Idaho economy and we would still only meet 
the NMFS artificial target flows at Lower Granite Dam 35 
percent of the time (on average).\7\ Given these facts, a NMFS 
recovery plan which includes an additional one million acre-
feet of Idaho water would, in my opinion, decimate the economy 
of the state, destroy entire Idaho communities, create 
widespread unemployment, and abrogate Idaho water law in the 
process.
    And what do the endangered salmon and steelhead receive in 
return for all this hydrologic and economic chaos? Flow 
augmentation, as I stated earlier in my testimony, has been 
something of a ``grand experiment.'' The State of Idaho agreed 
to voluntarily participate in the NMFS flow augmentation 
project until 1999, allowing up to 427,000 acre-feet of Idaho 
stored water from the upper Snake River Basin to be used in 
this experiment on a willing seller basis. Since 1995, Idaho 
has experienced above-average water years, and 427,000 acre-
feet have been released from the upper Snake in an attempt to 
meet flow targets in the lower Snake River every year. In 
addition to this amount of upper Snake River water, stored 
flows have been released from the Corps-operated Dworshak 
Reservoir in Northern Idaho and from Brownlee Reservoir by 
Idaho Power Company in order to provide an annual total of 
approximately 2.0 to 2.8 million acre-feet of flow 
augmentation. In voluntarily allowing these waters to leave the 
state for flow augmentation, our state has already felt 
substantial negative impacts to resident fisheries, flat-water 
recreation, and reduced availability of storage water for other 
uses (municipal, industrial, managed groundwater recharge, 
water quality and irrigation needs, to name a few). The State 
of Idaho has given up these opportunities in order to permit 
current flow augmentation efforts by NMFS to occur using Idaho 
water under their 1995 Biological Opinion.
    But what has NMFS accomplished with all of this Idaho 
water? Assuming that NMFS is trying to increase water particle 
velocities in the lower Snake River with current flow 
augmentation strategies, we need to take a look at how 
effective they have been in accomplishing this feat. If NMFS is 
attempting to restore average pre-dam water particle travel 
times and equivalent average velocities, the volume of water 
necessary to meet these velocities would be equal to over four 
times the total average annual runoff from Idaho's river 
basins.\8\ It is obvious that it would be futile to attempt to 
mimic pre-dam velocities and water particle travel times when 
there is not enough water in the system to accomplish this 
task.
    So what do NMFS flow targets do to water particle travel 
times and velocities? Meeting the current NMFS flow objective 
of 55,000 cubic feet per second (cfs) at Lower Granite Dam, 
during an average water year, increases the effective average 
velocity by about 0.1 miles per hour.\9\ This overall increase 
in velocity still results in a water particle travel time about 
7 times greater and a velocity 7 times less than pre-dam flows, 
and an inconsequential incremental improvement to in-river flow 
velocity.\10\
    Do the fish notice these (albeit small) improvements to 
velocities? Recent studies indicate that spring-migrants 
benefit very little, if at all, from current flow augmentation 
efforts, while fall-migrants are affected more variably, with a 
high level of uncertainty and with other variables (such as 
migration timing and fish size through the upper river system) 
having a more predictable effect on species recovery than flow-
survival data.\11\ In other words, current flow augmentation 
efforts have not resulted in any significant improvements to 
the survival of ESA-listed salmon smelt on their way to the 
ocean. Yet NMFS water policy, through its flow targets/
augmentation program, is being developed within the Snake/
Columbia River drainage on the premise of ``no net loss,'' or 
no further development of water resources within the basin.
    In effect, through ESA implementation, this NMFS policy 
challenges state authority to grant any future water rights for 
municipal, industrial, and irrigation uses, as well as 
attempting to challenge existing state-granted water rights as 
to their effect on instream flows for salmon migration. This 
cannot be allowed to continue, using Federal tax dollars and 
the seemingly infinite overall power of the Endangered Species 
Act to invalidate existing, state-protected water rights that 
tax-paying Idaho citizens have relied upon for their very 
existence for generations, while doing very little, if 
anything, for the endangered fish runs.
    As to the question of H.R. 4335, in my opinion, National 
Marine Fisheries Service is probably doing what U.S. Fish and 
Wildlife Service would do in their stead. The problem is the 
improper use of Federal agency discretion in implementing the 
ESA while ignoring the ``best scientific and commercial data 
available.'' \12\ The power of the ESA is immense, and 
unfortunately, the Federal courts will probably decide what 
will be done under the ESA. In my mind, it is doubtful that 
vesting all ESA responsibilities with the Secretary of Interior 
will effect better results for irrigators and the citizens of 
Idaho. The Secretary of Interior has authority over not only 
the Fish and Wildlife Service, but the Bureau of Reclamation as 
well, which holds in trust many storage and natural flow water 
rights for Idaho farmers. Our concerns about ESA implementation 
would probably escalate if the Department of Interior took 
charge of salmon and steelhead recovery, as interdepartmental 
decisions would take the place of adversarial consultation 
proceedings on the operation of Idaho's Federal storage 
reservoirs under the ESA, putting our water supply even more at 
risk.
    Recently, there has been much talk about removing dams on 
the lower Snake River, as well as talk about drying up many 
Idaho farms to provide additional flow augmentation efforts, 
all in the name of the endangered salmon and steelhead. These 
options, both currently being studied by Federal agencies, seem 
to be the extreme positions, promoting measures that are 
questionable in bringing about the recovery of endangered 
salmon and steelhead runs, but which would carry a great and 
immeasurable cost to our society.
    In my opinion, there is uncharted middle ground that needs 
to be explored before we allow any of these extreme measures to 
be debated. NMFS has ignored improved, ``salmon-friendly'' 
hydroelectric turbines that, if installed at the dams, would 
improve fish passage. Improved transportation efforts, possibly 
past the Columbia River estuary (another variable to salmon 
smelt survival) should be further explored and implemented. 
There is a need for additional study and improvements to in-
river and in-reservoir predation mortality. NMFS cannot tell us 
how many juvenile salmon and steelhead are being killed in the 
reservoirs as a result of predation. Caspian terns at the 
estuary are happily consuming from 10 to 15 million smelt 
annually. Sea lions protected by NMFS attack almost one-third 
of all returning adult salmon in the river, wounding or killing 
many of the endangered adults headed to Idaho to reproduce.
    Finally, real reform in harvest mortality, holding the 
fishermen and tribes just as accountable for salmon protection 
as river users are held in protecting redds (salmon nests) 
upstream on the tributaries. While admittedly not the 
``primary'' cause for salmon and steelhead decline, harvest 
does play a role in decline of these fish stocks. For example, 
under the court-ordered Columbia River Fish Management Plan 
(CRFMP) adopted in 1988, up to 15 percent of A-run steelhead 
and 30 percent of B-run steelhead, both of which are protected 
under ESA, can be harvested legally. Why is NMFS still 
operating under a 10-year old plan for harvest level management 
when they should be more responsible in rebuilding endangered 
salmon and steelhead runs? CRFMP has been the critical variable 
during the last ten years in reducing rather than increasing 
the production of wild salmon and steelhead.\13\ And NMFS is 
party to this court-sanctioned agreement, which puts the agency 
in a box, making it powerless in shaping Columbia River 
fisheries to protect listed fish.
    If any or all of these variables were controlled, made more 
fish-friendly, or changed to reflect current situations, then 
possibly salmon runs would begin to improve without 
implementing other extreme, sweeping changes to the river 
system and the Pacific Northwest so eagerly called for by many 
environmental and fisheries advocates.
    In conclusion, the main focus I want to leave with you 
today is that NMFS and its flow targets/augmentation policies 
are threatening irrigated agriculture's very existence in 
Idaho. The many small communities historically connected to 
those farms, both economically and socially, are at risk of 
disappearing, displacing thousands of people from their homes 
they have owned for generations. Irrigated agriculture is the 
main reason why we have such an abundance of fresh and 
processed fruits and vegetables in our grocery stores today. 
Without irrigation, we would not have the seasonal stability 
necessary to produce sustainable food supplies needed for the 
21st century. Irrigated agriculture, agricultural services and 
food processing are the nation's ``quiet industry,'' steadily 
and reliably producing up to $60 billion annually in Western 
income,\14\ and Idaho's irrigated agricultural industries are a 
large part of this national food source. Allowing a Federal 
agency to abrogate state water laws, undermine a stable water 
supply, and force farmers off their lands using the ESA, with 
little proven benefit to the protected fish, will negatively 
impact our communities and our state, and eventually undermine 
the stability of our nation's food supply. The challenge before 
the Committee today is not necessarily which Federal agency 
should implement the ESA, but how misguided agency discretion 
in implementing the Act can be realigned in order to protect a 
state's right to appropriate and protect its valuable water 
resources for its citizens and its future.
    Thank you for the opportunity to testify before the 
Committee, and I would be happy to stand for questions.
----------
    \1\ The Columbia-Snake River Flow Targets/Augmentation 
Program: A White Paper Review With Recommendations for Decision 
Makers, Darryll Olsen, Ph.D., James Anderson, Ph.D., Richard 
Zabel, Ph.D., John Pizzimenti, Ph.D. and Kevin Malone, MS, 
February 1998.
    \2\ Attachment No. 1, Columbia River Water Flows and 
Targets Analysis Chart.
    \3\ A View on Idaho's Experience with Flow Augmentation, 
Karl J. Dreher, Director, Idaho Department of Water Resources, 
May 1998. Also, see Attachment No. 1.
    \4\ Attachment No. 2, Estimated Economic Benefits of Water 
Use for Major Sectors and Types of Economic Sector Trade-Offs 
(Direct Net Economic Value Estimates).
    \5\ U.S. Bureau of Reclamation, One Million Acre-Feet 
Study, Hydrology and Economics Meeting, Boise, Idaho, July 31, 
1998.
    \6\ U.S. Bureau of Reclamation, One Million Acre-Feet 
Study, Hydrology and Economics Meeting, Boise, Idaho, July 31, 
1998.
    \7\ U.S. Bureau of Reclamation, One Million Acre-Feet 
Study, Hydrology and Economics Meeting, Boise, Idaho, July 31, 
1998.
    \8\ A View on Idaho's Experience with Flow Augmentation, 
Karl J. Dreher, Director, Idaho Department of Water Resources, 
May 1998.
    \9\ Ibid.
    \10\ Ibid.
    \11\ The Columbia-Snake River Flow Targets/Augmentation 
Program: A White Paper Review With Recommendations for Decision 
Makers, Darryll Olsen, Ph.D., et al., February 1998.
    \12\ Endangered Species Act of 1973, Section 7.
    \13\ All Species Review, 1997.
    \14\ Western Irrigation Economic Benefits Review. Irrigated 
Agriculture's Role for the 21st Century: A Policy White Paper 
for Decision Makers, Darryll Olsen, Ph.D. and Houshmand Ziari, 
Ph.D., June 1998.

[GRAPHIC] [TIFF OMITTED] T1600.101

[GRAPHIC] [TIFF OMITTED] T1600.102

       Statement of David Doeringsfeld, Manager, Port of Lewiston

    Implementation of the Endangered Species Act was initially 
carried out with the best of intentions. However, the complex 
and often conflicting requirements of ESA have made it almost 
impossible to produce a fish recovery plan which can be 
implemented and which produces win-win solutions.
    Yesterday, you heard from one of the ports on the Mid-
Columbia River concerning the implementation of ESA by the 
NMFS. I would like to echo some of those concerns.
    Once a species is listed as endangered, the only option 
available is to develop a recovery plan without any regard to 
cost, social or economic impacts. While the people of the 
Northwest want to save anadromous fish, they are not willing to 
do it at any cost, and they don't want to be part of empty 
gestures or false promises for the fish.
    Our Northwest lifestyle is built around the remarkable 
Columbia/Snake River System. The many benefits we receive have 
shaped our communities, our culture and are a vital part of the 
Northwest economy.
    Approximately 90 percent of our region's agricultural 
products are exported. We all rely on the Northwest's unique 
integrated system of growing, processing, storing and 
transporting food for export. Losing one link in the chain 
would have serious effects and our lives would be drastically 
different without it.
    Over 40 percent of all the wheat grown in the United States 
is exported through the Columbia/Snake River System. River 
barges carry essential cargo 465 miles from Lewiston, Idaho, to 
Astoria, Oregon, stopping at 25 ports along the way. This 
extraordinary river system creates a safe river passage and has 
made the Pacific Northwest the market basket of the world.
    Yet today, we have a black cloud hanging over the economic 
future of the Pacific Northwest and NMFS appears to be the only 
agency in charge of whether we will have prosperity or 
disaster.
    When ESA gives a single Federal agency the power to control 
public and private land use, throw out state conservation 
plans, and dictate the amount of water that flows in our 
rivers, common sense would indicate that we have gone too far.
    I believe that we need open discussions in which to develop 
a river governance framework whereby the region retains control 
over ESA implementation. The governors of ID, MT, OR and WA are 
currently exploring river governance options. We are hopeful 
that a broadened Northwest Power Planning Council will be given 
the authority to oversee ESA implementation.
    I don't pretend to be an expert on fish, but if we have 
learned anything by now, it is that there is no magic solution 
to the fish problems in the Northwest. Fish runs all along the 
west coast are in decline, not just the fish that encounter 
dams. The people in the Northwest don't want lose-lose schemes 
like destroying dams or massive flow augmentation, especially 
when its not known whether these efforts would return even a 
single fish.
    When we consider whether transferring ESA enforcement 
responsibilities from one Federal agency to another (as 
outlined in H.R. 4335), it is difficult to ascertain which 
agency would be more effective. Single agency control seems to 
make sense. Currently, we have Federal biologists from NMFS, 
USFWS and the COE all working on fish recovery. Centralizing 
the authority and expertise would provide for a clear mission 
and reduce conflicting goals.
    So here's the bottom line in this whole debate. Along with 
other North Westerners, we want to preserve the things we value 
most about living in the Pacific Northwest--a rural culture and 
strong regional economy capable of supporting families and 
communities for years to come.
    Our dams are a vital link in the structure of the 
Northwest's economy. We have grown to depend on them to provide 
dependable, low-cost power to our homes, deliver our goods to 
world markets, protect ourselves from floods and provide 
recreational opportunities.
    We simply want common-sense solutions that really work. We 
deserve a win-win solution for everyone connected with the 
river--one that allows the fish to thrive, but preserves the 
benefits of our remarkable river system for future generations.
                                ------                                


Statement of Harold G. [Jerry] Klemm, Rocky Mountain, Region President, 
    Pulp and Paperworkers Resource Council and representing United 
               Paperworkers International Union Local 712

    Mr. Chairman, Members of the Committee, ladies and 
gentlemen, my name is Jerry Klemm. I am before you today in my 
capacity as president of the Rocky Mountain Region of the Pulp 
and Paperworkers Resource Council or PPRC. Our over 400,000 
members across the United States are deeply committed to the 
conservation of America's natural resources in ways that 
benefit people and protect the wild community.
    I am alarmed at the building power of small regulatory 
agencies to circumvent and reinvent the law of the land to meet 
very narrow goals established in far less-than perfect 
legislation. What I believe are unintended consequences of 
those narrow goals are not mitigated by that same legislation. 
I do not believe, for example, that the authors of the 
Endangered Species Act knew that the National Marine Fisheries 
Service [NMFS] would use the Act to circumvent individual and 
state water rights in pursuit of their aims. This is especially 
troubling when dealing with issues like flow augmentation where 
the working hypothesis is unworkable. NMFS believes massive 
flow augmentation will help fish. Idaho Fish and Game Director 
Steve Mealey says ``flow augmentation will not recover the fish 
and it places large burdens on vital state interests.'' While I 
don't like Mr. Mealey's solution I do agree that flow 
augmentation is not the answer.
    But flow augmentation is a perfect vehicle for NMFS to use 
to take water rights in an attempt to wrest control of water in 
the west to meet their own ends away from states and 
individuals and use that water. I am not suggesting there is a 
malicious conspiracy at work here to take western water. I am 
saying that a small regulatory agency with veto power over 
Federal, state, and private land management has interpreted the 
law in such a way that the net result is the taking of western 
water without due process.
    While NMFS has been busily engaged following its own narrow 
path, her sister agency in the Department of Interior, the U.S. 
Fish and Wildlife Service, is engaged in its own efforts to 
meet the same ends, but not always by the same means. How 
painful it must be for leadership in these two agencies, both 
charged with implementing and enforcing the ESA, to have to 
work around, over, and through each other and everyone else to 
implement the Act. Their experience and training are often in 
conflict. Their political bosses answer to different drummers 
for different reasons. Their histories and clientele are so 
different. Their veto power and willingness to use that power 
are shaped by their experience.
    I absolutely support H.R. 4335 to consolidate those 
agencies that hold such power over the rest of us. While more 
sophisticated populations in cities far removed from Lewiston 
may think this is much ado about nothing, the time will come 
when they will appreciate what you're trying to do here. The 
first time busy big city mayors go up against Will Stelle and 
the gang they'll realize it was the right thing to do after 
all. Wasn't it Will Stelle who said (12/15/97) ``Science will 
not give us the answers, although many pretend otherwise?'' If 
not science, who? The answer is, Will Stelle and NMFS, 
unbridled by the democratic process or the principles of 
republican forms of governance. Ridiculous, you say? When NMFS 
and the USFWS vote, who may vote them down? When they enforce 
this flawed and often ruinous law, who may veto them? To whom 
are these people accountable?
    The answer of course is that you, Mr. Chairman, and your 
colleagues may ultimately veto those agencies. But you cannot 
prevail against an administration so dedicated to sacrificing 
human and community needs. You, in good faith, enacted this law 
to help endangered species. You could not know that your intent 
would so mutate as to be unrecognizable today from the 
legislation enacted so long ago. Who could foresee the dueling 
agencies and cross-purposes? Who could predict that the 
administration would so cynically use the law to further their 
own dark ends over the very particular rights of individuals 
and states?
    Stelle's recent hostile takeover of the issuance of the 4d 
rule for spotted owl in Oregon demonstrates NMFS cannot be 
trusted to work cooperatively in an administration supposedly 
dedicated to collaboration. It's time to muzzle the hounds and 
bring some management to chaos. It's time to either bind the 
two agencies together or make them one, or, if that's not 
possible, to limit NMFS authority to the ocean and USFWS 
inland. Make the boundary the coastline.
    I'm not a biologist and I don't pretend to have all the 
answers. I do know something about organizing to get something 
done. A prophet said we cannot serve two masters (Luke 16:13). 
I believe him.
                                ------                                


  Statement of Dell Raybould, Chairman, on behalf of The Committee of 
                 Nine, Water District 1, State of Idaho

    My name is Dell Raybould. I am a farmer and businessman 
from Rexburg, Idaho. I was born in Idaho and have lived here 
all of my life. I grow, process, pack and ship Idaho Potatoes. 
I farm in Fremont and Madison Counties, and irrigate my crops 
with River water, including water stored in various Snake River 
reservoirs. I currently serve as Chairman of the Committee of 
Nine, the advisory committee elected by the water users of 
Water District Number 01 to represent the water users and 
advise the watermaster in the affairs of the district. Water 
District 01 is the largest water district in the United States 
comprising 15 thousand water users irrigating 1.2 million acres 
of farmland. I am also an elected director of the Consolidated 
Farmers Canal Co. and a director of the North Fork Reservoir 
Co. owner of Henry's Lake, a private irrigation reservoir known 
world wide for the famous Cutthroat Trout fishery at the 
headwaters of Henry's Fork of the Snake River.
    I am here today to express the concerns of the thousands of 
irrigators, industrial water users, and municipalities that 
depend on irrigated agriculture in Southern and Eastern Idaho. 
Your request for comments on the implementation of the 
Endangered Species Act by National Marine Fisheries Service 
(NMFS) under the authority granted in the Act, and whether 
there is and overlap of activities with Fish and Wildlife 
(USFWS) is difficult to assess. Both Federal agencies have 
their own agenda, and are approaching solutions to the recovery 
of endangered Salmon from their own point of view. USFW has not 
had the responsibility for preparing the Biological Opinion 
that will govern the next phase of the salmon recovery program, 
and yet they certainly have been involved and have an overall 
interest in this matter. NMFS, on the other hand, has been 
charged with developing a recovery plan and they have avoided 
making the tough decision required to protect salmon, but have 
instead shifted from a recovery plan to efforts in seeking 
water for flow augmentation.
    During the past four years the State of Idaho has permitted 
a maximum of 427,000 acre feet of stored water to be taken out 
of the state annually through the state water district rental 
pools. Fortunately most of this water has come from willing 
sellers of storage water. It is important to note that this has 
been accomplished only because of water years providing full 
reservoirs and above average stream flows. The years prior to 
1994 were generally below average water years and no water 
would have been available for flow augmentation under this 
policy adopted by the State Legislature for a five year test 
program that expires at the end of 1999. This has been a very 
expensive and totally unproductive experiment. Currently, the 
BOR is studying the economic impacts of taking an additional 
one million acre feet of Idaho water, to meet flow targets 
which have little or no biological justification.
    We water users are not only concerned about the use of 
water for irrigation, but are vitally concerned about our local 
economies, resident fisheries, and the beautiful recreation 
areas that have been created over the years by our reservoir 
systems. Henry's Lake is a good example of the cooperative 
effort of irrigators in establishing an outstanding recreation 
area and resident fishery. Prior to the completion of Palisades 
dam, Henry's Lake was utilized fully almost every year for 
supplemental irrigation water for the owner canal companies. 
After Palisades came into the system, enough storage water was 
available to allow water exchanges between Henry's Lake and 
other reservoirs on the system. This allowed water to be kept 
at a high level in the lake during the summer for fish and 
recreation with a payback to the exchanging reservoirs the 
following storage season. If an additional one million acre 
feet of water is required for flow augmentation for salmon, 
this water exchange will be limited and offer no stability for 
the resident fishery. This will undoubtedly affect the fishery 
of the entire Henry's Fork of the Snake River and the tourism 
of Eastern Idaho. In a presentation by the BOR which offered to 
address the economic impacts to Idaho of taking additional 
water, down stream beneficial storage exchanges were not even 
considered in evaluating impacts. This is not an isolated 
example of the bias and incomplete evaluation efforts of the 
flow augmentation theory. There are many water based recreation 
areas like Henry's Lake in the state that would be affected to 
some degree by questionable activities of NMFS, USFWS, and the 
BOR. Almost one half billion dollars are being spent by Federal 
agencies each year to study and implement these flawed 
experiments. There has been no willingness to admit that it is 
because of conditions beyond the control of man that the 
recovery of salmon, to the extent desired by sport fishermen, 
Indian tribes, and conservation groups, may not be possible 
without climatic changes in the Pacific Ocean.
    The overall demise of the salmon in Idaho is not due to any 
one factor. There are many contributing factors that have 
diminished the migration and return of the salmon to Idaho in 
numbers great enough to support recreational fishing enjoyed in 
the past. The climatic conditions in the Pacific Ocean have 
been so detrimental in several areas that sustain life to the 
salmon, that minute tinkering with the river system, at huge 
expense to electric rate payers and taxpayers is, in our 
opinion, a tragic waste of time, human resources, and money. 
The loss of the productive food chain in the ocean estuaries, 
the migration of predators from the southern borders of 
California, and the inability to protect both the smolts going 
to the ocean and the adult salmon returning to our rivers from 
these vast numbers of predators, is a far greater cause of the 
salmon problem than the flows through the Snake River system.
    I refer to a recent study by scientists at the Scripps 
Institution of Oceanography, at San Diego, Calif. (Published in 
the Journal of Science, Vol. 281, 10 July 1998) The study 
clearly outlines climatic ocean changes that occurred in the 
mid 1970's and that these changes in ocean conditions are 
cyclical, they have occurred in the past and will occur in the 
future. The major result of these dramatic ocean temperature 
changes has been to shift the salmon populations north into the 
gulf of Alaska. The study states; ``The most spectacular shifts 
upward (to the Gulf of Alaska from Oregon, Washington, and B.C) 
were those of the sockeye and pink salmon''. Again I quote from 
this study concerning the decrease in the availability of 
salmon in the ocean after the 1970's sea surface temperature 
shifts. ``These decreases began well before the onset of the 
regime shift. Catches of Coho and Chinook salmon along the 
southern coast of British Columbia, Washington and Oregon, 
areas in the bifurcation zone of the West Wind Drift, have 
decreased markedly since about 1978. These sharp declines have 
been attributed to changes in the survivorship of young and 
juveniles in the open ocean after the regime shift.'' This most 
recent scientific study reinforces the technical data available 
to NMFS for several years that the 2 degree rise in sea surface 
temperatures in 1977 resulted in major biological changes in 
the ocean including a 70 percent decline in zoo plankton, a 
major link in the natural food chain important to salmon. Yet 
these important scientific facts are being ignored by the 
Federal agencies in favor of tinkering with the river system 
and wanting to ``commandeer'' our precious water supplies.
    Is it any wonder that many in the water community believe 
that the Federal Government is using the Endangered Species Act 
as a vehicle to control Idaho's water? It is obvious that 
experiments such as flow augmentation and dam removal are 
premature at best and probably useless in any recovery process 
until the major conditions conducive to salmon welfare in the 
ocean return to a more normal state. And yet NMFS forges ahead 
with developing programs to use Idaho's water with no apparent 
concern for the welfare of those who use it.
    As to H. R. 4335, transferring the functions of the 
Secretary of Commerce and the National Marine Fisheries Service 
under the Endangered Species Act to the Secretary of Interior, 
I can see no real advantage one way or the other. As one water 
user I questioned said, ``If the cannibals are going to eat 
you, does it matter which pot you are boiled in or which tribe 
does the cooking?'' For my own thoughts on this, I will have to 
say that I have had excellent relations with the Bureau of 
Reclamation over the years. This has to be tempered by the 
present philosophy in the Department of Interior in Washington 
DC. If the regional people in the BOR are left responsible for 
decisions pertaining to our water I would be comfortable with 
the change. If left to bureaucrats in Washington I see no 
advantage in any change.
    In summing up the situation we are facing here in Idaho, 
the Endangered Species Act is not being administered in the 
best interests of restoring salmon runs. It seems that we are 
being stampeded into implementing measures to try and restore 
salmon just for the sake of expediency. For several years 
millions and millions of dollars have been spent trying to find 
the magic bullet that would restore the endangered salmon, when 
the major culprit is oceanic conditions that affect two-thirds 
of the salmon's life cycle. Even though our reservoir company 
has been the recipient of some of the rental money from BOR for 
flow augmentation water, I do not believe that it was money 
well spent by the Federal Government. It certainly can not be 
justified by the results. Nor will removal of the dams on the 
lower Snake accomplish recovery. We have done the augmentation 
test, it failed. There should be no further attempt to secure 
water for flow augmentation. The potential result to local 
economies, resident fisheries, recreation, agriculture and the 
disruption of thousands of lives clearly is not justified by 
the results. The waste of money for no achieved result is 
abhorrent, but it will continue unless Congress reigns in the 
abuses of regulations supposedly granted to these agencies 
under ESA.
    I recommend that your Committee look deeply into the 
funding of this program. Where is the money coming from for 
NMFS to continue these exploratory experiments? Where in the 
BOR budget has the money come from to purchase water? To Rent 
Water? Where in the Endangered Species Act is authority given 
for NMFS to Require BOR to abrogate their bona fide contracts 
with reservoir space holders to acquire this 1,427,000 acre 
feet of water? We don't think they have that right or 
authority. The Fifth Circuit Court of Appeals has ruled that 
ESA cannot require another agency to do anything outside the 
authority specifically granted to that agency in carrying out 
their responsibility under the enabling legislation that 
created that agency. Here we have one agency, NMFS, requiring 
another agency, BOR, to evaluate the possibility of acquiring 
1.427 million acre feet of water from reservoirs that are 
totally subscribed to in bona fide contracts with water users. 
Is this right? Is this the intent of Congress to renege on 
previous commitments?
    Idaho needs its agricultural base, and especially the 
potato industry that creates thousands of jobs, both in 
production and in the processing of the raw product. This 
industry, as we know, it could very well be lost. We need the 
local recreation industry that has flourished around the 
reservoirs that store our irrigation water. Efforts to save 
salmon under the present ESA could very well be the demise of 
our agricultural based economy as we now know it in Idaho.
    The recovery of salmon under the direction of NMFS has been 
an abysmal failure. While they have had nearly unlimited 
resources and the best scientific knowledge available, salmon 
runs have continued to decline. Water District 1, has had none 
of these advantages, but has prepared a recovery plan that is 
guaranteed to show better results than the program NMFS has 
been following. Our plan requires no water out of Idaho, and 
will return more fish the first year than NMFS Programs have 
returned since the Snake River runs were listed. I have 
attached a summary of this plan for your review.
    Thank you for the invitation to testify before your 
Committee. It has been a pleasure to be with you today.

  A NEW PROPOSAL BY SNAKE RIVER WATER DISTRICT 1 FOR RECOVERING SNAKE 
                              RIVER SALMON

    Currently there is no plan for recovering Snake River 
Salmon, although the Federal agencies would like us to believe 
they have a plan and know what they are doing. There is a 
biological opinion prepared by the Bureau of National Marine 
Fisheries (NMFS) that allows 80 percent of the migrating salmon 
to be ``incidentally taken'' by any number of factors including 
predators, dams and fishermen, yet prevents floaters from 
floating certain reaches of the river because there may be 
Redds that may be disturbed by such activities. The rate payers 
and Federal Government have expended billions of dollars on 
activities that were supposed to be directed at preserving and 
enhancing Snake River Runs. None of these activities have shown 
any signs of success. The fact is, the current salmon recovery 
efforts have wasted huge amounts of money and resources in the 
activities of, talking, meeting, tagging, studying, barging, 
paying for dead squaw fish, in addition to the general 
disruption to peoples lives. The millions of hours and billions 
of dollars expended have not, to date, saved a salmon. Perhaps 
it is time that some different approaches be considered. We are 
proposing an approach that is guaranteed to cost less money, 
and have better results than any of the approaches tried to 
date.
    First it is time to at least consider that some of the 
listed species are not recoverable and that they are 
effectively extinct. We wish to use an analogy in offering a 
thesis that needs to be considered, even though such a 
consideration is not politically correct. (We also need to 
recognize that salmon recovery efforts have been driven more by 
than by science.)
    Computer technology has changed rapidly during the past two 
decades. Consequently in the Water District office, we have 
some ancient 8 inch floppy disks, boxes of 5\1/2\ inch floppy 
disks containing software for obsolete computers. We have boxes 
of 3\1/2\ inch floppies from the next generation of computers 
and now we have stacks of CD's. It is easy to tell the 
different kinds of disks apart but, without the labels all of 
the 5\1/2\ inch disks appear to be identical, as do the 3\1/2\ 
inch and the CD's. However, everyone of these disks contain 
digital information designed to do something unique. When these 
disks are read and the information they contain is loaded into 
a computer each of these will enable the computer to perform 
the unique functions the program designer had in mind. From 
time to time we have had disks that did not properly transfer 
information to the computer and, as a result, the intended 
program did not do what it was expected to do. A small amount 
of lost information made the digital code on that disk 
worthless. Recently we had a computer crash. It would not do 
anything, even though every program loaded in the disk memory 
remained unchanged and intact. It was not until we had someone 
who knew how to replace a few specific strings of digital 
information come and replace the lost information that the 
computer would again function properly. There are some things 
we know about computer programs. First, they do not just 
happen. We can call a computer disk anything we want, but 
unless there was intelligent construction of the digital code, 
the label is meaningless. We can copy the digital code from one 
disk to another, but we can not ever expect windows 95 to show 
up on a blank disk, no matter how long we have it sitting on 
the shelf.
    The genetic information contained in the cells of living 
organisms is not unlike the code on a computer disk. There are 
data available that not only support this thesis but appear to 
reflect the long-term loss of genetic information in Snake 
River salmon. Figures 1 and 2 represent some of these data.
    Given the lack of success that has been demonstrated by on-
going salmon recovery activities, perhaps it is time to test 
some different hypotheses. We would propose the following 
hypothesis be tested as part of a plan to recover Snake River 
runs. Hypothesis 1: The level of genetic sophistication, and 
the amount of genetic information contained in the Snake River 
Salmon gene pool was at a maximum in the past and must be 
restored to get fishable runs in Idaho. Genetic information has 
been lost from this gene pool and currently there is inadequate 
genetic information available to recover salmon runs or to 
cause current salmon runs to perform predictably. This loss of 
genetic information was accelerated and exacerbated by 
commercial fishing pressure which started in the 1860's. The 
loss in genetic information can be expected to follow a typical 
geometric decay curve, if there are not intentional, 
intelligent actions to restore the lost information. While the 
data in Figures 1 and 2 may represent a general loss of genetic 
information in all Columbia River stocks, it is likely that the 
loss is exacerbated by distance fish must travel to reach 
spawning areas. Clearly loss of habitat is not proportional to 
the declines in Snake River salmon stocks.
    If a sufficient amount of the genetic information 
originally programmed into the genes of Salmon that caused them 
to migrate up the Columbia and Snake Rivers to spawn and die in 
Idaho has been lost over the past century, all of the expensive 
and extraordinary measures we decide to finance will never 
recover these stocks. The prevailing thinking has led to the 
conclusion that the biggest impediment to salmon recovery is 
smolt mortality. There is a growing belief that if we remove 
dams and get back to a ``normative'' river, smolt mortality 
will be reduced and we will begin to see a resulting increase 
in the number of salmon returning to Idaho. The fact is, that 
if there is not the ``desire'' to return to Idaho runs will 
never recover.
    Proposal to test Hypothesis 1. At the present time the 
majority of the salmon harvested in the world are raised in 
net-pens in the ocean. In order to test the propensity of Snake 
River salmon to return to Idaho, Idaho salmon need to be 
protected fish while they are in the Pacific Ocean. Since we 
know we can raise salmon in ocean pens it seems reasonable to 
incorporate this technology in the current salmon recovery 
efforts. Rather than barging smolts to the estuary and dumping 
them, we propose to collect smolts near Lower Granite and 
transport them to net pens in the ocean where they would be 
maintained for some time to protect them through the vulnerable 
juvenile stage before letting them escape to the ocean. While 
it is likely that there will be some increase in vulnerability 
because of this protection from predators and the artificial 
feeding, overall losses should be significantly reduced by 
protecting the juvenile fish through their period of highest 
vulnerability. If this effort should be successful and the 
number of adults returning to Idaho from this group increases 
it would provide valuable information about ocean losses and 
the genetic pool available for recovering these runs.
    HYPOTHESIS 2: Pinnipeds in the estuary at the mouth of the 
Columbia river are responsible for approximately 50 percent of 
the mortality in returning adult salmon.
    Current data indicate that nearly 50 percent of the adult 
salmon reaching Bonneville dam show injuries attributable to 
pinniped attacks. This does not include a similar number of 
salmon that are killed before reaching Bonneville dam. The fact 
is, if these losses are controlled the number of returning 
adult salmon reaching Bonneville dam should double.
    Proposal to Test Hypothesis 2: Immediately reduce the 
number of pinnipeds in and near the Columbia River estuary by 
90 percent.
    HYPOTHESIS 3: Gill net and tribal fishing on the Columbia 
results in the loss of important Snake River brood stock.
    The gill nets and other fishing by Indian tribes along the 
Columbia result in the continued loss of important genetic 
information necessary for the recovery of Snake River salmon 
and steelhead runs. The ESA has prohibitions against the taking 
of listed species.
    Proposal to Test Hypothesis 3: Place a five-year moratorium 
on all tribal salmon fishing on the Columbia river.
    HYPOTHESIS 4: The implementation of the ESA by the Federal 
agencies is, itself responsible for the continued declines in 
salmon.
    We believe it is clear that the number of agencies and the 
clouded authorities and lack of coordination has done nothing 
but waste money and resources.
    Proposal to Test Hypothesis 4: Congress should immediately 
cut all funding for all ESA activities. Specific, non-ESA 
funding should be appropriated for appropriate agencies to 
implement the specific tests outlined in this plan. Barging, 
hatchery operations and other programs associated with salmon 
production that were in place prior to the listing of Snake 
River runs should be funded by Congress and continued by the 
appropriate agencies.
    We submit that this relatively simple and inexpensive 
recovery plan will accomplish more results, and will provide 
more information related to salmon recovery than all of the 
activities undertaken to date. We also believe that it will 
provide the basis for the enactment of a replacement for the 
Endangered Species Act, which has expired, that will not result 
in the obscene waste of resources we have seen, and may 
actually result in the recovery of an endangered species.

[GRAPHIC] [TIFF OMITTED] T1600.103

[GRAPHIC] [TIFF OMITTED] T1600.104

 Statement of Shawn Cantrell, Northwest Regional Director, Friends of 
                               the Earth

    Good morning Chairman Young and members of the Committee on 
Resources. My name is Shawn Cantrell, and I am Northwest 
Director for Friends of the Earth based in our regional office 
in Seattle, Washington. I appreciate the opportunity to testify 
today regarding implementation of the Endangered Species Act 
(ESA) and to share our views on H.R. 4335, a bill to transfer 
to the Secretary of the Interior the functions of the Secretary 
of Commerce and the National Marine Fisheries Service (NMFS) 
under the Endangered Species Act.
    Friends of the Earth is a national environmental membership 
organization, including approximately 1,500 individual members 
in the three Pacific Northwest states. Our staff and volunteers 
have worked on ESA and salmon related issues in the Columbia 
and Snake River basins for over 20 years.
    I would like to begin my testimony today by commenting on 
NMFS' activities in implementing the ESA, particularly 
regarding development and implementation of recovery measures 
for listed Snake River salmon and steelhead populations.
    Snake River sockeye were listed under the ESA in 1991, 
followed by Snake River chinook in 1992 and Snake River 
steelhead in 1997. Seven years after the first of these 
listings, NMFS has failed to develop a recovery plan for 
restoring these threatened and endangered fish, despite 
requirements under ESA to do so. The only ``plan'' issued by 
NMFS to date has been a series of three biological opinions 
which detail what actions Federal agencies must take to insure 
that operations of Federal dams in the Columbia River basin 
don't create further jeopardy for the listed fish. 
Unfortunately the measures called for in these biological 
opinions are completely inadequate to protect the dwindling 
fish runs from being further decimated. Listed Snake River 
salmon and steelhead stocks continue to decline and in fact are 
in worse shape than when first ``protected'' under ESA.
    Moreover, NMFS has not even enforced the inadequate 
measures which were included in its biological opinions. Among 
the major actions which NMFS has failed to require the Federal 
dam operators to implement include:

        <bullet> meeting the established minimum water flows for the 
        river during the annual juvenile migration seasons;
        <bullet> providing water from upstream storage reservoirs as 
        called for in the plans;
        <bullet> meeting the established optimum river temperatures;
        <bullet> meeting the standards for spilling juvenile fish 
        safely over the dams spillways instead of through the turbines;
        <bullet> keeping the water level of the reservoir behind John 
        Day dam at its minimum operating pool.
    It is in this context that we would like to offer our thoughts on 
H.R. 4335, the ``Endangered Species Consolidation Act.'' While Friends 
of the Earth has been and continues to be extremely critical of NMFS' 
track record in implementing the ESA regarding endangered fish runs in 
the Northwest, we do not feel this bill would improve the results of 
fish restoration activities in the Snake River basin. We are concerned 
that H.R. 4335 would in fact lessen the effectiveness of Federal 
efforts to protect and restore endangered salmon and steelhead.
    If H.R. 4335 were to be enacted, the likely outcome would be to 
further delay development and implementation of a sound salmon and 
steelhead recovery strategy. Recovery decisions and actions would be 
postponed as the Federal agencies undergo a bureaucratic reshuffling of 
responsibilities and staff. This bill would likely push back key 
decisions and actions as Interior Department staff ``got up to speed'' 
on the pending issues.
    In addition, the Interior Department and USFWS have demonstrated 
similar shortcomings to NMFS' in implementing the ESA. Simply shifting 
responsibility from one troubled agency to another would do nothing to 
actually help restore endangered species. The failure by NMFS to 
adequately protect and restore endangered Snake River fish runs is 
indicative of the wider problems within the Clinton Administration on 
ESA. Transferring ESA functions of NMFS to USFWS is reminiscent of the 
adage regarding rearranging the chairs on the deck of the Titanic. 
Friends of the Earth believes that NMFS remains the Federal agency best 
equipped with the staff resources and expertise to oversee the major 
decisions on Snake River salmon runs scheduled for late 1999.
    Friends of the Earth recognizes the concern of some individuals and 
businesses which may currently need to obtain permits for certain 
activities under ESA from both NMFS and the U.S. Fish and Wildlife 
Service (USFWS). There are, however, more effective straight-forward 
ways to address the issue of overlapping management authority than a 
meat ax approach as proposed in H.R. 4335. For instance, Washington 
state has streamlined many of its environmental permitting processes by 
consolidating four separate agency reviews into one overall 
application. Known as JARPA, or Joint Aquatic Resources Permit 
Application, this combined application reducing the duplication of 
effort and unnecessary bureaucracy and red tape faced by individuals 
and businesses while maintaining the distinct authority and 
responsibility of the separate agencies.
    How then can Congress improve implementation of the ESA and efforts 
to restore endangered Snake River salmon and steelhead runs? Friends of 
the Earth offers the Committee several suggestions.
    First, it is vital that Congress ensure that politics not be 
substituted for sound science in developing and implementing a recovery 
strategy for these listed fish runs. The single biggest obstacle to 
restoring Snake River salmon and steelhead has been an unwillingness by 
the Administration and Congress to follow the recommendations of 
countless scientific panels and reviews which have called for phasing 
out technological solutions (such as transporting juvenile fish in 
barges and trucks) and restoring more natural river conditions for the 
fish. The Independent Science Advisory Board's report Return to the 
River is indicative of the emerging scientific consensus which should 
guide the Snake River recovery efforts.
    Second, Congress should hold the Administration to its promised 
schedule to select long-term recovery measures by late 1999. Congress 
can assist by appropriating the full funding needed in Fiscal Year 1999 
to complete the engineering, biological and economic analyses by the 
U.S. Army Corps of Engineers of proposed recovery actions. This will 
ensure that NMFS has the appropriate information needed for the 1999 
decision.
    In addition, as Congress considers how best to improve endangered 
species protection, both in the Columbia River basin and across the 
nation, Friends of the Earth believes an expanded use of tax incentives 
offers an excellent opportunity to make progress on protecting 
endangered species. By granting tax relief to property owners who find 
endangered species on their land, the Federal Government could 
encourage landowners to welcome the discovery of an endangered plant or 
animal on their property.
    The benefits would go beyond individual animals and plants. With 
people willing to report the presence of endangered species, scientists 
would gain a much greater understanding of the true range of their 
habitat and movement patterns. Currently, very little is known about 
the conditions and status of many endangered species on private lands. 
Such knowledge would help improve species recovery plans--often 
expensive undertakings when a species is so close to extinction--or 
help keep other species from reaching such drastically low numbers. As 
a result, taxpayers would save significant money in avoided costs.
    In summary, while we are deeply concerned with the Federal 
Government's lack of action to date to restore Snake River salmon and 
steelhead runs under the ESA, Friends of the Earth believes that the 
best way to improve the effectiveness of Federal agencies is to ensure 
that the 1999 decision on long term recovery measures is made on time 
and is based on sound science.
    Thank you again for the opportunity to present our views, and I 
would be happy to respond to any questions the Committee may have.
                                 ______
                                 

           Statement of Jim Little, Idaho Cattle Association

    Good Morning Mr. Chairman,
    My name is Jim Little and I am representing the Idaho 
Cattle Association (ICA) and the National Cattlemens Beef 
Association (NCBA). I am an ICA Past President, former chairman 
of the NCBA Private Property and Environmental Management 
Committee and I recently completed a three year term as Idaho's 
obligatory member on the Pacific Fisheries Management Council. 
I am a forest grazing permittee with a cattle and horse grazing 
permit in Bear Valley in central Idaho where there are listed 
species that are administered by both the National Marine 
Fisheries Service (NMFS) and the U.S. Fish and Wildlife Service 
(USFWS).
    After glancing at the list of cosponsors for this 
legislation, I can tell it is an attempt to bring some much 
needed common sense into the bureaucratic administration of an 
overly repressive Federal law. It is worthwhile to consider 
whether or not one Federal agency could do the job that two are 
currently charged with. With that in mind, I want to share some 
of my personal examples and some hopefully constructive 
comments on the pending legislation.
    In the late 1980's, the U.S. Forest Service (USFS) did an 
Environmental Assessment on my grazing allotment to address the 
concerns about the spawning grounds for the Snake River Spring 
Chinook Salmon. We cooperated in that assessment and came up 
with a mutually acceptable plan. In 1992, the spring chinook 
was listed by NMFS as threatened and through the consultation 
process with the USFS it was decided that an extensive 
monitoring plan would be put into place to determine whether we 
were achieving the desired results. This was done with a strong 
commitment from the USFS that if it didn't work, then we would 
be removed from the allotment.
    After five years of extensive and expensive monitoring and 
a comprehensive review by the National Riparian Service Team, 
it has been determined that our riparian areas are 
``functioning at risk'' and in an improving trend. Based on 
these requirements, it is estimated that the Boise National 
Forest has spent in excess of $100,000 per year on the three 
Bear Valley allotments. To pay for this, the Boise Forest has 
been forced to use approximately 70 percent of its entire range 
betterment budget among other funding sources. Supposedly, 
range betterment funds are intended for use across the forest 
for improvements directly related to livestock usage with 
traditional projects like water troughs and fencing.
    The bad news is that NMFS refuses to let the Forest Service 
off the hook for this costly monitoring and because the 
monitoring effort is such a deficit operation dollar wise, I 
feel that our future on that allotment is very limited.
    This past spring, the USFWS listed the Bull Trout as an 
endangered species, and just over a month ago the forest 
service had a ``collaborative team'' meeting to look at habitat 
for both the spring chinook and the bull trout. This 
collaborative team consisted of Forest Service officials, 
grazing permitters, representatives from both NMFS and USFWS 
and the interested public. Some observations--the management 
scheme for our allotment is being cast in stone and inflexibly 
applied to a neighboring allotment with somewhat different 
conditions. Even though the bull trout habitat in the Bear 
Valley basin is in good to excellent condition overall, there 
are still some restrictive conditions that will be mandated, in 
my opinion only to satisfy an overarching court decision 
regarding consultation on any new listed species.
    Another bit of information that I learned at this 
collaborative three day team meeting is that the USFWS has not 
been at the table throughout the Governor of Idaho's formation 
of a ``Bull Trout Action Plan'' that was designed to forego 
listing of the bull trout. The reason that they give is no 
money to fund participation in that extensive effort still 
going on by the State of Idaho.
    Some thoughts and concerns that I have with the proposed 
bill H.R. 4335:

    It is my opinion that some of the conflicts with people on 
the ground and the administering agencies are personality 
conflicts and arrogance by the administrators of the Endangered 
Species Act (ESA). In one area I hear people railing against 
NMFS and in another it is the high handedness of the USFWS. In 
preparing for this testimony, I contacted the presidents of two 
other northwest cattlemen's associations. And one thought this 
bill was a great idea and the other did not want to give Bruce 
Babbitt any more power of any kind. I tried to make the 
argument that Secretary Babbitt would not be with us forever, I 
made no headway in changing that strong opinion.
    Idaho was given two seats on the Pacific Fisheries 
Management Council because of our anadromous fish habitat. At 
the present time all of our anadromous fish are listed as 
threatened or endangered so Idaho has virtually no impact 
through the council process in their management. This listing 
has done nothing to help the fish stocks yet and I am becoming 
more convinced that we need a change in the natural rearing 
conditions in the ocean before any appreciable improvements in 
returning fish numbers will take place. When and if that 
happens, everybody will take credit for the improving fish 
numbers. Another area that have some question about is whether 
USFWS has the people and expertise to deal with potential 
listing of ocean species? Pardon the pun but they may be like a 
fish out of water on this complex subject.
    In summary, there are many problems that need to be solved 
in the authorizing language and in the administration of the 
Endangered Species Act. The forest service is whipsawed every 
which way by the ESA in general and they are very uneasy in 
challenging the edicts that come to them from NMFS or USFWS. 
Neither NMFS or the USFWS are authorities in livestock 
management, but they assume that role rather hastily at times. 
One thing for certain, the lowly forest user is the loser.
    Thank you, Mr. Chairman.
                                ------                                


 Statement of Mitch Sanchotena, Executive Director, Idaho Steelhead & 
                            Salmon Unlimited

    My name is Mitch Sanchotena, I am the Executive Director 
for Idaho Steelhead and Salmon Unlimited.
    Idaho Steelhead and Salmon Unlimited was formed in 1984 by 
a diverse group of businessmen, guides, conservationists, 
sports fishermen, and concerned citizens from throughout the 
Columbia River Basin. ISSU is a scientific, educational, 
charitable organization committed to the restoration, and 
protection of Idaho's anadromous resources. ISSU represents 
approximately 2,300 members.
    Before I begin my testimony on the issue of whether The 
National Marine Fisheries Service or the U.S. Fish and Wildlife 
Service is better prepared to deal with endangered Snake River 
steelhead and salmon, I have a statement for Idaho's 
Congressional Members. Idaho sports fishermen are extremely 
concerned by the fact that we were totally ignored by our 
elected Representatives as witnesses for this hearing. Idaho 
sportsmen and especially Idaho anglers are primary stakeholders 
in this issue. To require that Idaho's fishermen be forced to 
go outside the State of Idaho to seek a seat from the Minority 
Party at this hearing begs the question, how concerned are 
either of you about the $90 million a year steelhead fishing 
industry that occurs in Idaho and a potentially equal salmon 
fishery? Idaho sportsman have been leaders in the Columbia and 
Snake River's steelhead and salmon issues since 1984. It's not 
like we just learned there is an anadromous fisheries problem. 
We hope both of you will provide ISSU with an explanation as to 
why you chose to ignore Idaho's sportsmen as stakeholders at 
this hearing.
    If I understood correctly our purpose here today is to 
discuss the question, is the U.S. Fish and Wildlife Service 
better suited to deal with endangered anadromous salmonids in 
fresh water than is the National Marine Fisheries Service?
    NMFS bashing in Idaho is preceded only by President 
Clinton. It's easy to say that NMFS is a bigger part of the 
problem than they are the solution. But the Fish and Wildlife 
Service's track record on endangered species actions isn't much 
better, if any. It would be informative to have a witness from 
the U.S. Fish and Wildlife Service share with this Committee, 
and the Region's stakeholders their views on how to better 
implement the ESA for salmon and steelhead. Presently there is 
such a hodge podge of ESA listings occurring . . . some with 
recovery plans, most without . . . that one hand doesn't know 
what the other is doing. Continuing a piece meal approach to 
ESA recovery . . . even with a singular authority . . . is 
doomed to fail for most species. Singular plans for salmon, 
steelhead, bull trout, sea lions, seals, terns, wolves, eagles, 
and so on, are expensive and poorly coordinated. Add to this 
problem continual intimidation and manipulation by politicos 
and you have a formula for economic destruction and species 
collapse.
    Therefore it makes both scientific and economic sense to 
have a singular entity in authority. Also the time has come for 
multi-species recovery plans. A plan should balance man's and 
nature's needs. It should consider marine mammals in the 
estuary at one end of the Columbia Basin and fishing and 
ranching at the other end. Then make adjustments that provides 
balance to both.
    The legislation you are considering giving authority to a 
single entity has value. It also has risks. Given 
Representative Chenoweth's past reputation on salmon and 
steelhead protection, ISSU questions why this legislation at 
this time? We hope Representative Chenoweth will erase our 
skepticism.
    If transferring ESA authority for steelhead and salmon away 
from NMFS and giving it to the U.S. Fish and Wildlife Service 
is Congress' wish, then some explicit assurance must be 
accorded society that the transfer will result in resolution to 
the declining salmon and steelhead problem. A final version of 
legislation transferring authority away from NMFS should 
contain explicit language directing the new authority to adhere 
to the 1999 decision time line for a final salmon recovery 
plan. Any delay in this decision point is unacceptable. All 
FTE's and all appropriated funding for completion of the 1999 
decision should be transferred as well. It seems to many of us 
it's easier for Congress to manipulate Interior's budget than 
Commerce's and NOAA's budget. Therefore there must be explicit 
assurances in any new legislation that recovery plan funding 
will be provided. If you get all that done, Congress then needs 
to step out of the way and let the managing authority do it's 
job.
    I would like to wrap this up by simply pointing out there 
are already a multitude of laws passed by Congress to protect 
Snake River salmon and steelhead. In the past these fish 
provided economic fisheries from Alaska to Stanley, Idaho. They 
can quickly do so again by just adhering to past laws and 
promises. Obey the laws you have passed and fulfill the 
mitigation promises you have made and you will not have to keep 
burdening yourselves with new laws. Your track record of 
following existing law leaves us with little optimism another 
law on top of the multitude of salmon laws already in place 
will solve the problem for our fishery or for society.
    Thank you, and I will try and answer any questions you may 
have.
                                ------                                


 Statement of DeWitt Moss, on behalf of Northside Canal Company, Twin 
      Falls Canal Company, and Committee of Nine, Water District 1

    My name is DeWitt Moss. I am a farmer from Jerome, Idaho. I 
currently serve as a member of the Board of Directors of the 
North Side Canal Company, a nonprofit irrigation water delivery 
company in South Central Idaho. The North Side Canal Company 
delivers storage and natural flow water from the Snake River to 
165,000 acres of farm land in the Jerome, Idaho area. The Twin 
Falls Canal Company of Twin Falls, Idaho is also a nonprofit 
company delivering storage and natural flow water to 202,000 
acres from the common diversion with the North Side Canal 
Company at Milner Dam. They have requested that I represent 
them on this issue. I, also, am a member of the Committee of 
Nine, the official advisory committee of Water District 01, a 
district encompassing 1.2 million irrigated farm acres above 
Milner Dam on the Snake River. The Chairman of the Committee of 
Nine, Mr. Del Raybould, is presenting testimony to you today 
and it is my intent that the following comments will support 
and supplement his testimony.
    The Endangered Species Consolidation Act, H.R. 4335, 
proposes the ``transfer of functions under the Endangered 
Species Act of 1973 from the Secretary of Commerce to Secretary 
of Interior.''
    Many of us who follow the Pacific Northwest's regional 
salmon and steelhead anadromous fish recovery effort are 
totally dissatisfied, disillusioned, dismayed and disappointed 
with the National Marine Fisheries Service (NMFS) 
administration of the regional recovery program. In the opinion 
of many, it is poorly managed, unduly expensive, unproductive 
and generally unsuccessful. It is unproductive and unsuccessful 
because the NMFS recovery program is focusing on system 
modifications and flow augmentation to produce minor 
incremental improvements of smolt-to-adult return ratios 
(SAR's) or at the other extreme, the removal of dams. It will 
be extremely difficult to, politically and societally, build a 
consensus to remove dams and thereby expose the region to 
extended and divisive conflict. Salmon recovery cannot be built 
only on minor SAR improvements and unproven experiments. 
Today's Snake River salmon and steelhead SAR's are in the 0.4 
to 0.7 percent range. SAR's of 2 to 6 percent are needed for 
recovery. Therefore, an increase of SAR's of somewhere between 
400 percent and 1200 percent are needed to recover the fish. 
Just to maintain survival (avoid extinction) the SAR's need to 
improve between 250 percent and 400 percent. None of NMFS's 
programs hold any promise of meeting the necessary SAR 
improvements.
    This sorry state of affairs exists after 6-10 years of 
intensive focused recovery efforts. The region has spent close 
to $4.0 billion for research, system improvements and foregone 
power costs and the Snake River fish SAR's are continuing to 
decline towards extinction. The annual expenditures for 
Columbia River salmonids are in the $400-$450 million range. 
This compares with the total estimated expenditure of about 
$190 million for all other endangered species throughout the 
entire nation. Since 1984, we have increased Columbia River 
flow augmentation (which includes the Snake River contribution) 
from 3.75 million acre feet to 13-16 million acre feet. Yet, 
fish populations continue to decline. The recovery program is 
admittedly complex and difficult, but we conclude that we are 
not getting any ``bang-for-our-buck''. NMFS (the lead 
organization of the Northwest salmonid recovery program) and 5 
other Federal agencies (COE, BOR, BPA, USFWS, and EPA); 5 
states; 2 nations; 13 sovereign tribes and 60-80 special 
interest group are involved and/or effected.
    No doubt, a daunting endeavor confronts NMFS to consider 
all the parties concerned. Unfortunately, other Federal 
agencies that are involved have not exhibited stellar talent or 
demonstrated experience that is required to successfully manage 
the Northwest's salmonid recovery program.
    Any successful program and its administration will need to 
address and remedy recovery plan deficiencies which include the 
following, but are not necessarily totally inclusive: an 
accepted single recovery plan (there are 3 plans for the 
region; NMFS--1995 Biological Opinion, 1994 Northwest Power 
Planning Council and 1995 Spirit of the Salmon-Tribal); 
competent project management, cost schedule and results 
focused; excessive costs; program redundancy between the 
Federal Agencies, States and Tribes; too many committees; too 
many unproductive meetings; overlapping jurisdictions; diffuse 
responsibility; poorly defined program structure; ineffective 
program management structure; lack of an effective Quality 
Assurance program and Quality Control implementation; little or 
no accountability for program results or costs; poor program 
justifications; and no one in charge. The above deficiencies 
are all exacerbated by poor, untimely or non-existent, 
reporting requirements. It is impossible for Congress to 
meaningfully follow or oversee the recovery program plans, 
results and costs when there is no reporting system.
    There are several actions that we suggest this Committee 
can and should direct the selected management agency to 
implement in an attempt to improve the success of the salmonid 
recovery program; namely:

        1. Begin an aggressive program to eliminate piscivorous (fish 
        eating) predators in the Snake and Columbia River and Columbia 
        River Estuary. The predators include Northern Squawfish, 
        Walleye and Catfish. It is estimated that in excess of 2 
        million piscivorous fish of predation size exist and consume 
        somewhere around 25 percent of salmonid juveniles.
        2. Begin an aggressive program to eliminate avain predators 
        (fish eating birds) in the river system. Caspian Terms (about 
        8,000 nesting pairs) on Rice Island are estimated to consume 6 
        to 20 million salmonid juveniles in the Columbia River Estuary. 
        The Caspian Tern population of Rice Island, one of eight (8) 
        major water fowl colonies in the Columbia River Estuary, has 
        increased 641 percent over the past 12 years. A Double Crested 
        Cormorant colony (6,000 nesting pairs) specializing in salmonid 
        juvenile consumption, has increased in population by 168 
        percent over the past 5 years. In the Tri-Cities area, over 
        35,000 nesting pairs of seagulls were estimated in 1996. In 
        1986, gulls were estimated to have consumed 2 percent of the 
        total spring migration of salmon at one dam, Wanapum. There 
        exist over 20 major dams in the region.
        3. Address the pinniped (Harbor Seals and Sea Lions) marine 
        mammal predation. These mammals now reside in the Columbia 
        River clear to the base of Bonneville Dam. The Snake River 
        Salmon Recovery Team (SRSRT) in 1993 estimated the Columbia 
        River population to exceed 3,500. The west coast pinniped 
        population in 1994 was estimated between 161,000 and 181,000, 
        increasing annually at a 5 to 7 percent rate. They eat, kill 
        and injure the most valuable product of this multi hundred 
        million per year program--returning adults. Some, including 
        SRSRT, have expressed the concern that pinniped predation 
        mortality may be equal to commercial and sport harvesting. The 
        SRSRT in 1993 noted pinniped damage to adult salmonids at Lower 
        Granite ranging from 2 percent to 70 percent.
        4. Screen all diversions of the river systems that could entrap 
        juvenile salmonids. 1997 data show that 28 percent of the 
        diversions are unscreened and 37 percent inadequately screened. 
        This simple mechanical fix should be remedied.
        5. Harvesting of wild stocks must be curtailed and preferably 
        stopped. Harvesting should be curtailed at the Columbia River 
        mouth ``region,'' in the Columbia River estuary and above 
        Bonneville except on fish healthy tributaries and at terminal 
        hatcheries until salmonid recovery is assured. Oregon State 
        University estimates that 80 percent of the fall chinook 
        Columbia River stocks are harvested, including incidental 
        takes. A lesser harvest of other stocks probably exists, but 
        these stocks are in significant, perilous decline. It appears 
        difficult to effectively reduce commercial and recreational 
        fishing when Oregon and Washington fish and game departments 
        rely on fish licenses for funding and NMFS historically 
        promotes and regulates commercial ocean fisheries.
    Lastly, Idaho provides about 2 million acre feet of water annually 
from its rivers and reservoirs for flow augmentation in the Columbia 
and Snake Rivers. The region, at the request of NMFS, has begun the 
process of analyzing the impacts to the Upper Snake River Basin (above 
Brownlee Reservoir) of taking an additional 1.0 million acre feet for 
flow augmentation. The Bureau of Reclamation has been able to meet the 
current Bi-Op commitment of providing 427,000 acre feet annually, under 
a willing seller provision, primarily due to four consecutive good 
water years. However, the provision of an additional 1 MAF annually, 
will undoubtedly cause irrigated land to be removed from agricultural 
production; maybe as much as 500,000 acres, and, more, if back-to-back 
dry years occur. The estimated impacts to lost production and 
communities will be in the several hundreds of millions of dollars. It 
has recently been estimated that the total annual income generated by 
irrigated agriculture in Idaho exceeds $2 billion, or $400 per acre 
foot of water consumption. This additional water will benefit salmon 
recovery minimally, if at all. Some sanity must be restored to this 
program. Otherwise, we in the region may need Congress' assistance to 
terminate this devastating attempt at a major water ``grab'' under the 
ESA.
    I conclude with the following:

        A demonstrated, experienced program manager with a functional 
        program structure, approved unanimously by the 4 State 
        Governors, the Tribal Sovereigns and the Federal Agencies 
        should considered. A detailed audit of the program should be 
        considered to identify the deficiencies of the past 6-10 years. 
        We also suggest that an evaluation and proposed program 
        structure be solicited from the best engineering-management 
        consulting talent that exists in the United States. This would 
        likely prevent us from continuing what many of us perceive as a 
        failed program.
    Before the region today, there exist some 6 different regional 
governance schemes and H.R. 4335 is one. Until some of the program 
inadequacies and deficiencies are addressed we cannot point to any one 
of them as outstanding or preferable. We only note that H.R. 4335 does 
nothing to remove or reduce the many concerns and program faults 
denoted above. A new and unproven management agency, structured like 
the existing agency, offers very little comfort to an Idaho irrigator 
who potentially could lose his water, income and livelihood.
                                 ______
                                 

     Statement of Donna Darm, Regional Administrator for Protected 
     Resources, National Marine Fisheries Service, Northwest Region

    Mr. Chairman, thank you for the opportunity to appear 
before you today. Your letter of invitation suggests I focus my 
testimony on the National Marine Fisheries Service's (NMFS) 
implementation of the Endangered Species Act (ESA), whether 
NMFS' ESA program overlaps or is consistent with the Fish and 
Wildlife Service's ESA program, and whether our implementation 
of the ESA is cost-effective. Finally, you asked for my views 
on H.R. 4335, which proposes to transfer the Department of 
Commerce's responsibilities for conserving threatened and 
endangered marine and anadromous species to the Department of 
the Interior. In my testimony, I will address these issues from 
a regional perspective, since our salmon program in the 
Northwest is a significant part of NMFS' ESA program. I will 
also raise several additional national concerns relevant to the 
proposed transfer of responsibilities.
    Since these hearings are being held in the Pacific 
Northwest, we have focused our comments on NMFS' efforts to 
protect and recover imperiled salmon throughout this region. 
Clearly, Pacific salmon listings have affected almost every 
watershed on the West Coast and the interior Columbia Basin. 
Without a doubt, these listings have a more far-reaching impact 
than previous ESA listings. Salmon listings, proposals to list, 
and associated actions affect almost every ecoregion of the 
West Coast north of Los Angeles. These salmon listings affect 
one of the most precious and precarious resources of the West: 
water. The salmon's life cycle is complex and its migration 
vast. Hundreds of human activities have destroyed salmon 
habitat and brought salmon populations to the brink of 
extinction: timber harvest, farming, mining, irrigation and 
water development, road-building, urbanization, damming, 
dredging, hydropower operations, fishing, fish culture . . . 
the list is quite long.
    As you know, the ESA imposes a number of duties on the 
Secretaries of Commerce and the Interior. Whenever Federal 
agencies take actions that affect listed salmonids, they must 
consult with NMFS or the Fish and Wildlife Service, whose job 
it is to advise whether the Federal action will jeopardize the 
continued existence of the listed species. This determination 
is a complex and difficult one when it comes to salmon because 
the interacting effects of so many human activities threaten 
salmon's very existence.
    In the Northwest Region; NMFS has established a large 
program to help Federal agencies meet this consultation 
requirement. NMFS has reviewed Federal actions as 
geographically broad as the Northwest Forest Plan and as local 
as a scientific permit for a very localized Forest Service 
activity. Since 1991, with the first salmon listings in Idaho, 
NMFS has completed review of several thousand activities. NMFS 
has taken steps to make the consultation process more 
efficient. For example, we encourage Federal agencies to 
conduct ``programmatic'' consultations. That is, we ask them to 
consult with us on broad programs and policies. In this sort of 
consultation, we can jointly develop general principles and 
procedures to apply to individual actions. When individual 
actions are consistent with those principles and procedures, we 
can move very quickly through them. This approach was recently 
upheld by the Federal district court in Western Washington in 
reviewing NMFS' consultations on Northwest Forest Plan actions. 
We entered into a Memorandum of Understanding to coordinate 
consultation on operation of the Federal Columbia River Power 
System that required the operating agencies to submit only one 
biological assessment from which both NMFS and Fish and 
Wildlife Service developed their respective biological 
opinions.
    Simply gearing up to take all of the actions required by 
the ESA has been a tremendous challenge for NMFS. It takes many 
biologists a considerable amount of time to sort through and 
understand the status of individual populations of a species, 
how various actions affect them, and whether the fish 
populations can withstand the impacts and remain viable. To 
help us do our job, since 1991 Congress has increased the total 
NMFS budget for salmon by $16.5 million. This has allowed us to 
increase the regional staff from some 50 employees in Portland 
and Seattle in 1991 to 150 employees spread throughout the 
region today. With the help of Congress, and to be more 
responsive to constituents throughout the region, we opened 
field offices in Boise, Olympia, and Roseburg.
    Over the past twenty years, NMFS has developed a world 
class salmon science program covering a number of areas crucial 
to the Pacific Northwest. Our salmon science program consists 
of a major, nationally-renowned program on fish passage and 
survival research in the Federal Columbia River Power System 
that is absolutely vital to evaluating the effects of Federal 
dams on salmon recovery. That program has been in place since 
the mid 1970s and now consists of roughly sixty scientists. Our 
salmon science program also consists of a major conservation 
biology division which provides the risk assessments that 
support: (a) our listing and recovery programs; (b) habitat and 
chemical contaminations research programs that may be used in 
support of cleanup and restoration efforts for hazardous wastes 
sites by EPA and the Federal natural resource trustees; and (c) 
salmon rearing and fish disease research that is helping chart 
the path for improved hatchery practices in the Pacific 
Northwest. Finally, with funding from the Bonneville Power 
Administration, we have launched a major research effort into 
the ocean and estuarine survival of salmonids to better 
understand the role of ocean and estuarine conditions on salmon 
survival and recovery.
    The success of our salmon science program also can be 
measured in terms of its ability to understand the factors that 
put salmon at risk. We have developed over the last twenty 
years of effort world class expertise to evaluate the impacts 
of differing human activities on the salmon life cycle (e.g., 
dam operations and fish passage; fishing activities; fish 
husbandry; and general pollution of the marine and estuarine 
environment). We are developing state-of-the-art techniques for 
examining the cumulative impacts of various types of activities 
and mitigation measures and indicating the degree to which 
these create a risk to a local salmon population. We can use 
the state-of-the-art science and technology to look at various 
types of impacts and mitigation measures and indicate the 
degree to which risk will be increased or lessened.
    Probably the most difficult task in implementing the ESA 
for a species like salmon is trying to calculate how to 
allocate the conservation responsibility when there are many 
factors that have caused salmon to decline throughout the West. 
All of these factors must be addressed if we want to restore 
salmon. The status quo is literally driving salmon runs to 
extinction, and we must make basic changes in how we approach 
salmon and their habitat if our salmon are to remain part of 
the heritage of the Pacific Northwest.
    To respond to your second request, I'd like to talk about 
coordination between the two Services to ensure consistency. 
Even before coastal salmon stocks were listed, NMFS began 
working with the U.S. Fish and Wildlife Service to ensure that 
Federal agencies, states, tribes and private citizens could 
count on the agencies to be efficient and consistent in their 
responses. For example, the Services worked together on the 
Federal technical team that developed the Northwest Forest Plan 
to ensure it was adequate for all aquatic species, including 
salmon. We also started working with the Fish and Wildlife 
Service after realizing that landowners in Oregon, Washington 
and California were developing habitat conservation plans for 
the threatened northern spotted owl and wanted assurance that 
any plan they developed for owls would address salmon as well. 
To provide landowners with ``one-stop shopping,'' NMFS and the 
Fish and Wildlife Service established a joint office in 
Olympia, Washington, where biologists from both services 
collaborated on the development and review of habitat 
conservation plans. That office was instrumental in developing 
the Washington DNR and mid-Columbia PUD Habitat Conservation 
Plans.
    The Services have taken other actions to be certain we 
implement the ESA consistently and efficiently for Federal 
agencies and private landowners. Some of the more obvious 
actions are our joint regulations and policies on consultations 
and habitat conservation plans. We are issuing a number of 
joint policies for private landowners, including the ``no 
surprises,'' ``candidate conservation agreement,'' and ``safe 
harbors'' policies that give landowners greater future 
certainty when entering into conservation agreements with the 
Services. To make certain our staffs adhere to consistent 
procedures when dealing with the public and other Federal 
agencies, we have issued joint policy and guidance documents, 
such as the Section 7 Consultation Handbook and Habitat 
Conservation Handbook. We have issued a number of other joint 
technical policies such as our artificial propagation policy. 
Whenever one of the Services takes a major action or faces a 
novel situation, we communicate with each other at the regional 
and national level to ensure our approaches to the ESA are 
consistent. We are currently working on future, joint policies, 
like one on can-

didate conservation agreements, that will ensure a consistent 
level of service between NMFS and the Fish and Wildlife 
Service.
    Although NMFS and the Fish and Wildlife Service coordinate 
our activities to provide the same level and kind of service to 
other agencies and the public, each agency brings different 
strengths to the Federal ESA program. Our strengths--NMFS with 
extensive marine expertise and the Fish and Wildlife Service 
with extensive freshwater and terrestrial experience--are 
complementary in the ESA program. Both NMFS and the Fish and 
Wildlife Service implement the ESA on rivers and streams in the 
Pacific Northwest despite clearly divided responsibility for 
different listed species. To take care of listed Pacific salmon 
from their cradle to their graves, NMFS has had to add 
expertise on freshwater ecosystems to its existing marine 
expertise. Although this freshwater expertise and 
responsibility appears to ``overlap'' with the Fish and 
Wildlife Service, it is absolutely necessary to provide a 
coherent service for the people, communities, and industries 
that depend on salmon for their economic and social well being. 
There is no duplication of costs between our ESA programs; in 
fact, NMFS' ESA program is extremely cost-effective.
    Finally, you asked for my views on H.R. 4335, which is your 
proposal to transfer NMFS' ESA responsibilities to the Fish and 
Wildlife Service. NMFS' largest ESA program is for salmon, 
which is where this proposal would have the greatest impact. 
The Administration opposes H.R. 4335 for the reasons discussed 
below.
    The Pacific Northwest is in the midst of a major challenge 
to recover salmon runs that face extinction. Meeting this 
challenge will affect major facets of northwest life: power; 
water resources; fishing; forest and agricultural land 
management; and the like. This region is on the brink of some 
very important decisions on the Columbia River power system. We 
are also gearing up for major re-licensing efforts for many big 
hydropower projects, including some in Idaho.
    The National Marine Fisheries Service is unquestionably 
dedicated to the recovery of salmon in the Pacific Northwest. 
Our leadership of and involvement in many of the key salmon 
efforts is substantial--from the Columbia River Power System to 
the Oregon Salmon Plan to the growing efforts of Washington 
communities to prepare for salmon listings in Puget Sound. The 
challenges associated with joint administration of the ESA in 
this region are significant but resolvable; the benefits of 
shifting salmon responsibilities would be fewer than 
anticipated, while the disruption, confusion, and delays 
associated with the transfer of ESA responsibilities would be 
very substantial.
    That said, we must ask ourselves what problem this 
legislative proposal is intended to solve and is this proposal 
the best solution. Is there concern that other Federal agencies 
and private parties are ``overloaded'' trying to deal with two 
separate Services protecting at least two (but usually more) 
different species? If so, such a transfer might address that 
concern because there would be only a single ESA agency. There 
are other ways to address this concern such as steps the 
Services have already taken, that are not as disruptive. 
Earlier I provided examples of joint consultations, joint HCPs, 
and co-location of offices that has helped provide ``one-stop'' 
shopping services to Federal agencies and applicants. We are 
exploring other administrative ways of coordinating NMFS' and 
Fish and Wildlife Service's ESA programs like joint processing 
of Federal agency actions that affect threatened or endangered 
species, which has streamlined the Corps of Engineers' 
permitting program elsewhere in the country.
    Is the main concern duplication of effort, that is, several 
biologists analyzing the same action? Right now, there is very 
little duplication of effort. The number of biologists working 
on a consultation depends on the geographic scope of the 
action, the number and diversity of species involved in the 
consultation, and the probable environmental significance of 
the action. Right now, if an action affected bull trout, 
chinook salmon, and grizzly bears, NMFS and Fish and Wildlife 
Service would have to assign both fishery and wildlife 
biologists to evaluate the action. With the proposed transfer 
of ESA responsibilities, the Fish and Wildlife Service would 
still require both fishery and wildlife biologists to evaluate 
the action so there probably would not be an appreciable 
reduction in the number of biologists required to implement the 
ESA.
    Some will argue that the main problem is that NMFS is too 
protective of species in its application of the ESA, and the 
best solution is eliminating us from the program. Others would 
argue that we are not protective enough. We respect those views 
as part of the public dialogue associated with the difficult 
task of protecting salmon and clean, healthy water. The 
Administration has said many times, salmon throughout the West 
are in deep trouble, and it is the full range of human actions 
that have put them there. We cannot keep doing business in the 
Northwest the way we have been and expect salmon to survive in 
the wild. The Fish and Wildlife Serv-

ice, with its proud legacy of environmental stewardship, would 
give you the same answer.
    Shifting NMFS' ESA responsibilities to the FWS would create 
confusion and delays that could last for years. I mentioned 
earlier what NMFS has done to prepare for the special challenge 
of managing salmon issues in the Pacific Northwest. It has 
taken us some years to get to a point where we can implement 
our salmon program efficiently. We have gathered a lot of 
expertise on salmon science and salmon management, and we have 
invested a lot of resources to develop working relationships 
with the hydropower industry (public and private) to address 
salmon issues. We now have a good staff organized and equipped 
to administer the ESA to conserve salmon species cost-
effectively. Our organization is fairly simple, our numbers are 
lean, and our people are skilled at their jobs.
    If NMFS' ESA responsibilities were transferred to the Fish 
and Wildlife Service, they would have to repeat what we did--
organize to get the job done, locate and train new staff, find 
space, and request appropriations. In addition to preparing to 
handle salmon in freshwater ecosystems, the Fish and Wildlife 
Service would have to gear up for new marine responsibilities 
based on this proposed legislation. Based on our experience, we 
estimate that they would need a minimum of about 150 new FTEs 
and about $16.5 million in new money just to start handling the 
additional workload necessary to protect Pacific salmon. The 
confusion and delays associated with the transfer you propose 
would create major inconveniences and delays to private 
landowners, fishing communities, and timber interests--all 
whose lives are affected by listed salmon. It would, therefore, 
substantially disrupt ongoing efforts throughout the Pacific 
Northwest in salmon recovery at the worst possible time. If the 
transfer occurs without providing the Fish and Wildlife Service 
the personnel and funding to handle the new workload, the 
difficulties will become much larger.
    Finally, I think we need to examine what the other 
consequences of transferring authority to the Fish and Wildlife 
Service might be. Right now, people engaged in marine fisheries 
only deal with one Federal management agency; transferring ESA 
responsibility will require them to deal with two agencies 
where listed species are involved. Hence, transferring ESA 
responsibility to the Fish and Wildlife Service solves a 
perceived problem for people on land, but creates new problems 
for people who make their living from the sea.
    Would the benefits of this proposal outweigh the 
consequences? As I said, I think the main perceived benefit is 
to other Federal agencies and individuals who work on rivers 
and forests and now must deal with two Services. On the other 
hand, people who earn their living from the sea and now deal 
only with NMFS, would have to deal with NMFS and the Fish and 
Wildlife Service. There are trade-offs to either approach: who 
benefits, who loses? My agency and I look forward to engaging 
the Congress, and the region, on that question.
    Although most of my testimony, up to this point, has 
involved the extensive efforts undertaken by NMFS to meet its 
responsibilities to protect endangered and threatened species 
of Pacific salmonids, H.R. 4335 would reach far beyond these 
troubled species.
    Under the Endangered Species Act, in addition to listed 
salmonids, NMFS is responsible for many other marine species, 
including the Arctic bowhead whale, the Pacific and Atlantic 
humpback whales, the blue whale, the Steller sea lion, the 
Hawaiian monk seal, seven species of sea turtles. Even if NMFS' 
ESA responsibilities were transferred, NMFS and its parent 
agency, the National Oceanic and Atmospheric Administration 
(NOAA), would continue to have significant responsibilities to 
protect and recover these animals pursuant to the Marine Mammal 
Protection Act, the Magnuson-Stevens Fishery Conservation and 
Management Act, the Whaling Convention Act, the National Marine 
Sanctuaries Act, and statutes implementing a dozen 
international conservation agreements, in addition to our other 
authorizing legislation. With respect to whales, sea lions, sea 
turtles and ESA-listed species of marine fish, H.R. 4335 would 
increase, rather than decrease, the need for interagency 
coordination and would give rise to more, not less, duplication 
of effort and expertise.
    Setting aside the issue of salmonids for the moment, NMFS 
and NOAA strongly object to transferring ESA authority to 
Interior since NMFS and NOAA would still have to address the 
relevant ESA concerns in managing marine fisheries, marine 
mammals, and aboriginal whaling that have the potential to 
adversely affect other marine species such as whales, dolphins, 
seals, sea lions and sea turtles.
    To name just a few of the ongoing ESA issues that would be 
made more complicated by enactment of H.R. 4335, the management 
of the Alaskan groundfish fisheries, now handled by the 
Regional Fishery Management Councils and NMFS, must take into 
account the needs of the Steller sea lions. Management of the 
lobster fishery and the gillnet fisheries in New England must 
also take into account the needs of the right and humpback 
whales. So too must management of the salmon gillnet fisheries 
in Alaska and recreational activities in the Hawaiian Humpback 
Whale National Marine Sanctuary must take into account the 
needs of the humpback whales that migrate from Alaska to 
Hawaii. Under H.R. 4335, Interior would be granted much greater 
control over these fisheries.
    Even more significantly, NMFS' national and international 
responsibilities to protect sea turtles from incidental take in 
shrimp fisheries would not go away if responsibility for 
endangered species were transferred from NMFS to Interior, 
since sea turtles are considered ``fish'' under the definitions 
of the Magnuson-Stevens Act.
    As should be obvious, the above issues concerning the 
interaction of marine fisheries and species protected under the 
Endangered Species Act, the Marine Mammal Protection Act and 
the National Marine Sanctuaries Act are all quite 
controversial. NMFS and NOAA have more than two and one-half 
decades of experience in coordinating conservation programs for 
living marine resources. NOAA is the Nation's oceans agency. 
The Department of the Interior could not easily acquire our 
expertise.
    Even with respect to Pacific salmonids, NMFS and the other 
NOAA agencies would have to remain involved in ESA matters as a 
result of our broad ocean fishery resource management 
responsibilities, including the Federal Power Act, the Fish and 
Wildlife Coordination Act, the Coastal Zone Management Act, as 
well as the new requirements of the Sustainable Fishery Act 
that requires the Regional Fishery Management Councils, in 
cooperation with NMFS, designate essential fish habitat, which 
for salmonids at least, will cover much the same river basins 
as are now covered by our ESA programs. In short, even if NMFS' 
current ESA responsibilities were transferred to Interior only 
with respect to anadromous species, NOAA and NMFS would not be 
relieved of work and the public would not have fewer Federal 
agencies to deal with.
    Mr. Chairman, thank you again for the opportunity to 
testify. I look forward to answering any questions you may 
have.

[GRAPHIC] [TIFF OMITTED] T1600.105

[GRAPHIC] [TIFF OMITTED] T1600.106

[GRAPHIC] [TIFF OMITTED] T1600.107

[GRAPHIC] [TIFF OMITTED] T1600.108

[GRAPHIC] [TIFF OMITTED] T1600.109

[GRAPHIC] [TIFF OMITTED] T1600.110

[GRAPHIC] [TIFF OMITTED] T1600.111

[GRAPHIC] [TIFF OMITTED] T1600.112

[GRAPHIC] [TIFF OMITTED] T1600.113

[GRAPHIC] [TIFF OMITTED] T1600.114

[GRAPHIC] [TIFF OMITTED] T1600.115

[GRAPHIC] [TIFF OMITTED] T1600.116

[GRAPHIC] [TIFF OMITTED] T1600.117

[GRAPHIC] [TIFF OMITTED] T1600.118

[GRAPHIC] [TIFF OMITTED] T1600.119

[GRAPHIC] [TIFF OMITTED] T1600.120

[GRAPHIC] [TIFF OMITTED] T1600.121

[GRAPHIC] [TIFF OMITTED] T1600.122

[GRAPHIC] [TIFF OMITTED] T1600.123

[GRAPHIC] [TIFF OMITTED] T1600.124

[GRAPHIC] [TIFF OMITTED] T1600.125

[GRAPHIC] [TIFF OMITTED] T1600.126

[GRAPHIC] [TIFF OMITTED] T1600.127

[GRAPHIC] [TIFF OMITTED] T1600.128

[GRAPHIC] [TIFF OMITTED] T1600.129

[GRAPHIC] [TIFF OMITTED] T1600.130

[GRAPHIC] [TIFF OMITTED] T1600.131

[GRAPHIC] [TIFF OMITTED] T1600.132

[GRAPHIC] [TIFF OMITTED] T1600.133

[GRAPHIC] [TIFF OMITTED] T1600.134

[GRAPHIC] [TIFF OMITTED] T1600.135

[GRAPHIC] [TIFF OMITTED] T1600.136

[GRAPHIC] [TIFF OMITTED] T1600.137

[GRAPHIC] [TIFF OMITTED] T1600.138

[GRAPHIC] [TIFF OMITTED] T1600.139

[GRAPHIC] [TIFF OMITTED] T1600.140

[GRAPHIC] [TIFF OMITTED] T1600.141

[GRAPHIC] [TIFF OMITTED] T1600.142

[GRAPHIC] [TIFF OMITTED] T1600.143


</pre></body></html>
